<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island          FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania                JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California                   ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California                 JO BONNER, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland    
 JOSE E. SERRANO, New York
 PATRICK J. MURPHY, Pennsylvania    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

              John Blazey, Dixon Butler, Adrienne Simonson,
              Diana Simpson, Darek Newby, and Brad Daniels,
                           Subcommittee Staff
                                ________
                                 PART 7
                                                                   Page
 Science, Technology, Engineering and Math Education--Part 1......    1
 Science, Technology, Engineering and Math Education--Part 2......   55
 Office of Science and Technology Policy Fiscal Year 2011 Budget 
Overview..........................................................  107
 National Aeronautics and Space Administration Fiscal Year 2011 
Budget Overview...................................................  189
 National Science Foundation Fiscal Year 2011 Budget Overview.....  423

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ________
         Printed for the use of the Committee on Appropriations




  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
    SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES
                ALAN B. MOLLOHAN, West Virginia, Chairman
 PATRICK J. KENNEDY, Rhode Island          FRANK R. WOLF, Virginia
 CHAKA FATTAH, Pennsylvania                JOHN ABNEY CULBERSON, Texas
 ADAM SCHIFF, California                   ROBERT B. ADERHOLT, Alabama
 MICHAEL HONDA, California                 JO BONNER, Alabama
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland    
 JOSE E. SERRANO, New York
 PATRICK J. MURPHY, Pennsylvania    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
              John Blazey, Dixon Butler, Adrienne Simonson,
              Diana Simpson, Darek Newby, and Brad Daniels,
                           Subcommittee Staff
                                ________
                                 PART 7
                                                                   Page
 Science, Technology, Engineering and Math Education--Part 1......    1
 Science, Technology, Engineering and Math Education--Part 2......   55
 Office of Science and Technology Policy Fiscal Year 2011 Budget 
Overview..........................................................  107
 National Aeronautics and Space Administration Fiscal Year 2011 
Budget Overview...................................................  189
 National Science Foundation Fiscal Year 2011 Budget Overview.....  423


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                ________
         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 56-820                     WASHINGTON : 2010




                            COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington              JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia          C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                       HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana              FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York                  JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York                RODNEY P. FRELINGHUYSEN, New 
 ROSA L. DeLAURO, Connecticut             Jersey
 JAMES P. MORAN, Virginia                 TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts             ZACH WAMP, Tennessee
 ED PASTOR, Arizona                       TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina           ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                      JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island         KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York             MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California        JOHN ABNEY CULBERSON, Texas
 SAM FARR, California                     MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois          ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan          DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                      JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania               RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey            KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia          JO BONNER, Alabama
 MARION BERRY, Arkansas                   STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California                  TOM COLE, Oklahoma
 ADAM SCHIFF, California                  
 MICHAEL HONDA, California
 BETTY McCOLLUM, Minnesota
 STEVE ISRAEL, New York
 TIM RYAN, Ohio
 C.A. ``DUTCH'' RUPPERSBERGER, Maryland   
 BEN CHANDLER, Kentucky
 DEBBIE WASSERMAN SCHULTZ, Florida
 CIRO RODRIGUEZ, Texas
 LINCOLN DAVIS, Tennessee
 JOHN T. SALAZAR, Colorado
 PATRICK J. MURPHY, Pennsylvania    

                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2011

                              ----------                              

                                       Wednesday, February 3, 2010.

          SCIENCE, TECHNOLOGY, ENGINEERING AND MATH EDUCATION

                               WITNESSES

DR. OLIVER HILL, VIRGINIA STATE UNIVERSITY
DR. ELEANOR MIELE, BROOKLYN COLLEGE
    Mr. Mollohan. Good morning. The hearing will come to order.
    Welcome to the first hearing of the Subcommittee on 
Commerce, Justice, and Science for fiscal year 2011.
    Before we begin our initial hearing, a bit of housekeeping. 
I would like to reiterate for the benefit of members of the 
Subcommittee that it is my intention to recognize in order of 
seniority those members present at the start of each hearing 
followed by members in order of their attendance. This 
continues the policy we had in place last year.
    Turning now to today's business, in testimony before this 
Subcommittee last year, it was stated that U.S. graduate 
education in science, technology, engineering, and mathematics, 
STEM, is the model for the world and undergraduate STEM 
education is among the best in the world. However, testimony 
also revealed that K through 12 STEM education in the United 
States is woefully lacking in preparing our students to compete 
and innovate in the changing world economy.
    We learned last year that it is essential for students 
before the age of ten to see themselves as becoming scientists 
and engineers or they will not choose these fields for study 
when they are older.
    Advances in STEM hold the key to the future economic growth 
of the United States and the essential resource on which this 
program will be built is today's children.
    In fiscal year 2010, this Subcommittee added appropriations 
for K through 12 STEM education and STEM teacher preparation to 
the budgets of NSF, NOAA, and NASA with the expectation that 
these funds will be used in part to improve STEM education in 
grades K-6 and that they will contribute to efforts to embed 
inquiry-based instruction in science education. The fiscal year 
2011 budget request continues many of these investments.
    Our hearing is particularly timely given Tuesday's New York 
Times op-ed by Susan Engel of Williams College entitled Playing 
to Learn. In it, she describes an ideal elementary education as 
follows, and I quote:
    ``In our theoretical classroom, children would also spend a 
short period of time each day practicing computation, adding, 
subtracting, multiplying, and dividing. Once children are 
proficient in those basics, they would be free to turn to other 
activities that are equally essential for math and science, 
devising original experiments, observing the natural world and 
counting things, whether they be words, events, or people. 
These are all activities children naturally love if given the 
chance to do them in a genuine way.''
    Achieving this ideal is a key goal of our appropriations 
for STEM education. Today and tomorrow we will hear from 
witnesses who have examples of improvements in STEM education 
that are ongoing. Through their testimony, we will see the 
effects of federal investments and learn more about the 
challenges of improving STEM education and adopting inquiry-
based learning.
    Today we will hear from Dr. Oliver Hill, Virginia State 
University, and Dr. Eleanor Miele of Brooklyn College. Dr. Hill 
has helped improve math achievement for students in the public 
schools of Petersburg, Virginia. His testimony will shed light 
on another point in Dr. Engel's op-ed. She states, and I quote, 
``In order to design a curriculum that teaches what truly 
matters, educators should remember a basic precept of modern 
developmental science. Development precursors don't always 
resemble the skill to which they are leading,'' end of quote.
    Dr. Miele has just written a textbook on inquiry and has 
worked with K through 12 teachers to include inquiry in their 
science teaching and to make effective use of their 
surroundings in New York City.
    Thank you both for coming.
    Following the opening statement of Ranking Member Wolf, we 
will ask each of you to provide a summary of your written 
testimony which we will include in the hearing record and then 
we will go to questions from Subcommittee members.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    I am pleased to join the Chairman in welcoming our expert 
witnesses today on science, technology, engineering, and math 
education starting our hearing schedule for the fiscal year 
2011 appropriations cycle.
    I look forward to working again with you, Mr. Chairman, and 
the rest of the members of the Committee because we have such a 
wide-ranging jurisdiction.
    This is an important hearing. I know that looking at the 
STEM money for higher education grants last year that almost 50 
percent of the STEM money that was appropriated laid on the 
table and no one accessed it. And so the money, that figure 
could be 50, could be 40, again, but a lot of money was 
appropriated and was not used.
    The Committee had a language in their working with Mr. 
Mollohan that we asked the National Science Foundation to look 
at what programs are working around the country in math and 
science and physics and chemistry and biology with young people 
and put together a best practices that can go into every school 
or school district in the country.
    But I think even if you fund the money, if you do not have 
the interest and do not have people pursuing it, you know, and 
so when you look at what has taken place.
    So I think that is one of the problems. How do you create 
the interest? We are graduating fewer physicists, Ph.D. 
physicists today than we did in 1956. And the world has changed 
and physics is awful important.
    And I think it is a big issue and so I appreciate you are 
here for your testimony.
    And I thank you, Chairman, for having this hearing and I 
yield back.
    Mr. Mollohan. Thank you, Mr. Wolf.
    Dr. Hill.

                         MATHEMATICS EDUCATION

    Dr. Hill. Thank you, Mr. Chairman.
    And I would like to thank the Committee for this 
opportunity to speak to you today. I do think this is an 
important topic.
    I am the principal investigator on two grants from the 
National Science Foundation to Virginia State University that 
are studying innovative approaches to improve the mathematic 
performance primarily of minority students in the local 
Petersburg school district. We know that a mathematics 
background and competence are the primary gatekeepers to a STEM 
career.
    When we started working with the Petersburg district in 
2007, it was the lowest performing school district in the 
State. None of its schools were accredited. And by 2009, all 
but two of the schools were fully accredited and those two 
missed it by just a few points. We expect all to be accredited 
this year.
    On standardized mathematics performance, the two schools we 
worked directly with had 127 percent and 74 percent increases 
in scores respectively.
    Our project was not the only thing at work here. For one 
thing, they hired a new dynamic superintendent, which had a big 
impact on the district. But our research indicated the dynamic 
effect our interventions were having on the students.
    The project involved training teachers in the innovative 
pedagogy the Algebra Project and organizing the community 
around support for the schools.
    The Algebra Project curriculum was developed by Dr. Robert 
Moses, who was a recipient of MacArthur Genius Award. The 
pedagogy helps students connect abstract mathematical 
principles to their every-day language and experience.
    The Algebra Project approach also relies heavily on 
community involvement. With their help, we are in the process 
of developing what we are calling a K through 16 model with 
Petersburg and the University with the idea that we need to 
make contact with students early and often starting at the 
kindergarten level and grooming them toward a STEM career.
    This relationship involves programs like dual enrollment 
courses, providing math and science grad students as teachers, 
providing college students tutors, and providing services to 
students through involvements of departments like psychology, 
sociology, and nursing because many of the problems that these 
kids face are not academic issues.

                           COGNITIVE TRAINING

    One of the most innovative aspects of our project is 
testing the impact of cognitive training on the mathematics 
performance of students. Students coming from low socioeconomic 
status backgrounds and even many with middle-class backgrounds 
often lack the capacity for abstract thinking required for 
success in higher level mathematics and science courses. This 
is a major barrier to pursuing STEM related careers.
    These deficiencies are usually addressed through content-
based remediation and tutoring programs, but there have been 
numerous studies documenting the failure of these types of 
content-based interventions to have meaningful impacts on basic 
skill development or educational achievement, particularly 
among minority students.
    The approach of direct cognitive training represents a 
unique method of developing the underlying thinking skills 
needed for success in STEM. This approach is not the usual 
teaching of critical thinking skills which represent fairly 
high level cognitive processing, but rather builds the basic 
architecture of cognition by training basic cognitive skills 
such as processing, speed, attention, and working memory.
    At one time, it was thought that these kinds of skills were 
set by the time that one reached adolescence, but we now know 
that these skills are malleable even into adulthood.
    We have been using the procedures developed by an 
educational firm called Learning RX which runs cognitive 
learning centers around the country. The data collected in 
these centers over the last few years has indicated tremendous 
gains of three to four grade levels in reading and other 
cognitive skills after only 15 weeks of a fairly intense one-
on-one intervention.
    We are testing whether meaningful results can be obtained 
using an on-line version of this program that can be 
administered in groups, which would be much more practical in a 
school setting. Our initial data looks very promising.
    This approach has the potential to revolutionize education 
in general and STEM education in particular. We think it 
addresses one of the primary development problems that block 
success in mathematics and science classes, that is weak 
cognitive skills.

                           THE ROLE OF HBCUS

    I teach at Virginia State University which is a 
historically black university and I want to speak for a moment 
about the role that HBCUs can play in addressing the under-
representation of minorities in STEM careers.
    HBCUs have the students who could fill those majors. VSU 
loses literally hundreds of potential STEM majors each year 
because of difficulties with math. We need to focus more 
research dollars to investigators at HBCUs to develop promising 
interventions to attract and hold minority students in STEM 
majors.
    Initiatives targeted to HBCUs at funding agencies like NSF 
and NIH need to receive greater support. And if I could build 
on what Mr. Wolf was saying, one of the difficulties at largely 
teaching universities like HBCUs is kind of a catch 22. You 
have to have the publication record. You have to have the time 
to put on research in order to attract the federal dollars. We 
need to have more innovative programs that allow particularly 
young investigators at the HBCUs to have the time to devote to 
both developing a research program and being able to write 
competitive grants that would be funded by agencies like NSF 
and NIH. But the human capital is there both in terms of the 
investigators and in terms of the students that could be 
impacted.

                            EDUCATION CRISIS

    Finally, I would like to say the crisis in STEM education 
is but one facet of the larger crisis in education that we face 
as a nation. We know what quality education looks like. We can 
look at the curriculum of the best schools in any city.
    And in Richmond, we have a school, Maggie Walker Governor's 
School, which is one of the best in the nation. If you look at 
the kind of rich programs they provide, this is the kind of 
curriculum that all students should be exposed to. Yet, for too 
long, we as a nation have said it was okay for millions of our 
students in inner cities and poor rural communities to receive 
substandard education with watered-down curricula and poor 
instruction. This is human capital we cannot afford to 
squander. It could represent untold resources for our country. 
We need to take the position that quality education is a civil 
right for all children in this country and we need to develop 
the political will to make that a reality.
    So I will be happy to supply more details of any aspects of 
the interventions I mentioned during the period of questioning. 
And, again, thank you for this opportunity.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Mollohan. Thank you, Dr. Hill.
    Dr. Miele. Good morning, and thank you for this opportunity 
to speak to you all today.
    I just want to start out by saying that I concur--am I not 
on?
    Mr. Mollohan. Is the light on?
    Dr. Miele. The light is on.
    Mr. Mollohan. Maybe you should pull it a little closer.
    Dr. Miele. Closer to me. Let us try that. Let us make sure.
    Mr. Mollohan. Maybe it is not going to come closer.
    Dr. Hill. I think your cord is stuck.
    Dr. Miele. May I? That one gives feedback. Now you can hear 
me?
    Mr. Mollohan. Yeah, I can. Is this one not working at all?
    Dr. Miele. This one is not apparently working.
    Mr. Mollohan. Okay.
    Dr. Miele. But we can share.
    Mr. Mollohan. Dr. Hill, can you pull that cord over a 
little bit. Put you to work here this morning. Just pull it 
over toward her, I think.
    Dr. Miele. There we go.
    Mr. Mollohan. Our senior senator in West Virginia, Senator 
Byrd, has a common joke almost every time you speak out in 
public on the campaign trail, the sound system does not work 
and talks about our being able to do lots of things, but not a 
good sound system. I think we had a good sound system.
    Dr. Miele. Okay. Now we are on.
    Mr. Mollohan. Yes.
    Dr. Miele. And it is in front of me. So I wanted to start 
out by saying thank you. I concur with everything that Dr. Hill 
said.

                         DOING SCIENCE--INQUIRY

    Science and math are intimately connected and the skills 
really can be developed in very much the same way. They need to 
be practiced. And we have known for over a hundred years that 
the best way to teach young people science is to allow them to 
do science. John Dewey pointed this out to us and it has been 
the right of every privileged student in private school to have 
constructivist education and to be doing science. It just has 
not happened in public schools.

                     DRIVERS OF CURRICULUM CHOICES

    One of the reasons, I believe, is because the culture in 
public schools is very divorced from the culture in higher 
education. Research is usually not what drives choices. And I 
actually did not say that in my original testimony, but it 
became very clear to me listening to Dr. Hill that that is 
something we need to think about.
    The choices that are made of curriculum are done at the 
local level and they are decided mostly by teachers and 
parents. The teachers that teach elementary school science are 
not scientists, and they tend to want to teach the way they 
were taught. And they were taught by direct instruction and 
memorization and that is what they fall back on.
    When elementary school teachers are taught to use inquiry 
it is what they want to do, but very often their principals 
will not allow it. The principals are concerned that wasting 
time figuring out how we know what we know will keep them from 
learning enough and will affect standardized test scores and 
make the school look like it is not performing well.

                INQUIRY-BASED INSTRUCTION AND EVALUATION

    It is ironic that some of the classroom where inquiry is 
allowed to happen are the special education classrooms. And I 
actually heard reports of schools where the special education 
students outperformed the general education students on the New 
York State Assessment of Science Education.
    New York State pioneered using an inquiry-based test. Part 
of the test is a practicum. Students have to read instructions 
and carry out an investigation, collect data, and analyze the 
data as part of their fourth grade and eighth grade 
assessments. And very often these children who have been given 
the opportunity to do science because no one thought they could 
learn it, actually scored higher in it. That was quite an eye-
opener for me.
    I also spent some time when I joined the faculty at 
Brooklyn College looking at the scores of some schools that had 
been pointed out to me as having adopted NSF-funded curricula 
and having not just adopted them by buying them but having 
adopted them by training every teacher to use them and 
insisting that they were used. In those schools, even though 
they often had minority student populations of over 95 percent 
and significant numbers of Title 1 entitled students, those 
students were performing at the highest level in math, science, 
and English language arts.
    It is not surprising to me. When you get to do science, you 
have to write about it and you have to talk about it. Your 
language skills are developed. Your logic skills are developed 
and you have to use mathematics to do it well. So it is sort of 
a fundamental way to integrate all of the basic scholarly 
skills.
    I speak, of course, as a scientist, but I believe that 
scientists also need to write and communicate clearly and, in 
fact, some of us do not because when we are not trained in an 
inquiry way and we have to answer multiple choice tests, the 
way the average undergraduate college science student does, you 
can graduate without being able to communicate.
    So the FOSS and SCIS curricula which were developed 
actually in the 1970s following the initial push to improve 
science education in the U.S. during the space race are 
excellent curricula for getting results, having children learn 
how to do science.
    I have had a situation where two of my students taught the 
same SCIS lesson to two elementary school classes, one a sixth 
grade class, one a second grade class, the second grade class 
had used SCIS since kindergarten and they outperformed the 
sixth grade class far and away. So the take-home message again 
is, as Dr. Hill said, you have to do this early. You have to do 
it often.
    Jerome Bruner pointed out to us a long time ago that a 
spiral curriculum in which children return to key science ideas 
repeatedly over the years as developmentally appropriate is the 
best way to build a foundation for advanced science learning in 
high school and college.
    Okay. Unfortunately because these curricula have not been 
adopted city-wide, we still have a situation where the average 
middle school student is just not prepared to do inquiry. But, 
as Dr. Hill said, it is never too late.

                          STEM CAREER CHOICES

    In my own classes for early childhood and childhood 
education, these are young people that did not decide to be 
scientists, they decided to be educators, they are afraid of 
science, they are afraid of math. I can see a transformation in 
15 weeks from people who were afraid of science and basically 
have remembered nothing from their high school careers to 
people who embrace it as something that they can do and that is 
worth doing and that they can lead young people in doing.

                    BREAKING THE CYCLE OF NO INQUIRY

    I have seen this. I have been doing this for 16 years. It 
is not likely to change, but I do know that when these young 
people go out to the schools, if everyone else is teaching 
using direct instruction and a textbook, that is what they will 
do.
    So how can we break that cycle? We know what to do. We just 
do not know how to get it done. The National Science Standards 
have helped. They have established an understanding throughout 
the science education community of what best practice looks 
like. I would like to see that actually--I would like to see it 
happening in higher education as well. I will hopefully have it 
when we talk about that later on.

                         EFFECTS OF NSF FUNDING

    But let me say something about what some NSF money has done 
to Brooklyn College. Funding to my predecessors there for the 
Brooklyn plan paid for the development of a series of inquiry-
based science classes. One of them is called Biology and 
Chemistry of Every-Day Life. We have one in geophysics. We have 
one in paleobiology. We have one in environmental science. It 
gives the students some choice. They take these classes learn 
to think like scientists.
    They also have to take the core classes in gen-ed which are 
direct instruction. Very often when they come into their 
inquiry classes, they do not remember much from their direct 
instruction classes.
    We have begun a systematic evaluation program over the last 
five years where students complete course evaluations on-line 
and the results for all departments are open to the entire 
community.
    What I found when I took a look at these results was that 
students who have taken an inquiry-based class answer the 
question, how much ability to analyze and solve problems have 
you gained, at a level of about 51 percent saying they have 
gained a lot. This compares rather unfavorably to the answers 
of students in geology, physics, chemistry, and biology where 
one would expect students to learn the ability to analyze and 
solve problems. In those departments, between 16 and 29 percent 
as opposed to 51 percent say they gained a lot of the skill. I 
think this is rather a good indication that the students 
themselves have realized that they are learning to analyze and 
solve problems in inquiry-based instruction.
    When asked how much ability to find and use information on 
your own have you gained, we see similar results. Let me see if 
I have my exact numbers here. Fifty-three percent in general 
science, and we are talking about 800 to 1,000 students 
answering this question each semester, compared to 21 and 26 
percent of students in traditional science classes. That 
includes incidentally undergraduate and graduate students in 
both cases.
    So what we see is that what we are trying to do is teach 
students to think independently and how to solve problems. And 
they say that that is what we are doing.
    In addition, students in these classes say that they have 
gained a lot of ability to effectively communicate which, of 
course, teachers need to do, but so do scientists. If 
scientists are going to be able to get their message across to 
the American public, they need to be able to communicate 
clearly.
    So we see that more than twice as many students are saying 
that they have gained a substantial amount of these skills. 
This happens because their learning is active, not passive. One 
student said this course is interactive. You do not fall asleep 
listening to a lecture for three hours. Also you learn better 
when you are doing science rather than what you call learning 
about science.

                         USING LOCAL RESOURCES

    I would like to move on to some of the work that we have 
been doing more recently with graduate students. About ten 
years ago, I reached out to the American Museum of Natural 
History. We had a crisis of materials for learning science in 
New York City. And the American Museum of Natural History has 
perhaps one of the most amazing collections of real things in 
the world. It was right there and none of our students were 
getting to use it to learn. And our teachers, many of whom come 
from other cities and other countries, were not even aware that 
it was there.
    So I said any teacher educated in New York City should know 
that this resource is here and know how to use it to teach the 
young people in our city. And Mertz McDonald, who was then the 
Director of Professional Development, agreed with me and opened 
her doors. She agreed to let our teachers come in after the 
museum was closed and use the halls. And it was quite an 
amazing experience.
    As a result, we developed a course, Science Beyond the 
Classroom. And as a result of that as well, the Wildlife 
Conservation Society, also known as the Bronx Zoo, called me 
and said we would also like to have your teachers come and 
learn with us.
    Similar to our other courses, our students respond that 
they have gained a lot or a fair amount of ability to solve 
problems and gain information. In the case of our most recent 
course with the zoo, the total numbers in those two categories 
were a hundred percent for both. I think that is sort of 
exciting.
    But what we found out when we evaluated the programs was 
that principals were not allowing teachers to take their 
students to the Museum of Natural History or to the zoo. They 
thought that was not instructional time. That was for June. 
That was for fun. That was a reward.
    Luckily we were able to show the City Council that there 
was value in this crazy idea of taking kids to the zoo and 
taking kids to the Museum of Natural History. And they funded a 
project called Urban Advantage.
    Urban Advantage invites teachers to come to seven major 
institutions in New York for training in how to teach using the 
resources of these institutions. They include the zoos, the 
botanical gardens, New York Hall of Science, New York Museum of 
Natural History, and Staten Island Zoo. We go out to the outer 
boroughs too.
    And what has happened now is the principals have learned 
that this is actually a good teaching tool. They are getting 
very good resources. Families have learned that their children 
are excited about learning at these places. And the culture is 
beginning slowly to change. So that is very exciting.
    I believe that the museum has actually reached out to a few 
other major cities and some places are talking about doing 
similar projects. That is moving along. So systemic change is 
slow.

                  EXIT PROJECTS AND STUDENT ASSESSMENT

    Another very important thing for us was the idea of exit 
projects. New York City adopted a requirement that every middle 
school student must complete an exit project either in social 
science or natural science. The exit project has to be an 
individual research project. It can use literature research, 
secondary research, or individual investigation.
    For the first year, I must say the results were somewhat 
disappointing. A panel of scientists did not find them to 
reflect the processes and procedures and communication methods 
of science. But with a little feedback, we developed what is 
called a rubric. I do not know if you are familiar with the 
idea of a rubric, but it defines what excellent practice looks 
like for every aspect of a project from the forming of a 
hypothesis to the collection of data to the literature research 
to analyzing your results and representing it using graphs and 
charts as appropriate.
    So what we have done is broken down the various skills and 
said what poor practice looks like, what poor performance looks 
like, what intermediate level performance and what exemplary 
performance looks like. It breaks the secret.
    There was a time when a good student was a student who knew 
the secret of what the teacher was looking for. By making the 
secret open, we make it possible for every student to achieve 
excellence and students will. Actually, one student commented 
that with a rubric, you have no excuse for not doing well in a 
course. So I am excited about that change as well.

                         NEW COURSE DEVELOPMENT

    Our new courses for graduate students have been funded by 
New York State Education Department and by New York City 
Department of Education. Over the last three years, we have 
been training our Earth science teachers, and I should say that 
this is also with NSF funding, through the geoscience education 
grant. We received funding to develop a new teacher education 
program of 30 credits that brings together geoscience and 
education linking content and pedagogy in every course. This 
requires, of course, that the Geology Department consider this 
a priority, and we have been very lucky to find that the 
Department was willing to be a partner with us.
    In one of our first courses, developed with NSF funding, we 
found that 45 percent of students responded that they had 
gained a lot of ability to analyze and solve problems as 
opposed to 16 percent overall for the Geology Department. For 
55 percent, they gained a lot of ability to find and use 
information on their own.
    So we have been able to change the culture of graduate 
study in the Geology Department and, in fact, the Department 
has received funding through NSF to revise their undergraduate 
curriculum as well.
    So one department at Brooklyn College has said inquiry-
based instruction is not just right for K to 12, it is the 
right way to approach graduate and undergraduate education for 
teachers and for all of our students.

                    HIGH-STAKES STANDARDIZED TESTING

    Okay. I just want to say a few things about some other 
barriers to the use of inquiry in K to 12 and that is high-
stakes standardized testing.
    New York City and New York State have begun to change how 
they evaluate students, New York City with the eighth grade 
exit project, New York State with a high-stakes exam that looks 
at both objective testing as well as a practicum. However, for 
the most part, these tests are expensive. They are difficult to 
grade. They require each student's test to be individually 
graded. And I think that it would be very helpful if we had 
very good, well-normed tests that actually looked at inquiry-
based learning and science process skills as well as the tests 
that we currently have which are looking at which facts you 
have memorized. That is the lowest level of knowledge according 
to Ping's Taxonomy of Learning, the highest level being able to 
analyze and evaluate material as opposed to just recognizing 
that it is right.
    One method that might be very useful to develop would be an 
electronic concept mapping assessment. Concept mapping was 
developed by Novak at Cornell University to look at how 
students learn biological sciences. It is now used routinely in 
many classrooms to help students organize their understanding, 
and there are electronic concept map programs that allow us to 
see what students can do. It should not be that difficult for a 
good computer programmer to turn this into a high-quality 
assessment.

                  INCREASING UNDERGRADUATE STEM MAJORS

    Okay. And one more thing in response to the comments that 
were made earlier about undergraduate science education. One of 
the things that we have discovered at Brooklyn College, again 
with funding from the National Science Foundation through a 
STEP Grant, we discovered that students who did not think they 
wanted to be science majors but who were good at science and 
math as high school students could be redirected to a major in 
science, including a major in physics, if their freshman year 
course work was well supported, including social support as 
well as academic support.
    So what we have done is we have created learning 
communities where students learn about career opportunities in 
the sciences that they are not aware of as they come into 
college. And they also work with peers in peer-assisted 
learning to practice the skills that they need to be successful 
in their courses.
    What we found is that over half of the students who were 
participants in the freshman year choose a major in one of the 
STEM fields even though it was not their original intention. We 
also find that we are retaining virtually all the students who 
choose a science major. And that is unusual. Usually you lose 
more than half of students because of the rigors of the 
freshman year course work that they are not prepared for.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Mollohan. Well, thank you both.
    Dr. Hill, why don't you bring that back?
    Dr. Hill. Okay.
    Mr. Mollohan. Is this just absolutely not working? It 
sounds like it might be.
    Dr. Hill. It probably needs to be closer.
    Dr. Miele. Can you hear? No, it is not working.
    Mr. Mollohan. Okay. Well, we are not far apart, but we need 
it. Is it working? Okay. If you speak closely. And, 
unfortunately, this is so tight that it cannot--okay. I hate 
fighting with this.

                           COGNITIVE TRAINING

    But, Dr. Hill, you talked about a reference, cognitive 
training.
    Dr. Hill. Right.
    Mr. Mollohan. I would like for you just to talk about that 
a bit for the Committee, give us a better understanding of what 
cognitive training is----
    Dr. Hill. Okay.
    Mr. Mollohan [continuing]. And how it----
    Dr. Hill. And I also would like to contrast that with 
tutoring which is the usual approach to, you know, remediating 
things like math skills.
    So cognitive training, first of all, is not instruction. It 
is actually trying to build the underlying cognitive 
architecture in the student, so you can take a task, there is a 
famous task in experimental psychology called the Stroop Task 
where you have letters, I mean, I am sorry, words that spell 
out color names, but the ink of the color could either match 
the color name or could be incongruous with the color name.
    You can use that kind of task to teach attention. They have 
to attend to either the color of the ink or what the word is 
saying. You can use that task to train processing speed because 
as they master a certain skill level, you can cause them to do 
it in a shorter amount of time.
    And so you can take any kind of task like that and use it 
to train processing speed, memory. You can give them distracter 
tasks. They have to now have divided attention, sustained 
attention, selective attention.
    But basically what we are talking about is building the 
underlying structures of cognition that then allow you to have 
kind of a framework to place abstract concepts like higher 
level mathematics, for example, or even processes like critical 
thinking skills. It is like you need some basic architecture 
underlying that in order for it to work.
    And this is kind of an innovative approach, but when I 
first encountered the data from this Learning RX organization, 
I was just stunned at the kind of changes they were getting in 
15 weeks. You mentioned 15 weeks too. That seems to be kind of 
an interesting number.
    But what we are looking at is the transfer that this kind 
of training has to things like learning math. And we are 
finding that even measured with imperfect measures like the 
standards of learning test in Virginia that we get tremendous 
increases after one semester of these kinds of interventions.
    Now, the problem is in the past, these kinds of 
interventions have been one-on-one, kind of in a clinical 
setting almost. And so we are trying to find ways to broaden 
that so that you can have group administration on a computer 
that is not going to be as efficacious, but we want to see if 
it is good enough, you know, if we can still get some 
significant results with that because that would be much more 
practical in an educational setting.
    Mr. Mollohan. Intervention sounds like a remedial process. 
Does cognitive training happen the way you think it should 
happen and when you think it should happen?
    Dr. Hill. Well, it is remedial in the sense that I guess if 
a person grew up in an enriched environment where they were in 
a home where there were many books around and they were having 
conversations with their parents, these kinds of cognitive 
skills would tend to develop naturally.
    You are talking about kids who come from homes where there 
might be one or no parents around, where their nutrition is 
inadequate, they get no stimulation, no supervision sometimes, 
and so they are not developing these kinds of skills.
    Mr. Mollohan. Yes. What I heard you saying is that the 
examples that you were alluding to happened after a period of 
time when it would have been good to lay this cognitive 
foundation, this framework that you are talking about.
    And so what I am really asking is, how should it happen, 
unless I am misunderstanding what you said----
    Dr. Hill. Well----
    Mr. Mollohan [continuing]. How should it happen in the 
normal educational process and when?
    Dr. Hill. Well, normally these kinds of processes would not 
be directly dealt with in education other than in the kind of 
inquiry-based learning that we just heard about, which do tend 
to develop thinking skills.
    But what we are saying is that if these skills are not 
there, it is not that there is some critical period that they 
have to be developed. And even in adulthood, you can start to 
train these skills and get those kinds of results.
    So this has been very encouraging that even if a kid comes 
from an impoverished and stimulus-poor environment that at the 
middle school level or at the high school level, it is not too 
late to have these kind of interventions.
    Mr. Mollohan. And that is what I meant when I said that it 
sounded like you were describing a remedial process. And by 
that, I meant a process of intervening at a later time in the 
educational process and just forgetting for a second what 
socioeconomic background somebody comes from.
    Dr. Hill. Right.
    Mr. Mollohan. Are you suggesting that the educational 
system should be laying that framework down in the educational 
process at some point----
    Dr. Hill. Yes, from the beginning.
    Mr. Mollohan [continuing]. In a child's development? Okay.
    Dr. Hill. These kind of inquiry-based methods of 
instruction.
    Mr. Mollohan. And, I mean, we are talking pre-K?
    Dr. Hill. Pre-K.
    Mr. Mollohan. We are talking kindergarten, we are talking--
--
    Dr. Hill. Yes.
    Mr. Mollohan. Okay. Is that happening----
    Dr. Hill. No.
    Mr. Mollohan [continuing]. Anywhere?
    Dr. Hill. Well, apparently it is happening some places. In 
Brooklyn, yes. But in general, and can I just piggyback on what 
was said about these high-stakes standardized tests, in 
Petersburg, for example, where you have a distressed district 
that has a hard time holding on to good teachers, these are 
just deadly. Their whole day is spent teaching to the test. I 
mean, it is deadly for the teachers. It is deadly for the 
students. And it does not have the outcomes that we----
    Mr. Mollohan. Well, I really think we are convinced that 
there is a problem seriously, I mean, based on this testimony 
and, you know, what we hear.
    Dr. Hill. Yes.

              THE SUPERIORITY OF INQUIRY-BASED INSTRUCTION

    Mr. Mollohan. But let me ask, Dr. Miele, is there any real 
debate about the advantages, the superiority, if you will, of 
inquiry-based STEM education as opposed to direct fact 
learning? Is there any real debate about that?
    Dr. Miele. There is no debate. The consensus of the science 
education community is this is the right way to teach young 
people.

                   WHO MAKES STEM EDUCATION CHOICES?

    Mr. Mollohan. Then why is it not being readily accepted and 
hearing you all testify here today, it is apparent it is not 
systemically embraced?
    Dr. Miele. Because the choices are not made by the people 
who are in the science education community. The choices are 
made by generalists in grades one through six. Principals are 
typically not science educators. They are typically more likely 
language arts. Actually, we get a lot of people from the 
humanities. I am not knocking the humanities. They are great. 
Those people are not aware of the special needs of education in 
the sciences and in mathematics, but they are making the 
choices of curriculum.
    Mr. Mollohan. So the obvious question is, how is this 
overcome? I mean, if it is consensus among the people who 
should know, but there is this impediment to mainstreaming this 
kind of education in math, science, how is that overcome in the 
real world?
    Dr. Miele. One step is to make sure that the standardized 
tests test those skills so that the principals know that their 
students have to learn them.
    Another way is to make sure that some funding for schools 
has to go not to textbooks but to consumable materials for 
learning science. If it was earmarked in the budget that the 
only thing you can spend this money on is either a kit or your 
own materials purchased and demonstrated to be appropriate for 
teaching hands-on science, and that might just be, you know, 
vinegar, baking soda, and plastic cups, frankly, it does not 
have to be a sophisticated kit, it just has to be the things 
that have been shown for the last 50 to 100 years to be 
effective. If you have to spend some of your money on 
consumables, you have to be doing science.

                 EFFECTIVE, ACCELERATED IMPLEMENTATION

    Mr. Mollohan. Okay. Well, we are in the business here of 
funding worthy programs in a very competitive way. We could 
fund these demonstration projects and the STEM education grant 
that you got from NSF which comes from this Subcommittee all 
day long, and if you did it on a grant-by-grant basis around 
the country, it would be our great, great, great, great 
grandchildren by the time it got down to them.
    How does this form of education become the accepted model 
and in that way be adapted by educational institutions from K 
through graduate school in a far more expeditious way? How does 
that happen? Do you need a definitive study from NSF or from 
the National Academy or what? And so we have those?
    Dr. Miele. You know, at this point, many of the studies 
show mixed results. And it is my belief that the reason they 
showed mixed results is that just because you bought an NSF-
funded curriculum does not mean that your teacher used it or 
used it properly. So you do need truly systemic change, but you 
also need the high-stakes test to match. And we have never had 
that congruence where the high-stakes test was, in fact, one 
that looked at inquiry skills and at the same time, you had an 
entire discernible region that really implemented it.
    If we could have that, it would be helpful. I do think that 
we need more people to be trained as evaluators. There is a 
dearth of high-quality educational evaluators who also 
understand science. So that would probably be helpful.
    We also need to train the teachers that are veteran 
teachers because our young people coming out know how to do 
inquiry science. I have yet to meet a science educator who does 
not teach inquiry. It is the consensus, but they get out to the 
schools and all of a sudden, it is not what is happening.
    It is generally believed that you need a minimum of 60 
hours of high-quality professional development that is truly 
inquiry based with a facilitator who can help you make the 
transformation and a principal who will let you do it.
    Mr. Mollohan. Okay.
    Dr. Hill. Can I add to that also?
    Mr. Mollohan. Certainly.
    Dr. Hill. I mean, if you look around the country at the 
schools that are succeeding, they are the ones that have some 
degree of independence, you know, usually a charter school or 
some other mechanism they have had to extricate themselves from 
the educational bureaucracy so that they can try innovative 
kinds of things.
    And just to put in a word for the humanities, I do think 
that, you know, in many of these inner city schools, we have 
kind of almost eliminated the humanities, you know, things like 
music, language. Those kinds of exposures at an early age can 
also have transfer to the kinds of critical thinking skills 
that we are talking about at the middle school and high school 
level.
    And so part of this is budgetary. You know, good education 
is expensive. And so we are cutting corners wherever we can. We 
are trying to stick to the basics, so to speak, which usually 
means teaching to the test. And it is just a complete mind set 
that has to change.
    Mr. Mollohan. And that is why I am suggesting you need some 
seminal study that----
    Dr. Hill. Right.
    Mr. Mollohan. [continuing]. No one can deny the validity of 
and that everybody has to respect and then adopt it. And that 
is really what I was kind of----
    Dr. Hill. I mean, if you could find a superintendent at a 
major city that would be willing to, you know, implement this 
evidence-based practice throughout the system and, you know, it 
could be your hard case like, you know, in places like New York 
City, Chicago, Los Angeles and demonstrate its efficacy in that 
environment, I think that would be very convincing in other 
parts of the country.
    Mr. Mollohan. You need a good model.
    Let me call on----
    Mr. Wolf. Thank you, Mr. Chairman.

              INDIVIDUAL SUCCESSES AND PERVASIVE PROBLEMS

    I have some questions. Maybe we will just submit them for 
the record and just ask you, I mean, have we not really done 
all of this, though? I mean, this country is 230 years old. We 
had the best educational system in the world. And now when you 
look at the scores, and I have not looked at them for the last 
couple months, the figures, but we were like 21st or 22nd in 
math.
    We have so many individual successes around the country, 
but overall there is the problem. And I think, and I do not 
know that it is just necessary funding, it is an attitude and 
there is something wrong. There is something going on that, you 
know, why are the young people here not as interested or 
scoring as high as they are in China or as in Singapore.
    The purpose of the amendment that we offered last year to 
the National Science Foundation is we should know what the best 
practices are now and have every school system in the country 
adopt whatever these best practices are because we have been 
operating. We have a broad foundation. We have all these 
different groups doing all these studies and research and 
putting a lot of money. And we have the Gates Foundation doing 
all of this.
    So I would think that we would know now what works and what 
does not work. The question is getting the localities to 
implement and also doing something to make the young people 
have an excitement about math and science and physics and 
chemistry and biology and different things like that.
    But why do you think we have fallen behind?

                             TEACHER TALENT

    Dr. Hill. Can I address that? I think the teacher variable 
is one thing. I mean, for decades, if not centuries, in this 
country, we had a free ride because the best and brightest 
women would go into education because that was the only field 
available to them. And when opportunities opened up for women, 
we did not replace them in the classroom. We did not raise the 
salaries to attract the best and brightest. We did not raise 
the prestige level of teachers.
    And so now it is a hard sell to get the best and brightest 
to go into the classroom. And no matter how good the methods 
are, no matter how good the curriculum is, if the teacher is 
not excited about knowledge, if the teacher is not 
knowledgeable in their subject matter, it is going to be hard 
for them to convey that to their students.
    So we have to find a way to get the best and brightest 
again attracted into the field of education.

                         REWARD OF STEM CAREERS

    Dr. Miele. And I concur 100 percent, but I would like to 
add that we also have to get the message out that careers in 
science are exciting. As I said, when we showed freshman what 
you can do with a science major, they were shocked. They had no 
idea. They thought they had to wear a white coat and be in a 
lab.
    But there are many, many careers that are based on a sound 
technology or science major, including careers in law, 
environmental law, for instance, medicine. I mean, there is 
quite a long list. And when they go out and interview people 
who did majors in physics and chemistry and find out that some 
of them are entrepreneurs starting green businesses, they say, 
oh, I could see myself doing that and suddenly they want to 
major in science.
    But what the message has been to the generations for the 
past, I would say, 20 or 30 years of young people who are 
thinking about science is you are going to have to become a lab 
coat scientist or you might as well, you know, go to Wall 
Street or become a lawyer straight, you know, straight from a 
liberal arts background.
    And we do not actually reward our scientists very well.
    Dr. Hill. And if I can add to that, too. Making them aware 
of the possibilities in terms of salary. I mean, business 
schools are bulging in most universities because kids have the 
idea if you get a business degree, you are going to do pretty 
well salary-wise in your career.
    So I do think it is a matter of getting the information 
out, getting the word out.
    Dr. Miele. They want to go to medical school. They do not 
realize that they can do well by doing science.
    Mr. Wolf. Okay. Well, you know, we can talk about this 
forever. I remember the movie I saw of the young boy from West 
Virginia, October Sky, and I just think there is something 
missing. There is something wrong.

                     DECLINE IN U.S. MANUFACTURING

    And, you know, I think the real danger is, and I think we 
could be approaching the point, is that the fewer manufacturing 
and fewer things we do in this country, even if you then create 
an interest in young people, there will be no place to go.
    If you get on the train in Washington and take it up to New 
York City, if you do not read your book, you just look out the 
windows, the factories are closed. You go through my old 
neighborhood. We had the largest General Electric factory I 
think in the world. It is gone. It is all gone.
    And if you no longer have the manufacturing base and 
opportunities, then it will almost become a self-fulfilling 
prophecy because I think some of the young people believe that 
there will not be the jobs even if they get in it.

                          GOOD STEM EDUCATION

    So I think, you know, the time is now. I think we should 
have enough information. My sense is you have to deal with it 
in K through six. If you lose somebody after sixth grade, maybe 
it is fifth grade, maybe it is seventh grade, you are not going 
to find them again.
    In my area, we have Thomas Jefferson High School, one of 
the best high schools in the country. These kids are creative. 
They are anxious. They are interested. I think we should be 
able to replicate that all over.
    But, anyway, I appreciate your testimony. There is 
something wrong. Anyway, thank you so much.
    Dr. Hill. Thank you.
    Mr. Wolf. Mr. Chairman, I would like to submit the 
questions, if I can, for the record, please.
    Mr. Mollohan. Certainly.
    Dr. Hill. Mr. Chairman, can I make one other comment about 
funding?
    Mr. Mollohan. Certainly.

                 CHALLENGES FOR YOUNG FACULTY AT HBCUS

    Dr. Hill. Since you mentioned it, you know, this Committee, 
that is one of their charges is to go through agencies like NSF 
and NIH to get the funds out there. If we could have some new 
models of funding like I was mentioning earlier for faculty at 
places like HBCUs that do not have the traditional steps for 
acquiring funding because even when NSF has an HBCU initiative, 
the issue is on the other end, on the faculty member having the 
time to write a competitive proposal. And that is why sometimes 
a lot of money stays on the shelf that, you know, could be 
accessible.
    So if we could think of things like research initiation 
grants where we are giving money directly to HBCUs to fund 
their faculty research, to give them the time, those are where 
the bodies are, the roles models.
    And, again, we have an engineering school that takes in 
three or four hundred kids every fall and we lose two or three 
hundred of them.
    Mr. Mollohan. Well, maybe some of the other members want to 
talk about that, and then we can talk about it when it becomes 
my turn again.
    Dr. Hill. Okay.
    Mr. Mollohan. Mr. Bonner.
    Mr. Bonner. Thank you, Mr. Chairman, for once again leading 
the full Committee by coming out of the gate with the first, to 
my knowledge, the first hearing. The President's budget has not 
even dried yet and we already are like we did last year into 
asking some good questions of bright panelists.
    Thank you both for being here.

                        MATH SCIENCE HIGH SCHOOL

    There are so many things, and I, too, would like to submit 
my written questions for the record for your consideration, but 
there are just so many things going through my mind.
    Last week, I taught at Alabama School for Math and Science. 
I am from Mobile, Alabama. And our State School for Math and 
Science, which is a residential campus, is in my hometown of 
Mobile. I did not teach math or science. I taught a class on 
American civics.
    And the graduates from that school have an opportunity to 
go to MIT and Stanford and Harvard and some of the finest 
schools in America with full-ride scholarships. So it is 
something we are very proud of.

                    STEM EDUCATION IN RURAL AMERICA

    And, yet, I am from a town of 1,200 people in the most 
rural part of Alabama, and I know there are rural parts of West 
Virginia and there are even rural parts of New York, Chairman 
Serrano, but I worry about science education, math education in 
rural towns because the town I grew up in, I was blessed. I had 
a very good math and science teacher that loved it, knew it, 
and shared it.
    But in listening to the story of Brooklyn or what is going 
on in our larger cities, I do worry what can we do about making 
sure that our rural educators and our rural science and math 
curriculums are not being left out because everyone cannot 
travel to the zoo and have an up close and personal experience. 
Again, we have got a science explorium in Mobile. We have got a 
lot of things that a lot of other cities, communities do not 
have.
    What do we need to do to make sure we do not forget about 
the rural schools in America?
    Dr. Miele. I would say that the rural schools have things 
that New Yorkers do not have. Those young people actually know 
what a cow looks like. You know, every community has its 
strengths and the real thing, the world is there for all 
students if they have educators that know how to help them look 
at it objectively, systematically, and to think about how the 
world works.
    I really do not think that that is the issue. I would love 
to be able to bring our students, you know, to nature. And for 
us, all of our nature is highly degraded. I mean, we go and 
look at a forest and it is trampled by millions of feet. And 
the only kinds of animals you see are squirrels and maybe rats.
    I think the issue really is when we talk about good 
science, it is about process. And if you have learned to think 
like a scientist by the time you are 12, you will be able to 
learn in the formal way, what we call the direct instruction. 
It is not difficult to learn new material once you have learned 
to think like a scientist. But if you had not learned to think 
like a scientist and you have not valued that whole approach to 
knowing the world, then those doors are completely closed to 
you and you are basically thinking magically the way a three or 
four-year-old would even if you are 35 or 50 or 60.

                       EIGHTH GRADE EXIT PROJECTS

    Mr. Bonner. Well, Dr. Miele, let me mention or ask you to 
elaborate. You mentioned in your testimony here something about 
the eighth grade exit project.
    Dr. Miele. Yes.
    Mr. Bonner. My daughter is in the eighth grade. I hope she 
exits the eighth grade. Tell me a little bit about what you 
were talking about in greater detail.
    Dr. Miele. I believe it was five years ago, we had--New 
York City, as you know, is big. You know, we have got a million 
school children. Actually, I think it is 1.1 right now. And we 
had local control. So every community school district chose its 
own curriculum, chose its own assessments. The only commonality 
was the State Regents examinations and periodic tests, 
standardized tests just for promotion.
    But New York City decided that they wanted to do something 
to enforce learning in an inquiry way, so they said, okay, we 
want to make sure our children can think independently and 
logically and the place to look for it is eighth grade on the 
doorway to high school.
    So they instituted the requirement that every student had 
to complete an independent study and it could be in social 
science or it could be in natural science. It had to be one or 
the other, and it required that they formulate a question and 
figure out how to answer it. They could choose to answer it by 
using literature resources, but they needed to be valid 
literature resources. They could not just take the answers from 
Wikipedia, for instance, and they needed to document what their 
sources were and why they chose them. And they needed to 
complete usually a tri-fold panel for the equivalent of a 
science or social science fair and to defend their work in 
front of their peers, teachers, parents, and visitors.
    As I said, the first year we really did not know what to 
look for. There was no clear criterion for what excellence 
looked like. But the city decided to bring together a panel of 
scientists and social scientists to provide feedback about what 
exemplary exit projects would look like.
    And they developed a very extensive rubric to support the 
students and also a multi-step sort of guide to help them 
figure out what do I do first, what is a reasonable question to 
ask, how do I know it is a good question, what is my first step 
in finding information, where can I go for data if I want to do 
secondary research where I am using a data set that someone 
else has collected, but I want to ask my own question about it.
    For instance, the GLOBE Program provides databases that 
students can access. Maybe they will take some data from GLOBE 
and maybe they will collect some of their own data and do a 
comparison.
    So these are the kinds of projects that students are doing 
in New York, and they cannot get into high school without 
having thought for themselves deeply at least once.
    Mr. Bonner. Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Bonner.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Mollohan. Who probably knows something about New York 
education.

                            CHARTER SCHOOLS

    Mr. Serrano. A little bit. Thank you again, as Mr. Bonner 
said, for leading us out of the box with the first hearing, 
especially during what Washington would consider a blizzard. So 
it is quite an accomplishment.
    Mr. Mollohan. That is a testament to our witnesses.
    Mr. Serrano. That is right.
    Since you have mentioned it, let me just quickly, before I 
ask a couple of questions, including one that comes to mind 
that I did not have planned, talk a little bit about my 
background. Prior to my 20 years in Congress, I was Chairman of 
the Education Committee of the State Assembly. Prior to that, I 
was everything within the school system except a teacher. I was 
a paraprofessional teacher's aide. I was Director of the Title 
1 programs at the State Urban Education Program.
    So I have a little bit of a background in that area which 
leads me to this question. There is a lot of press, good press 
for charter schools. And I may be the only elected official in 
New York State that has not signed up making glowing statements 
about charter schools.
    And while I understand their success and support their 
success, my fear continues to be that it is just part of an 
excuse not to attack problems of the public school system and 
that charter schools may become what we, some people who 
support public education, have always attacked in the parochial 
school, in the private school system, which is you will be able 
to take the better students, show better results, and leave 
behind in public schools those that are weak, with parents who 
are not as mobilized as the ones in the charter schools.
    So you see, for instance, in New York City, whether what 
side you fall or not, you see the Mayor closing down 19 schools 
and then upping the amount of charter schools available in the 
city. And we have not figured out yet if that is really a way 
of just turning your back on the public schools.
    So my question is, have we reached the point, especially in 
the inner cities, where it is save yourself if you can and, 
therefore, charter schools serve that purpose and do we run the 
risk of turning our backs politically and otherwise to the 
public school system more than ever so before? What is the 
future of the public school system in this country if we 
continue to grow charter schools, to both of you?
    Dr. Hill. Well, if I can address that a minute, I think one 
of the roles of charter schools now is to be innovative and to 
test some things that might not have been able to be instituted 
in the public schools, the normal public schools.
    I think you raised a big issue and I think this goes back 
to what I was saying earlier about the need to think of 
education as a civil right. Somehow we have said it is okay for 
there to be Thomas and Maggie Walker Schools in Richmond that 
offer excellent education, but they are not for all kids and 
that it is okay for the kids in the inner city to just to get 
by with whatever the basics are.
    We need to change that mentality and recognize. I mean, we 
need to think of it in terms of our own self interest, that it 
is not the other kids, the other people's kids are the ones 
that are involved here. This is going to be something that 
impacts us as a nation and get our self interest involved in 
seeing schools transformed in general.
    And a lot of times to do that, I mean, Richmond, Virginia 
is a good example, I mean, go back to 1954 when the Brown 
Decision came, you had the school issues were along racial 
lines, you know, in terms of resources. They are separate but 
equal, so to speak.
    Over the years, that what started out as a racial issue, 
you know, merged with class and other issues and so now it is a 
much more complex problem, but it has its roots back in the 
days of segregation where it was okay for some kids to get a 
quality education and some kids not to get a quality education.
    We have to find a way to get beyond that and maybe it takes 
shame. You know, we should be ashamed as a country that we have 
allowed this to go on for 50 years. And we need to take the 
hard fixes and not necessarily the easy fixes.
    A lot of times when we find, for example, the minority kids 
are not passing a particular test, we attack the test rather 
than dealing with, well, why are they not passing that test. 
Why do we not put the resources in there. And the rural kids, 
the same issue in rural communities.
    But I think the distrust of charter schools among those of 
us who kind of grew up in the civil rights era was a remnant of 
the time when public money was going to provide education and 
private academies and the inner city kids were being left 
behind.
    But I think we have gotten to the point now where we have 
to think outside the box. We have to revolutionize our whole 
educational system. The whole model needs to change. I mean, it 
is kind of an industrial age model, and we need to have 
innovation. We need to have creativity. We need to free up 
principals and teachers to try innovations and then use 
evidence-based practices wherever we can.
    That was kind of a round-about answer.
    Dr. Miele. I have a few things to say about that as well.
    I think it is a very sad situation right now that the 
schools, many of the schools that are closing have parents that 
support them. And this to me is a disconnect. When the parents 
are involved enough to know what is going on in the school and 
care enough to come out and say do not close my school, then it 
is not an issue of the parents that do not care. So there is 
definitely something going on here.
    There are a number of things going on in New York City 
schools. For the past, I think it is probably about 15 years, 
the reading programs, for instance, have focused entirely on 
poetry and fiction. Students are not really learning to read 
content. This is one of the reasons they come to middle school 
unable to read a textbook.
    By middle school, as much as I support inquiry education, 
students should be able to read a textbook. By the time they 
are 13 years old, it should not be too hard for them, but that 
is the situation that we have because the skills they are 
developing are not giving them the ability to read content 
objectively, to read it critically, to read it deeply, to 
understand what are the facts, what are the opinions, what is 
the evidence that supports these assertions.
    There is no system that allows students and parents to 
really truthfully say what are the strengths and weaknesses of 
the school. They know. My own children went to New York City 
public schools and there were good years and there were bad 
years. And we were committed to public education and we rode 
out the bad years and did what we could to ameliorate what 
educational weaknesses there were.
    But my husband and I are college educated and we are 
educators and we could do that easily. It is, in fact, an 
equity issue. There is no way that an immigrant family working 
two jobs, even if they love their children and want the best 
for them and try to help them with their homework, can provide 
what college educated Americans can provide. It is impossible.
    So, yes, the issue, I think, is how can we make all public 
schools truly provide a quality education for all students and 
not go around--and, by the way, the charter schools are 
inequitable to teachers as well. They do not pay them as well.
    Dr. Hill. Right.
    Dr. Miele. They will hire people who are not certified and 
make use of the fact that they are bright and committed and 
caring and willing to share apartments.
    So what I would like to see is more money going, as I said 
earlier, to making sure that there are materials of instruction 
and money going directly to the schools for high-quality 
professional development to teach them to teach with the best 
practices if they are not yet prepared to do that and something 
that will hold principals accountable for best practice in 
every discipline, not just the one that they were trained in.
    Mr. Serrano. You know, one of my fears--do I have time, Mr. 
Chairman?
    Mr. Mollohan. Yes.
    Mr. Serrano. One of my fears is, and I do not know if it is 
the same in other districts, I am sure it is if we look 
closely. I get people coming to me, I need a letter of support, 
I want to open up a charter school. I do not give those letters 
of support out. But I say what do you know about schools. And 
they are usually very active community leaders who may be great 
on some issues, but what do they know about schools?
    But under the charter school system, I can open up a 
charter school tomorrow if I get okayed. And if I left 
Congress, I probably would be okayed to open up like ten 
charter schools. Well, I may have the best intentions at heart 
and I probably have a little more background than some other 
folks, but what qualifies me to open up a charter school?
    Then the argument we hear, which is a solid argument, but I 
think it does not speak to this point, is, well, when we had 
all the schools run by people college trained and 
professionally trained to be teachers, administrators, they did 
not do the job. So let us try it now.
    But I see it almost like it has become a business for some 
people, the charter school, either a business for the position 
they hold and so on. So I am still out there like a sore thumb, 
you know, standing out in the community being like the only--I 
am also the only guy saying New York should hold those terror 
trials, but that is me, you know, I do not always go with the 
flow, but--so that is a concern.
    Now, my last question, which was the one I did have written 
down, kind of ties into that when you spoke about the immigrant 
parents and so on.

                      ENGLISH AS A SECOND LANGUAGE

    In your studies, Dr. Hill, and I want you to comment on 
this, too, the fact that some children have a language other 
than English at home and, therefore, may or may not be totally 
proficient in English in school, does that add to the mix once 
again as it supposedly did in the past?
    Now, I had people who spoke only Spanish at home and that 
was not an issue in the 1950s and in the 1960s. It became an 
issue in the 1970s and then it seems to be an issue again. Do 
you find that that is an impediment? What is that situation 
when a child in class dealing with the sciences now, math and 
science, with another language being spoken at home?
    Dr. Hill. I mean, math and science is hard enough when it 
is taught in your native language, you know, much less when it 
is a second language. But, yes, certainly that is an issue. I 
mean, there are so many kinds of noninstructional issues that 
come to bear here.

                    EFFECTS OF POVERTY ON EDUCATION

    I mean, when you look at a school district like Petersburg, 
again, how many of those kids come to school with no breakfast, 
with no parent, out all night, dealing with maybe a drug 
addiction in the household, dealing with parents who are 
incarcerated? There are so many issues that are beyond the 
scope of the teacher, you know, what the teacher can deal with 
there.

                        BUILDING STUDENT SUPPORT

    So one of the things that we are doing in Petersburg with 
this approach with the algebra project is building community 
support mechanisms for the schools because a lot of times, the 
kids need, they need good instruction, but they need other 
things as well. They need other kinds of social support in 
addition to instructional support.
    And so having those available to the kids in some kind of 
systematic way is an important thing. Mentoring is important. 
Having the kid connected with somebody that they can talk to, 
whether it is a college student, whether it is an older high 
school student for a middle school kid, but having somebody 
they can make that connection to that they might not have with 
family members, and then counteracting the effect of violence.
    I mean, we are looking at some neurological studies now 
about the impact on the brain of exposure to violence and it 
actually, if your brain is affected, it is going to impact how 
well you take in information. And so having some interventions 
for those kids who are the victims of violence both at home and 
the kind of violence that they might see in the street or even 
in the schools in many cases, so it is like an omnibus of needs 
that are there that need to be addressed with these kids.
    Mr. Serrano. Omnibus is a very tough word to use, you know, 
before the appropriations committee. It brings pain up our 
back.

              INQUIRY-BASED INSTRUCTION AND ENGLISH SKILLS

    Dr. Miele. The NSF funded SCIS and FOSS curricula had shown 
tremendous ability to improve English language learner scores 
when they were studied in the 1970s in the LA area. And from my 
own experience, many of my students are themselves, even though 
they are college students, are English language learners.
    When you are working with the real world and your job is to 
observe it objectively, it speaks to you in whatever is your 
language. So that is not a barrier; a textbook does not do 
that. So if your main source of information about science is a 
textbook and you are a fourth-grader from Bangladesh, then you 
are basically shut out entirely. But if you are looking at what 
objects sink and what objects float and you are measuring their 
mass and volume for yourself, then you have learned the 
material for the day. And you may not be able to write it down 
so that your teacher can understand it, but you have written it 
down so that you can.
    So hands-on science absolutely brings in everyone 
regardless of whether they are an English language learner or 
whether they are English proficient.
    Mr. Serrano. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Jose.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Well, thank you. I am sorry I was in 
another hearing. Do I need this? Is it too loud?
    Mr. Mollohan. You need to use it.

         NATIONAL SECURITY AND PRODUCTION OF STEM PROFESSIONALS

    Mr. Ruppersberger. Okay. First thing, let me tell you where 
I am coming from with my questioning. I serve on the 
Intelligence Committee and Chair the Technical Tactical 
Committee dealing with cyber security and a lot of the issues 
involving science.
    One of our concerns from a national security point of view 
is that China last year graduated over 660,000 mathematicians, 
scientists, and engineers. And I think we, the United States, 
graduated about 66,000.
    Now, the good news, our curriculum still seems to be 
superior, but China is gaining very quickly.
    Now, in preparing for this hearing and looking at where you 
are coming from, both Dr. Hill and Miele--is it Miele?
    Dr. Miele. Miele.

                     HOW CAN WE BRING ABOUT CHANGE

    Mr. Ruppersberger. Miele, okay. You are emphasizing that we 
need to change the way we teach science and I agree with you. 
You are advocating for moving away from memorizing facts and 
figures and moving towards more hands-on learning and more 
accurately learning that engages the student to be more 
inquisitive. I think inquisitive is what you were just really 
talking about.
    My issue is why have we not moved more towards the 
direction of your philosophy and the STEM schools? Is it lack 
of resources, equipment? Is it lack of knowledge on the part of 
our administrators or people who fund schools which would be 
elected officials? And, you know, we need to address that issue 
first.
    And how we do address it, I think we need to educate those 
decision makers why science is so important. I will say this. I 
know that some of our military academies from the year about 
2013 or whatever will try to have over 70 percent of their 
graduates having STEM education because this is where our 
country is going, not only just in national security, but just 
what we do every day.
    Dr. Miele. I mentioned earlier that the problem is the 
decision makers. Who are the decision makers? Who is in power 
to choose curriculum?
    In New York City recently when we sort of centralized the 
science curriculum and developed a new city-wide scope and 
sequence, principals were told that they could choose one of 
two approaches to elementary school science. They could either 
choose the Full Option Science System, the FOSS System, or they 
could choose a textbook system with additional hands-on 
activities suggested at the end of each chapter.
    Who actually made the choice in many cases? The principal 
delegated a teacher who was free that day to go down to a fair 
and go eeny, meeny, miney, mo with a little slip that said this 
is how much money you have to spend. That is not how you choose 
curriculum.
    If the city really felt that the inquiry-based approach was 
the most important one, they should have just funded it. They 
should have said this is what we are doing and if you want to 
do more, that is fine, but you must put Full Option Science 
System on your budget for this year or show how you are doing a 
full inquiry-based alternative science curriculum otherwise.
    Mr. Ruppersberger. Okay. You know, I think one of the 
issues there is it is just not only the school system. I think 
you have got to get academia, elected officials, the business 
community all involved. And that will really help move policy 
forward.
    Dr. Hill. Yes.

                         NSA AND STEM EDUCATION

    Mr. Ruppersberger. I represent NSA. It is in my district. 
And we are trying to develop a STEM program, there are STEM 
programs within the State of Maryland, but a STEM program 
literally on the campus of NSA and focusing on maybe even late 
elementary or early middle school, looking at a regional type 
project that could really identify these children who have the 
aptitude. I think you have to have certain children who have 
aptitude in the area of math or science or whatever. And one of 
the things, one of the focuses is to have it as if it was an 
internship.
    And the culture change of these kids who not only are in a 
classroom but then could also maybe, as long as you do not 
violate the classified issues, you have these children come to 
a campus and they grow. And they have also become really 
patriotic in the mission of what an NSA or what a NASA--I mean, 
we have Goddard right up the street on 295, but do this all 
over the country. And, you know, we can look at certain 
positive programs. I think there is a school in Virginia. I 
know there are a couple schools in Maryland, in Anne Arundel 
County, places like that that are successful, but it has got to 
grow nationally.
    How would you recommend that we do that?

                   THE NATIONAL SECURITY PERSPECTIVE

    Dr. Hill. Well, if I could say something from your original 
statement. I mean, I am glad that you are kind of coming from a 
national security perspective because we need to have that same 
kind of political will that we have around our national 
security in the field of education.
    In the 1950s, when we perceived Russia as a threat and the 
launch of Sputnik as a threat, we put the resources into 
science education and it really paid off. And we need to have 
that same kind of resolve again because it is a national 
security issue.
    When you have this large number of under and uneducated 
people, you know, particularly congregating in our inner 
cities, that is much more of a threat to our future security 
than foreign terrorists, for example. And if we had the same 
kind of political will to find the resources wherever--you 
know, when we went into Iraq, we found the resources. We need 
to do that same kind of thing, find the resources to transform 
these inner city school districts.
    Mr. Ruppersberger. I am glad you raised the issue of 
Sputnik because that was very dangerous to our country and the 
United States of America responded by putting a man on the moon 
within 12 years.
    And, you know, if you look at where we were then and where 
we are now, it used to be that astronauts were just as popular 
as NFL quarterbacks and that is not the case. So it seems there 
needs to be, you know, a reinvigoration.
    I think part of the policy is that--I think the country is 
just tired of us going back and forth to the space station. We 
need a goal that the country can get behind and bring 
excitement to these children. This is extremely important.

                      LOCAL SCHOOL DISTRICT ISSUES

    But, you know, one thing I, and I know I am probably over 
my time, I want to raise this issue, one of the issues that you 
are going to find, and I know just when I am trying to work on 
the STEM Program in my jurisdiction is still, it is the 
politics of the different counties, the different school 
systems.
    If you are going to have a positive STEM Program, you need 
a regional program, regional involving other counties, regional 
involving the cities, whatever, so you can identify it from a 
regional. And, yet, it seems that there is so much either 
litigation or policy that it is difficult to get children from 
one county to another county and that cooperation. So there has 
to be some really strong political will.
    Are you seeing that as an issue also, the bureaucracy or 
standards within school systems and not wanting to cooperate or 
have a regional type program?
    Dr. Miele. I actually wanted to say a couple of things 
about that.
    I actually was privileged in the 1960s to participate in an 
NSF-funded internship program at Columbia University. My junior 
high school science teacher said you are going to go do this 
and I do not care what you want to do on Saturday mornings 
because you have got talent in science.
    So I went to the Columbia Science Honors Program. I later 
was a faculty member there for 16 years teaching students from 
the region, a 50-mile radius, but, again, that is one of those 
things where NSF type funding works because to transcend the 
regional political power, you have to have something that is 
outside school hours and funded separately.

                 THE INNOVATIVE ROLE OF JUNIOR FACULTY

    There is another issue with the success of that kind of 
project and that is that junior faculty, the ones who are most 
likely to participate in innovative programs, such as bringing 
a high school student into their lab, are the ones who are the 
most at risk of not getting tenure. They need to focus on their 
research. Risking having a high school student in the lab means 
their research is going to go slower and perhaps maybe even 
suffer a little mishap because you do not have a graduate 
student. You have a kid taking attention away from your very 
important research.
    So there has to be some way to protect junior faculty who 
are willing to invest in our young people and willing to mentor 
them. And right now that is not the case. I see again and again 
junior faculty who are willing to work with young people and to 
pay attention to science education and to work hard on their 
undergraduate classes to be the best teachers they can, to use 
innovative instruction. Those people do not necessarily get 
tenure because they are distracted. They are distracted.
    I also want to point out that we need a scientifically 
literate general population in order to make the proper choices 
for our future. So we do need those people who are going to be 
scientists, but everybody has got to understand the value of 
science and evidence-based decisionmaking. Otherwise, we are 
going to be in big trouble.
    Mr. Ruppersberger. I do not disagree, but we have to really 
focus on STEM too.
    I know I am over my time. Can I ask one more?
    Mr. Mollohan. Yes.

                      TEACHING INSTEAD OF RETIRING

    Mr. Ruppersberger. Okay. Another issue I think, and you 
raised the issue with me, is the instructors, the teachers. We 
have a baby boomer generation now that is a lot healthier, they 
are working longer, whatever, a lot of retired scientists, 
rocket scientists, engineers, whatever. And, yet, in order--and 
who probably can come back and help teach and teach hands on 
the way it is in the real world, not just from an academic 
point of view.
    And, yet, because of the rules and regulations and because 
of teachers' unions and all the issues that we deal with, it 
sometimes is very difficult to get those individuals within a 
system or because the school system will say, well, you are not 
authorized, you know, you are not certified, you do not have 
your master's degree and this or whatever.
    And it seems to me that if this system is going to work and 
we have those resources out there, we have to find a way to 
develop a STEM Program that will be the best it can be and we 
have to have some flexibility as we relate to our contracts 
with our teachers and whatever.
    And I am not saying, you know, we do away with teachers' 
unions or anything of that nature. I am saying as it relates to 
STEM, you have to develop curriculum that is going to work. And 
it is just a shame that we have a lot of qualified people that 
can come back and help teach what we need to do in STEM and 
make it exciting because a lot of these individuals are former 
people who worked at NSA who worked on space programs and might 
have another ten years.
    So if you have any idea on that, that is something we have 
to work on also.
    Dr. Miele. I will tell you I myself am not a New York State 
certified teacher. I have a Ph.D. in molecular biology.
    Mr. Ruppersberger. Did you hear that?
    Dr. Miele. I am not a certified teacher. If I wanted to 
teach----
    Mr. Serrano. Neither am I.
    Dr. Miele [continuing]. I would actually have to go back to 
school and get 18 credits in education even though I have 
taught those classes.
    Mr. Ruppersberger. Uh-huh.
    Dr. Miele. So I agree. But I must also say that I know full 
well that I was not prepared with my Ph.D. to walk into a high 
school classroom and teach. I was not. I needed to learn quite 
a bit about how young people learn. And I was----
    Mr. Ruppersberger. I agree.
    Dr. Miele [continuing]. Very, very fortunate to do that 
sort of in my own laboratory because as a faculty member in the 
Science Honors Program, I actually taught high school age 
students and I figured out for myself what worked and what did 
not. I was surprised to learn that it was completely congruent 
with the National Science Education Standards. When I read 
them, I went, oh, I could have written this. I figured it out 
by trial and error.
    But, again, I think that we need these alternative pathways 
for current Ph.D. and master's holders. They do need to spend 
some time learning about----
    Mr. Ruppersberger. I agree with you. And you do need 
standards. You always need the education standards. And I am 
not saying it is a hundred percent. I am just saying there is a 
group out there, that we have to find a way. We find it in 
other areas. We have people who come back who are retired 
military and they are back working government, whatever. We 
need to focus on that, though.
    And with the partnership between the teachers and the 
school administrators and these individuals, we should be able 
to help them train them and work as a team together.
    Dr. Miele. It is a priority.
    Mr. Ruppersberger. Thank you for your comments.
    I am sorry. I have to go back to Intelligence and the no 
window--well, we do not have windows here either.
    Mr. Mollohan. And we are pretty intelligent here. We have 
got all these educators.
    Mr. Serrano. I agree with you. It is pretty intelligent.
    Mr. Mollohan. Yes.
    Dr. Hill. And I hope you will continue that idea of 
regionalism because I think that has a big impact in most----
    Mr. Ruppersberger. And it gives you strength.
    Dr. Hill. Yes.
    Mr. Ruppersberger. I mean, it is the only way to go, no 
question.
    Dr. Hill. And you get away from, you know, it is okay for 
those kids over there not to have, you know, as long as my kids 
are okay, you know, that is the mentality.

                     SKILLS TRAINING VERSUS INQUIRY

    Mr. Mollohan. Let me go back to this and let both of you 
talk a little more about skills training versus inquiry. And 
you used that word skills when you were talking about reading 
and saying that, you know, that inquiry is great and wonderful, 
but kids need to be able to read when they get to, and need to 
have skills to read.
    And, Dr. Hill, you also alluded to that and I am not sure 
where I wrote it down. But just talk to us about the--Dr. 
Miele, you begin and then Dr. Hill. You need skills and inquiry 
is in your judgment essential if we are really going to develop 
the potential and have the result that we--in terms of numbers 
and quality of youngsters coming into math and science and just 
the general population being literate in that. So if you would 
talk about the balance that exists there and how to achieve it.
    Dr. Miele. I think that in the 1970s, there was a tendency 
to throw the baby out with the bath water. And in the interest 
of developing inquiry skills, there was less focus on content. 
It is not a true dichotomy. The best way to learn science is to 
learn the content that the scientific community agrees is 
foundational to progress as a practitioner and the processes 
that those scientists use.

                             INQUIRY SKILLS

    So what are the skills? What is inquiry? Inquiry means 
applying the basic science skills. The first skill is 
observation, looking at the world objectively, knowing the 
difference between what everyone would agree is happening and 
what you think about it. I may see a flower opening up and 
think, ah, how beautiful. But as a scientist, what I have to 
look at is, well, how did the petals separate and what is the 
position of the pistils and the stamens. Does the pollen mature 
at the same rate as the ovary? And I need to know these terms 
in order to discuss it with someone else who is a botanist.
    So there is language and vocabulary that is unique to every 
scientific discipline. As a biologist, I do not speak physics. 
I am not at all versed in geology. I am learning because I try 
to talk to my colleagues and develop that common vocabulary. 
But one of the first things you learn when you are a specialist 
in one area and you talked with specialists in another area is 
that you use the same words and you mean different things.
    So in order for a student to become truly proficient to 
enter a STEM profession, by the time they are finished with 
high school, they have to know how to look at things 
objectively. They have to know how to measure things and what 
kind of measurement is appropriate to the task. They have to 
know how to collect and organize data. They have to know how to 
analyze that data and what the appropriate tools are to analyze 
any given kind of data. Is it qualitative? Is it quantitative? 
Is it some combination of the two?
    They have to understand the language of their discipline 
and be able to speak it. Well, that takes a long time. And how 
are we going to do it? We are going to do it by starting with 
kindergartners, maybe even pre-K. In pre-K, we develop basic 
language. What do you call something? How do you describe it? 
What does it do? That is, you know, it is nouns, it is adverbs, 
it is adjectives, it is verbs.
    Mr. Mollohan. So that is skill training?
    Dr. Miele. This is skill training.
    Mr. Mollohan. Okay.
    Dr. Miele. As a scientist, you are learning. As a scientist 
who is five and looking at a cloud, it is a very different 
person than a NASA or NOAA meteorologist looking at a cloud or 
an astronaut who might be looking from different perspectives.
    That five-year-old is thinking that fluffy white thing 
looks like milk or cotton candy. Well, do you think it might be 
cotton? Well, if I am thinking magically, yes. But if I am 
thinking about somebody who threw cotton up in the air and it 
always came down, then, no.
    So how do you decide which kind of thinking you are going 
to use when you look at something? How do you develop the basic 
skills of common sense looking at patterns of nature that a 
scientist uses as opposed to the skills that you would be using 
as a poet or an artist?
    You need to practice and sometimes you practice looking at 
things as an artist and sometimes as a poet, sometimes as an 
objective writer and sometimes as an analyst. When you are 
looking at nature as an analyst, you are applying science 
process skills.
    Mr. Mollohan. How do you teach it?
    Dr. Miele. One step at a time. You start with observation. 
You start with recording what you observe, learning to develop 
language. Just describe this rock, describe it well enough so 
that your rock can be separated from everybody else in the 
class's rock. Even a group of apples. Can you describe your 
apple so well that when we pile it back up on the table with 
all the apples we picked----
    Mr. Mollohan. Yes.
    Dr. Miele [continuing]. In our class, you get the right 
one? And maybe that means I have to not only be very detailed, 
but maybe I have to start doing things like measuring and I 
have to measure accurately. Accuracy becomes important.
    Mr. Mollohan. So your----
    Dr. Miele. So one step at a time.
    Mr. Mollohan. That is an integration of skills learning 
within inquiry learning?
    Dr. Miele. Absolutely. So you do these things and you are 
integrating mathematics at every step of the way.
    Mr. Mollohan. Let me ask you, Doctor. I now remember how I 
would like to introduce you to this question. Robert P. Moses 
has written Radical Equations: Civil Rights for Mississippi to 
the Algebra Project. And I understand that this is a project 
that is also in Petersburg.
    Dr. Hill. Yes.
    Mr. Mollohan. Is that correct?
    Dr. Hill. Yes.
    Mr. Mollohan. Well, that would suggest that learning the 
skill of algebra is fundamental to creating this 
infrastructure, if you will, intellectual infrastructure for 
moving to inquiry-based learning.
    I am just curious. How do you teach----
    Dr. Hill. And both. I mean----
    Mr. Mollohan [continuing]. The fundamentals of algebra 
and----

                      BUILDING A COGNITIVE NETWORK

    Dr. Hill. But one thing that the inquiry-based learning 
does is building these cognitive skills. You know, it is like 
building this network of associations. And that is basically 
how you learn. You make new associations and you put them into 
your network of previously existing associations and your 
network expands. So every time you learn a new fact, your 
network has to accommodate that fact.
    And so if you have an impoverished network, it is difficult 
for new facts coming at you to stick. And just getting new 
facts does not do anything for your network. You have to engage 
with the material in some kind of way. You have to use this 
inquiry-based processing or you are using different modalities 
that make these associations that then lead you to be able to 
hold on to the facts.
    And so if you just have a fact-based approach, and we see 
this with kids all the time, they get these facts thrown at 
them, they are isolated, they do not see any connection between 
them. If they learn them at all, they are just memorizing them 
in separate kinds of ways. And they do not retain it. You know, 
they might take a class, have a hundred different facts, and 
one year later, they have forgotten all of them because they 
never were integrated into this underlying cognitive structure.
    So the approach that the algebra project takes and the 
things that we are doing with this cognitive training are 
trying to develop the structure and then connect the 
information to the structure and to the processing that is 
going on, too, because both of those things are important.
    And, yes, the algebra project in particular is very good at 
taking abstract concepts from mathematics and connecting them 
to the everyday experience of the kids so that they are making 
these associations, they are making these connections. And 
these are not just isolated facts or facts that are so abstract 
they have no connection with them at all.

                  STUDENT MATH ACHIEVEMENT EVALUATION

    Mr. Mollohan. Is student math achievement being evaluated 
and do you see any problems with the evaluation instruments in 
general use today? You spoke to that a little bit. If you 
would----
    Dr. Hill. Yes. I mean, we are basically, because in order 
to get cooperation from the school districts, we have to tell 
them this is going to impact your standardized test performance 
because that is all they are concerned about. And so we are 
using those actual standardized tests to see what kind of 
change we get in the performance of these kids after a year. 
But it is a flawed instrument and there are some instruments 
out there that would be better at capturing that process that 
is going on as you are using inquiry-based education and 
developing these cognitive skills.

                         TESTING INQUIRY SKILLS

    Mr. Mollohan. And that is what you, Dr. Miele, were 
speaking about when you said that the testing needs to be 
testing that captures the inquiry-based learning skills?
    Dr. Miele. Exactly. The testing needs to see if the 
students have the skills, not just the content knowledge, not 
just facts that they recognize, which is the lowest level.
    In the scientific community and science education 
community, we refer to getting knowledge like this as 
constructivism. You are basically building a house, building a 
structure of knowledge that includes facts, but the facts are 
the lowest level. It is the theories that you want to get to 
and it is the processes that allow you to build those theories.
    Mr. Mollohan. How do you test inquiry learning?
    Dr. Miele. Well, one of the things that you can do, I 
actually wanted to talk a little bit about one test that I 
rather like, the New York State Earth Science Regents 
examination that many people feel is sort of a flawed 
instrument because it does not test enough memorization. I 
think that is ironic because we are so used to memorization 
being the paradigm that when it is not the paradigm, we reject 
it.
    This New York State exam requires students to read a 
question, recognize what the question is asking, which means 
that they have to have the vocabulary to know what the question 
is about. Then they have to go to the back of the exam where 
there are reference tables, find the appropriate reference 
table, find the appropriate data from the reference table, 
perhaps do a minor algebraic manipulation of it to find the 
right answer, and then answer a multiple choice test.
    You have the efficacy, the very quick and easy method of 
evaluation of scanning a multiple choice test, but it is a 
multi-step process. So it is actually looking at what the 
student can do, not just what the student can recognize.
    So it is actually possible to make a standardized test, a 
simple kind of familiar standardized test that can break out 
these things. You can also have a test that asks the student to 
look at something and say, well, what does that measure, what 
is the appropriate measurement there. So it is a proxy for a 
hands-on measurement assessment.
    There are a number of ways that you can create situations 
in a test which will look at process. Can you group things 
appropriately? Can you look at a chart or a table and collect 
the right data from it to get the correct answer?
    Dr. Hill. Yes. And even with a standardized test, depending 
on how the questions are framed, you can even get higher level 
thought process involved in a multiple choice test if it is not 
just simply recognition memory. You know, you are just 
recognizing the right answer. But if you have to do some kind 
of processing to distinguish between the alternatives----
    Dr. Miele. So I think what we need is developmental and 
cognitive scientists helping us in test design. Traditionally, 
these tests are designed by practitioners of K to 12 education 
coming together as a group and deciding by consensus what a 
good question is, but we need this higher level of awareness so 
that we can make sure that we are looking at a higher order of 
thinking in these exams.

                    TEST SCORES AND SCIENCE INTEREST

    Mr. Mollohan. Dr. Hill, are you finding a correlation 
between student scores on State standardized tests and their 
students' interest in achievement in science?
    Dr. Hill. No, not at the moment, and mainly because those 
State tests are just minimum standards. They are not really 
geared toward assessing the person's creativity or their 
inquiry skills or any of that. So it is almost like minimum 
literacy in these various areas. So, they are not good 
predictors of who would go on to a career in STEM or in any 
other area that I know of.
    Dr. Miele. We have found similar findings with our Brooklyn 
outreach for science and careers. We basically do not have 
enough science majors at Brooklyn College. They all want to be 
economics majors, education majors, or pre-med because they 
want to make money.
    Our students are by and large first generation students to 
go to college and their going to college is their ticket to 
American success. But they do not know that you can be 
successful as a scientist, so that is a major problem. We have 
a disconnect between what students think you need to do to be 
financially successful and the various paths to success.
    We have been able to break that by exposing students to 
career opportunities, but again, that is a band-aid approach 
for our particular little pocket of students. We really need 
some kind of broader systemic way of making clear to students 
that science is something that is fun to do that you can be 
somewhat autonomous, independent. You can do something 
different every day. You can make a contribution and you can 
feed your family and buy a house.

            ARE IMPROVEMENTS READY FOR BROAD IMPLEMENTATION?

    Mr. Mollohan. Are the improvements that you described ready 
to be spread to more schools and school systems, and we spoke 
of this a little bit, but let me give you an opportunity to 
answer specifically, and what do we need to do so? Dr. Hill?
    Dr. Hill. Yes. There are certainly a lot of evidence-based 
practices out there that are ready to go. It would take 
political will. It would take an independent principal or some 
other administrator who is willing to implement these things 
and not worry about the immediate consequences to their SOL 
test performance or whatever the standards they are using.
    So, yes, they are ready to go. We just need to create a 
climate in which that could be implemented on a widespread 
basis.
    Mr. Mollohan. Can you cite specific examples of models 
where this turnaround has occurred based upon inquiry-based 
learning?
    Dr. Hill. Well, Petersburg is a good example. As I 
mentioned, over the last three years, we have seen their test 
scores go up. We have seen the engagement of the students go 
up. You know, we are in the middle of a three-year project. We 
will have a lot more data in a year-and-a-half from now. But 
all the trends are in the right direction, and we are excited 
about the possibilities. And a place like Petersburg is small 
enough to be kind of like a little laboratory.
    Mr. Mollohan. Are you working in the middle schools?
    Dr. Hill. Primarily the middle schools and the high 
schools, yes.
    Mr. Mollohan. And what has been the story with regard to 
scores----
    Dr. Hill. Well----
    Mr. Mollohan [continuing]. In middle schools?
    Dr. Hill [continuing]. I think I shared with you----
    Mr. Mollohan. Well, share it with me again.
    Dr. Hill [continuing]. Some of that data. The middle school 
that we are working with in 2007 had an average SOL score of 
39.7 and the passing score is 70. And this year, their average 
SOL score in math was 88.86. So there has been more than a 
twofold increase in three years in their math scores in that 
middle school and similarly in the high school.
    And, again, we have had kind of a three-pronged approach. 
We have had the approach of cognitive education. We have had an 
approach of the algebra project, pedagogy, and community 
organization and involvement. And I think it takes that kind of 
multifaceted approach to really make a difference.
    Mr. Mollohan. Are other schools in Virginia coming down and 
seeing what you are doing and saying we would like to replicate 
this?
    Dr. Hill. Not yet. We are trying to get the word out and 
hopefully we will. I mean, my appearance here was the result of 
an appearance on NPR, so maybe the word is starting to spread.
    Mr. Mollohan. Are you working with any kind of innovative 
programs or organizations like the Darden School at University 
of Virginia or any of those?
    Dr. Hill. No. Right now we are only working with two 
outside organizations other than Virginia State University and 
that is the Algebra Project, Incorporated and Learning RX which 
is the cognitive training organization.

                        TEACHER-STUDENT RAPPORT

    Dr. Miele. You know, I want to just mention something else. 
One of the problems that we have with middle school and high 
school is it is the opposite of the problem we have with the 
elementary school system. There you had specialists. The people 
who identified themselves as scientists or mathematicians 
fairly early on chose higher education in that area and as a 
result are not always aware of the struggles of the average 
student when confronting these subjects.
    So we very often have a disconnect between the math teacher 
or the science teacher and their students because the math 
teacher says, well, you know, math is cool, it is great, and 
they have not figured out how to convince their students that 
that is true.
    We have the same problem with our science teachers. And, 
again, because our science teachers traditionally go through a 
more formal kind of education in higher ed, they have not had 
any inquiry instruction in their college experiences, they are 
not really prepared to teach inquiry and they are not committed 
to it as an approach to instruction.
    So we really need that change at the middle school and high 
school level as well. Middle school gives us some opportunity 
because we have, many teachers who are moving up from 
elementary school who are elementary school science specialists 
who really got so excited by it that they wanted to teach it at 
a higher level. And they have been able to bring a great sort 
of elementary school approach to middle school, but with more 
content understanding.
    Dr. Hill. Yes

                          IMPROVING HIGHER ED

    Dr. Miele. I think that we need to get our college teachers 
also encouraging our undergraduates to think about how the 
discipline evolved and how we know what we know and what you 
need to do to get to the next step because myself as a graduate 
student, it was only my last year at college that I was 
introduced to how we know what we know. And that was just a 
short step. Then I had to start figuring out new knowledge 
myself the next year as a graduate student.
    So we need some changes in higher ed as well and that, I 
think, will allow more people to stay in STEM who think that 
they might. We are losing way too many potential science and 
math majors in their freshman year.
    Dr. Hill. We are working with our math ed people at 
Virginia State in particular to try to put some of this 
innovative pedagogy into their content for teaching math 
teachers. So that is an issue.
    And I have also found even at the middle and high school 
level that often the math and science teachers, let me think of 
the charitable way to say this, they are not able to do much 
more than process facts either. I mean, they are not very 
inquiry based in their background.
    Mr. Mollohan. Did not learn the approach?
    Dr. Hill. They did not learn it that way.
    Dr. Miele. They did not learn it that way.
    Dr. Hill. Yes.
    Dr. Miele. They are good memorizers.
    Dr. Hill. Yes. Particularly in math, I mean, they can plug 
in a formula, but they are not able to conceptualize the 
connections and what this formula is actually saying in terms 
of the real world.
    Mr. Mollohan. Can teachers be retaught? Can they be 
reoriented? Can they be retrained?
    Dr. Hill. Yes. And that is what we are doing with this 
algebra project approach. We are mainly focusing on the 
teachers and their pedagogical skills.
    Dr. Miele. Sixty hours of professional development that 
actually is inquiry based, actually is active learning.
    Mr. Mollohan. I am sorry. Say that again.
    Dr. Miele. Sixty hours seems to be the minimum for 
transformation.
    Mr. Mollohan. You said that before. To re-educate and to 
educate?
    Dr. Miele. Yes.
    Mr. Mollohan. We are coming to a close. I would like to 
give you all an opportunity for any final thoughts that you 
would like to put on the record for the Committee.
    Dr. Miele, why don't you go first?
    Dr. Miele. I think I would like to take this opportunity to 
speak again about the issue of the support for college faculty 
to make sure that these transformations can happen.
    In order for us to have the most robust STEM practitioners 
at the highest level, we need the best instruction at the 
college level and we need to make sure that junior faculty who 
embrace inquiry do not get pushed out by senior faculty who are 
threatened by it or do not see its value.
    I do not know what you can do to protect them, but it is an 
important issue.

                EDUCATION REQUIREMENTS IN SCIENCE GRANTS

    Mr. Mollohan. Well, why don't you help us? We fund NOAA and 
NASA, NSF. We do not fund the Department of Education. But in 
those accounts, how do you think that we could help----
    Dr. Miele. Traditionally----
    Mr. Mollohan [continuing]. Within that area?
    Dr. Miele [continuing]. As I understand the--I have been 
out of the pure science grants area for 20 years myself having 
recreated myself as a science educator, but pure science grants 
have a small requirement that there be an educational 
component.
    If that could somehow be made a little bit more robust, a 
higher amount of the score for the grant actually count for 
meaningful inclusion of inquiry learning or the quality of 
their instruction in their undergraduate class work, how will 
this research transform their undergraduate class work, that 
way, it would be a science grant, so it would count for 
promotion and tenure, but it would actually have some 
meaningful impact on undergraduate instruction.
    Mr. Mollohan. Well, we will ask our NSF friends when they 
come to testify about that.
    Doctor.
    Dr. Hill. I would piggyback on what Dr. Miele just said. 
The grants process, as I mentioned earlier, is kind of stacked 
against young faculty members, particularly at teaching 
institutions. If there are some ways that NSF could come up 
with some more creative-- I mean, they do a lot. I do not want 
to complain about NSF because they have a tremendous amount of 
science education funded programs.
    But if we could just add another more innovative funding 
mechanism of, say, a research initiation grant that could be 
given to a new faculty member. I mean, the way it is now the 
grants are, the proposals are evaluated by, you know, peers in 
the field and so they are looking at credentials, they are 
looking at publication record, they are looking at what else 
they have done.
    And so if we want to get to where particularly the minority 
kids are, which are HBCUs, we need to have some more open kinds 
of innovative funding mechanisms that allow these faculty 
members to develop their program of research. And by necessity, 
the people they would be working with would be minority STEM 
majors.
    So I guess this would be under the term of research 
initiation grants. If there could be more research initiation 
grant funding at places like NSF, it would be very helpful in 
this area.
    Mr. Mollohan. Could be more research initiation grants?
    Dr. Hill. Yes, to allow the researchers where----
    Dr. Miele. Research one institutions.
    Dr. Hill. Exactly. Since I guess--and not just HBCUs but 
Brooklyn College and--
    Dr. Miele. Yes. Places that are research one are going to 
have a higher opportunity to get funding for their junior 
faculty to do pure research. Those of us who are at 
institutions where research is not the high priority, but 
education is, our junior faculty are at something of a 
disadvantage.
    Mr. Mollohan. In the NSF grant process?
    Dr. Miele. The NSF grant process, yes.
    Dr. Hill. NIH, you know, all the funding mechanisms.
    Mr. Mollohan. And so what good do we achieve if we address 
that problem at the----
    Dr. Hill. Well, for one thing, you are kind of bringing 
together research and education because these are the places 
where the education is going on, where the teacher education is 
going on.
    Mr. Mollohan. But they are not the places that generally 
have favorable responses from NSF for grant----
    Dr. Hill. Yes.
    Mr. Mollohan [continuing]. In response to grant----
    Dr. Hill. Exactly.
    Mr. Mollohan [continuing]. Solicitation?
    Dr. Hill. Yes.
    Mr. Mollohan. And so to fix that, it should be fashioned to 
bias----
    Dr. Hill. And, again, NSF does a good job.
    Mr. Mollohan. No, no, no. We are not bashing NSF.
    Dr. Hill. Yes. Another track would be good.
    Dr. Miele. Integrates research and instruction----
    Dr. Hill. Yes.
    Dr. Miele [continuing]. That would be targeted for 
nonresearch institutions. So the goal is to bring young people 
into the research paradigm.
    Dr. Hill. Because NSF has some programmatic kinds of grants 
for things, places like HBCUs. They do not have the research 
dollars targeted for kind of start-up type research careers. 
And that is the kind of thing that we need.
    Mr. Mollohan. Okay. I am going to ask you all for the 
record, this is my 28th year and I think 20 probably--anyway, 
long enough on this Committee and I believe every hearing that 
I have sat with NSF, this question of youngsters in America 
falling behind by all kinds of measurements, youngsters around 
the world with regard to math and science education has always 
been a part of the presentation.
    And, okay, well, what are we going to do about that or are 
we just being scared so we will fund more for NSF? What is 
going on here? After 25 years, there ought to be some really 
concrete approaches to dealing with the issue, number one. And 
then there ought to be some desired results coming out of it, 
number two.
    And during that period, not being an expert in the area, 
but the concrete proposals and the desired results have eluded 
us, I think. And so I think it is fair to take the kind of 
testimony you are giving us and ask NSF, look, let us get down 
to brass tacks here. How do we actually achieve those desired 
results?
    And so I would like to ask you to in writing, if you would, 
and you have been so forthcoming here to begin with in your 
testimony and your attendance, but to address that question.
    We fund NSF. We do not fund the Department of Education. 
But NSF obviously plays an important role here, particularly at 
the research level. So how do we work with NSF through the 
appropriations process to help facilitate the desired results 
that everybody wants as an outcome?
    [Clerk's note.--The written material follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Dr. Miele. One of the things that I discovered in working 
with the Museum of Natural History and the zoo is that there is 
no NSF funding for formal partnerships with informal science 
institutions.
    In other words, for a school district to say during school 
hours we want these informal institutions to help us with our 
State mandated core curriculum instruction, it is only for 
after school and enrichment. Well, here is this wonderful 
resource that can expose young people to career opportunities 
in the sciences and, you know, all of our major cities have 
them and many of our college campuses have institutions 
associated with them that can fill this role. Even the Boy 
Scouts, the Girl Scouts, Explorer Scouts, institutions like 
that that have a strong natural knowledge mandate----
    Mr. Mollohan. Well----
    Dr. Miele [continuing]. Can help with this.
    Mr. Mollohan [continuing]. Maybe the people who----
    Dr. Miele. That is a new area that is not funded right now.
    Mr. Mollohan. Yes. Maybe the peers that review, and I am 
not interrupting, I want you to hold your thought and I have 
trouble holding mine, so let me say it, maybe the peers who 
review these applications do not appreciate that the importance 
of those partnerships and----
    Dr. Miele. It is actually in the guidelines that you cannot 
do it for a formal partnership. It is only for enrichment and 
outside school hours. So----
    Mr. Mollohan. Okay. I do not know exactly what that means, 
but I am going to ask you to put that in your written----
    Dr. Miele. Okay. And one thing I wanted to mention is that 
when we judge ourselves against the international standards, 
remember that places like China and Russia do not give their 
young children who have talent in math and science the choice 
of what to do with their lives. They are funneled into math, 
science intensive instruction from the time they are 12 years 
old. They are begun on college level course work much earlier 
than our students and part of that is because they are not 
given the chance to, you know, to be Shakespeare.
    So they get what they are putting in. They are creating 
scientists and mathematicians for its political and social 
construction. And it makes sense for a building economy to 
force their students perhaps into----
    Mr. Mollohan. They are pushing and we are trying to pull.
    Dr. Miele. Exactly. Exactly. We are trying to, you know, 
cajole, coax, and we are not doing it very effectively.
    As I say, I myself left a career in science because it was 
not supported, frankly. It was a difficult, very difficult life 
writing grants, hoping you will get them, exposing yourself to 
all kinds of dangers for the benefit of mankind and not--
frankly, I did not make enough money as a young scientist to 
pay for my kids' childcare and my extra travel.
    Mr. Mollohan. It is a dangerous world out there no matter 
what profession you are in.
    Dr. Hill, final thoughts? You do not have to.
    Dr. Hill. Yes. I mean, I think most of the things have been 
said already. Anything you all can do that will bring more 
funding in this area, I think, is great.
    And I think again if you look at our political will as a 
nation, we have not had science as a priority and our funding 
has reflected that. And so anything you can do that would kind 
of get the word out that we need to make this a priority, I 
think it is important.
    Mr. Mollohan. Well, funding is going to be scarce which 
makes your thoughts about this more important so we can focus 
scarce resources. And we so very much appreciate your 
appearance here today. I thought it was an outstanding hearing, 
and we look forward to your written statements and any other 
thoughts that you have.
    I know you are working closely with our excellent staff 
which we appreciate your having done in preparation for this 
hearing. I notice with your eyebrows, you recognized I am right 
about----
    Dr. Hill. Yes.
    Mr. Mollohan. Thank you for your testimony here this 
morning.
    Dr. Hill. Thank you.
    Dr. Miele. Thank you.
                                        Thursday, February 4, 2010.

          SCIENCE, TECHNOLOGY, ENGINEERING AND MATH EDUCATION

                               WITNESSES

DR. JULIE LUFT, ARIZONA STATE UNIVERSITY
DR. CRAIG STRANG, UNIVERSITY OF CALIFORNIA, BERKELEY
    Mr. Mollohan. The hearing will come to order. Thank you all 
for being here today. And we are starting a few minutes late.
    We ordinarily would not start without the Minority 
representative, but Mr. Wolf is running a little late, and it 
is fine with him if we start. So we are going to start.
    Welcome. Good morning to the second hearing of the 
Commerce, Justice, Science Subcommittee on Science, Technology, 
Engineering, and Mathematics, STEM, Education.
    In testimony yesterday, we heard about two examples of STEM 
education activities and today we will hear two more. We also 
learned that development precursors do not always resemble the 
skill to which they are leading and how the environment around 
schools can be effectively used in inquiry-based education.
    Did you not catch that? Yesterday we learned that 
development precursors do not always resemble the skill to 
which they are leading and how the--to which they are leading 
and then we also learned how the environment around schools can 
be effectively used in inquiry-based education. I will let you 
think about that.
    Testimony helped us become aware of the challenges to 
transforming science education and including student activities 
such as devising original experiments, observing the natural 
world, using math and reasoning with data.
    Today we will hear from witnesses recommended to us by NSF 
and NOAA as outstanding recipients of federal education funding 
provided through our appropriations. These witnesses are Mr. 
Craig Strang from the Lawrence Hall of Science at the 
University of California, Berkeley, and Dr. Julie Luft of 
Arizona State University.
    Mr. Strang has pioneered the development of materials that 
help enable inquiry in STEM education. Dr. Luft has been both a 
middle and high school teacher and an educator of secondary 
school science teachers. Dr. Luft is currently the Director of 
Research for the National Science Teachers Association.
    And thank you both for coming, being here today. Your 
written statements will be made a part of the record and then 
we would invite you to present your oral testimony and then we 
will follow with questions.
    Dr. Luft, why don't you begin?
    Dr. Luft. Chairman Mollohan, thank you today for inviting 
me here. I am honored to be here to talk about inquiry-based 
science teacher education.
    As you know and as you stated, I have been involved in 
science education for a long time. I was a former middle school 
and high school teacher and currently I am an academic in an 
institution of higher ed. Specifically I am a professor at 
Arizona State University.
    In addition to my duties at NSTA, I am also an associate 
editor for the Journal of Research and Science Teaching and I 
am also an incoming fellow for the American Association for the 
Advancement of Science.
    As you know, the National Science Education Standards have 
led the way in our thinking about science as inquiry. This 
document has made it explicit that science as inquiry is a 
content standard. That is something that all students should 
know about, have the abilities to do, and that they should 
understand.
    And in the standard, it describes specifically what science 
as inquiry is. It includes among several things being able to 
ask questions, collecting data, analyzing that data, and 
sharing those findings.
    In science teacher education, we think a lot about this 
standard and we think of it in two ways. We think of it as a 
way to teach and a way to learn. And our work in this area 
focuses on helping teachers to learn how to teach using this 
method as well as understanding how students learn in an 
inquiry setting.
    Now, I know this sounds very simple, but it is really quite 
complex. And this is where most of my work has been. I have 
pondered how we can better assist teachers in implementing 
science as inquiry. My current work, which is funded by the 
National Science Foundation, is targeting a unique group of 
science teachers and that is teachers in their very first 
years.
    So this is what we know. We prepare teachers to teach 
inquiry and we provide wonderful professional development for 
them to support their learning of inquiry. But when they first 
graduate, when they first come out of their teacher preparation 
program, they have no rich support to do inquiry.
    So my premise was what if we intervened in that period and 
actually gave them very rich support what would happen. And NSF 
funded me to find out.
    I followed 120 teachers over three years, the first three 
years, and we found out that with rich support to teach 
science, these teachers actually enacted more inquiry. And what 
we are finding out now as we go into the fifth year of this 
study, it is being sustained.
    So this research is really important in that it gives new 
insight into how teachers can develop their practices and how 
we can strengthen them and how we can sustain them.
    From this research, we found in addition to that conclusion 
that science induction, and that is what we call it, support is 
critical.
    We have also found that teachers have great advances in how 
they understand how students learn in these first few years. In 
teacher preparation, we focus on that. But when they actually 
hit this classroom, their understanding of how students process 
science takes incredible leaps and bounds.
    So this work has been critical. It has allowed me to work 
with several federal agencies. And I am hoping to continue this 
work. And in thinking about that, I was thinking about some key 
suggestions I might have for federal agencies.
    First off, I think it is really important that this work, 
as work of a lot of my colleagues, that we think about how do 
we translate this or support this work so it can go into 
practice. We know this now. We found this understanding, but 
how do we actually put it in the hands of people who can use 
it.
    I think there is also the potential for funding agencies to 
think about long-term support. We are beginning to understand 
more about how teachers develop their practice and how students 
learn, and these are going to be projects that require a lot of 
financial support to really get at some very important 
understandings.
    And, finally, I think it is really important that we just 
continue our support for research in science education.
    So I want to thank you very much for having me here today. 
I hope we can continue to talk about some of these issues, and 
I am looking forward to answering any questions you may have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Mollohan. Thank you, Dr. Luft.
    Dr. Strang.
    Mr. Strang. Thank you, Mr. Chairman, for inviting me to 
testify about the importance of inquiry-based science education 
and thank you for supporting the role that NOAA, NSF, and NASA 
play in improving science education. You can be proud of their 
work that improves the lives of young people, provides 
assistance to teachers, and strengthens our workforce.
    If I leave you with one message, it is science agencies 
must play a leadership role in the improvement of science 
education. Achieving science literacy for all Americans and 
preparing future scientists requires direct involvement from 
today's scientists. Science agencies must have the mandate and 
funding to devote significant resources to science education.
    I am Associate Director of Lawrence Hall of Science, 
University of California, Berkeley. LHS is a national leader in 
the development of K-12 inquiry-based science and math 
instructional materials. One in five children in the U.S. uses 
curriculum materials developed at Lawrence Hall of Science.
    I am also Director of a NOAA Office of Education sponsored 
project, the Ocean Sciences Curriculum Sequence for grades 
three through five. This grant created a partnership between 
the LHS Center for Ocean Sciences Education Excellence and 
Rutgers University to provide students with inquiry-based 
experiences in ocean sciences. These materials will become the 
most widely used elementary ocean sciences curriculum 
nationwide. They were developed by science educators, 
scientists, and educational researchers, tested by the 
developers in local classrooms in Berkeley, then field tested 
by 70 teachers nationwide to ensure their effectiveness and 
broad applicability. We are now analyzing the very positive 
field test data to revise the final version of the materials.
    My written testimony provides more information about those 
materials, including our evidence of their effectiveness. But 
this project would not have been possible, however, without 
previous strategic investments by NSF and NOAA to build on and 
change the landscape of science education that has made a 
project like mine possible.
    For most of my career, marine education has resided at the 
distant margins of K-12 science education. Understanding the 
ocean is critical to the health of our planet. Climate change, 
ocean acidification, extinction, hurricanes, tsunamis dominate 
the news. California alone has a $43 billion ocean economy. 
Yet, ocean topics are idiosyncratically missing from national 
and state science standards.
    The U.S. Commission on Ocean Policy reported that the 
absence of ocean sciences in schools has resulted in a 
generation of Americans ignorant of the importance of the 
ocean, placing our economy, environment, and national security 
at risk.
    So in 2002, the NSF Division of Ocean Sciences invested 
$3.5 million to establish a national network of Centers for 
Ocean Sciences Education Excellence or COSEE. I am the Director 
of one of those centers.
    COSEE has coalesced and elevated ocean sciences education 
by engaging scientists and science educators in mutually 
beneficial partnerships. Ocean scientists themselves believe 
that education is so critical they now devote their research 
dollars to the endeavor.
    In the early days of COSEE, we first began to discuss 
creating an ocean literate society by infusing more ocean 
topics into the K-12 science education standards.
    Then in 2004, the NOAA Office of Education made a strategic 
investment, just tens of thousands of dollars, to convene 
meetings between leaders of COSEE, NOAA, National Geographic 
Society, the National Marine Educators Association, and College 
of Exploration to define ocean literacy and the few ocean 
concepts that should be in K-12 science standards.
    The result was the publication of this brochure that 
describes seven big ideas that all twelfth graders should 
understand about the ocean. This ocean literacy brochure is a 
transformative consensus document. There have been nine 
conferences in three countries devoted to it. It has resulted 
in the publication of a high school textbook, another high 
school course, several museum and aquarium exhibits, including 
here at Sant Ocean Hall at the Smithsonian, several lecture 
series and web sites. Several states have incorporated some 
ocean concepts into their standards as a result and this is the 
new context that has been created for the development of our 
ocean sciences curriculum sequence.
    NOAA and NSF funding brought coherence and prominence to a 
once marginalized domain of science education. Their 
involvement ensures that science education keeps up with the 
fast-moving world of scientific discovery.
    Public understanding of science leads our young people to 
be creative, thoughtful decision makers and is a key to the 
improvement of our environment, economy, and quality of life.
    Thank you, Mr. Chairman and all the members of the 
Committee, and please continue to support science education 
within NOAA, NASA, and NSF.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                 SUPPORT FOR INQUIRY-BASED INSTRUCTION

    Mr. Mollohan. Thank you. Thank both witnesses.
    Today we are really focusing on and learning more about 
STEM education, the status of STEM education. Yesterday I asked 
one of the witnesses, ``Is there any credible debate out there 
as to the benefit of inquiry-based education to teach STEM 
courses?'' And the answer was no.
    And then it became clear as the hearing went on, when you 
talked to the witnesses, that while there may not be a debate 
at some level about the superiority of inquiry-based education 
for these disciplines, there certainly was a lot of difficulty 
in migrating that technique out through the real educational 
systems across the country, which seems to be a bit of an irony 
or at least a tragic problem.
    If there is really no debate that inquiry-based education 
is by far the superior way of teaching young Americans about 
science, then why is it not being embraced universally across 
the school districts of the country?
    Dr. Luft.
    Dr. Luft. You know, that is a really good question. We do 
see that there are more and more good inquiry curricula that 
are being put in schools, but I think you have to realize that 
this curriculum costs money. And schools, especially right now, 
are making choices about what they are going to fund. Over the 
years, they have made these choices, too. So it is acquiring 
the curriculum; it is also supporting the curriculum.
    So for the teachers that I work with in the Phoenix area, 
many of them have the FOSS kits, but some of them are in 
districts that may not have a science coordinator who can help 
provide professional development for the teachers to support 
them in using these kits appropriately. If they get the kits, 
learning how to use them in ways that are really conducive to 
developing understanding is critically important.
    I think another concern on the teacher education end, which 
I am comfortable to speak about, is that we really need to work 
in the science education community on who knows this. We need 
to work to help our teachers understand how to use the kits 
when they go into the schools. But sometimes there is a 
disconnect between the materials and supplies we have at the 
University versus what is in the local schools.
    So while there is great curriculum, that curriculum varies 
by district, and it also is supported in ways that are not 
equivalent. Some districts may be able to or have a science 
coordinator and other districts may not. So supporting that 
enactment is very difficult.
    Mr. Mollohan. Well, I would like to get down to the detail 
of that a little later.
    But, Dr. Strang.
    Mr. Strang. Mr. Strang.
    Mr. Mollohan. I am sorry.
    Mr. Strang. It is okay.
    Mr. Mollohan. It is Dr. on your card there.
    Mr. Strang. Oh. Well, I appreciate the honorary degree.
    Mr. Serrano. We give everybody titles.
    Mr. Honda. No money, but----
    Mr. Serrano. Dr. Mollohan.
    Mr. Strang. I agree with everything that Dr. Luft said and 
I think resources and money are certainly an issue.
    But aside from the current budget crisis that, for 
instance, California schools are in, I think there is another 
issue that is just as profound with the implementation of 
inquiry in our science programs and that is the issue of 
instructional time, not so much money.
    We are finding in school districts across the country, but 
especially in California, that even after the adoption of the 
FOSS Program or other inquiry-based materials that because of 
the emphasis on accountability and English language arts and 
mathematics at the elementary level, that elementary science 
programs have been virtually dismantled.
    In the San Francisco Bay area, the Lawrence Hall of Science 
did a study in 2008; we found that the average elementary 
school teacher in the eleven Bay area counties spends about an 
hour and 15 minutes a week teaching science. And we know that 
most of that time is spent in grades four through six or four 
through five. So we figure that at the K through two or K 
through three levels, teachers are spending maybe 30 minutes a 
week teaching science, and you cannot do inquiry in that amount 
of time.
    So while we know, and I think most teachers today 
understand the importance of inquiry and the difference in 
student understanding when they present concepts using inquiry 
versus when they present them through other direct instruction 
methods, even though teachers understand that, they are in this 
constant conflict over managing the time of their instructional 
day.

                SUPERIORITY OF INQUIRY-BASED INSTRUCTION

    Mr. Mollohan. If I might. The witnesses yesterday made that 
point that inquiry-based, while most people, and you just said 
while most people acknowledge inquiry-based, is superior, in 
effect, you said that. In spite of that testimony yesterday and 
just for purposes of discussion here, I really wonder about 
that and that seems to be a real threshold question to me.
    As much as people are ringing their hands about America 
being behind in teaching math and science, if everybody 
believed, that there was this consensus out there that inquiry-
based education is the way to go, then I do not know that we 
would be having difficulty developing materials here at NOAA 
and all the other places materials are being developed and 
trying to get it out on a onesie and twosies basis from bright 
people who are working hard and really trying to pull the kind 
of organizations together to get the curriculum and get the 
teachers taught and then actually support them in the field. I 
do not think we would be having so much of a problem about 
that.
    So my question really goes to the premise that everybody 
believes that inquiry-based education is a superior way to 
educate these young people in science.
    Mr. Strang. I think that there is a growing consensus about 
inquiry and the effectiveness of inquiry, but alternatively, 
science education is not a priority. So there are many school 
districts in California that are telling us, well, we would 
have adopted FOSS in the last science adoption year, but we 
knew we could not do it justice and it is expensive and if we 
are not going to use it, why would we pay for all those kits? 
So we just bought the textbooks.

            IMPLEMENTATION OF INQUIRY-BASED STEM INSRUCTION

    Mr. Mollohan. Okay. Well, if everybody agrees that inquiry-
based education is the way to teach science, then we ought to 
be about how does the Department of Education migrate inquiry-
based education like that throughout the country if that is how 
we ought to be teaching science to youngsters.
    Dr. Luft. So I think this is again a complex problem. We 
can agree. And I think if you talk to teachers, we agree that 
science as inquiry is incredibly important, but there are 
factors that really bear down and constrain the teaching of 
inquiry, no matter how much we know or how important it is.
    And you are right. The testimony yesterday really hit on 
this hard that the testing and the accountability has 
constrained the teaching of science as inquiry.
    At the secondary level, I have walked into science classes 
to watch teachers teach, but I have been told the science class 
is canceled at the secondary level to prepare for testing. The 
kids were getting skills to take the test, so we are losing a 
period of time. This is huge.
    But the other piece is communities. I think when we have 
lost a lot of funding for the professional development of 
teachers, when that funding went away, teachers did not have 
the support or the communities to constantly be thinking about 
their practice and enriching that practice.
    Mr. Mollohan. Thank you. We will follow-up.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman. Let me just pursue this 
a little bit more.
    How is it that we define inquiry and why is it only 
confined to STEM and why do we focus only on children when it 
is the teachers that teach?
    Are we focusing enough time on the teachers to be able to 
do that across the curriculum instead of just focusing on STEM, 
because you have instruction and content, process and concepts? 
You have deductive, inductive approaches, too, but process 
seems to be where inquiry is.
    So I was wondering, combining all these questions in one, 
do you have some sort of idea what it is that people see that 
is going on because I really do not see a constraint.
    Dr. Luft. So I think you are asking me two questions--that 
is what I am hearing. I think you are asking me what is it that 
makes science as inquiry unique. First off, that----
    Mr. Honda. I am asking you what is inquiry?
    Dr. Luft. What is inquiry?
    Mr. Honda. What is teaching inquiry?
    Dr. Luft. Yes.
    Mr. Honda. I mean, if a teacher cannot teach it, how can 
they expect it? Are we sure that the teachers are being 
instructed on how to do that?
    And if it is only done in four and five, it seems to me 
that K through 8 seems to be a strand of instruction when you 
do inquiry because we ask our youngsters to check for 
understanding. We inquire, and that is something that 
youngsters can mimic from teachers when we do that. Am I off 
base or what?
    Dr. Luft. Do you want to--this is----
    Mr. Strang. Yeah. Well, there is a variety of----
    Dr. Luft. There is a variety----
    Mr. Strang [continuing]. Directions here. Yeah.
    Dr. Luft. So I think that we are really trying to, if I 
understand this, I think we are really preparing our teachers 
to do science as inquiry. And in the research that I do, what 
we really see is that it is constrained when they first go into 
the school.
    When they graduate from preparation programs, I think they 
know and they understand what science as inquiry is and they 
want to practice this. But when they first hit the schools, 
they can be constrained in the environment if there is not 
adequate support or if their other colleagues are not engaging 
in this. So it is not-- it may not happen for teachers.
    Mr. Honda. It seems to me that through any subject matter, 
one can use the inquiry method and teach youngsters by modeling 
that. And it is not only-- unless you are asking-- trying to 
teach the scientific method in going through those steps and 
then you do the observation, note taking, and then you----
    Mr. Strang. Right.
    Mr. Honda. You still can do that, I think, in other 
instructional areas where--in an integrated approach to a 
curriculum and teachers get together trying to figure out how 
we are going to get this as an outcome.
    And I understand time on task, but I wonder whether we 
really use enough time to teach and to rest assured that we 
are, in fact, agile enough to understand how to use this in 
other curricular areas.
    Mr. Strang. Right. So I will respond with an example. I 
think there are many things that are unique about inquiry in 
science, about science inquiry. And at the same time, we are 
doing quite a bit of work at the Lawrence Hall of Science right 
now trying to understand the relationship between science 
inquiry and literacy skills. And we think about good thinkers 
in language arts classrooms as being inquirers into text and 
inquirers into ideas. So there is some overlap there.
    We are in the process of developing a new set of materials 
that I think by the time of the next round of science adoptions 
will be available on a large scale. The new program is called 
Seeds of Science, Roots of Reading and it explores the synergy 
of the integration between science and literacy and how 
students very consciously and directly thinking about the 
similarities and differences in how they investigate phenomenon 
versus how they investigate text and ideas.
    Mr. Honda. So you are saying that there are these skills 
that build upon each other?
    Dr. Luft. Yes.
    Mr. Honda. There is a hierarchy of skills in inquiry?
    Dr. Luft. That is right. And that there is a curricular 
economy in integration that could help to overcome some of 
these instructional time issues that are such a challenge at 
the elementary level.
    So we have students that are doing investigations in their 
science class and reading text, reading student reading books 
that are written in such a way that they elaborate the concepts 
that the students are investigating and teach reading skills at 
the same time.
    Mr. Honda. But you are assuming that they are using a 
textbook as a guide rather than a teacher's insights in 
understanding the hierarchy of these skills and incorporating 
that as she or he teaches and leads youngsters through a 
process?
    Dr. Luft. Yes, absolutely. So teacher preparation and 
professional development and the skilled nuanced teacher are 
essential, but also good materials that allow a teacher to 
follow along through a teacher's guide that embodies inquiry is 
also very important.
    Mr. Honda. Well, that is my point, Mr. Chairman, that if 
the teachers only depend upon the textbook and they are not 
taught to have the insights and integrate within themselves 
that skill and understanding of where youngsters are and how to 
move and weave this thing, we may not be paying enough 
attention to where the problem really lies. And it is us adults 
assuming that we can teach to those things because a scientist 
is skilled in what they do. And we just all of a sudden 
understood the contact between physical and biologic kinds 
because we are able to get down to the nano scale. We have 
other inquiries that we start to develop, but the basics are 
still there.
    I challenge what you guys are saying about instruction and 
only gearing inquiry to the area of STEM.
    Dr. Luft. Maybe I can take another--so science as inquiry 
is very unique to science and it is different. Mathematics is 
problem solving. And in mathematics, a student in math would 
never be able to look at a phenomena as an advanced 
mathematician does and create the formulas or the proofs that 
are needed to explain the mathematics. But in science, we are 
really interested in understanding the natural world. And it is 
about making explanations about that natural world using 
argument, using evidence, collecting data, and these are unique 
pieces to science as inquiry and they are not necessarily 
transferable to some of the other areas by the nature of the 
content with which they are associated.
    Mr. Honda. But is not math a language of science?
    Dr. Luft. Math is.
    Mr. Honda. It is a tool of science. And, I mean, if you 
want to get that way, you can send a youngster through a 
neighborhood and over time, they can figure out the facts and 
say every time I go down the street, I am going to get hit, so 
I have to figure out another way of getting around it.
    Intuitively they have ways of looking at a problem and 
solving it and we just have not figured out how to transfer 
some of that----
    Dr. Luft. Right.
    Mr. Honda. [continuing]. Just trying to have us reshift our 
thinking. And then, Mr. Chairman, if I could just close with 
this one comment.
    We have something like a little over $2 billion invested in 
I think 120 STEM education programs by 12 agencies, none of 
which are coordinated. Do you think that--you know, I have a 
bill called ESTEM where we asked ourselves to gather all this 
information. We have a repository where we can take advantage 
of the information that is gathered by all these grants and 
research.
    Is that a need as far as having a place where we can go and 
get the information that has already been figured out but never 
been shared or coordinated or have some cohesion about what we 
have already?
    Mr. Strang. Well, coherence is good. So the more 
coordination that can be achieved through the science agencies, 
the better. And different science agencies are engaged in 
different fields of scientific discovery and so have different 
new material that gradually should become part of the science 
education curriculum nationwide.
    So there is a role for the separate agencies to be 
exploring and discovering in their respective domains. And 
then, of course, education efforts should be coordinated with 
the goal of coherence. And we are hoping that the common 
standards, the common core will help to achieve some of that 
coherence in the near future.
    But a lot has changed in the world of science discovery 
since the National Science Education Standards were published 
in 1996. So clearly we need some updating of what we think 
students should know and understand by the end of twelfth 
grade.
    Mr. Honda. So we do not have anything that does that right 
now?
    Mr. Strang. Correct.
    Mr. Honda. Do we need one?
    Mr. Strang. One what?
    Mr. Honda. To do that function that you just described.
    Mr. Strang. One agency or one what?
    Mr. Honda. Way. I mean, should we spend some time to do 
that? Is it worth the time?
    Mr. Strang. Sure. I mean, I think that coordination is 
important and that the discoveries that are coming out of NOAA 
and NASA and NSF have to be looked at in the context of what 
are the salient ideas that kids need to know in order to have 
access to these new discoveries as adult learners.
    Mr. Honda. I would ask if you would not mind just reviewing 
that bill and see if there is a--just getting your reaction, 
professional reaction.
    Mr. Strang. Of course.
    Mr. Honda. Appreciate it. Thank you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Honda.
    A recess we have. I apologize to the panel. It is part of 
the process here. We have about five votes and a recommit which 
means we are probably recessing for about a half hour.
    Mr. Strang. Okay.
    Mr. Mollohan. And we will be voting down there and so thank 
you for your patience.
    Mr. Honda. Thank you.
    [Recess.]

                       ASSESSING STUDENT INQUIRY

    Mr. Mollohan. The hearing will come to order. We will 
continue the hearing by calling up Mr. Schiff.
    Mr. Schiff. Thank you, Mr. Chairman. First of all, I want 
to say, Berkeley, we have a witness from Cal, I mean, where are 
the standards, Mr. Chairman? What, what--sorry, it is the 
Stanford in me coming out. But I was reading your written 
testimony, and plainly if you look at the map here you can see 
that the land is far more than 30 percent. I mean, look at 
that. Just look how big Antarctica is. It could not possibly be 
less than 50 percent land.
    Thank you both for coming today. I concur completely with 
the thrust of your testimony in terms of inquiry-based 
teaching. And when I think back about my high school years in 
particular the lessons that stand out to me were very inquiry-
based, were very kind of innovative and not rote memorization. 
I had a wonderful teacher, for example, who gave us a test, a 
pop quiz that was impossibly difficult. And we were all in a 
panic because it was horribly impossible. And we were failing 
it. And then he revealed afterwards that this was the same exam 
they gave African Americans in order to qualify to vote. It was 
the polling exam. And it was a very clever way of teaching us 
that the exam was meant for them to fail. And it was a lesson I 
remember to this day because of the innovative way it was 
taught. I mean, had they just said memorize the fact that they 
used to require African Americans to take this test because 
they wanted them to fail and not be able to vote, I would 
probably never have remembered that. But at one point he would 
assign more and more homework and more and more homework. It 
got impossible to do and we got together as students and 
protested. And he was teaching us about collective bargaining. 
It was really quite wonderful.
    And the question I have is, you know and I think this is 
pertinent in light of the fact that we are looking at reforming 
No Child Left Behind. There are some laudatory goals in No 
Child Left Behind. We want ways to measure student achievement. 
We want to be able to compare school to school. We want parents 
to be armed with information so they can say to schools 
similarly situated socioeconomically, et cetera, why is one 
doing so much better than the other? The parents at the school 
not doing so well can say why are our kids not doing as well? 
How do you measure achievement in an inquiry-based learning 
environment? If you are not teaching to the test, how do we 
measure, how do we hold accountable? What are your thoughts on 
that?
    Mr. Strang. Well, there are assessment tools available that 
look at the requisite inquiry skills and I think those tools 
are available. And again, the question is are the results of 
those assessments, when we look at them and find out how 
students are doing, are those results valued compared to 
results of content knowledge, understanding, and even more 
importantly reading and math skills? So I think the tools 
exist. They are a little bit more complicated to administer. 
They are more like performance tasks, and open ended 
constructive response items on assessments. They tend not to be 
multiple choice, scannable tests. But they certainly exist and 
are available for school districts that want to use them. The 
question is, what is the value of using them if nobody cares 
what the results are?

                       CREATIVITY AND INNOVATION

    Mr. Schiff. It has always been considered a strength of 
education in the United States, and maybe part of our culture 
also, this propensity we have to kind of question things, not 
do things by rote, think outside the box. It has been a 
competitive economic advantage for us vis a vis other countries 
that have turned out much greater numbers of college graduates. 
How have we been able to do that? Are we doing less of it now 
because we are, you know, sort of teaching to the test, and 
going to a more rote system? What are other countries doing? Is 
China teaching with an inquiry-based system, or Japan, or 
Germany, or India? How do we compare? Are we losing our 
advantage?
    Dr. Luft. I think the U.S. education system is the best in 
the world. And it gives a lot of graduates, we can say this at 
the university level, people come from all over the world to 
study in our system. So this system is amazing in its 
commitment to every student in this country. And we have to 
realize when we think broadly not all countries are committed 
to every student. So that is something to always keep in mind.
    But I think one thing that is really promising that we are 
doing in terms of even coming more to a consensus about what we 
should be teaching in science is we are working to really 
identify some core standards. And I know the common core is 
coming up, it is up in English and mathematics, they are 
working on that, this is promising. And what it brings forward 
to science are the key ideas and the central ideas that are 
really important that we need to come around. So we are not 
trying to teach a lot of things; we are teaching the very few 
important things really well. And when we look at other 
countries, that is what we see. We see some very clear 
expectations of what students are to know and opportunities for 
those students to learn. But when we do look at other countries 
too, I want to stress this, in some of the countries we do not 
see as much inquiry as we are really promoting here. And I 
think the value behind inquiry is the innovation that it gives 
this country to be on the front edge of the ability to solve 
problems and to really think outside the box. This is something 
that this country has always been dedicated to. And I think our 
curriculum really supports that. And I am encouraged greatly by 
thinking about the common standards. I think that will really 
help move us along greatly.
    Mr. Strang. I will just add that at the Lawrence Hall of 
Science at U.C. Berkeley we have a fairly constant flow of 
visitors from Japan, China, Singapore, et cetera. Countries 
that all score higher than the United States in the 
international assessments of math and science. And they are 
coming to the United States, and to California, and to Berkeley 
in particular, to learn about inquiry. And they are scoring 
high, their students are scoring higher on their tests. But 
their students are not engaged in science, and not continuing 
in science at the secondary level. So they are coming to us to 
learn about this sort of magic of teaching kids how to think, 
and how to get excited about the natural world, and how to 
investigate and puzzle through problem solving and answering 
their own questions. And I think many of those countries are 
superb at implementing science education programs, but not very 
good at designing science education programs. And I think the 
United States is exactly the opposite. We have this sort of 
cutting edge, brilliant thinking about the design of programs 
but we are very challenged at implementing, as we are hearing 
about today, and providing this inquiry-based opportunity for a 
large population of students in school districts and states all 
over the country that have different standards and different 
assessment tools, etcetera.
    Mr. Schiff. Thank you, Mr. Chairman.

                      IMPORTANCE OF STEM EDUCATION

    Mr. Mollohan. Thank you, Mr. Schiff. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. The work that you 
are doing that we are talking about today I think is among the 
most important things we can possibly do to help strengthen the 
country in the future. I completely agree with the Chairman 
about inquiry-based education. And am delighted to see the 
support that the Committee and the administration have for 
strengthening the existing programs at NOAA, and the National 
Science Foundation, and NASA to help teach teachers to do a 
better job of teaching science and to strengthen these programs 
at the district and the state level. My only concern is to be 
sure that if states or districts accept the money that we are 
not imposing national standards on them. I am a big believer in 
education is not under the Constitution under the tenth 
amendment, it is reserved to the states. And that would be my 
only concern, Mr. Chairman. I am just delighted that you have 
called this hearing and very, very supportive of this work and 
this effort. Thank you, sir.

                         STANDARDS OF LEARNING

    Mr. Mollohan. Thank you, Mr. Culberson. Mr. Fattah.
    Mr. Fattah. Thank you, Mr. Chairman. Let me thank the 
witnesses. I have introduced legislation in support of common 
core. And I think that the fact that the states and the 
governors have gotten together and have agreed that there 
really is not any difference, you know I represent 
Philadelphia, Pennsylvania, but there is really no difference 
in algebra in Philadelphia, Pennsylvania and algebra in 
Philadelphia, Mississippi. I mean, there are really, you know, 
through a number of analyses we know with a certainty that most 
of our children do not get the higher order math in the order 
that they need to receive it to, by direction of the College 
Board twenty years ago, about where the sequencing of these 
courses should come. But that is really not happening. It is 
not happening in Pennsylvania, or in West Virginia. It is not 
happening in Texas.
    I mean, so the fact that children do not, the fact that 
children do not achieve as well as we would like them to is not 
really new. In fact, when the Nation at Risk study came out in 
the 1980's it talked about the dearth of our young people being 
able to pursue rather science or math. Most of our children in 
this country are not taught math and science by a teacher who 
majored or minored in the subject matter. And it is impossible 
for one to transmit information that they themselves do not 
have. And I have spent a lot of time looking at some of the 
challenges, and you know, states have been wrestling with this. 
The common core, I think, gets at this in a way in which even 
me and my colleague from Texas can agree since this is a state-
driven initiative by individual states who have gotten together 
to say that we really need to, I think it was President Nixon 
who said it was a national imperative, that we really do need 
to make sure that our young people gain an ability to 
critically think and analyze.
    So I want to thank the Chairman. He has done a great deal 
without notice over the years to promote science and math 
through the work of this Subcommittee. And there is more that 
we need to do. And we have problems all the way throughout our 
system. We have almost, I mean I do not want to be overly 
dramatic, which is the way it is done here in Washington, but 
there is a significant absence of native born Americans 
pursuing terminal degrees in math and science. So that when we 
talk about, if we looked at the National Nuclear Security 
Agency, who are handling our nuclear stockpile, as these people 
are checking out, that is retiring out, and some 80 percent, 85 
percent of the workforce is leaving in the next decade, in 
terms of young people pursuing nuclear physics, and some of 
these other, you know, needed disciplines, there is going to be 
no one to even hire that meet the security requirement of being 
an American citizen to be able to do this work.
    So we have to do something. The idea that education is a 
local prerogative, and that people can decide how dumb they 
want their children to be, and it is no concern to us if they 
do not want to provide an education, no that is not true. And 
that is why in this international competition economically we 
are getting our clock cleaned by nations that have really 
devoted themselves to driving math and science through to their 
young people. And many of these countries, you know India has 
got a billion people. So, you know, if we have got a much 
smaller population, and there is some who would like us to have 
even less of a population, you know, in terms of immigration 
issues, then we are going to have to be a lot smarter if we are 
going to compete. You know, and then China has got even more 
people. And they are ramping up their education system.
    So, you know, when Japan was out-competing, out-producing 
us in engineers, you know, a couple of decades ago, people 
said, well, it is a much smaller country. You know, it does not 
really matter, and so on. Now China is out-producing us in the 
production of engineers and it really does matter. You know? 
And it really will have an impact.
    So I just want to thank you for the work that you are 
doing. And I want to thank the Chairman for putting a focus on 
this at the very front end of the work of the Subcommittee as 
we go forward. Because when we talk, when we are out on the 
floor talking about jobs it really starts with the work that 
you are doing. That if we do not do something about this it is 
impossible for us to be competitive economically and to have 
the job base that we want to have in this country. So thank 
you.

                  SPREADING INQUIRY-BASED INSTRUCTION

    Mr. Mollohan. Okay, thank you, Mr. Fattah. We talked a 
little bit earlier about if there is a consensus among those 
who really think about these things that inquiry-based STEM 
education is the best way to proceed. How do you get a broad 
based consensus, and then how do you get broad based 
implementation? And is that the crux of the challenge we face? 
Dr. Luft.
    Dr. Luft. I think it is two-fold. You know, we have to get 
the information out there. And I think teachers really do 
agree, again I want to stress it, they do agree that science as 
inquiry is a great way to teach but they feel incredibly 
constrained.
    Mr. Mollohan. Now you are talking about teachers out in the 
field?
    Dr. Luft. I am talking about teachers out, and teachers 
that I prepare. So I work very closely and monitor a lot of 
what happens in teacher preparation. So across the continuum: 
pre-service teachers, new teachers as well as experienced 
teachers. And I think they are excited about inquiry and what 
it offers. But I think, again, they are very constrained by 
sometimes the, as we have talked about extensively about here, 
is the testing that is imposed on them to meet those standards.
    Mr. Mollohan. So what are the impediments? Testing?
    Dr. Luft. Testing is a big one. I think also having the 
fiscal support for getting the materials into the classroom.
    Mr. Mollohan. Materials?

                          TEACHER'S CHALLENGES

    Dr. Luft. Having some personnel that can actually support 
them, which would be important. Professional development 
programs that are extensive, so we know, actually the research 
is pretty compelling that we are looking at threshold hours, 
they said sixty yesterday, the data I have seen has said 
eighty. There is some effect, but then when you push up to 160 
you start to really get an effect of using inquiry. So----
    Mr. Mollohan. And that is retraining the teachers? 
Reteaching the teachers, 180 hours you are really----
    Dr. Luft. Professional, extended professional development. 
Yes, yes, I think you are right. Training the teachers. And it 
is really giving them deep opportunities to learn the content 
but to also work with their peers. So some of the more 
compelling work that is coming out is talking about teachers in 
communities. So as teachers work together to examine students' 
work they can really see what they are doing, and they can make 
decisions about what they need to do in the curriculum to 
enhance the work that they are doing in the classroom. And 
schools are set up, though, not to give teachers this kind of 
time. Schools, by the very nature of their construction, do not 
give teachers enough time to sit and reflect and really 
understand what their students know. I mean, to do that these 
teachers would have to pore over the work. They would make 
judgments about the work, and they would say, well what am I 
going to do next? And schools do not allow that, because they 
start at 7:30 in the morning, and these teachers are with these 
students the entire time until they go home.
    Mr. Mollohan. So you really have to do that outside the 
classroom, and probably outside the school year in some sort of 
retraining program, and materials and----
    Dr. Luft. But, but yes----
    Mr. Mollohan [continuing]. The money to do that, and 
incentivize teachers to actually come into those programs.
    Dr. Luft. So you are----
    Mr. Mollohan. You probably have to work with stipends.
    Dr. Luft. So you are giving them another, I just want to be 
very clear about this, you are giving them a second job on top 
of their current job. And I think all of us in our profession, 
we have, I have opportunities, my university says, Julie, we 
want you to get some training. We are going to give you two 
weeks off to go get that. You know? Because it is that 
important that you bring it back to us. And I think we have to 
think----
    Mr. Mollohan. Is that two weeks off paid?
    Dr. Luft. If it is affiliated with my work----
    Mr. Mollohan. Yes. Sure. I mean----
    Dr. Luft [continuing]. They will work with me on it. Yes. 
Yes. I can work my schedule.
    Mr. Mollohan. I think you have to be unapologetic about 
that, to tell you the truth.
    Dr. Luft. Yes. Yes. No, no. But I am paid by a taxpayer.
    Mr. Mollohan. Because there are a lot of teachers out there 
that they only time they have to relearn is during the summer, 
and they have got a lot of things to do in the summer.
    Dr. Luft. And it gets worse.
    Mr. Mollohan. If this is important.
    Dr. Luft. Absolutely. And it is worse than that. So these 
guys not only want to improve their practice, they are working 
with kids and they cannot get the time off during the day to 
think about it. But say they want to go to a conference to meet 
with other people who are excited about what they are doing. 
They cannot get the time off from their district to go to these 
conferences because the district cannot give them time because 
they do not have enough subs. So the very barriers, the very 
barriers that are in place are keeping these teachers from 
doing the work that they want to do and need to do.
    Mr. Mollohan. Yes. Assuming we have got all the right 
things----
    Dr. Luft. These pieces, yes.
    Mr. Mollohan [continuing]. You should be doing. Mr. Strang.
    Mr. Strang. Yes, so I think our schools are set up in a way 
that we assume that once a teacher is ready to teach that all 
they need to do is just teach. And none of our jobs are like 
that, and we are expected to grow, and continue learning, and 
to interact with our colleagues and our peers on a regular 
basis. And it takes up a lot of our day each day. And I think 
we need to rethink the learning and the teaching environment. 
If we are expecting kids to engage in inquiry, then teachers 
need to be engaged in their own inquiry, and adult learning, 
and extending their own practice in the same way that they are 
expecting their kids to.
    And I think there is a tremendous amount of evidence that 
even with extended teacher professional development, teachers' 
beliefs and understandings, their knowledge and beliefs, change 
long before their practice changes. And this is true of all of 
us, but we observe it very clearly in teacher professional 
development. That teachers take the pre- and the post-survey. 
They tell us that, oh my God, this is changing my life. I am 
going to, you know, I get it, I understand, I am never going to 
teach the same way again. And we go back into their classrooms 
a month or two months later, and we observe their lessons, and 
they are teaching the same way they did last year.
    So this is the sort of ongoing professional development 
that Dr. Luft is talking about, where teachers need to be 
trying something out in a scaffolded, structured environment, 
gathering student work, bringing it back, sharing it with 
colleagues, watching video tapes of themselves teaching, 
observing their colleagues teaching, and really thinking, how 
do I know what my kids are learning? How do I know what is in 
their heads? And when I find out what is in their heads, what 
is it that I can do to make them turn this way rather than that 
way? And at what point in my lesson could I have asked a 
different question, or provided additional experiences, gone 
back to observing the phenomenon, etcetera, that could have 
overcome that potential misconception that is building in my 
kids' heads? And I think, you know, that is challenging, 
thoughtful work, not to be taken lightly. And it is not just 
going to a workshop and coming back and, oh I get it, I am 
different now. It is just as hard in a teaching setting as it 
is in any of our professional lives, to actually change our 
practice.
    Mr. Mollohan. Sounds like some really good elements for a 
demonstration project you all are coming forth with, here.

                     TEACHER PREPARATION IN SCIENCE

    Mr. Strang. Yes. And I want to also just comment on 
something that Mr. Fattah said about the importance of having 
people in schools teaching science that have some background in 
science. And that is a challenge at the secondary level. It is 
almost an impossibility at the elementary level.
    Mr. Fattah. At the elementary level it does not exist.
    Mr. Strang. Yes. And I think this notion of attracting our 
best and brightest science students into the teaching 
profession is very important. And there are many high quality 
programs, like Dr. Luft's at Berkeley. There is the Cal Teach 
program that is a teacher preparation program that attracts 
science students in particular into the teaching professions. 
There are examples of those things. But broadly across the 
country there is still a phenomenon in science departments in 
universities that scientists, faculty, consider it a failure if 
their graduate students go into teaching. That is considered 
second, or third, or fourth class. And I think that this 
reflects the view of the American public of the teaching 
profession. And that part of our job also is to elevate the 
teaching profession and make this a desirable, noble job for 
teachers to pursue, for students to pursue from all different 
disciplines.

             STEM EDUCATION AND THE DEPARTMENT OF EDUCATION

    Mr. Mollohan. You all, I bet, interact with the Department 
of Education?
    Dr. Luft. I have. I have had projects that have been 
affiliated with the Department of Ed.
    Mr. Mollohan. What is the Department of Education doing in 
this area?
    Dr. Luft. I mean I think this, you know----
    Mr. Mollohan. But I mean to facilitate the national 
adaptation of inquiry-based learning, and the teaching the 
teachers that needs to happen in order to accomplish that? And 
getting the materials out that need to accomplish that?
    Dr. Luft. I think one of the----
    Mr. Mollohan. Which I want to get into a little bit.
    Dr. Luft. Yes. I think one of the big initiatives that 
just, I mean you did form, their Math and Science Partnerships 
were moved to the Department of Ed.
    Mr. Mollohan. I am sorry, what?
    Dr. Luft. The MSPs, the Math and Science Partnerships were 
moved there. So that has been their responsibility, to try to 
cultivate and support these partnerships. But I think the work, 
and it is very good work, it is very important work, but I 
think the coordination that is coming from the science 
community, or the efforts that are coming from the science 
community, NSF, those are the pieces of work that are really at 
the heart of the matter of the materials and of the 
professional development opportunities.
    Mr. Mollohan. Why is Education not doing this? I mean, they 
are the ones who would know this before we would know it, 
supposedly.
    Dr. Luft. Are you talking about the Department of 
Education? Or are you talking about educators? Or----
    Mr. Mollohan. I am talking about the federal government. We 
are an Appropriations Committee, and at the end of this I am 
going to ask you for some suggestions, guidance on funding. And 
maybe doing a demonstration.
    How you would like to see that happen. We are going to 
invite you to help us with that. But right now I am asking you, 
why is the Department of Education not, if there is that 
consensus out there among the thinkers, and it is not being 
readily, or quickly, integrated into the educational system in 
these areas, STEM areas, across the country, what is the 
Department of Education doing about that? And why, are they 
doing it well? Or are they not doing it well? And if they are 
not doing it well, why not?
    Dr. Luft. Their work is different. I mean, I think----
    Mr. Mollohan. The Department of Education?
    Dr. Luft. Well, they have the MSPs and they have the IES 
grants, the institute grants which develop research, and they 
are looking for degrees of scale-out in terms of 
implementation. But when you go into in a separate, so somebody 
who has worked, you know, remotely with some of those projects 
and been involved on them, it is not the level, it is, there 
are different types of projects. I think when you go to NSF you 
have an investment in curriculum materials, and the development 
of curriculum materials.
    Mr. Mollohan. But I am actually talking about changing the 
culture. You would think that it is ubiquitous, it sounds like. 
They would have to go in and really change the----
    Dr. Luft. But they are not. It is not there.
    Mr. Mollohan. I mean, some national symposium, or some 
national study that would redefine how science and math should 
be taught in education. It seems you would have to deal with it 
at this level. Because we are down here doing model projects to 
prove out what has already been proven. Because you have told 
me, and the last panel told the Committee that inquiry-based 
education is the way to go. So if that is an established fact 
among the thinkers then it seems to me the next problem, the 
real thing that has to happen, is to get it down to it.
    Mr. Culberson. Mr. Chairman.
    Mr. Mollohan. Well, let them answer that, John.
    Mr. Culberson. Maybe a little help on this?
    Mr. Mollohan. Well, let me ask them to help first.
    Mr. Culberson. Sure.
    Mr. Mollohan. And then I will get right to you.
    Mr. Strang. Well, I think this gets back to some of my 
earlier comments about first of all, sort of a disconnect in 
priorities. That despite the fact that we know what works in 
science, science in general is not a priority in our education 
system.
    Mr. Mollohan. Oh my gosh. That shocks me because, and I 
said this yesterday, that every year the National Science 
Foundation comes up here and reports on the status of education 
in America. Science, our students are always behind, as Mr. 
Schiff and Mr. Fattah pointed out, always behind the world in 
that. I just have to----
    Mr. Strang. Yes.
    Mr. Mollohan [continuing]. At least as it is presented to 
us through NSF----
    Mr. Strang. Right. So----
    Mr. Mollohan [continuing]. It sounds like it is a problem.
    Mr. Strang. Yes. And so, and my earlier comments were that 
I think that the science agencies, NOAA and NASA and NSF in 
particular, need to play a lead role in----
    Mr. Culberson. Bingo.
    Mr. Strang [continuing]. In getting----
    Dr. Luft. Yes.
    Mr. Strang [continuing]. Science education out there in 
schools. That we cannot expect educators with no background in 
science to be promoting and implementing and disseminating----
    Mr. Mollohan. Ah.
    Mr. Culberson. That is the key.
    Mr. Strang [continuing]. High quality science education 
strategies.
    Mr. Mollohan. Department of Education?
    Mr. Culberson. That is what I was going to----
    Mr. Strang. And I think that, you know, I go into 
elementary schools in California where the school principals 
are telling their teachers, do not open that science kit until 
your reading scores are raised.
    Dr. Luft. That is right.
    Mr. Strang. And all the research points to the fact that if 
they open the science kits, the reading scores would go up. But 
they are telling their teachers, ubiquitously, across the 
board, science is not a priority. It is not a priority until 
your math and your reading scores are up above this line.
    Mr. Mollohan. Okay, that is interesting.
    Mr. Strang. Because we get hit over the head if the reading 
scores are not up. It gets published in the newspaper. 100 
percentile, 100 percent science scores do not help us a bit 
when the scores get published in the newspaper.
    Mr. Mollohan. Well, No Child Left Behind ought to hear 
this. John.
    Mr. Culberson. Thank you very much, Mr. Chairman. That is 
the point I wanted to drive home. You are exactly right. That 
the key is that the National Science Foundation, NOAA, NASA, 
but particularly NSF need to be the lead on this. And when you 
get professional educators----
    Dr. Luft. That is right.
    Mr. Culberson [continuing]. Educrats, as I like to call 
them, in charge of this they screw it up because they do not 
understand how important it is. And the root of the problem, 
Mr. Chairman, I think is, one of many bills that President Bush 
pursued that I voted against and opposed, in his last, second 
to last bill, remember Bush pushed a bill that transferred 
responsibility for science education from the National Science 
Foundation to the Department of Education.
    Dr. Luft. The MSPs, that was the MSPs.
    Mr. Strang. That was the MSPs.
    Mr. Culberson. It passed the House. I opposed it. I do not 
know what happened, I guess it passed in the Senate. Sometimes 
you lose track of these things. That is the root of the 
problem. And that is what they are testifying about, is at the 
Department of Education they are just typical bureaucrats. They 
do----
    Mr. Mollohan. John----
    Mr. Culberson [continuing]. Not have their priority right.
    Mr. Mollohan [continuing]. You do not have to be 
disparaging.
    Mr. Culberson. I will be nice. But, I mean, NSF, we need to 
seriously----
    Mr. Mollohan. It is President, President Bush.
    Mr. Culberson. By President Bush, unfortunately, this is 
one of many things he did that I voted against. And we need to 
get it back and NSF needs to be the lead agency. That is the 
root of the problem.
    Mr. Mollohan. Well, that is very interesting.
    Mr. Fattah. Mr. Chairman, this could be a major 
breakthrough. I think I heard my colleague say that these 
federal agencies should put together a national science 
curriculum?
    Mr. Culberson. No, no, no, be the lead to----
    Dr. Luft. Lead----
    Mr. Fattah. Oh, I am sorry, I did not hear that----
    Mr. Culberson. With incentives, as I heard the Chairman 
say. We need to do it through incentives. But NSF clearly needs 
to be the lead, Mr. Chairman. And whatever we can do to undo 
making the Department of Education the lead and put NSF back in 
charge, they would work wonders.
    Mr. Mollohan. Okay. Thank you.
    Dr. Luft. It competes with everything.
    Mr. Culberson. Is that correct?
    Dr. Luft. That is absolutely----
    Mr. Strang. I think there are some studies, some actual 
cross site analysis of the Math and Science Partnership 
programs that were run by NSF compared to the Math and Science 
Partnership programs that were run by the Department of Ed. And 
across the board, the NSF run programs had stronger outcomes.
    Mr. Culberson. Yes, that is the root of the problem, Mr. 
Chairman.
    Mr. Mollohan. Did you get that study down? What study is 
that?
    Mr. Strang. I can send you a citation?
    Mr. Mollohan. Please do.
    Mr. Strang. Let me make myself a note.
    Mr. Fattah. Yes, let me just, I am sorry?
    Mr. Mollohan. No, Mr. Fattah.

                     SCIENCE TEACHER CERTIFICATION

    Mr. Fattah. You know, all joking aside, I just want to make 
sure that the record is clear. I mean, as long as we understand 
that at this point in time, at the pre-high school in our 
country, none of the teachers are even subject certified for 
the most part.
    Dr. Luft. That is right.
    Mr. Fattah. So that in terms of science and all that, in 
terms of our international competitors they are so far ahead of 
us by the time our kids show up at high school. And then in 
many of our both urban and rural areas, and you can go to 
great, you know, states like my own, you can go to Texas, you 
can go to West Virginia, there are schools that do not have, 
they do not have science labs. You know, the Washington Post 
had a front page story a few years ago, it said that, you know, 
they focused on one school inside a city, and one school right 
outside the city, in walking distance literally across the 
county line. And they described one, and they said one of them 
had a science lab, and it had, you know, microscopes, and it 
had, the whole science faculty had advanced degrees in math. 
And the school had, you know, just, it was a wonderful story.
    And then they talked about this other school. And it did 
not have any working equipment. It had no lab of sorts for kids 
to do experiment and so on. And nobody had to guess which 
school was inside the city and which school was in the suburbs. 
And you did not even have to think about which city, because we 
know that exists all over our country. And so, you know, we 
should not be, it is intellectually dishonest for anybody to be 
surprised when our kids do less well when we test them under 
these various testing schemes. Because we know that we are 
giving them less of everything we know they need in terms of 
learning. So that at the end of the day, you know, that is the 
challenge that we have. That if we want to do differently we 
are going to have to act in a much different way. And it will 
have to be a scale.
    And the Chairman is right. We know what works. You know? It 
is just a question about whether we are going to decide that we 
are prepared to do to make sure that children are exposed to 
quality teaching, and, you know, and a rigorous curriculum. 
Because that will require an investment. And sometimes the 
tradeoffs between, you know, tax cuts and investing in 
education politically are more instantaneously rewarding than, 
you know, it takes a kid, you know, seven years at Penn to get 
a Ph.D. in math. So if you are starting to worry about this kid 
in preschool, all the way up to there, you know, it is a 
thirty-year pipeline.
    Mr. Culberson. Well, if the gentleman would yield?
    Mr. Fattah. And, you know, we do not have the patience for 
that in Washington. You know, we do not, it is hard for us to 
see that far.
    Mr. Culberson. I really do share, if I could, Mr. Chairman, 
very briefly, I really want to help you with this. This is, I 
think, as important to our national security as any investment 
we make in intercontinental ballistic missiles, or nuclear 
submarines. Investing in science education, and getting NSF 
back in the drivers seat I think. I want to help any way I can, 
Mr. Chairman. I am with you. Thank you.
    Mr. Mollohan. No, I welcome that offer for help, 
particularly from the gentleman. I just want to point out it is 
going to cost money.
    Mr. Culberson. No, I am there. Science education, I am 
there.
    Mr. Mollohan. Okay, that is great.
    Dr. Luft. It is the most important thing we can do.
    Mr. Culberson. As long as there are not national standards.
    Mr. Fattah. Bipartisan----
    Dr. Luft. There are national standards----
    Mr. Culberson. As long as there is no national curriculum, 
I should say.

                         EDUCATIONAL MATERIALS

    Mr. Mollohan. Let me, I would like to explore, thank you, 
thank the gentleman. We will count on it. I would like to 
explore just a couple of topics here quickly. Materials, we 
have a lot of materials that are produced by, or do we? Do we 
have a lot of national textbook material production folks? Or 
is that pretty well concentrated? And are they embracing 
inquiry-based education in the curriculum materials that they 
are producing for school systems?
    Mr. Strang. Well there are many textbook publishers that 
develop and publish and distribute textbooks. There are really 
only a handful of instructional materials developers that 
embody inquiry-based science methods. So that is a smaller 
subset.
    There is the Lawrence Hall of Science and Education 
Development Center, TERC in Boston, BSCS, there is--you can 
count them on one or two hands.
    Mr. Mollohan. That do inquiry-based materials production. 
Is it a comprehensive across all the topics you would teach in 
these areas and for the various grades?
    Mr. Strang. They are--go ahead.
    Dr. Luft. Oh, no, go ahead.
    Mr. Strang. Well they are developers of comprehensive 
curriculum materials, they are also sometimes the same 
developers also produce supplemental or enrichment materials or 
modular materials that can be inserted into other programs. So 
the range is available, and there are comprehensive materials K 
through 12, life science, Earth science, physical science that 
are available for large scale adoptions.
    Mr. Mollohan. Yes, doctor.
    Dr. Luft. I concur. I mean, I think that is--there are the 
materials there, it just becomes--as you get into the secondary 
level the materials issue becomes a little bit more complex 
because sometimes you need more advanced materials in order to 
run the investigations.
    So the limiting factor, I mean, you are talking about--you 
could be talking about microscopes or using advanced equipment. 
So sometimes just doing some really important investigations 
are more--require more materials.
    Mr. Mollohan. Uh-huh. Well the same, if these--Prentice 
Hall, that sticks in my mind. Is that a----
    Dr. Luft. That is a publisher.
    Mr. Strang. Textbook publisher, yeah.
    Dr. Luft. Textbook publisher.
    Mr. Mollohan. Of academic, yeah. Produce materials and 
brought them down to a middle school and said we have a whole 
new set of this inquiry-based and then we have the traditional 
things you have been buying for years, and gee, you know, we 
are selling books so we will sell you either group. But that 
isn't available is it? I mean----
    Dr. Luft. The problem isn't--I mean, I don't want to--the 
materials are an important piece of this, but the problem is 
the support that goes on with it. You know if I buy the 
materials that is fine----
    Mr. Mollohan. How do I teach?
    Dr. Luft [continuing]. But how do I really teach using 
those materials is a key piece, and districts don't have money 
or they don't have the person who is knowledgeable to support 
the use of those materials or the teachers.
    And we know this too, that teachers can have access to 
great materials, but they can be used in ways that aren't 
productive.
    Mr. Mollohan. So this has to start back in the education--
teacher education.
    Dr. Luft. It has to--you have to hit it all the way 
through. I mean, you have to always make sure that if you want 
good science instruction you have really got to make sure that 
you support it when teachers are in schools, and this is having 
teachers have access to how to use the materials.
    Mr. Mollohan. Yes.
    Dr. Luft. Just buying the materials, anybody is happy to 
sell the materials, but supporting the materials so the 
teachers really take that, and studying--it is working with the 
materials to uncover student's understanding so that we know 
what to do next.
    Mr. Mollohan. Yes.
    Dr. Luft. That is a very powerful piece.
    Mr. Mollohan. So it really is a cultural issue. It is all 
these threads have to be changed in order to----
    Dr. Luft. Yes.
    Mr. Mollohan [continuing]. And it has to be coordinated in 
order to shift.
    Dr. Luft. You are right; in pre-service it is very 
important that we support these teachers and help them 
understand how to use the materials. I mean, that is a big 
piece of it also.
    Mr. Strang. Right. And providing teachers with a consistent 
message all through their educational career.
    Dr. Luft. Yes.
    Mr. Strang. Including their professional development.
    Mr. Mollohan. Yes.
    Mr. Strang. And as a practicing teacher, you know, there 
should be, I would hope, some unity in the message that they 
are receiving about these different methods.
    The other thing that I just wanted to mention is that when 
you talked about Prentice Hall saying well we have two sets of 
materials, the traditional and the inquiry, it is a little bit 
more complicated than that, because the nature of the 
development of those materials is very different. And while a 
textbook publisher can take the most recent set of standards 
from any particular state and develop a textbook very quickly 
that addresses everyone of those standards, the development 
time line for inquiry-based materials might be three years and 
require a significant investment in the design and development 
because they are research-based, they are applying educational 
research and pedagogy, they are extensively pilot tested, field 
tested, revised and field tested again before they hit the 
market, and textbook publishers are not typically set up to do 
that kind of development. That is why we depend on NSF and NOAA 
and NASA to support the design and development of those 
materials and then we establish relationships with publishers 
for the distribution. But without the initial investment from 
the science agencies the materials would never be developed.
    Mr. Mollohan. Thank you for getting that on the record, 
that is very important to this Committee, because we are 
interested in supporting that. But it does make the point that 
materials is development and integration and support for its 
integration is a real inhibitor to moving in this direction.
    Dr. Luft. But also providing----
    Mr. Mollohan. Correct?
    Dr. Luft. Yes.
    Mr. Strang. And the support.
    Dr. Luft. And the support. But I think what would be really 
great is if NSF did some of this originally was when they 
developed these materials--and I know that you work with 
curriculum agencies or with the textbook companies to do the 
dissemination--but it would be really fantastic if NSF would 
help develop these materials and also help put them in schools. 
So if we bypass some of the people who are selling them, but 
having the people who are developing them really working with 
teachers to help them put them in schools that would be 
fantastic. And originally that was done a long, long time ago 
that was part of the initiative
    Mr. Mollohan. Where was that done?
    Dr. Luft. In the--at Sputnik. It was an outgrowth of 
Sputnik. They actually had the people who were developing the 
materials were also supporting to put them in schools.
    Mr. Mollohan. I guess there is an example out there that we 
could go look at.
    Dr. Luft. It is a historical example. But now we move 
through textbook publishers. You may or some do or some don't, 
but the idea there is this long-term investment even beyond the 
development of the materials so that it can get into schools 
and with teachers from the people who had envisioned how they 
were to be used.
    Mr. Mollohan. So who would do the support? I know who would 
develop the materials, that is the textbook people. If there 
were a demand out there they would spend the three years 
developing the materials, but who does the support and where do 
the resources come? And obviously that would take a lot of re-
teaching and re-training. How do you teach this material? So 
whose responsibility is that?
    Mr. Strang. Well when--I will speak for my institution at 
the Lawrence Hall of Science. When we develop materials we 
assume that the development and publication of the materials is 
the first half of our job.
    Mr. Mollohan. Yes.
    Mr. Strang. And we are very deeply involved in the support 
of the implementation of those materials. So we establish 
professional networks around the county, centers around the 
country that are supporting the local implementation of our 
materials. And the leaders of those centers come to Lawrence 
Hall of Science and go through days or sometimes weeks worth of 
professional development with us.
    Mr. Mollohan. Is that supported by the marketplace or the 
educational systems in each state or county, or do you have a 
grant that is supporting that all the way through?
    Mr. Strang. Our involvement is typically supported by 
grants, typically NSF.
    Mr. Mollohan. Ah.
    Mr. Strang. And----
    Mr. Mollohan. So you are--I am sorry to interrupt you. Let 
me just understand each piece and you remember what you were 
going to say, if you will.
    So you have the grant that helps develop the materials, and 
also as an academic institution supports the integration of 
those materials into the classroom----
    Mr. Strang. That is right.
    Mr. Mollohan [continuing]. Which really involves teaching 
the teachers and bringing the teacher back for more education, 
and then an ongoing--they could pick up the telephone and say 
gee, I got this problem, you can say----
    Mr. Strang. Right.
    Mr. Mollohan [continuing]. This is the solution. That is 
the kind of system you are talking about.
    Mr. Strang. Absolutely, absolutely. And it happens in a 
couple of different ways. Probably many more than that, but two 
that I will mention.
    One is that we receive grants to do the development, and 
then we receive grants to conduct professional development 
related to the materials that we have developed.
    When we are developing the materials, I mentioned a couple 
of times, we go through this extensive field testing process 
and we have partnerships with school districts around the 
country that are very eager to field test our materials because 
they know that typically they are pretty good, and at the end 
after the field test they are going to be interested in 
implementing. And by going through the field test they are 
building support within their district at the earliest stages 
for these particular materials.
    So teachers that have field tested the materials are very 
invested in continuing to use them and they get their name in 
the book as field test teachers and there is some status that 
goes along with that they work. And we listen to the teachers 
that are field testing and they can see their comments and 
feedback reflected in the final drafts.
    The other way that that support happens other than the 
field test and the subsequent grants for professional 
development, are that in--we chose very carefully the 
publishers that we establish partnerships with, and the 
publishers make commitments to school districts that when they 
purchase the materials there is a certain amount of 
professional development that will be--that will accompany the 
purchase of the materials, and then the publishers contract 
back with us to go deliver the professional development.
    Mr. Mollohan. You pay them to do it.
    Mr. Strang. The publishers pay us to do it.
    Mr. Mollohan. Oh, oh, okay, I see. I see.
    Mr. Strang. Yes.
    Mr. Mollohan. I see. So the grant to develop it and then 
you have the--they make the commitment and you are 
subcontracted.
    Mr. Strang. Right.
    Mr. Mollohan. Do you have anything to add to that?
    Dr. Luft. I think Lawrence Hall of Science is an exemplary 
model in how it should work, but in a lot of instances there 
are districts that don't get that kind of support.
    So when I look in the Phoenix metropolitan area there are 
some schools that I know participate in this, but there are 
many schools and science teachers that I work with that just 
don't have access to this. So I don't know.
    Mr. Mollohan. Oh, I guarantee you.
    Dr. Luft. Yes. Because this is fiscally intensive, it just 
doesn't happen. I mean, it is just not that common.
    Mr. Mollohan. Well and that is the question, which is what 
I am saying. How do you scale these proven materials, 
techniques, how do you scale that up on a national level? So 
how do you?
    Mr. Strang. Well we went through----
    Mr. Mollohan. You have to incentivize somebody.

                          SYSTEMIC INITIATIVES

    Mr. Strang. Yes. We went through sort of a generation of 
NSF supported systemic initiatives, statewide systemic 
initiatives, world systemic initiatives, urban systemic 
initiatives, et cetera.
    Mr. Mollohan. That was about 15 years ago wasn't it?
    Mr. Strang. Yes. And they were across the board; 
generalizing, pretty successful. And when the funding stopped 
the fidelity to the implementation started to decrease.
    Mr. Mollohan. Yes, but as you point out, the science 
agencies, you know, simply proving out. They are the ones that 
understand the science and so you could only expect them to 
prove it out, they are not going to be sustaining. At some 
point the state educational systems have to pick this up.
    Mr. Strang. Right.
    Mr. Mollohan. They are spending money on science, so 
obviously it didn't work, because it didn't take.
    Mr. Strang. That is right.
    Mr. Mollohan. And why didn't it take to make systemic 
initiatives? It wasn't mature enough? Your program wasn't 
mature enough for it to be recognized as the way to go, or it 
wasn't----
    Mr. Strang. Oh, I think many of those programs used FOSS in 
the early generations of FOSS, and I think--you know, it is a 
good question. I don't have a simple answer, but I think that 
there are a lot of policy issues that impact schools.
    So I get back to, you know, we invested all this time and 
money in purchasing the materials, even in doing professional 
development, being part of the systemic initiative, and now we 
are told that the only thing that matters is our reading and 
math scores.
    Mr. Mollohan. So are you suggesting that No Child Left 
Behind is kind of overtaken with this?
    Mr. Strang. I think there were unintended outcomes to No 
Child Left Behind----
    Mr. Mollohan. Excuse me for interrupting. Are you all 
telling the authorizing Committee who is reconsidering re-
authorization of No Child Left Behind, are you telling them 
this--these problems?
    Dr. Luft. We are working very hard on doing that on all 
fronts. I mean we are in academics, we are at the National 
Science Teacher's Association meeting.
    Mr. Mollohan. What about the chairman of the Committee that 
is dealing with this?
    Dr. Luft. We would be----
    Mr. Mollohan. Here.
    Dr. Luft [continuing]. Happy to meet with them and tell 
them----
    Mr. Mollohan. Oh, no, I know you would, I am just wondering 
if you are.
    Dr. Luft. And you have a lot of teachers in this room who 
would probably be happy to meet with him and tell him, too.
    Mr. Mollohan. Well and the members of Congress that are on 
that Committee, that is where it all starts. You really have to 
get in.

                          PERSONNEL TURN OVER

    Dr. Luft. You are getting at another fundamental issue here 
that is really problematic too. I mean, we can have the USIs 
and the rural and urban systemic initiatives were important, 
but teachers don't stay in the same place the whole time, and 
neither do administrators, and neither do science specialists. 
So if you put a lot of resources into help a community develop 
inquiry, and I was in a district that did, but when the 
superintendent left, when the science coordinators were done 
away with, when teachers moved to new schools you have lost the 
momentum to teach in those settings. So this isn't just 
something where it is one shot in the arm. You know, you have 
to kind of keep having boosters in this.
    Mr. Mollohan. Well, I mean it would be a bad strategy to 
embed the ideas in people. You need to embed the ideas in the 
system.
    Mr. Luft. But the problem is that the system is always 
fluctuating in education, and that is--we have superintendents 
who leave if they don't work with the board, we have principals 
that are moving, you have science coordinators who are--so it 
is how do we get right the curriculum that is in there and get 
the sustained professional development for the teachers that 
they always enact this?

                  NATIONAL SCIENCE EDUCATION STANDARDS

    Mr. Mollohan. Yes.
    Mr. Strang. And I think also when the National Science 
Education Standards were published in 1996 subsequent to the 
AAAS benchmarks for science literacy there was a huge emphasis 
in both of those documents on inquiry-based science education. 
When the National Science Education Standards were published in 
1996, it called inquiry the central strategy of science 
teaching, and that supported the benchmarks for science 
literacy that was previously published by AAAS.
    So there was wide recognition, and as I think Dr. Luft 
said, the inquiry was considered content, that this is, you 
know, this is important for kids to learn, this is as important 
as any of the concepts.

                           STUDENT ASSESSMENT

    When assessments of student learning were developed most of 
the assessments focused on assessing student's knowledge of 
science concepts, because it is easier to assess. So one of the 
problems is if you are assessing--are we assessing--it is 
always asking the question, are we assessing the things that we 
care about, or are we assessing the things that are easy to 
assess?
    Dr. Luft. Right.
    Mr. Strang. And there is a huge difference and disconnect 
there that we measure the things that are measurable or cheaply 
measurable, and that is fine, but we then have to have some way 
of paying attention to the things we care about that may be 
more challenging or more expensive to measure. And it is not 
that it is not possible to measure them, it certainly is 
possible, but----
    Dr. Luft. It is expensive.
    Mr. Strang [continuing]. It is more complicated and more 
expensive.
    Dr. Luft. I was actually fortunate to build on this. I was 
actually fortunate to be in graduate school when they were 
developing performance assessments that they were going to 
scale for national assessments, and that is if you really want 
to get at student understanding, performance assessments are 
fantastic, but they are difficult because you have to figure 
out what it is you want to test, but you also have to think 
about what is the test that you are going to issue. And in 
science it becomes confounded by the content.
    So there was some original work actually done out of 
California to create some performance assessments that they 
were looking at that they were doing to disseminate broadly so 
teachers could do these assessments in class. The beauty behind 
this assessment is it provided information that was formative 
so that teachers could know what to do next, but it would also 
let you know where students were. So it provided more 
information than just the score on the test, it gave 
information to a lot of people about how students learned and 
what teachers could be doing. Those are the rich assessments we 
need to go after. Those assessments are incredible.
    And the reason I think our project kind of came to a halt, 
they are expensive to enact, they are expensive to calibrate, 
you have to keep updating them to get people to give them, that 
is a whole other problem. So it is an expensive business if you 
want to have a really good assessment that does the right kind 
of things.
    Mr. Mollohan. So is that an ongoing assessment process that 
it is so expensive and so hard to do, or is that just proving 
out the system?
    Dr. Luft. That is a great question. It is not that it is--
the ongoing process is, say if I am going to give a performance 
assessment, I am going to have to have somebody give that 
assessment in multiple classrooms, but then not only that, I 
have to score these assessments. And these assessments, 
performance assessments, can be scaled by a rubric, which just 
states the criteria in where the student is, or it can be, you 
know, some kind of checklist that you are looking for. But 
there has to be some accounting of what the student is actually 
performing or doing, and those--just watching that and 
gathering that data is very expensive, because it costs people; 
it is people time.
    Mr. Mollohan. Well then that is very sad. Because when you 
get down into Webster County, West Virginia, which isn't in my 
district, you get down to Webster County, West Virginia, they 
are not going to have a lot of money to do that. So if that is 
true, you can't work around that, and that is--and I am not 
quite understanding what you are saying, but if that is 
crucial--I am not quite sure what you are saying with regard to 
this point. If that is crucial for implementing inquiry-based 
education then that is very sad, because that will be a real 
stopper when it gets down to the local level if the school 
superintendent who has scarce resources has to come up with 
2<greek-e> times how much it costs to test.
    Mr. Strang. Right.
    Dr. Luft. Well, I think the issue is this. If you want 
science's inquiry the question, and what we are trying to hit 
on really hard is, that it is how you chose to assess it. And 
how you chose to assess it is ultimately going to drive how it 
is enacted.
    And you are right, to have the kind of assessments if you 
want to look to see how a kid is observing, how they are 
handling this kind of information, the assessments that they 
develop to do these kinds of things cost a lot of money.
    Mr. Mollohan. Is that part and parcel of inquiry--based 
education for science? A significant increase in the cost of 
teaching and testing and everything that is involved with it?
    Mr. Strang. So when we develop materials now we build into 
the instructional materials an assessment system, curriculum 
embedded assessments that provide teachers with information 
about student learning for the purpose of informing their own 
instruction and practice, not for the purpose of grading kids.
    Dr. Luft. Right.
    Mr. Strang. Which is a very different purpose. So when we 
talk about assessment we need to talk about what is the purpose 
that this assessment is being used for?
    So we build in these curriculum embedded assessments that 
help teachers to get at student thinking. Where are they in the 
conceptual development? And we call--there are certain embedded 
assessment, and then at certain points in the units we have 
what we call juncture assessments. They are assessments that we 
want teachers to administer to assess the culmination of 
students' understanding of a particular concept. And they are 
junctures because we think if kids haven't generally acquired a 
certain understanding of the concept the teacher shouldn't go 
on. They should go back and find opportunities for re-teaching 
and providing additional experiences. So these juncture 
assessments are important in the continuity of a unit of 
instruction.
    Part of the problem is that our curriculum embedded 
assessments do not necessarily provide teachers or school 
administrators with predictions about how kids will do on their 
standardized tests at the end of the year. They are completely 
misaligned.
    Mr. Mollohan. We had some testimony here yesterday that 
there were dramatic improvements. Some people were trying to 
make the point--and I more understand what they were trying to 
do--they were trying to make the point gee, inquiry-based, it 
will result in better test scores on the standardized tests, 
and that is questioned I guess, but there was some testimony 
that----
    Dr. Luft. No, it----
    Mr. Mollohan. I mean it was just hopeful testimony.
    Dr. Luft. They said yesterday that you could develop 
instruments that would measure--that would be measurable. That 
you could develop strong multiple choice.
    And I think what you are getting at is where the community 
is in this. I think there are psychometricians or people who 
develop tests that say that they can do it, and I think there 
are people who look at student learning and teacher learning 
and they say this is a little tougher than that.
    Mr. Mollohan. Well, I will tell you, if you are going to 
move this--just thinking about it as a public policy matter--if 
you are going to move in this direction then you are going to 
have to have some sort of work around these two hard of things. 
Because they can't be too hard to do this or it won't happen.
    Mr. Strang. Agreed.
    Mr. Mollohan. So you got to have some work around.
    Dr. Luft. Right, right.
    Mr. Mollohan. And it sounds like testing is one of the work 
arounds.
    Dr. Luft. I think that would be a great place for a lot of 
work to occur.
    Mr. Strang. Right. And for starters, good assessment, bad 
assessments aside, or assessments of what we care about and 
assessments of what we don't care about aside, again, at the 
elementary level those standardized tests that kids take in 
fifth grade in science don't really move the needle on the 
school's academic performance index.
    So even if the kids are scoring incredibly high on their 
science test doesn't really help the school administration.
    Dr. Luft. Right.
    Mr. Mollohan. But then it would be understood in this re-
authorization I would think.
    Mr. Strang. Yes.
    Dr. Luft. There is one more kind of consequence about this 
that I just saw for the first time this year that deals with 
testing, and it is again working in schools which have been 
very fortunate to do, is that the most important thing we can 
do is build the capacity of our new teaching workforce. Right?
    So this year I was charged with placing teachers in 
schools. And in one of the schools we wanted to put I know very 
good inquiry teachers who were doing great things in a science 
area that is being tested. I said, I would like to put some 
student teachers in there. And the teacher was very clear with 
me saying, I can't take the next generation of teachers because 
I need to make sure that I--these kids, my students hit and do 
well on that test.
    I have never seen this happen before, but we are being 
locked out now in teacher preparation because of the pressure 
to achieve on these tests.
    Mr. Mollohan. Well, you know, you are telling that to us 
and we really value that and appreciate your doing that, and as 
soon as I hear that I think about gee, this person over here 
better hear that, and that is the person that is fashioning 
this legislation, and I guess the education--Department of 
Education who is advising them of what they ought to put into 
this.
    Dr. Luft. Good teachers don't want to take the risk to 
build the next generation of teachers.
    Mr. Mollohan. Well that is another really difficult 
problem, I know.
    Well, we are drawing to the close of the hearing, and I 
would like to invite you all here in a summary fashion, and you 
can talk as long as you want, but in a summary fashion we are 
an Appropriation Committee, and we are trying to seriously look 
at this issue. You both have expertise, so as we look at this 
issue we would like for you to give us advise about how we 
should be thinking about applying the scarce dollars that we 
have to have the maximum benefit to achieve the results that we 
are all--that are implicit here. So, Mr. Strang.
    Mr. Strang. Thank you. Well let me just start by again 
thanking you and the Committee for inviting both of us here, 
and it is a pleasure and honor to have the opportunity to share 
some of this information and hear about your work and some of 
the challenges that we are all facing together in this endeavor 
to improve student's abilities to think critically and make 
their lives better by understanding how the natural world 
works.
    And I guess, you know, one of the things that-this issue of 
policy constraints is huge, out there in the day-to-day lives 
of teachers and school principals and school superintendents, 
and so I think we have talked about that a lot, and I just want 
to emphasize that no amount of curriculum development or 
teacher professional development or teacher preparation can 
really overcome those policy constraints that teachers and 
schools are under.
    The other thing that I want to go back to and reemphasize 
from my comments is again the importance of the science 
agencies in leading the effort to improve science education, 
and there are many reasons for that that we have talked about, 
and I want to say again that agencies like NOAA and NASA and 
NSF in addition to having great expertise and understanding of 
the endeavor of science and how to teach science and how to 
expose kids to the process of science and scientific habits of 
mind and scientific ways of thinking, in addition to that they 
are out there making discoveries every day, and those 
discoveries need to have a pathway into the curriculum at the 
earliest levels of a child's educational career. And without 
the involvement of NOAA and NASA and NSF things like ocean 
science, like climate change, like atmospheric science, like 
earth system science will never really get out there to kids. 
We are still teaching in many school districts early twentieth 
century science that is divided neatly into biology, chemistry, 
and physics, and the world of science doesn't work that way 
anymore.
    So NOAA in particular has recently been allowed to play a 
larger role in science education. Because of their location in 
the Commerce Department I understand that they had been 
prohibited from supporting education for many years, and there 
is some shift in that direction. And with a very small amount 
of money in a very short time NOAA, combining efforts with NSF 
has changed my professional world in a way that is hard to 
explain to you sitting in a Committee room, but ocean sciences 
education as a community and as a field has advanced a 
generation's worth in the last five years, and I think there is 
no underestimating the value that NOAA and NASA and NSF have 
added to the endeavor of science education.
    Mr. Mollohan. Well that is a good endorsement, for we have 
education accounts in all these, and we want to support them, 
and that statement is very helpful in justifying our support 
for it.
    Dr. Luft.
    Dr. Luft. I just want to thank you first off for inviting 
me here today, and it has been great. I work with teachers, I 
work with teacher educators, I work with principals, I work 
with superintendents, and I know that at each level everybody 
would like inquiry implemented.
    I also want to say we are, and everybody I have talked to, 
we are encouraged by this Administration's dedication to 
science education, and we cannot say thank you enough. It is 
cool. Science is cool again.
    So what I would to say though is NSF has been invaluable in 
my work, and they have been invaluable to work of a lot of my 
colleagues. NSF has focused in on transformative work, and that 
is where they have put the emphasis for a long time, and I 
think that is very important, but I also think in addition to 
doing transformative work it is important that you think about 
what happens to that transformative work.
    So it is important that NSF not only be supported for more 
research and science education, we are just on the cusp of 
understanding how students learn really complex ideas. We are 
at the point where we really are starting to understand what is 
working with, we know what works a lot in PD, but we are 
getting at some really good novel ideas and we need to kind of 
keep pushing for that. We need more resources for this kind of 
work.
    NSF needs to be encouraged to continue a research to 
practice trajectory. They do a lot of great work, and how is it 
going to make a difference in the lives of teachers? And that 
is not only science work, but that is work in science 
education. The new understandings that we have in science 
education are critical, and we have to have--teachers have to 
have access to this information.
    I think as you heard, it was a great example of the 
potential of a long-term support program. NSF typically is a 
PI. We reapply for grants every three to five years. And it 
would be great, our colleagues, my colleagues in science have 
long-term funding. They know that their resources are coming 
year after year for 15 to 20 years, that they can really invest 
in solving a problem and trying to meet the needs.
    I don't know what the answer is for education, but I know 
it would be nice to know that I can walk in for a lengthy 
period of time knowing that I can do some development work and 
get it all out within the same long-term funding cycle. So it 
would be a little bit novel, but it would be a nice approach.
    And I think finally the last piece that I think is 
important is there has to be just ongoing consistent funding to 
the science agencies for work in science education. It is 
difficult to come back with budgets that are reduced or when 
programs are moved out. The M's piece was a great example. It 
would be great to make sure that we have a consistent line of 
funding that is dedicated to this issue.
    Again, thank you, and it has been an honor to be here.
    Mr. Mollohan. Well it has been an honor to have both of 
you. When you talk about long-term studies, talk to that a 
little bit more.
    Dr. Luft. Long-term support is really critical. So I can 
think of it in a lot of different venues. We are just starting 
to understand how students learn complex ideas and how these 
ideas should be sequenced in order to really optimize student 
learning.
    So is there some place where something should be learned 
before something else, and how do these things build so that 
students have coherent knowledge? We are just getting into 
that.
    And for those of us who do research around these issues, I 
need to re-apply every few years. You know, I have to say this 
is what I am doing. I can't say I am doing more of the same for 
long. I have to say what is it I am doing that is different 
sometimes, and that degree of difference has to be really well 
discussed.
    So wouldn't it be great if somebody knew that for ten years 
I could work to really crack this problem? Or wouldn't it be 
great if a curriculum developer, as we have heard, knew that he 
could not only--they could not only develop the curriculum, but 
they would be responsible for targeting, you know, over 10,000 
schools? I mean to have that consistent push would be really 
powerful. And that puts--that to me is what we are talking 
about when we are talking about long-term funding.
    Mr. Mollohan. So you are suggesting that the original 
solicitation should provide and make a commitment for resources 
for a ten-year effort.
    Dr. Luft. For some projects, yes.
    Mr. Mollohan. Okay.
    Dr. Luft. I think not all projects merit that, but I think 
the potential of some of these projects having that kind of--
you could be powerful things with that kind of support.
    Mr. Strang. And the support obviously can and should be 
contingent on demonstrating performance.
    Dr. Luft. Performance.
    Mr. Strang. Yes.
    Dr. Luft. Yes.
    Mr. Strang. So it is not just a contract for ten years 
regardless, but I think that when warranted----
    Dr. Luft. Yes.
    Mr. Strang [continuing]. That that sort of ongoing funding 
would make a huge difference.
    Mr. Mollohan. Okay. Well finally I would like to invite 
each of you to submit those and any other recommendations, you 
know, flesh them out that you would have for the Committee as 
we consider--as we mark up our bill. So just submit in writing 
what you have said just now here at the summary----
    Dr. Luft. Yes.
    Mr. Mollohan [continuing]. And what would you like to see.
    Dr. Luft. It is a big decision.
    Mr. Mollohan. I am not saying that we can do it----
    Dr. Luft. Okay.
    Mr. Mollohan [continuing]. I am just saying we would like 
to see if. There is no commitment.
    Thank you all very much for your appearance here today.
    Dr. Luft. No, thank you.
    Mr. Strang. Thank you very much.
    Mr. Mollohan. We very much appreciate it. Thank you.
    Mr. Strang. Thanks.
    Dr. Luft. Thanks.
                                      Wednesday, February 24, 2010.

           FISCAL YEAR 2011 BUDGET FOR SCIENCE AND TECHNOLOGY

                                WITNESS

DR. JOHN P. HOLDREN, PRESIDENT'S SCIENCE ADVISOR

                      Opening Statement--Chairman

    Mr. Mollohan. The hearing will come to order. Good 
afternoon. Welcome, doctor. Welcome everybody to the hearing of 
the Subcommittee on Commerce, Justice, and Science for fiscal 
year 2011. Today we will cover the budget status and future 
prospects of U.S. research and development. Our witness is the 
President's Science Advisor and Director of the Office of 
Science and Technology Policy, Dr. John P. Holdren. Dr. 
Holdren, this is your first appearance before this 
Subcommittee, and we have much to discuss. And we would like to 
especially welcome you to the job and to the hearing.
    Based on considerable evidence, real growth in the United 
States economy, in excess of population growth, is primarily 
the result of the innovations and new technologies that result 
from public and private investments in research and 
development. Accordingly, we are in the midst of a ten-year 
doubling in funding for NSF, NIST, and the Department of Energy 
Office of Science as contemplated by the America Competes Act. 
This doubling was accelerated by $18.5 billion added to the 
fiscal year 2009 appropriation for R and D in many agencies as 
part of the American Recovery and Reinvestment Act. Those funds 
have gone to increase grant funding across all areas of science 
and to various science infrastructure investments.
    Within the Subcommittee's purview the budget request for 
fiscal year 2011 continues the planned doubling for NSF and 
NIST with roughly 7 percent increases over the 2010 enacted 
levels. While this doubling was authorized in the America 
Competes Act, that authorization was only through fiscal year 
2010. The budget strengthens climate observing and research 
through significant increases for NOAA R and D, including 
equipment and development for polar orbiting satellites, and 
NASA Earth science missions and research. While funding for 
planetary research has increased, funding for other areas of 
NASA science is essentially frozen. While our climate related 
activities are a higher priority, all of NASA's science 
contributes to the nation's science enterprise just as much as 
does funding for NSF, NIST, and the DOE Office of Science.
    In fiscal year 2010 this Subcommittee supported an increase 
to NSF education programs focused on hands-on, inquiry-based 
instruction in grades K-12 and in K-12 teacher preparation. 
Earlier this year, in hearings which we held, we heard 
testimony from those who work in this area. They provided 
examples of successful efforts in improving science, 
technology, engineering, and math education, STEM education, 
evidence of the benefits that result from federal investments 
made through NSF, NOAA, and NASA. For decades the science and 
education communities have stated that inquiry is essential to 
effective STEM education. And yet, it remains rare in K-12 and 
college teaching. It is high time to change this.
    Given the critical role of science and technology in the 
future prosperity and international leadership of the United 
States, we look forward to hearing from Dr. Holdren on the 
state of U.S. science and technology, its position relative to 
other countries, and its future needs and prospects.
    Dr. Holdren, before I ask you to summarize your remarks, 
and your written statement will be made a part of the record, I 
would like to call on Mr. Culberson for any comment he should 
like to make.
    Mr. Culberson. Thank you very much, Mr. Chairman. On behalf 
of Ranking Member Wolf, Frank would like to present his 
statement in person. So I want to reserve the right to allow 
Mr. Wolf to make his opening statement in person. He will be 
here very shortly. He is at a funeral at Arlington.
    Mr. Mollohan. Certainly.
    Mr. Culberson. Thank you, Mr. Chairman.
    Mr. Mollohan. You are welcome. Dr. Holdren.

                       Opening Statement--Witness

    Dr. Holdren. Thank you, Mr. Chairman and members of the 
Committee. It is really a privilege to be here today to talk 
about the research and development and the STEM education 
components of the President's fiscal year 2011 budget. As you 
noted, Mr. Chairman, I submitted a written statement as well.
    The administration is working hard to keep the nation on 
the path out of recession through recovery and into a new era 
of revitalized growth. That of course means sparking job 
creation to get millions of Americans back to work. It means 
building a new foundation for a long term prosperity that will 
reach every American family. And a crucial element of that 
effort is the targeted investments that we are making in 
science, technology, and innovation that will lead to new 
products and services, new businesses and industries, increased 
American competitiveness, and high quality sustainable jobs. 
Our strategy includes investments in fundamental and applied 
research and development that will lead to better technologies 
and the jobs that will go with them for advanced manufacturing, 
for clean energy, for healthcare, for environmental protection 
and remediation, and for national and homeland security. And it 
includes increased use of public-private partnerships to speed 
up innovation and get the results more rapidly into the 
marketplace. It calls for exploration and discovery from the 
depths of the oceans to the frontiers of space, expanding our 
knowledge of our world and our universe while igniting the 
curiosity and ambitions of our young people. And it includes a 
focus on STEM education that will support and sustain, rather 
than stifle, that curiosity so that we can cultivate the next 
generation of innovators along with the technology savvy 
workforce that competitiveness in the 21st century requires.
    Obviously we need the continuing support of the Congress, 
and importantly the continuing support of this Committee, to 
get it done. But if there is one message I most want to convey 
in my comments today it is that the investments in the 
President's R and D budget are at the very core of America's 
future strength. So I am certainly looking forward to working 
with all of you to make sure at this very important time in our 
history, when competition abroad is growing and the stakes are 
ever increasing, that we put America on a path that keeps this 
nation great for our children and grandchildren. A path that is 
built on scientific evidence, on technical progress and 
prowess, and on a nation of people who are inventors, 
innovators, and makers, not just consumers.
    Let me give you a very brief bird's eye view of the fiscal 
year 2011 R and D budget, and then elaborate on a few 
highlights. The President's 2011 budget proposes a record $61.6 
billion of investment in civilian research and development, not 
including facilities and equipment. That is an increase of $3.7 
billion or 6.4 percent over the 2010 funding level. Those 
increases are counterbalanced by some reductions in defense 
development funding, such that the combined defense and non-
defense R and D budget would be $147.7 billion. That is just 
two-tenths of a percent above the enacted 2010 level. If you 
adjusted for projected inflation it would be a cut of about 
nine-tenths of a percent. I think this is a smart R and D 
budget, one that is fiscally responsible overall with some 
important targeted increases where investments today can do the 
most good for us tomorrow.
    Among the highlights let me first note, as you did Mr. 
Chairman, that the 2011 budget reflects the President's 
commitment to double the budgets of the National Science 
Foundation, the DOE's Office of Science, and the NIST 
laboratories. The President's plan for science and innovation, 
and the America Competes Act, as you noted, identified those 
three agencies as key to the fundamental research that 
underpins our future prosperity. And fundamental research which 
the private sector will never do enough of because the risks 
seem too high and the returns seem too far in the future. Last 
year this Congress and this administration worked together to 
put those agencies back on a doubling trajectory that had 
faltered in the previous administration, and the fiscal year 
2011 maintains that trajectory with a 6.6 percent increase for 
their combined budgets.
    I want to highlight as well some of our goals within the 
National Oceanic and Atmospheric Administration, NOAA, which 
plays a vital role in supporting research on the earth's 
oceans, atmosphere, and marine habitats. The NOAA budget of 
$5.6 billion is an increase of $806 million over the 2010 
enacted level. That is going to allow NOAA to improve weather 
and climate services that protect life and property, invest 
more heavily in restoring our oceans and coasts, and to ensure 
continuity of satellite observations of weather and climate 
that are crucial.
    I want to emphasize some recent progress in that latter 
area. The large increase in the NOAA budget reflects in part a 
new architecture for the National Polar Orbiting Operational 
Environmental Satellite System, NPOESS, which is a tri-agency 
program, NOAA, DOD and NASA, that has had a troubled history. 
Since last August OSTP has led an Executive Office of the 
President task force that, in close cooperation with those 
three partner agencies, has been investigating various options 
for how to place the NPOESS program on a pathway to succeed. 
Earlier this month the three agencies announced a plan to 
restructure the program--a plan reflected in the 2011 budget. 
And under this plan there will be a division of satellite 
acquisition but the three agencies will continue to partner in 
areas that they have successfully shared in the past, including 
the ground systems and the data management. I want to assure 
the Committee that OSTP will continue to be engaged in 
overseeing the transition to the new structure of this critical 
program.
    A number of other items in the R and D budget, I think, are 
worth highlighting, including support for activities in the 
next generation air transportation system, NextGen; the added 
billion dollars in the National Institutes of Health to speed 
discovery of new treatments and cures for cancer and other 
diseases; the added support for the Defense Advanced Research 
Projects Agency, DARPA, for research in high priority areas 
such as night vision, cybersecurity, enhanced GPS, and force 
protection; the more than 25 percent increase in funding for 
environmental health and safety studies under the National 
Nanotechnology Initiative; and the significant increase in 
support for the multiagency U.S. Global Change Research Program 
mandated by Congress to improve understanding of climate 
science, expand global observing systems, and develop science-
based resources to support policy making and resource 
management.
    I want to focus on two other areas before my time is up. 
The first of those is NASA. Our space program in the United 
States represents not just a grand and inspiring adventure of 
exploration and discovery reaching outward into our universe, 
but it is also an indispensable platform for observing what is 
happening on the Earth below. It is a crucial element of our 
communications infrastructure and our geopositioning 
capability. It is a source of new products, services, 
businesses, and jobs whose potential is barely beginning to be 
tapped. The fiscal year 2011 NASA budget proposes a science and 
technology centered restructuring of this country's space 
exploration program. It will invest in American ingenuity to 
enable us to do things in space that are more useful, more 
exciting, and more affordable then returning astronauts to the 
moon surface fifty years after we did it the first time using 
essentially the last century's technology.
    The new approach, which adds $6 billion over the next five 
years for NASA, includes a vigorous technology development and 
test program that will begin to reverse decades of 
underinvestment in NASA in new ideas. It will extend the life 
of the International Space Station, likely to 2020 or beyond, 
thereby increasing the number of U.S. astronauts who will be 
working in space over the next decade. It will support the 
development of private sector capabilities to lift astronauts 
into low Earth orbit and it will shorten the duration of our 
reliance solely on Russian launchers for that purpose. And by 
investing in new game changing technologies it gives promise of 
getting our astronauts to deep space destinations sooner, 
faster, safer, and cheaper than what could realistically have 
been achieved under the old approach.
    Finally just a few words about STEM education, which you 
also, Mr. Chairman, mentioned in your opening remarks. The 
President has been emphatic about his commitment, which I 
share, to increase the participation and the performance of 
American students in science, engineering, mathematics, and 
technology, aiming to improve our performance in comparison 
with other nations from the middle of the pack to the top of 
the pack over the next decade. The 2011 budget would invest 
$3.7 billion in STEM education programs across the federal 
government, including a $1 billion investment in improving math 
and science education among K-12 students. That is an increase 
of over 40 percent in that category. The impact of those 
investments is going to be magnified by the Educate to Innovate 
Campaign launched by the President late last year to motivate 
and inspire young people to excel in STEM fields. This campaign 
has already mobilized over $500 million in financial and in-
kind support from companies, foundations, universities, and 
nonprofits. In addition to those investments the 2011 budget 
provides an additional $1.35 billion in funding for Race to the 
Top, a Department of Education program which provides a 
competitive advantage to states that commit to a comprehensive 
strategy to improve STEM education.
    The investments in R and D and in STEM education proposed 
in the President's fiscal year 2011 budget reflect his clear 
understanding of the importance, the critical importance, of 
science, technology, and innovation in addressing the most 
compelling challenges our nation faces while respecting, at the 
same time, the need for overall budgetary restraint under 
difficult economic conditions. It is a budget intended to keep 
this country on a path to revitalized economic growth, real 
energy security, intelligent environmental stewardship, better 
health outcomes for more Americans at lower costs, strengthened 
national and homeland security, and continuing leadership in 
science and in space. I look forward to working with this 
Committee to make the vision of the President's fiscal year 
2011 budget proposal into a reality, and of course I will be 
pleased to try to answer any questions the members may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Mollohan. Dr. Holdren, Mr. Wolf has arrived and I am 
going to let him make his opening statement. Then I will pick 
up with my questioning, and then I will yield to Mr. Wolf to 
follow with his questioning. And then we will proceed in the 
order of members' arrival here today. After which I will be 
turning the chair over to one of the ranking members because 
the EPA administrator is before the Interior Committee and I 
need to appear there.
    Mr. Wolf, I yield to you for your opening statement.

                   Opening Statement--Ranking Member

    Mr. Wolf. Thank you, Mr. Chairman. And I apologize for not 
being here. I was at a funeral at Arlington Cemetery and I just 
got back, so I do apologize.
    I just want to make this clear because of your important 
position. Last October the Augustine Commission issued a report 
entitled, ``Seeking a Human Space Flight Program Worthy of a 
Great Nation.'' The proposal this administration has submitted 
for NASA to abandon the Constellation vision and strategy 
leaves the program worthy of a lesser nation than the United 
States. You are proposing the most radical change to NASA's 
mission and program since its inception, and yet the President 
has been silent, and the White House has been silent since the 
release of the budget.
    You may recall that in August 2008, then candidate Obama 
told an audience of 1,300 people in Florida, ``Here is what I 
am committing to: to continue Constellation.'' This is a 
notable reversal from the President that will have a 
devastating, I believe, impact, the consequences for decades 
for the future, for the future of young people, for the future 
of this country.
    Based on the little information that was provided to the 
Congress, it appears that this plan was hastily developed 
without proper vetting from NASA's scientific and human space 
flight experts. Over the last week I have heard from a number 
of Apollo astronauts and NASA leaders. I would like to share 
with the Committee, and with you, just a few of the initial 
reactions and submit their full statements for the record.
    Former NASA Administrator Dr. Mike Griffin wrote, ``I 
believe this budget request advocates a strategy that is 
frankly disastrous for the U.S. human space flight program.'' 
He added that this proposal clears the way for the Chinese 
dominance in space. China, which has thirty-four Catholic 
bishops in jail, hundreds of Protestant pastors, spies against 
us every day, will literally take the lead with regard to this 
program.
    Dr. Chris Kraft, the legendary Apollo flight director and 
former Johnson Space Center Director said, ``The U.S. space 
program is in great peril if the President's budget proposals 
are enacted.''
    Apollo 7 astronaut Walter Cunningham wrote, ``This budget 
proposal,'' he said, ``accelerates America's downward spiral 
toward mediocrity in space exploration.''
    Apollo 17 astronaut and former U.S. Senator Harrison 
Schmitt wrote that this proposal would ``cede the moon to 
China, the American space station to Russia, and consign 
liberty to the ages. Other nations would accrue the benefits--
psychological, political, economical, and scientific--that the 
United States harvested as a consequence of Apollo's success 
forty years ago. This lesson had not been lost on our 
ideological and economic competitors.''
    Apollo 16 astronaut Charlie Duke said, ``We cannot afford 
to lose our leadership in space. The Constellation program must 
be continued.''
    And perhaps most notably, I received a letter from Burt 
Rutan, the X prize winner who flew the first private commercial 
craft into space in 2004, who ardently opposes this budget 
proposal. He said, ``An observer might think that I would 
applaud a decision to turn this important responsibility over 
to commercial developers. However,'' he said, ``he would be 
wrong. Two years after Neil and Buzz landed on the moon, 
America led the world in awarded PhDs in science and 
engineering and math. Today we are not even on the first or 
second page. The motivation,'' as you were just speaking 
earlier, ``the motivation of our youth is the most important 
thing we do for our nation's long-term security and prosperity. 
NASA's role in that can be as critical as it was in the sixties 
if the taxpayers fund true research and exploration.''
    Manned space flight and exploration is one of the last 
remaining fields in which the U.S. maintains an undeniable 
competitive advantage over other nations. To walk away is 
shortsighted and irresponsible. By killing the exploration 
program in favor of a vaguely defined ``research and 
development program,'' you are guaranteeing that the Chinese, 
the Russians, and others will be closing the exploration gap. 
We will be dependent on the Russians in the short term for 
rides to the International Space Station, and worse, we will be 
forced to play catch up to the Chinese and the Russians in the 
future. The Chinese, who are aiding and abetting the genocide 
in Darfur, and the Russians, who have more of bad things that 
we all know through history. When that time comes I fear that 
the U.S. will no longer have the resources or the political 
support to relaunch our human space flight program.
    James Lewis with the Center for Strategic and International 
Studies said he sees this decision ``as a confirmation of 
America's decline.'' In the interim our space flight and 
manufacturing base will wither. We will be forced to spend far 
more to recreate our current capacities at a later date.
    The editors of ``Space News'' argued similarly that this 
could have a devastating effect on the U.S. propulsion 
industrial base, endangering DOD launch operations. This also 
has very serious national security implications. Alternative 
commercial vehicles will not be available much if at all sooner 
than the Ares I rocket. Worse, these alternative contractors 
have no experience in manned space flight and the safety 
measures necessary.
    As Norm Augustine said, ``Space operations are among the 
most demanding and unforgiving pursuits ever undertaken by 
humans.'' NASA's workforce has forty years of experience, 
having learned by tragedy and success. The Constellation 
program contractors have been working on these issues for seven 
years. As a result of your plan, at the end of this decade we 
will only have a few years of flights to the International 
Space Station followed by a fleet of low Earth orbit vehicles 
with nowhere to go. Worse, you will have no exploration vehicle 
system to go beyond the Station. Above all, the budget proposal 
leaves NASA with no clear exploration mission goal. An agency 
with no vision or leadership will slowly decay. It will no 
longer be a place for our nation's best and brightest to work. 
What we need is a NASA with vision, expertise, and support to 
maintain and grow our competitive advantage in space 
exploration.
    And with that, Mr. Chairman, I just yield back and I thank 
you.

                          NASA--CONSTELLATION

    Mr. Mollohan. Okay, thank you Mr. Wolf. Dr. Holdren, 
because I am going to have to leave. I am going to give you an 
opportunity to, in a relatively uninterrupted way, speak to the 
question of NASA's decision to revamp its exploration program, 
to essentially cancel Constellation and to move forward as 
proposed in your budget. I note that prior to your commenting, 
we were all excited, I think, those of us who are interested in 
space exploration, when President Bush announced what he 
described as his Vision for Space Exploration. The problem with 
that was not the expression of the vision. The problem was in 
the funding of the programs that were necessary to fulfill it. 
So really what started as an expectation ended up being a 
considerable disappointment as the program fell behind in many 
different ways and was, as a result of incredible underfunding 
and at the recommendation that we probably would have to be 
spending $3 billion, $4 billion more a year on it. Not to catch 
up, but just to keep the Constellation program going.
    I say this not making judgment about the administration's 
proposal, frankly. But in fairness, noting where this 
administration found itself after its election. It proceeded, I 
thought, extremely responsibly by calling on Norm Augustine to 
head a review commission. We all have confidence in Norm 
Augustine because of his service to the country and his 
considerable industrial experience. The Augustine Report, which 
was the beginning of NASA's and the administration's review of 
the exploration program, came essentially to the conclusion, 
certainly implied the conclusion, that is reflected in the 
President's budget request.
    The failure of President Bush's vision because of his 
lacking in the application of adequate resources is measured in 
a number of different ways. The gap that increasingly grew 
between the termination of the space shuttle and the coming 
online of another transportation system for U.S. human access 
to Station, I think, is probably one of the most glaring 
measurements of the failure of President Bush's space 
exploration program.
    So it is, I certainly recognize, and I think most members 
of this Committee who work so closely with the science 
accounts, understand how inspirational a grand vision of space 
exploration can be, and how it can drive the decision making of 
youngsters to go into science and to go into research. We saw 
that certainly with Apollo. But it has to be real, and it has 
to be not only articulated but it has to be supported with 
resources. And if not, then it is in fact a hollow vision.
    Again, that is all not by way of passing judgment on the 
administration's request, or its proposal, for exploration in 
and of itself, or in regard to Constellation. But simply to put 
in perspective this issue as I invite you to comment on it, as 
I say, in a fairly uninterrupted way which might be your only 
opportunity to comment on it in a fairly interrupted way. Not 
only on this Committee, but you can expect when you come up to 
have to flesh out the rather skinny presentation that we have 
with regard to the President's proposal at this time. There is, 
as you know, an awful lot of interest in this, and concern as 
expressed by the Ranking Member. Dr. Holdren.
    Dr. Holdren. Thank you. Well, certainly there will be more 
opportunities and there will be more detail forthcoming. And I 
know the Administrator is going to be up on the Hill tomorrow 
testifying. But as NASA has more time to pull all of the 
details together there will certainly be a lot more detail 
forthcoming.
    But let me start by saying that as the Ranking Member's 
comments indicate, there is certainly a difference of opinion 
in the space community about whether this is a good idea or 
not. The Ranking Member mentioned, as you did Mr. Chairman, the 
Augustine Commission. Well Norm Augustine has strongly endorsed 
the new proposal. He says ``By making a significant investment 
in creating commercial capabilities to take humans and cargo to 
low Earth orbit, overseen from a safety standpoint by NASA, 
this will drive competition, lower costs, open new markets, and 
make space more accessible. Similarly, by allocating the 
technology resources highlighted in our report as being 
necessary it will be possible to lay the foundation for travel 
beyond low Earth orbit, including destinations such as the 
asteroids, the Lagrangian points, Mars' moons, and Mars itself, 
as well as revisits to our own moon.''
    The key point is that what the administration's plan is 
aiming to achieve is not a retreat from the exploration of 
space, not an abandonment of human space flight, but an 
approach to doing it that invests in advanced technologies to 
do it better, to do it cheaper, to do it faster, to do it 
safer, and to do it in a way where we can match the mission to 
the resources. I think a goal of being able to operate 
successfully in deep space is more important as the guiding 
light for the program than any one destination. And our goal is 
to be able to operate in deep space, to be able to reach a 
variety of destinations to deploy the technologies that can do 
that in an effective way.
    Buzz Aldrin, the first person to set foot, second person to 
set foot on the moon, after Neil Armstrong, also endorsed it. 
He says, ``the truth is, we have already been to the moon some 
forty years ago. A near term focus on lowering the cost of 
access to space and on developing key cutting edge technologies 
to take us further faster is just what our nation needs to 
maintain its position as the leader in space exploration for 
the rest of this century.''
    So obviously, there are differing views. We could get in 
warring quotations probably for a long time. But there are a 
lot of prominent folks, including the folks on the Augustine 
Commission, Sally Ride, the first U.S. woman in space, who 
strongly endorse the program. Obviously there are differing 
views. I think some of those differences are going to shrink as 
the details come out and people have the chance to discuss them 
in a variety of forums.
    I would point out that we were already going to be 
dependent on the Russians no matter what we did the moment the 
decision was made. And it was made in the Bush administration. 
I think it was made correctly, that we needed to retire the 
shuttle in 2010. Now under the new plan we have provided a 
budget to fly out the manifest into 2011 if that is necessary, 
to do it prudently and safely. But whatever else we did, we 
were going to have a period of dependence on the Russians to 
lift U.S. astronauts into low Earth orbit.
    We think under the new proposal that we will be able to 
shorten that period below what it would likely have been in 
Constellation. The Augustine Commission conclusion was that 
Constellation would not be able to take astronauts to low Earth 
orbit until 2017 or 2018. That would have been after, under the 
program of record, the International Space Station would have 
been crashed into the ocean in pursuit of savings to pay for 
Constellation. The Augustine Commission characterized the 
Constellation program as unexecutable. And they concluded that 
if Constellation were funded in a manner that could return U.S. 
astronauts to the moon before 2025 it would cost between $45 
billion and $60 billion more between 2010 and 2020 than what 
was programmed under the 2010 guidance.
    So we had a big challenge already with the Constellation 
program, in terms of being able to go where the original vision 
called for it to go, when it called for it to go there, as 
again you pointed out Mr. Chairman in your remarks. And the 
administration's task was to find a way forward for the space 
program that would maintain U.S. leadership in space, that 
would maintain the capacity to explore above Earth orbit, that 
would make it better and cheaper, and that would do it within 
the bounds of something that we could afford in difficult 
financial times.
    I could say more but I think it probably would be better to 
have some back and forth.

                     NASA--HUMAN SPACE EXPLORATION

    Mr. Mollohan. There is this woe that this is a real threat 
to our human exploration of space. That is going to be a 
concern. That the United States has just relegated itself to 
second place in that area. Speak to that. How does President 
Obama's way forward with regard to human exploration, access, 
when we get back with our own transportation system, one 
approach versus the other. Speak to this whole concern of 
human, USA human access to space.
    Dr. Holdren. By extending the International Space Station 
we are ensuring that there are going to be more U.S. astronauts 
in orbit over the next decade than there would have been if we 
had crashed the Space Station into the ocean in 2016. That is 
point one. Point two, in terms of deep space exploration, in 
terms of getting humans beyond low Earth orbit, we think the 
way to do that is with better technologies. We think NASA has 
been underinvesting in advanced technologies for decades. And 
the result is that we were talking about going back to the 
moon, and imagining we could go beyond someday to Mars, with 
chemical rockets very much like those that we had in the 
sixties and seventies. We need to do better if we are to take 
astronauts as far as Mars and the only way we are going to do 
it is with better technology. The only way you are going to get 
that better technology is making investments in developing it.
    We have a whole range of technologies that we are able to 
pursue if we wind down Constellation, and take better advantage 
of the very large sums of money that were going into that 
program, which were considerably more than foreseen at its 
inception. That makes available money to do research on 
advanced heavy lift propulsion, advanced deep space propulsion, 
on orbit refueling and fuel storage, a variety of technologies 
that can make it practical and affordable for U.S. astronauts 
to go into deep space. If the Chinese and the Russians keep on 
with a trajectory that is based on the old technology we are 
going to leapfrog right past them with an approach that invests 
in American ingenuity to do better.
    Mr. Mollohan. Thank you. Again, I am sorry to have to leave 
the hearing. I have asked Mr. Ruppersberger if he would 
dedicate the rest of the afternoon, and he was kind enough a 
while ago to say that he would do that. I would ask that he 
come and take the chair and call on Mr. Wolf.

                         NASA--CHINA AND RUSSIA

    Mr. Wolf. Thank you, Mr. Chairman. Many have characterized 
this proposal as ceding leadership in manned space flight to 
other nations. Charles Krauthammer wrote that, ``Decades from 
now there may be a robust private space industry,'' but to 
quote he said, ``in the interim space will be owned by Russia 
and then China.'' What are the implications of abandoning 
Constellation at the same moment that other countries, 
particularly China, are setting specific space exploration 
goals?
    Dr. Holdren. Well, Administrator Bolden and I wrote a 
letter to the editor of the Washington Post indicating that we 
disagreed with Mr. Krauthammer on virtually all of his 
conclusions. I do not think we are, as I have indicated, I do 
not think we are ceding leadership in space to the Russians and 
the Chinese at all. As I said, I think we are going to develop 
technologies that are going to maintain American leadership in 
space. Advanced technology has always been our strength in this 
country and it will continue to be our strength. And I think 
that will apply to deep space as much as it has applied to 
other domains.
    If the Chinese are able to get back to the moon fifty years 
after we did it, I do not think that demonstrates anything 
about Chinese leadership. We were there in 1969. We went back 
five more times into the 1970's. Anybody who thinks that the 
Chinese lead because they get there fifty years later should 
talk to Neil Armstrong and Buzz Aldrin. We are going to stay 
ahead of them because we are going to have better technology 
than they do.

                          NASA--CONSTELLATION

    Mr. Wolf. Was the decision to scrap Constellation fully 
considered from a national security perspective? And was the 
National Security Council part of the decision making process?
    Dr. Holdren. Yes, the process that we ran in the White 
House after we received the report of the Augustine Commission 
included the National Security Council as well as the Office of 
Management and Budget, OSTP, and of course it continually 
included NASA with the folks at NASA continually in touch with 
the national defense community as well because they have many 
overlapping interests and responsibilities. So the short answer 
to that question is yes.

                            NASA--JOB LOSSES

    Mr. Wolf. What do you anticipate as the impacts of this 
decision on the workforce, civil service and contractors? And 
how many jobs will be lost and when? And what measures do you 
plan to take to minimize the impact to job losses and the 
negative impact on the industrial base?
    Dr. Holdren. First of all, the job losses are obviously a 
very important concern. They are important to everybody. They 
are important to the Congress. They are important to the 
President. This is not a time in which we would lightly 
entertain job losses of any sort. We knew we were going to be 
in for job losses in connection with the shuttle program as 
soon as the shuttle was retired. There was no option that would 
have avoided significant losses in the shuttle program as soon 
as the shuttle had retired.
    We think this plan does more to mitigate those losses by 
creating opportunities. It is going to create opportunities, as 
I have indicated, in heavy lift propulsion, in advanced space 
propulsion. We have a plan to invest considerable additional 
resources in the Kennedy Space Flight Center to upgrade its 
capabilities to make it a launch center for the 21st century, 
to increase its capacity to support the increased number of 
missions we are going to have. We are going to have more 
robotic missions. We are going to have an increasing number of 
commercial missions launching from the Kennedy Space Center.
    With respect to the jobs in Alabama, the Marshall Center, 
which has tremendous expertise in rocketry, obviously, is going 
to lose some jobs when Constellation is wound down. But it is 
going to gain some jobs in heavy lift propulsion research and 
in other advanced technology research in which the capabilities 
there are unmatched anywhere. This is a consequence. Anytime 
there is any change in direction you are going to have some 
jobs lost in some domains, other jobs gained. We are making 
every effort to maximize the number of jobs that will be gained 
by the changes in this program.
    Mr. Wolf. So what is the number of jobs? The question was, 
what is the number of jobs?
    Dr. Holdren. I do not think anybody knows exactly, 
Congressman, what the number of jobs will be. All of those 
analyses have a little bit of slop in them.
    Mr. Wolf. But you must have looked at----
    Dr. Holdren. Yeah, we have----
    Mr. Wolf. So tell us what you----
    Dr. Holdren. We have looked at job losses. I think we are 
looking at something like 5,000 job losses in Florida. And we 
think we will be able to restore at least something in the 
range of 1,700 to 2,000 of those with programs that we have 
already identified. And those are the jobs we were going to 
lose in the shuttle program anyway. The number of jobs at risk 
in Alabama, there are 2,500 civil servants employed at 
Marshall. Some of those jobs will presumably be lost but many 
of them will be retained because of the additional research and 
development efforts that will go on there.
    Mr. Wolf. Thank you, Mr. Chairman.
    Mr. Ruppersberger. [Presiding] Okay, I think on the list I 
am next. And then John, I think you are. I want to get into 
three areas continuing some of the questioning on the 
Constellation, get into NOAA, and then the final is the 
restrictions on imagery resolutions for commercial satellites. 
There is a big concern there and I think that if we do not look 
at that more thoroughly that France, Germany, Spain, Italy are 
all talking about doing what we do right now and it looks like 
it is another ITAR. So I would like to get into that.

                          NASA--CONSTELLATION

    But let us get back to the Constellation. What you are, and 
we want to do what is right for America. And, you know, the 
administration is there, we want to work with the 
administration. But, you know, right now this came out of 
nowhere from where we are sitting, those of us who deal in the 
space program, whether it is intelligence, defense, or this 
Appropriations Committee. And we talk, the concept sounds 
great. The fact that we are putting a lot of money into 
research and development, and we have not done that for a 
while. In fact, if you look at, I think, the failures of our 
space programs, things that really are still classified, we 
cannot talk about all of them. A lot of it is because we took a 
lot of money away from research and development and testing and 
the things that needed to be done. You can have a major 
contract with one of the big boys, whether it is Northrup, or 
Boeing, or Lockheed, you know, all the big corporations. And 
they would have these contracts, and then they would do the 
research and development along the way. It would be over price, 
over time, and half the time the bird would be so big because 
every three-star wanted everything on it and nothing was going 
to happen. So I think your concept is good.
    My concern is that it is happening very quickly without a 
plan, the way we see a plan. And we need to have a plan. And 
then let us evaluate that plan. You look at this county, some 
people feel that if you control the skies you control the 
world. When Sputnik came out we responded as a country in eight 
years and put a man on the moon, and that really helped us do 
the research and development to get us where we are now as 
being dominant in space. But as you know, we have had a lot of 
failures. And that is what I am sure you are focusing on now. 
But I am worried about the details, and doing something too 
quick, too soon. It almost reminds me of the healthcare bill. 
And, you know, when you, when you are focusing on something as 
important as our national security, and where you are going to 
be going, I feel the commercial is very important. I feel in 
the area of defense and intelligence we have been way behind 
and we have lost money where we could have one, four satellites 
to one because of the traditional ways that the, I call it, not 
out of disrespect, but kind of a joke, the old bulls, admirals, 
and generals, or whatever. And just wanting not to take the 
risks that maybe we took when we put a man on the moon years 
ago.

                               NASA--MARS

    But where the concern is, and I am going to ask you this 
question, is it our intention to put a man on the moon again? 
Or a man on Mars again? Is that the administration's intention?
    Dr. Holdren. I think in short yes. Mars, everybody agrees I 
think Mars is the ultimate destination. We are not ready to put 
a date on that. There was no date, by the way, on going to Mars 
even in the Constellation program. But yes, Mars is the 
ultimate destination for human space flight beyond low Earth 
orbit. The President has not abandoned that. Administrator 
Bolden has not abandoned it. We will ultimately put people back 
on the moon, when we are ready to do interesting things with 
them on the moon surface. The problem with the Constellation 
program is that we would at most have been ready to put U.S. 
astronauts in the vicinity of the moon around 2028, according 
to the Augustine Committee. And we would at that time have not 
had the capability to put them on the surface, because we would 
not have been able to pay for the lander under the budget that 
was foreseen.
    We will go back to the moon and we will ultimately get 
people on Mars. But when we do it we will do it in a way that 
makes sense, a way that we can afford, and a way that is safer 
for the astronauts.
    Mr. Ruppersberger. The way the administration, the 
perception at least from my perspective, is that, ``Well, we 
are going to go where we need to go in space, but we are going 
to let the commercial side take more control.'' And I do not 
have an issue with that. And some, as I said before, in defense 
with some intel. But if you are going to put a man on the moon, 
commercial has not had the research and development. They do 
not have the capacity at this point to put a man on the moon or 
Mars. And by the way, why that is relevant, too, is because our 
younger generation, I feel, is not going to space anymore 
because these programs are out there forever, it takes forever 
to go where we need to go. And, you know, that is, the younger 
generation really needs to be more active and we need to focus 
more in this area of space.
    Also, we need to get the country excited. Because people 
are tired. They are just not used to having, let me say it this 
way. In the old days, an astronaut was as popular as an NFL 
quarterback. These days that is not the case. And I think the 
country just is not excited about going to the Space Station 
and back.
    I am going to get back, though. What is the plan? I mean, I 
am hearing theory but I am not hearing detail. And until you 
have detail, and we are sitting here as appropriators, and we 
are worried about national security. And, you know, it is such 
a big decision on where we go and how we are going to develop 
our space and science, and how we are going to control the 
skies. I am worried we are going too quickly on this thing.
    Dr. Holdren. Okay, let me respond on a couple of points.
    Mr. Ruppersberger. So educate us.
    Dr. Holdren. First of all, I want to be clear. We are not 
proposing to use commercial to go to the moon or to go to Mars. 
The proposal is to turn over the most straightforward part of 
the task, which is lifting cargo and astronauts into low Earth 
orbit, to public-private partnerships in which the private 
sector plays a bigger role than it has played in the past. And 
what has basically changed here is the acquisition model. We 
have relied on the private sector to build the technologies 
that take our astronauts into space from the beginning. The 
Mercury capsule was built by McDonnell. General Dynamics 
launched it with an atlas converted from an ICBM. Rockwell 
International built the space shuttle. What is changing is the 
acquisition model, where the idea is we will buy the service 
and the private sector, investing substantial amounts of its 
own money, but also some government money at the outset, will 
deliver that service. But the technology that we have been 
using to take U.S. astronauts into space has always been built 
by the private sector.
    At the same time, by turning over more of that task of 
lifting cargo and astronauts into low Earth orbit to the 
private sector we are going to free up NASA's resources to do 
the more demanding, tougher, cutting edge jobs for which NASA 
is uniquely suited. NASA is going to have----
    Mr. Ruppersberger. Give me an example?
    Dr. Holdren. NASA is going to have the responsibility for 
developing in-orbit refueling capabilities. NASA is going to 
have the responsibility for the development of advanced heavy 
lift capability. NASA will have the responsibility for 
developing the advanced space propulsion engines that can get 
us more rapidly to destinations like Mars. If we try to use 
chemical rockets to go to Mars we are going to have our 
astronauts out there for so long we are going to have a big 
radiation exposure problem. We need to do this in the right 
way, and the right way to do it is advanced technology. And 
NASA is the operation that is going to bring us that 
technology. We are not turning the whole space program over to 
the private sector by any stretch of the imagination.
    You are right to ask for more detail. This plan awaited, 
first of all, the completion of the Augustine report before the 
administration was even going to consider in any detail what 
the options were, and which option it was going to choose. It 
wanted to have the Augustine Report. We got the Augustine 
Report. We set up an interagency process in the White House to 
consider the findings of that report, to consider and develop 
and cost out the options. NASA was involved in that. NSC was 
involved in it. We in OSTP were involved in it. We presented a 
wide variety of options over a period of time and we ended up 
with a decision. This is not a decision that was reached 
without a lot of input from folks in NASA. It was not a 
decision that was reached without input from the private 
sector, from our experienced contractors who are not all, by 
the way, small operations. The Augustine Committee had an 
exceedingly open process in which they talked with virtually 
everybody, visited the major space centers, and so on. But the 
details do still need to be fleshed out.
    NASA has been working on that very hard ever since the 
decision was made to go in this direction, I think you will be 
seeing from Administrator Bolden, and others from NASA who will 
come up here, the fleshing out that you rightly want before you 
reach a conclusion about whether this is a viable pathway. I 
have seen enough to believe it is.
    Mr. Ruppersberger. There are other, I will get to other 
questions in another round, so John, I do want to say this, 
though. One of the focuses that I feel has to be looked at is 
the DOD, intel, and NASA collaborating a lot more. And a lot of 
times DOD and intel to an extent hold their satellites close to 
the vest when it is not necessary.
    Dr. Holdren. I know that.
    Mr. Ruppersberger. And we need to open that so that maybe a 
defense satellite or an intel could be used by NOAA, or 
whatever. That is something I would hope you would focus on. 
John?

                   NASA--AUGUSTINE COMMISSION REPORT

    Mr. Culberson. Thank you. Thank you very much, Mr. 
Chairman. Dr. Holdren, I heard you say just a moment ago that 
your plan, you were waiting for the Augustine Commission Report 
because you would not think of releasing this until they had 
their report, right?
    Dr. Holdren. Of course.
    Mr. Culberson. So you developed this plan before you had 
even seen the Augustine Report, did you not?
    Dr. Holdren. No, I beg your pardon. I said----
    Mr. Culberson. That is what you said.
    Dr. Holdren [continuing]. We were waiting for the Augustine 
Report to look at the options.
    Mr. Culberson. I think that was what you said.
    Dr. Holdren. No, excuse me, sir, but that is not what I 
said. I said we were waiting for the report----
    Mr. Culberson. Yeah, I think that is what you just 
testified.
    Dr. Holdren [continuing]. So we could see, we were waiting 
for the report so that we could see how it characterized the 
different options. We had not decided----
    Mr. Culberson. You were not even thinking about this and 
planning this before the Augustine Commission released its 
report. Are there any memos, any discussions at your office, at 
the White House of cancelling Constellation before the 
Augustine Commission released its report?
    Dr. Holdren. I would have to go and look to see if there 
was any consideration of that. We knew, sir, from many other 
sources, from many other analyses, that there were very serious 
criticisms out there about the viability of the Constellation 
program.
    Mr. Culberson. I know, I was wondering what you----
    Dr. Holdren. So it would be surprising if nobody involved 
in any of these discussions had mentioned those analyses. But 
certainly I can assure you no decision had been made about what 
course----
    Mr. Culberson. A decision had been made but you were 
waiting to move until, I heard you just testify you were 
waiting, you would not have announced this before.
    Dr. Holdren. We would not have had anything to announce 
before----
    Mr. Culberson. But you were already contemplating this.
    Dr. Holdren. No, we would not have had anything to 
announce. Believe me, the President did not know what he wanted 
to do. We did not, in the early phases, even have a new NASA 
administrator.

                          NASA--CONSTELLATION

    Mr. Culberson. Let me also ask you, if I could, excuse me 
because our time is so limited, I also heard you just say that 
you contemplated, this was developed with the input of NASA 
deputy administrators and, you know, you talked to folks out in 
the field. Yet the field center heads, who are your best 
experts, Mike Coats who is a prince, he is Director of the 
Johnson Space Center, these men and women are the best in their 
field. And these field directors, the directors of the field 
centers, your associate administrators and field center heads 
were not even told of the final details of the plan to cancel 
Constellation until just a couple of days before its release. 
They were not consulted with.
    Dr. Holdren. They were consulted early in the process and 
during the process about the options, the characteristics of 
different possibilities.
    Mr. Culberson. That is not a direct answer. Your testimony 
was you consulted with NASA directors and associate 
administrators, and it is a fact that your associate 
administrators and your field center heads said they were not 
told about the decision to cancel Constellation until a couple 
of days before the announcement.
    Dr. Holdren. Congressman, with respect you are not 
distinguishing between consulting them during the process of 
developing a decision----
    Mr. Culberson. Well you said consult them about options. I 
am talking about the cancellation. You are attempting to cancel 
Constellation, right?
    Dr. Holdren. Yes, that is correct.
    Mr. Culberson. Okay. They were not consulted, were they?
    Dr. Holdren. They were consulted in the whole process.
    Mr. Culberson. Did you tell them you were going to cancel 
Constellation?
    Dr. Holdren. We did not tell them until we told them, sir.
    Mr. Culberson. Did you ask them what they thought about 
cancelling the Constellation program?
    Dr. Holdren. I could not tell you who talked to which 
director when about the possibility of cancelling the 
Constellation program. The Augustine Committee met with all of 
those folks.
    Mr. Culberson. No, no, no, you, I am not talking----
    Dr. Holdren. We were obviously contemplating a wide range 
of possibilities.
    Mr. Culberson. Yeah. Forgive me, because our time is so 
short. I am not talking about the Augustine Commission. I am 
talking about you and your office, and the folks that sit 
behind you that work for you. Did you or any of your staff 
consult with and ask any of the field center heads, or any 
associate administrator at NASA, what is the impact on American 
leadership in space if we cancel Constellation?
    Dr. Holdren. I did not ask any center director that 
question.
    Mr. Culberson. Okay.
    Dr. Holdren. My assumption is that folks in NASA did.
    Mr. Culberson. Your assumption? You are a scientist, you do 
not assume. You know what that stands for.
    Dr. Holdren. I could not tell you whether any members of my 
staff talked to those particular people or not. I know their 
views----
    Mr. Culberson. Okay.
    Dr. Holdren [continuing]. Were taken into account in 
developing the Augustine Report.
    Mr. Culberson. Their views were taken into account? They 
were not told of the cancellation until two days before the 
announcement.
    Dr. Holdren. This is a different question. The question of 
when people get told about a decision, and what consultations 
go into the decision are two different questions.
    Mr. Culberson. The reason for the question, Mr. Chairman, 
is very important. Because Dr. Holdren has testified, you just 
said flat out that your plan is going to reduce the gap. You 
are going to be able to reduce the gap, we are not going to 
have to rely on the Russians for as long. I heard you say that. 
And that is a statement which you as a scientist, I am 
confident, do not make statements unless you have got 
verifiable facts that you can back that up. You did not clearly 
consult with or ask any of the field center heads what will be 
the gap, how long will the gap be if we cancel Constellation 
and turn this over to the private sector? And since that 
conversation did not occur, you have no basis to make that 
statement from field center directors.
    And let me also drive this point home. How many, I want to 
know how many private contractors you visited with, or asked 
their opinions. You say that you can shorten the gap with the 
private sector. Did you or anyone from your office ever meet 
with Boeing, or Lockheed Martin, or ATK about what the effect 
on the gap will be if we turn it over to the private sector 
guys.
    Dr. Holdren. I would have to ask the people in my office 
whether they did. But the basis for that statement was the 
Augustine Commission Report, which said that there was a 
considerable probability that the private sector could start 
putting U.S. astronauts in Earth orbit by 2016. And the 
Augustine Committee view was that Constellation would not be 
able to do it until 2017----
    Mr. Culberson. Someone from your office did?
    Dr. Holdren. Sir, I cannot tell you who all people in my 
office talked to.
    Mr. Culberson. Now certainly----
    Dr. Holdren. I have a very energetic and dedicated staff. 
They talked to a lot of people.
    Mr. Culberson. The Augustine Commission looked at a lot of 
different options, and that was one of them clearly. And the 
statement, though, you made though, that we are going to 
shorten the gap if we follow this proposal you have laid out, 
on what do you base that? Who----
    Dr. Holdren. I base it in part on the Augustine Committee 
Report, which concluded that that was a likelihood.
    Mr. Culberson. Okay. Let me, if I could also finally, Mr. 
Chairman, because I know we are short on time, ask Dr. Holdren, 
you directed the administration has essentially as I know has 
told NASA to go ahead and begin to start winding down, get 
ready to shut down Constellation, right? You have already sent 
out those orders?
    Dr. Holdren. Number one, I have not sent out any orders.
    Mr. Culberson. No, the White House, the administration.
    Dr. Holdren. To my knowledge, and I have seen a letter that 
Administrator Bolden wrote in response to a letter from 
Congressman Alderholt and some others.
    Mr. Culberson. And me.
    Dr. Holdren. The NASA Administrator has not sent out any 
orders to contractors to start cutting things down. They are 
complying with the law, they are asking, because the 
President's proposal is to wind down Constellation, they are 
asking what it would cost to do so. That is a different thing 
than saying stop work, sir.
    Mr. Culberson. Okay. The reason, Mr. Chairman, is because 
we put in this Committee, and we did so quite properly, put 
into statute language, Mr. Chairman, that says that none of the 
NASA funds provided herein for prior years shall be available 
for the termination or elimination of any program, project, or 
activity of the architecture for Constellation, nor shall any 
funds be available to create or initiate a new program, 
project, or activity unless such program, termination, 
elimination, creation, or initiation is provided in subsequent 
appropriations act.
    Now that is statute. You cannot in any way alter or change 
or Man Launch Space Program because that is our job.
    Dr. Holdren. Without the consent of the Congress, that is 
absolutely correct.
    Mr. Culberson. NASA can't use one nickel of the money 
appropriated from this Subcommittee to change, alter, or in any 
way the Man Space Program.

                       NASA--AMERICAN LEADERSHIP

    And I would say I share everyone's concern on this 
Committee that we--you are proposing surrendering Little Round 
Top. You are surrendering the high ground to the Chinese, to 
India, to our friends and foe alike, and it is something 
America has never done in its history, and I am frankly 
embarrassed.
    Dr. Holdren. Well, I don't agree with that 
characterization, sir, with all respect. We do not intend to 
surrender leadership.
    Mr. Culberson. I am mortified. Embarrassing and mortifying 
that America would--our American President would voluntarily 
surrender leadership of the world in science and space 
exploration and surrender the high ground to our enemies is 
mortifying, embarrassing, and unacceptable.
    Dr. Holdren. Sir, that is not what we are proposing to do. 
We are proposing to maintain U.S. leadership with what has 
always been our strongest suit, which is advanced technology.
    Mr. Ruppersberger. I think one thing the statute did say, 
it did give the right to modify, I believe. Is that correct? I 
just heard that from staff. That is the statute. Mike, do you 
have any questions? We have 332 who have not voted.
    Mr. Honda. Thank you, Mr. Chairman. If we leave and come 
back I will reclaim my time when we get back.
    Mr. Ruppersberger. Okay.

              NASA--COMMERCIALIZATION OF SPACE EXPLORATION

    Mr. Honda. The question I have is I guess the choice 
between going commercial, privatization of space exploration 
versus the government doing it in terms of advancing technology 
and looking at new technologies.
    When we are looking at turning over the task of space 
exploration in lower orbit, open it to commercialization or 
commercial efforts are we giving up our position on creating 
new technologies? Or what role do we play in terms of 
developing new technologies?
    Dr. Holdren. Well first of all the proposed plan greatly 
increases the investments we are making in NASA in developing 
new technologies. New technologies for heavy lift, new 
technologies for propulsion in deep space, new technologies for 
refueling in orbit. We think we need a range of new 
technologies to make human exploration of deep space practical, 
and it is our intention to develop those.
    The increased role of the commercial sector in this plan is 
confined to an increased role in lifting cargo and astronauts 
into low Earth orbit, and we think for that task that the 
rapidly developing commercial space flight sector can make a 
very important contribution.
    Mr. Honda. So you are saying that we are dividing our 
responsibilities that we will do the things that they need to 
have in order to put their payload up.
    Dr. Holdren. Well again, they already have rockets, they 
are designing additional ones.
    Mr. Honda. I understand that.
    Dr. Holdren. They have already been building rockets for 
our program.
    Mr. Honda. I am not trying to argue with you.
    Dr. Holdren. No, I know, I am trying to answer your 
question.
    Mr. Honda. Saying that we are going to be developing the 
technology for them to use to put their payload up.
    Dr. Holdren. We have already done some of that. They 
already have some of the technologies they need. It is an 
ongoing interaction. It is going to be a partnership. It always 
has been.
    Mr. Honda. Will the partnerships increase in terms of them 
having a greater role----
    Dr. Holdren. Yes.
    Mr. Honda [continuing]. And bear the expense of putting up 
the payload?
    Dr. Holdren. And they are expected to be willing to do that 
because they will have customers other than the U.S. 
government. As again they already do in putting up 
communication satellites and so on.
    Mr. Honda. For us to recoup the investment we make, what 
responsibilities will with they to pay back into the coffers?
    Dr. Holdren. You are now exceeding my competence. I am not 
an expert in the kinds of contracts that will be developed for 
this purpose.
    Mr. Honda. No, but there has got to be some sort of a basic 
concept of we invest the money, they take advantage of it and 
make money, and where does that enrichment go to in terms of--
--
    Dr. Holdren. Well part of the enrichment goes to 
maintaining U.S. leadership in space, because it frees up----
    Mr. Honda. Well if you look at--I understand that, you 
know, we did that with technology in terms of IT and----
    Dr. Holdren. Sure, we do it across the board.
    Mr. Honda [continuing]. Other areas, but very little of 
that money that we put into it comes back to public education, 
postgraduate work where we lead in that. And if we are going to 
continue to lead that and if we have that confidence that we 
are going to be able to do that we have to find other ways to 
be able to, you know, sustain that in the long term.
    Our Congress, every time we talk about other countries, we 
talk about them as if they were folks who are not going to be 
playing as a team. Are we looking at working with Russia and 
China and Japan and the other countries who are going to space 
as partners?
    Dr. Holdren. We do that already, sir, to a very substantial 
extent. We have up there the International Space Station which 
we are extending to 2020.
    Mr. Honda. Yeah, but we----
    Dr. Holdren. We have got Russians up there, we have 
Japanese, we have Europeans. They are helping to provision the 
station. Their launchers are taking cargo to the Space Station 
regularly. That will continue to happen. There are lots of 
respects in which we do partner with other countries to the 
Space Station regularly. That will continue to happen. There 
are lots of respects in which we do partner with other 
countries to get these tasks done in concert.
    Mr. Honda. And we do that and then we withdraw our 
partnerships at times don't we? And so----
    Dr. Holdren. Well, I think----
    Mr. Honda [continuing]. My concern is being consistent in 
our partnership and our commitment, but also being consistent 
and--I am trying to say it way that I am not going to offend my 
colleagues--but we seem to criticize or put them out there as 
if, you know, they are going to be or constant enemies, and our 
congressional move the past few years where we disallowed our 
companies to work overseas to do the launching, we lost of lot 
of market share in the world. And so you know, we either do it 
right and be consistent, and you know, if Congress went off on 
one end or the other, that somebody's got to say, you know, let 
us just be consistent about this thing. You know, we are very 
schizophrenic about our global relationships, and I think that 
we need to do some work in that area too.
    Dr. Holdren. I would agree with that. There is obviously a 
longstanding tension between competition and cooperation in a 
lot of these domains, and you have to decide when you are going 
to cooperate and when you are going to compete. We are doing a 
lot of cooperation in space.
    Mr. Honda. Right. And I don't think that we have a problem 
understanding that because we do that in Texas, we do that in 
California in terms of, you know, the technologies. Is we have 
to be able to do that with come confidence with other 
countries, and at the same time they have a problem with us too 
I am sure, because they have a history from their point of 
view, and using a minimum of understanding that we deal up 
right now just in the area of global warning, we end up sharing 
the IPs and not fight over it.
    I guess the other thing we need to do if we are going to 
move into this arena is to start looking at how we talk about 
and how we treat our relationships as we move forward in the 
technology.
    Dr. Holdren. No, I agree that is important. I do think we 
made our partners very happy by extending our commitment to the 
space station rather than saying for reasons of our budget we 
have to crash it into the ocean in 2016.
    Mr. Honda. Real quick question.
    Mr. Ruppersberger. We are going to have to adjourn the 
meeting temporarily--we will come back. There are three votes, 
two after this, then we will come back.
    Dr. Holdren. Okay.
    Mr. Ruppersberger. It will probably be about 20 minutes.

                            NASA--SATELLITES

    Mr. Honda. So let me just finish my question though. At 
Lockheed, which is one of the contracts, they are developing 
some satellites for our Constellation Program, correct?
    Mr. Ruppersberger. We have ten more votes.
    Mr. Honda. And my understanding is that they are going to 
have to stop at a certain point, but we will have approximately 
four satellites up there to continue our mediums to put up 
satellites so that we have an increased efficiency and geo 
positioning and controlling kinds of things that we control 
with these satellites both commercial and military.
    Dr. Holdren. Right, those aren't part of the Constellation 
Program.
    Mr. Honda. They are not?
    Dr. Holdren. They are not
    Mr. Honda. Then why is TSAT, I understand that TSAT is 
going to be set aside or we are not going to be funding it 
beyond a certain date, and they are already working along 
those----
    Dr. Holdren. I am not sure what the connection is between 
the satellites you are talking about and Constellation Program.
    Mr. Honda. Does anybody else know?
    Dr. Holdren. Those are separate. The Constellation Program 
consists of the Ares 1 rocket for lifting crew and cargo into 
low Earth orbit; the Ares 5, which is a heavier rocket; the 
Orion Crew Capsule; and the Altair Lander, which was intended 
ultimately to land on the moon. But there are no satellites in 
the Constellation Program.
    There are a whole variety of satellite programs that are 
very important that we are continuing to fund.
    Mr. Honda. So TSAT has nothing to do with this then?
    Dr. Holdren. Yeah.
    Mr. Honda. Then can you help me understand why the future 
funding of that is going to be on hold where the next 
generation they are looking at to be able to produce the system 
that we have out there and increase our dominance and control 
of the technology and satellite and geo positioning? And maybe 
I can get a response back in writing.
    Dr. Holdren. Yeah, this is a military satellite, but I 
would have to get back to you on the details. I am not familiar 
with the TSAT Program or what's happened to its budget. So I 
would have to look into that, sir, and we could get back to 
you.
    Mr. Honda. Okay.
    Mr. Schiff. Mr. Aderholt?
    Mr. Aderholt. Mr. Chairman, we have two, five-minute votes 
after this, and my question is going to take a little longer. 
Could we just recess for just for about five or ten minutes and 
then----
    Mr. Schiff. Well, if you don't mind, Mr. Aderholt, I have 
got a short question. Maybe I can get that in now.
    Mr. Aderholt. Well then I just defer. Go right ahead.
    Mr. Schiff. Okay, thank you.
    Mr. Aderholt. I will go vote and then I will come back. 
Okay.

                    NASA--PLANETARY SCIENCE PROGRAM

    Mr. Schiff. Super. Mr. Holdren, I wanted to ask you about 
the Planetary Science Program. The President's budget does a 
great job of funding earth science missions and continues 
funding for current planetary science missions, but it doesn't 
do much to move future planetary science missions into the 
formulation stage, in particular the outer planets flag ship 
mission to Europa is not moved into the formulation phase. The 
budget mentions that NASA is waiting for the results of the 
Planetary Science Decadal Survey before formulating the 
mission, but this mission was recommended in the last decadal 
and has been ready to begin development for several years, so 
that seems just another delay, another excuse for delay.
    Those of us that have been strong supporters, but don't 
understand why we continually--it gets approved by one decadal 
and we got to wait for another decadal, and why isn't NASA 
funding the development of an outer planets mission in 2011?
    Dr. Holdren. I don't have the answer to that off the top of 
my head, it is another one I will look into and get back to 
you. I am not sure what the answer is.
    Mr. Schiff. Okay, I appreciate if you would get back to us 
on that. That was the only short question I had.
    Let me start with the next one and we will see how far we 
can get.

                      NASA--HEAVY LIFT CAPABILITY

    The new budget discusses heavy lift, but not with a lot of 
detail. The only time line mentioned is a vague statement that 
we should have a new heavy lift first stage engine by 2020, 
developing a vehicle will then take many more years leaving us 
without a heavy lift capability until 2025 or 2030. All though 
the commercial space flight companies are making great progress 
they don't have plans for heavy lift.
    What would be necessary to get us a heavy lift vehicle by 
2020 to move up the timetable, and can the technologies 
outlined for development using funds currently devoted to 
Constellation reduce the size of the heavy lift launcher we 
might need?
    Dr. Holdren. Let me take the last question first. Certainly 
some of the technologies that are going to be explored under 
the new plan can reduce the need for heavy lift. For example, 
if you can develop and demonstrate in-orbit refueling then the 
need for how much mass you have to put up at one shot can be 
reduced and you can have a smaller heavy lift capacity than you 
would otherwise need.
    There are a variety of other advanced technologies that can 
effect that. For example, if you get advanced space propulsion 
that doesn't need as much chemical fuel to go where you are 
going you can again reduce the amount of mass you have to put 
up there.
    There is no very specific timetable beyond the general goal 
you mentioned in part because we don't know until we start 
reinvesting in technology how fast we can make progress and 
what the most attractive possibilities will be that could be 
converted into real operational systems. So obviously this is 
something that is going to be revisited continuously after the 
research that we have been neglecting for so long gets back 
under way. Obviously the sooner the better from the standpoint 
of our capacities to explore deep space.
    But you know, I have to remind everybody that we wouldn't 
have really had the Ares 5 ready to go, according to the 
Augustine Committee, until the late 2020's in any case. I mean, 
we were looking at a shortfall in heavy lift capability under 
the old program, not just under the new.

                              NASA--VISION

    Mr. Schiff. Let me ask you a broader question in terms of 
the vision behind the NASA Human Exploration Program. In 
particular the moon, while it was somewhere we had gone before 
was still a goal that caught the imagination of the American 
people and the plan to get there had goals and time lines. The 
President has not been explicit about the long-term goal of all 
the research that is set out, the research and development work 
that is going to Mars, and that is a serious concern.
    Is this plan the faster way to get us to Mars? And if so, 
why hasn't the President made that case?
    Dr. Holdren. I think we will be hearing from the President 
on this. I can't give you a date, but it has been the 
President's intention to speak up on this topic. As you know he 
has had his hands pretty full on some other topics, and I think 
they don't want to put too many out there at once, but we will 
be hearing from the President on space policy and what his 
vision is.
    Mr. Schiff. Well, I think that is really vital. There is a 
lot of concern here, as you can tell, with the direction of the 
Space Program and with, you know, the loss--the potential loss 
of our leadership in this area that has been the source of 
great pride for the country and innovation and technology, and 
if there is a good case to be made for why this advances those 
goals it really will need to be made very forcefully.
    I mean, I represent an area that is very heavily involved 
in robotic exploration----
    Dr. Holdren. Right.
    Mr. Schiff [continuing]. And the budget is very kind to 
robotic exploration, but I also have a great support of the Man 
Space Program and share the concerns about the degree and 
length of time in which we will be reliant of the Russians or 
anyone else for that matter, the degree to which turning our 
Space Program into an international program will result in--
potentially result in delays and loss of American leadership in 
this area, and I think we would really benefit if we made 
clearly articulated vision about where our Space Program is 
going and how this is the best direction to get there.
    I mean, I am obviously mindful of the budget realities and 
have lamented over the last several years that our aspirations 
and our policies far out stripped our capacity to pay for them, 
so I have never envied the task of reconciling those two, and I 
know if you had your way you would have the President focused 
on this all the time, but he obviously has a lot else on his 
plate as you mentioned.
    I am going to head down, and we probably won't have other 
members back before this series, so we will recess then until 
the conclusion of these votes.
    Dr. Holdren. Good. Thank you.
    [Recess.]
    Mr. Ruppersberger. Good afternoon.

                          NASA--CONSTELLATION

    Mr. Aderholt. Thank you, Dr. Holdren for being here today 
and for your testimony. And no one envies your job that you 
have and certainly we all appreciate it, it is a very difficult 
job that you have and what you are doing.
    I would want to mention a little bit about just the 
overall, and from in recent years the entire discretionary 
budget requested average just under $1 trillion. President 
Obama's budget request average over $3 trillion of course that 
is not counting the stimulus. Our hope was that NASA's request 
would include realist dollar amounts for human exploration.
    The Augustine Commission suggested two to three billion per 
year for any of the human space flight options to be realistic. 
The current plan that is before us flushes away $9 billion 
invested in the Constellation, commits U.S. taxpayer to at 
least two billion more dollars to shut down these programs, and 
provides a top line increase of slightly more than $1 billion 
per year for five years. It terminates the only launch and 
capsule program which have been guided by NASA's safety 
criteria to the level of being human rated by NASA. This plan 
abandons any open of astronauts actually going anywhere beyond 
the station for at least 20 years.
    I am aware of the OMB statement of NASA's mission, I am 
getting ready to go to Mars, but these science projects should 
be worked on at the same time as the launch systems like 
Constellation which will actually get us somewhere.
    My first question is regard to the speed that NASA is 
shutting down the Constellation, even though the commercial 
options for human space flights are not ready at this point. 
Fixed costs of launching Ares 1 would be about $1.2 billion a 
year, any launch system is going to have that high of cost or 
higher. The marginal costs are costs per rocket would be about 
120 million for Ares 1, plus about 50 million for Orion 
Capsule. The latest estimate for the Completed falcon 9 is 
about $130 million.
    Meanwhile we should note that the original March 2006 
contracts NASA sign would the two companies which won COTTS 
contract called for three demonstration flights by the fall of 
2008 showing the ability to deliver cargo to the International 
Space Station, almost four years later we are still waiting on 
that first flight.
    The transfer of human space flight missions to commercial 
companies only goes against number one, 2005 and 2008 Space Act 
bills, 2008 Aerospace Safety Advisory Panel reports, 2009 
Aerospace Safety Panel report, and even the Augustine 
Commission, which I know you referred to earlier, has 
recommended a back-up launch plan.
    The intent of Congress was clearly that NASA would continue 
these programs until Congress made a decision on the 
President's proposal.
    Isn't it a big risk for our Space Program for NASA to be 
aggressively canceling and freezing all Constellation contracts 
which were on schedule to be awarded this year?
    Dr. Holdren. Well, first of all, Congressman, I believe we 
are talking about the fiscal year 2011 budget here. This is the 
President's proposal for what he would like to do in 2011, 
which obviously is going to be before this Committee and other 
committees of the Congress.
    As I understand it, and I read your letter to the NASA 
administrator and I read the response from NASA. As I 
understand it, NASA is not terminating these contracts at this 
point, it is not in violation of the statute to which you refer 
here, and it is not NASA's intention, certainly not the 
Administration's intention, to violate the statute.
    We know we need to work with Congress if we are going to 
execute this change in approach in NASA's Human Space Flight 
Program and we would plan to do that. There is no intention to 
violate the law and I don't believe the law is being violated.
    Mr. Aderholt. So it is your position then that they are not 
canceling or freezing any of the contracts?
    Dr. Holdren. My understanding is the understanding embodied 
in Administrator Bolton's response to your letter. I don't know 
anything that would contradict that at this point. I must say 
that contract law and contract management is not my field of 
expertise----
    Mr. Aderholt. Uh-huh.
    Dr. Holdren [continuing]. And so I am relying here on what 
I read in these materials and what the administrator and his 
staff tell me, which is that they believe they are in 
compliance with the law. And the intention is to work with the 
Congress to implement the change-in-direction for the Human 
Space Flight Program, putting a heavier emphasis on the 
development of new technologies, as has been outlined in the 
Administration's fiscal 2011 budget.
    Mr. Aderholt. So based on the knowledge you have been given 
and if they were to ask your advice on it you would advise them 
not to cancel or freeze any contacts?
    Dr. Holdren. My advice first of all would be to comply with 
the law.

              NASA--COMMERCIALIZATION OF SPACE EXPLORATION

    Mr. Aderholt. Yes. Okay. The two Space Act bills passed by 
Congress in 2005 and 2008 supported some commercial space 
flight development, but never to the point of eliminating our 
primary launching capsule plans. NASA has spent $500 million on 
the COTTS Program. NASA's budget adds another $312 million, 
which is an additional 60 percent on top of the 500, and then 
another 500 on top of that in fiscal year 2011 for the 
commercial crew, and then billions more.
    Was there a market study which showed that multiple rocket 
companies can survive without continued taxpayer support? And 
can you tell us just how many jobs are created in the first two 
years and how many jobs are lost?
    Dr. Holdren. It is my impression that there have been a 
number of market studies, presumably some of them done by these 
companies or by their investors about what the prospects for 
commercial space industry are. I am not personally familiar 
with those studies, and I can't tell you what particular 
studies say about the number of jobs. I have seen an estimate 
that something like 1700 jobs could be associated with the 
early phase of the growth of a commercial space industry as 
envisioned in the President's proposal, but again, this is 
not--I have to tell you, not my domain of expertise. The 
economic assessment and the jobs assessments, there are other 
folks who have looked at that much more closely than I have.
    Mr. Aderholt. So you are not real sure about whether there 
has been any studies?
    Dr. Holdren. I am sure there have been market studies. I 
mean, these folks aren't crazy, they are not investing their 
own money, as many of them are, without having done some 
studies to determine that there is a market.
    Mr. Aderholt. You are just not aware of any that you 
yourself----
    Dr. Holdren. But I am not personally--I haven't read those 
studies, I am not familiar with them in detail.
    Mr. Aderholt. All right.
    Dr. Holdren. But I would be happy to get back to you on----
    Mr. Aderholt. Sure.
    Dr. Holdren [continuing]. What exists.
    Mr. Aderholt. If you could that would be very helpful if 
you could check into that and find out and let me know all 
about that.
    Dr. Holdren. Yeah.
    Mr. Aderholt. Thank you.
    Mr. Ruppersberger. I guess we will start another round, so 
I guess I will start the round. We won't have any votes that is 
for sure.

                           NASA--INTELLIGENCE

    I asked you when we had a conversation at the White House 
if you had seen or heard of this report that the Select 
Committee on Intelligence had done about the Space Program. 
We've had a lot of failures, and for one year the Technical 
Tactical Committee of the Intelligence Committee did a year 
investigation, hearings with all the majors, commercial NRO, 
the DNI really was our partner, and then we wrote a report, and 
I assume you haven't seen the report. And the only reason I----
    Dr. Holdren. This one.
    Mr. Ruppersberger. Well you see it now. But why I want to 
raise this, because--and I said how we were caught by surprise, 
and a lot of what happens in relationships between 
administrations and Congress is because a lack of communication 
and not the right person knowing who where is doing what. But 
here you have a report that deals on a lot of the issues that 
you are talking about, more on defense and Intel, but because 
of the failures we had, and yet the transition team of course 
would sit down and go over it and most of that information 
doesn't go where it needs to do.
    But you know, I think that that is why when you have people 
that--like a Committee or an Appropriations Committee that we 
do NASA's budget, and in Intel you have an authorizing 
Committee and you do all the research and development.
    It is important I think that you or your staff at least 
read these kind of reports or see if they are out there when 
you are dealing with Congress, because we really understand the 
problem I think where you are going, but now the issue is do we 
agree on how you fix it?
    Dr. Holdren. Uh-huh.
    Mr. Ruppersberger. And again, you started out this hearing 
about money, we know we have to deal with the issue of money. 
There is not enough money around to take care of DoD, Intel, 
and NASA, and NOAA all together, so there has to be some 
changes.
    Your concept clearly of research and development is where 
we need to go, but don't think Russia and China aren't out 
there also. I mean last year China graduated 606,000 
mathematicians, engineers, and scientists. We are about 66,000.
    The good news, and I want to ask you this question, I have 
been told our curriculum is still superior, but it is not----
    Dr. Holdren. It is, but the gap is narrower.
    Mr. Ruppersberger. The gap is clearly narrowing. And I 
think the anxiety you hear from my friends on the other side of 
the aisle too, and I have the same anxiety, when we in fact 
make a really--a bold move, when we take almost like a drastic 
move in saying all of a sudden we are going to do away with a 
lot of these programs, you have a lot of industrial base that 
have jobs there and a lot of minds that need to be--make sure 
that they are corrected to other areas. I am just concerned 
that it is going too quick. We want to do what is best, but I 
am concerned it is going too quick. I think commercial, as I 
said before is very positive and we need to do a lot more of 
it, but you know, I am not sure on how much we can do to get 
where we need, and if we step back and we allow Russia or China 
to control the skies I think we have problems.

                            NASA--SATELLITES

    I want to get into two other areas. The one area that I 
want to discuss is the--and I think this is your field by the 
way, or you have a lot of say over this, and that is the 
restrictions on imagery resolutions for commercial satellites.
    You know ITAR, and by the way in this report we talk about 
ITAR, how we before ITAR we controlled 73 percent of the space 
industry, we are at 27 percent now, and it is slipping, and we 
got it passed in the House, now we have to get something done 
in the Senate, and hopefully we can do something with respect 
to ITAR. But I see the same analogy here that we are so 
restrictive on imagery resolution for commercial satellites. 
And France, Germany, Spain, and Italy are all building 
satellites that have current resolution capabilities that we 
can't do it because we won't let our people. And I would hope 
that you would look at this so that we can be competitive.
    Congress passes way too many laws, and a lot of these laws 
have unintended consequences, and I think this is exactly what 
happened in ITAR, and I think it is happening here.
    So could you give me a commitment that you will evaluate 
our restrictions on imagery resolutions for commercial 
satellites?
    Dr. Holdren. Absolutely.
    Mr. Ruppersberger. Have you looked at it already?
    Dr. Holdren. Absolutely. We have started to look at that. 
The Administration is looking very carefully at the whole ITAR 
and the larger export restrictions domain. We know we have 
problems there, and my own view is that it is possible to make 
some considerable improvements that will benefit both our 
security and our economy.
    Mr. Ruppersberger. And of course you have to balance the 
security. But you know, ITAR has taken ten years just to get 
something out of the House, and we did it in a bipartisan way, 
now the Senate is sitting on it.
    Dr. Holdren. I mean, you know----
    Mr. Ruppersberger. We need the Administration to step up 
for ITAR right now.
    Dr. Holdren. And I think you are going to see that.
    But on the specific question you raise about the resolution 
of commercial imagery, yes, we are looking at that. We know 
there is an active global market in imagery, we monitor those 
developments closely, we understand their issues related to 
what our government will allow that are problematic in that 
domain, and we expect to be reviewing and updating the 
Administration's position on that.
    Mr. Ruppersberger. And that is probably going to be soon?
    Dr. Holdren. Yes. I have no problem giving you the 
assurance you want, Congressman, that yes, we are looking at 
it, we will be looking at it, and sooner rather than later. We 
are already looking at it.
    Mr. Ruppersberger. Okay. The other issue is weather 
satellites. Now we know probably you need usually one boss, 
that is a problem when we had the DoD and I think----
    Dr. Holdren. NASA, NOAA, and DoD.
    Mr. Ruppersberger. You know, not any real boss and you need 
one boss, you need a plan, whatever, I mean that is just basic 
management. And then I think you all made a decision to give 
the weather satellites over to NOAA and then they canceled the 
satellites. And even though we know we have two satellites in 
the barn, so to speak, they are older satellites.
    But my concern about the cancellation of the satellites, 
again, something happening rather quickly, there is a lot of 
research and development and there is a lot of technology that 
exists right now that is almost ready to go, because this 
project has been out there for a while, and with NOAA coming in 
and saying well we are canceling the project that we were 
working on, that I am afraid we are going to lose millions, if 
not billions of dollars, a lot of research and development that 
has been there, and it is a move that I am concerned about.
    Dr. Holdren. We are not canceling things there. We are 
splitting the responsibility for acquisition between the 
morning and the afternoon orbits in these polar orbiting 
environmental satellite systems so that the DoD is responsible 
for acquisition for the morning orbit, and NASA and NOAA 
responsible for acquisition for the afternoon orbit, but we are 
not terminating the work that has been going on on the 
instruments, we are not losing that investment. Those 
instruments are going to fly, they are going to continue 
coordination of the data streams and the ground station.
    A lot of the problems with that program have been in the 
acquisition stage, and we think we've got an approach----
    Mr. Ruppersberger. By the way, that falls to space too, is 
that true?
    Dr. Holdren. Yeah, yeah.
    Mr. Ruppersberger. Sorry.
    Dr. Holdren. We think we've got an improved approach to 
that. It is a tough problem in which one is looking in a way 
for the least bad solution because there is no ideal one. They 
all have some liabilities, but we are certainly not terminating 
these capabilities, we are not terminating the instruments. We 
are going to finish those instruments, we are going to fly 
them.
    Mr. Ruppersberger. In preparation for this hearing today we 
just got this information, but I would like to know what is our 
plan for future satellites? Are we going to rely on your 
opinions more? Where are we going? The two that we have in the 
barn are I believe rather old, I mean they don't work at least.
    Dr. Holdren. Well those are the ones that DoD has in the 
barn.
    Mr. Ruppersberger. Right, okay. Now where is our plan for 
weather satellites? Do you have a plan for that down the road?
    Dr. Holdren. Well in short yes, we do have a plan for 
weather satellites. And again, the origin of this program was 
the realization that the needs of the DoD and the needs of NOAA 
in terms of weather satellites overlap quite a lot, and the 
theory was that since these needs overlap so much why not 
combine them into a single joint operation which would meet the 
needs of the civil sector and the military sector at the same 
time? Now that turned out in practice to be a lot harder to 
execute I think than anybody imagined when it was thought up in 
the '90s, in part because of the different acquisition models 
of these agencies, their different degrees of risk tolerance, 
and differences in their missions----
    Mr. Ruppersberger. Uh-huh.
    Dr. Holdren [continuing]. Which were greater I think than 
folks were imagining when they put this together.
    But the fact that we are separating now part of these 
particular missions doesn't have any implication for conceding 
leadership in weather satellites and earth observation 
satellites to other countries.
    We are for these particular polar orbiting satellites 
relying on the Europeans for what's called the mid-morning 
orbit. We have been for a long time, we will continue to do 
that because they are making the observations and making the 
data available that we need. But you know, we have a robust 
program of weather and climate monitoring satellites and we are 
going to keep one.
    Mr. Ruppersberger. Okay. Okay, who is--Frank are you next?
    Mr. Wolf. Sure. Thank you, Mr. Chairman.
    I don't think I am going to ask really many questions, but 
I think there is a degree of secrecy or urgency that has been 
connected with this decision.
    I just saw this press release here and it says, ``Attorney 
General Eric Holder didn't consult the Department of Homeland 
Security before he made plans to try alleged September 11 
mastermind Khalid Sheikh Mohammed in New York city, Homeland 
Security Secretary,'' Janet Napolitano said Wednesday.
    I think the same thing is really happening here. I voted 
against the stimulus package, but there were some members, and 
I thought it made some sense that asked the Administration, 
particularly with some of the funding that went into areas that 
then create jobs to have taken some money out of the stimulus. 
I believe there were some members of Congress, I don't know how 
many, that sent a letter down. Perhaps some voted for the 
stimulus, perhaps didn't vote for the stimulus, and I know that 
the Administration has been critical of people who--and I have 
gone to for ribbon cuttings for any stimulus money because I 
didn't vote for it, and I would never go to a ribbon cutting. 
But there apparently were a number that said you ought to 
consider it.

                              NASA VISION

    Secondly there is really a concern that there really isn't 
a goal, there really isn't a vision, there isn't anything that 
kind of captures your imagination the way that President 
Kennedy did about putting a man on the Moon.
    I have a whole series of questions that I will submit, but 
it doesn't appear to me that you really have a goal. It doesn't 
appear to me that you have a vision that you can capture. And 
you were talking as I came in about the STEM grants. You know, 
50 percent of the STEM funding last year as laid on the table 
was not accessed. We are losing the young people because there 
is not that imagination, that interest, and everything else. We 
used to be number one on all these test scores and now we are 
dropping, we are dropping, we are dropping.
    And I think before you do anything, I am going to oppose 
what you are trying to do. I have talked to Dr. Griffin, I have 
talked to a number of other people, some just call me out of 
the blue. To me I think it is an abdication of America's 
leadership. The thought of having to abdicate leadership to the 
Chinese, and your viewpoint on China and mine are totally 
different. The President wouldn't meet with the Dali Lama, 
similar to President Ford, wouldn't meet with Solzenitzen, and 
you know, but to have the Chinese impact us that way, and I 
think what this means is they are probably laughing about this 
in Beijing.
    But I think you needed a public aspect, you needed to bring 
some of the best minds together. Iron sharpens iron. Bring them 
together to have a public discussion as to where we go. I am 
not going to say everything you have said is right, or 
everything you said is wrong, but it was sort of a surprising 
decision, and the NASA people have called me.
    One of the interesting things about my district, my 
district is Northern Virginia out into the Shenandoah Valley. 
When the Administration was going to secretly move terrorists 
from Guantanamo Bay and put them in Northern Virginia I had 
asked Eric Holder about it, they refused. Finally people from 
different agencies, three different agencies called and told me 
today the Administration are moving the people. So a lot of the 
people that work in NASA and even some that maybe work right 
where you are, live in my district, some go to my church, so 
everyone that is called felt that this was done in a very, very 
poor way. And so whatever you do you need to bring people 
together of all different viewpoints.
    I stipulate you certainly are not a bad person. I mean, I 
don't think that you are trying to destroy the program, but 
bring everyone in together--and you didn't do that--and as a 
result of that there isn't any plan, there aren't any ideas, 
and your people are becoming demoralized. I talked to a person 
the other day who was down at the space shuttle launch and they 
said the administrator in NASA told the people, and now you 
have done a great job, you won't be around next year because 
you are all going to be gone, but you have really done a great 
job. That's, demoralizing. Here you got a person who has been 
with NASA, dedicated, working the hours that they work, done 
what they have done, maybe have one kid in college, another 
kid, you know, getting ready to go into college and you just 
tell them you are out, you are gone.
    Now this isn't a jobs issue for me. I don't represent 
Alabama, I don't represent Texas, I don't represent Florida. I 
represent the Northern Virginia area, and so I just think the 
way you have gone about it has a degree of arrogance, and I 
think you are going to have a problem.
    I am going to do everything I can to stop this and to see 
if there is a way to kind of look at this thing in a different 
way.
    With regard to that I am not going to ask you other 
questions.
    Mr. Ruppersberger. John. John.

                              NASA VISION

    Mr. Abney. Yeah. Thank you, Mr. Chairman. I as a Houstonian 
do not physically represent NASA, and my passion and support 
for the Space Program stems out of a personal passion for the 
sciences. I have been an amateur astronomer, was a nerd in high 
school, bought myself a telescope when I graduated from high 
school, great passion about my support for the sciences, 
medical scientific research, and NASA for the technological 
benefits, but as Mr. Wolf has just so eloquently said, NASA 
sparks vision and hope and inspiration in young people where no 
other government agency can. It is probably the only federal 
function other than our military, God bless them, the young men 
and women that go into the Armed Forces have a great deal of 
zeal in their hearts and excitement for the mission that they 
have and it inspires a lot of young people to go in the 
military, the work that our men in uniform do.
    NASA inspires young people to go into the sciences and 
mathematics, and to engineering and is the one agency frankly 
among all of the federal government that has a highest level of 
public approval, support, and it is a fact no matter what you, 
you know, said or how you couch it in terms of you consulted 
with NASA administrators or with the center directors about 
options. The center directors were not told in advance that the 
Administration's number one consideration was to cancel 
Constellation. It was done very poorly as Mr. Wolf says, and 
these are wonderful good people who I honestly--I don't have--I 
have got maybe a few jobs in my district from NASA, I am on the 
far west side of Houston, and this is really a personal passion 
for me. I feel as the members of this Committee do that our 
investment in the sciences and NASA is a viable part of our 
strategic.
    I support strongly what Mr. Ruppersberger does in his 
committee, and how important those intelligent assets are in 
orbit, how critical it is that we preserve that lower orbit 
capability at an absolute minimum, and if the Administration 
were, Dr. Holdren, to succeed in canceling the Constellation 
Program, what space vehicle as we sit here today is capable of 
carrying humans into space and how soon?
    Dr. Holdren. Well first of all, Congressman, let me clarify 
a couple of things. The first is I too was a nerd. I have two 
MIT degrees in aeronautics and astronautics, my senior class 
project at MIT, which I loved, was to design a man to Mars 
mission, and we did it. Class of 1965, 300 pages. And so I 
understand everything you are saying about the importance of 
NASA, its inspirational effect.
    I was one of the kids who was inspired by the need to 
respond to Sputnik in 1957, I was at the beginning of my high 
school years at that time, and so I completely relate to that 
set of views.
    Nothing about what we are doing is intended to run down 
NASA, to retreat from U.S. leadership in space. I understand we 
have a disagreement about the right way to do it, but you need 
to understand first of all that we think we have an approach 
that will help NASA inspire again.
    I don't know if you knew about the event last October 7th, 
Astronomy for Kids on the White House lawn----
    Mr. Abney. But your intention is not what's at issue here. 
The point is what the effect of what you are doing is you 
have--you are proposing to cancel the Manned Space Program. 
There is no other way to look at that. If you cancel 
Constellation the only man ready rocket in the U.S. inventory 
today is Ares, it just was tested, it will be land ready very 
soon, that is the one rocket we've got. Burt Rutan, who is 
opposed to what you are doing, succeeded in doing this, only as 
Alan Shepard did. He just went up and down very quickly. So----

                       NASA--MANNED SPACE PROGRAM

    Dr. Holdren. I understand that, but----
    Mr. Culberson. And other than Ares what other rocket----
    Dr. Holdren. Ares----
    Mr. Culberson. Please answer my question. Other than Ares, 
what rocket as we sit here today is ready within how many years 
to carry humans into orbit?
    Dr. Holdren. First of all Ares is not ready. Ares would not 
be ready until 2017 or 2018 in the judgment of the Augustine 
Committee.
    Mr. Culberson. I am not asking about that.
    Dr. Holdren. Well the point is it is not right to say 
``well, we have Ares'' as a bird in the hand and you are only 
offering birds in the bush. Ares is out there too. Ares is 2017 
or 2018 if everything goes well.
    Mr. Culberson. It has been tested successfully and it is 
already on path and we've spent $3 billion dollars, Mr. 
Ruppersberger, I know we all on this Committee we spent $3 
billion getting that rocket ready and it is on track, it is 
over budget, and it is a little behind schedule, these things 
are complicated. But other than Ares, if we take Ares as you 
propose to do, you cancel Ares, what rocket as we sit here 
today is ready to carry humans into space and how soon?
    Mr. Holdren. None are ready to carry humans into space 
today. No U.S. rocket is ready to do that today.
    Dr. Culberson. So which one as you sit here today will be 
ready?
    Dr. Holdren. On that time scale we could have a Space X 
rocket, we could have a Boeing rocket, we could have a man 
rated Delta 4, we could have a man rated Atlas 5. The short 
answer is I don't know which one is going to succeed.
    One of the merits of the American system is when you turn 
the private sector loose and say we have got this task and you 
are going to get to compete for success, we will have a 
success.
    Mr. Culberson. And I got a little excited last time because 
this upsets me, this upsets me a lot. But there it is, 
gentlemen, it is speculative. There is no rocket ready to take 
the place of Ares. The gap is going to be five years. I wish 
there were no gap. And I was appalled when the Bush 
Administration's vision turned out to be a press release and 
they didn't give this Committee the money we needed, and we 
know it, you know how it came about. It was infuriating and it 
under funded NASA, short all those wonderful employees with 
mortgages as Mr. Wolf so correctly pointed out. I mean you have 
got kids in college, you have mortgages, you have worked your 
heart out designing a new rocket and you were just told a month 
ago by the new administrator we are behind you, the 
Administration is behind you, Constellation is full speed 
ahead, and then two days before the announcement it is 
canceled.
    Can you imagine how that rips their heart out of their 
chest? What you have done to those wonderful people, those 
engineers, God bless them, and scientists and astronauts. Set 
those jobs aside, those are vitally important jobs that are 
important for America's future, but we have no other rocket 
members of the Committee. There is no other rocket ready. There 
is not even one on the horizon, it is all speculative. The one 
rocket we have that is being tested and is over budget and 
behind schedule is Ares, which you are proposing to cancel.
    Dr. Holdren. It is way over budget and it is way behind 
schedule and we think there are other options.
    Mr. Culberson. But you don't even know what that would be. 
And we can't afford a gap, we can't afford a gap of one year 
much less five years, and then what are you going to do with 
the gap?

                              NASA--CHINA

    Let me ask also something I know was mentioned by Mr. 
Ruppersberger, I heard you say earlier that the Chinese might 
help us get to the International Space Station. And I just read 
an article, members, that Mr. Ruppersberger I know as a member 
of the Intelligence Committee read, probably the same alarm 
that I did, that the Administration is considering inviting the 
Chinese to come participate and help us in our Space Program? 
Now that has never been done, because the Chinese space program 
is a military space program whose primary purpose is designed 
how to better target their ICBMs on American cities and take 
out our satellites. So I am very concerned.
    Would you please tell the Committee what the Administration 
is doing to expand the cooperation of the Chinese in our Space 
Program, since they have never been allowed before any where 
near our facility?
    Dr. Holdren. I don't think there are any plans that I know 
of. The only thing I know of is that Administrator Bolden did 
go to China, and about the same time the President went to 
China, he certainly had some conversations with leaders of the 
Chinese space program about areas of potential cooperation. 
There were no agreements reached. This was a very exploratory 
discussion. I wasn't there.
    Mr. Culberson. Well certainly for me I know and the members 
this Committee----
    Mr. Ruppersberger. John, It is already happening. The 
Chinese have cyber attacked NASA on a regular basis.
    Mr. Culberson. They do and recollects it is a real concern.
    Mr. Ruppersberger. Not that we let them do it.
    Mr. Culberson. Right. It is a real concern that I share 
with my good friend Mr. Ruppersberger from Maryland that 
Chinese are not our friends and particularly when it comes to 
space, and they are using that technology to better target 
their ICBMs and take out our satellites. The high ground today 
is low earth orbit in outer space.
    And again, it is just not acceptable to me or this 
Committee, I am quite confident that we are going to surrender 
the high ground of outer space.
    Dr. Holdren. We are not going to surrender it, sir.
    Dr. Culberson. You have already surrendered it, sir. You 
are proposing to cancel Constellation and you just testified 
there is no rocket ready to replace Ares.
    Mr. Holdren. That doesn't amount to surrendering space. We 
have huge capacities in space.
    Mr. Culberson. Okay.
    Dr. Holdren. And we have them in the military sector and in 
the civil sector, and we are not going to surrender our 
leadership.
    Mr. Culberson. And I would like to hear from Mr. Wolf.
    Mr. Wolf. The arrogant facial expressions of your staff 
behind you is unbelievable. You particularly, you. I mean, I 
don't care who you work for, but the arrogance of it I have 
some pretty tough questions, I am not going to ask them. You 
too. I wish I had a camera taking your facial expressions. I 
think you really bring a degree of arrogance here that it is 
just offensive. I yield back.
    Mr. Ruppersberger. Okay, my turn. One of the issues that I 
think that we are dealing with here today is we don't have 
enough information, it came too quick. You know, those of us 
who work a lot in this area just did not--we were just 
surprised where we are going, but we want a road map and we 
want a plan and then we want it justified.
    I think some of the things about this program, and let me 
try to--and some of this is classified so I won't get into it. 
You know the major program that was canceled about three or 
four years ago, it was one of the majors, it was one of our big 
satellite programs over budget and whatever, and what happened, 
why that was canceled is because it was way over cost, over 
budget, and it got to the point you keep putting more money 
into it what are you going to get out of it number one? And you 
know, some of the things that we wanted to get out of that 
program weren't going to happen, so we had to re-evaluate 
because there was only a certain amount of money.
    Now I assume as you talk about Ares, there is Ares 1, but 
then there is the one we are focusing on now that John is 
focusing on or whatever. And it is my understanding that the 
cost of that, if you move forward the way it is now are in the 
billions and billions, and that we still--it might be a black 
hole that we are not sure if we can produce.
    Wait one second, I will get you. But is that where you are 
coming from on your focus on Ares? I mean, changing----
    Dr. Holdren. Well that is certainly an important part of 
it. Ares which originally was expected to cost four and a half 
billion dollars is now expected to cost something like 18.
    Mr. Ruppersberger. Right, okay. I didn't know if that was 
classified, whatever, it probably isn't, okay. But go ahead, 
John, yeah.
    Mr. Abney. Very quickly if I could.
    Mr. Ruppersberger. Okay.
    Mr. Abney. The reason the cost gets so high is because you 
are trying to go to Moon and Mars, and my focus here is I think 
we need as a Committee to stay focused on we have got to 
preserve the ability to go to lower earth orbit. That is far 
less expensive and far more doable.
    Mr. Ruppersberger. I would think that we are there more on 
the lower orbit, I think the major concern with the Space 
Program though, if you were involved with Sputnik, the reason 
we are as good as we are now is because we responded to Sputnik 
and we actually created rocket science as people who research 
and development. And all that we did to get to the Moon helped 
us dominate where we are now and we are losing that dominance, 
and that is where I am sure--I applaud you for evaluating where 
we are and what we are doing, I am just worried that we don't 
have enough and that we are not sure. And we want to work with 
you, because it is all end game in the end. What's right for 
our country, our national security. And I will work with you, 
but you know, you have got to work with us.
    Dr. Holdren. Oh, we will, and we want to get the leadership 
back.
    Mr. Ruppersberger. We need a lot more information. You 
know, Augustine has one report. There are people on both sides. 
And I tell you, I haven't been sold yet today, myself. I am 
willing to work with you, but I mean, I just want to get some 
experts and hear these different points of view before I decide 
where to vote--you know, what to do with this program.
    And again, I am worried we are going way too quick when you 
are dealing with the national security that is at stake. 
Because if it is the wrong decision then we could really put 
ourselves in a real bad position. We need to be dominant in 
space.
    One thing about it, do you have launch? Is that in your 
capacity too, the launch issue, launching? The ability to get 
the satellites up?
    Dr. Holdren. Well, I mean in the Office of Science and 
Technology policy we are responsible for advising the President 
on every aspect of science and technology that affect----
    Mr. Ruppersberger. I would like you to look at it, because 
in my opinion----
    Dr. Holdren [continuing]. His positions.
    Mr. Ruppersberger [continuing]. We are behind France in 
launch and maybe another country too, and whenever I hear the 
United States is behind and for a lot of different reasons, but 
you know, there is a consortium with one group, you have other 
issues, there are certain satellites that should have gone up 
by now that were canceled because we couldn't deal with it. I 
really hope you focus on the issue of launch, because it 
bothers me when the United States is not number one in that 
arena.
    John. Frank.
    Mr. Wolf. No, I am fine.
    Mr. Ruppersberger. Is that it, all the members? Okay, well 
thank you for being here. I think if anything we learned today 
it is the issue of communication.
    Dr. Holdren. Yeah, I agree.
    Mr. Ruppersberger. And you know, we have got to get some of 
our people to advise us and whatever of pulling that together, 
because it is a really big issue.
    Dr. Holdren. We will try to do better with that.
    Mr. Ruppersberger. I really understand the cost. You know, 
DoD, Intel, NASA all together, we don't have enough money for 
everyone. Okay.
    Dr. Holdren. Thank you, sir. Appreciate it.
    Mr. Ruppersberger. Meeting adjourned.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                           Tuesday, March 23, 2010.

  NASA (NATIONAL AERONAUTICS AND SPACE ADMINISTRATION) FY2011 BUDGET 
                                OVERVIEW

                                WITNESS

MAJOR GENERAL CHARLES F. BOLDEN, JR., ADMINISTRATOR, NASA

                       Chairman's Opening Remarks

    Mr. Mollohan. The hearing will come to order.
    Mr. Wolf is at another hearing and he has asked that we 
move forward. And he should be here shortly.
    Good afternoon. Welcome to this hearing of the Subcommittee 
on Commerce, Justice, and Science for fiscal year 2011. Today 
we will cover the budget status and future direction of the 
U.S. Space Program, and our witness is Retired Major General 
Charles F. Bolden, Jr., NASA Administrator.
    Welcome, General Bolden.
    In 1957, the Soviet Union shocked the world by launching 
Sputnik and challenged the U.S. with its superior capability. 
President Eisenhower responded by forming NASA. And by 1960, 
the U.S. had launched the first weather satellite, the first 
data relay satellite, and the first navigation satellite. The 
first commercial communications satellite, Telstar, was 
launched in July of 1962.
    Confronting the Cold War challenge of the Soviet Union, 
President Kennedy said, ``I believe this nation should commit 
itself to achieving the goal before this decade is out of 
landing a man on the moon and returning him safely to Earth. No 
single space project in this period will be more impressive to 
mankind or more important for the long-range exploration of 
space and none will be so difficult or expensive to 
accomplish.''
    In 1969, NASA delivered on his vision and U.S. superiority 
and technology, especially missile technology, was on clear 
display for all to see. The cost in today's dollars is almost a 
hundred billion dollars.
    This amazing era of accomplishment continues to dominate 
the vision of NASA both within and without, but hard realities 
should be recognized. NASA employment peaked in 1967 and NASA 
pioneered reduction in force, RIF, procedures for the federal 
government. Over 10,000 people who had worked their hearts out 
getting us to the moon were out of job. NASA's budget peaked in 
1966 at over 24 billion in today's dollars. Using Apollo 
Program capabilities, Skylab and Apollo-Soyuz flew. But from 
the summer of 1975 until the spring of 1981, the United States 
did not, could not fly an astronaut.
    In answer to the question of what to do, President Nixon 
supported the start of the Space Shuttle Program. By the time 
it flew, the first U.S. Space Station had fallen to earth due 
to lack of funding and the resulting lack of capability to 
boost Skylab's orbit. The money was not made available to build 
a new orbiting lab as proposed, so the Shuttle had no orbiting 
lab to shuttle to except for the Russian Mir, which it visited 
multiple times.
    In January of 1984, President Reagan challenged NASA to 
achieve a permanent man presence in space and the International 
Space Station Program began. The initial cost estimate was $8 
billion and no one expected it to be 25 years and $40 billion 
before construction was complete.
    In 1984, the Shuttles were new. No investment was begun to 
replace them until 2004--too late to prevent a gap in U.S. 
astronaut launch capability.
    Today it is not the early 1960s. Then a trip to the moon 
was a science fiction dream. Today Star Wars and Star Trek are 
based on a dream of interstellar travel and galaxy-spanning 
federations or empires. In Kennedy's time, rocketry was a major 
hallmark of national technological achievement. Today U.S. 
achievement is evident in creation of the internet, invention 
of the iPhone, production of the fastest super computers, and 
sequencing of the human genome. The Soviet Union is no more. 
Our shooting wars are with those who oppose modernity, not 
those who challenge us in a rush to the future. Competition 
with China is more a matter of innovation, intellectual 
property, manufacturing, and resources.
    In this contemporary context, faced with the need to set 
the future direction of the Human Spaceflight Program, the 
President has formulated a program that shifts from plowing 
ahead with new development programs driven by return to the 
moon to a focus on government development of new enabling 
technologies with the eventual goal of landing astronauts on 
Mars.
    Exploration beyond low Earth orbit will be vigorous, but 
for a time, it will be achieved through the use of robots. 
Commercial provision of astronaut transport to the space 
station is proposed, and the life of the space station is 
extended until at least 2020. At the same time, NASA's programs 
in Earth and space science and aeronautics are strengthened. 
Education programs are continued, and the Kennedy launch 
complex is slated for modernization.
    So today we find ourselves at another pivotal point for the 
Space Program. Like Presidents Nixon and Reagan, president 
Obama is committing the nation to human spaceflight as a 
continuing endeavor, but this commitment is part of a balanced 
effort within a constrained budget. Frankly, many of us yearn 
for the Apollo-like vision of the 1960s, but is that the 
approach that best serves our nation's interests?
    Mr. Administrator, there is much we need to learn about 
this major change in the direction of our Space Program. 
Following my remarks, we invite you to summarize your 
testimony, which will be made a part of the record.
    We just had a vote called. We have 12 minutes and 38 
seconds to vote and I am going to invite you to make your 
remarks. Administrator Bolden.

                 Administrator Bolden's Opening Remarks

    General Bolden. Thank you, Mr. Chairman and Members of the 
Subcommittee. I thank you for the opportunity to appear today 
to discuss the President's FY 2011 budget request for NASA. I 
am grateful for the support and guidance of the Subcommittee 
and I look forward to working with you on enactment of the 
President's bold new direction for our Agency.
    I want to say up front that I understand the Committee's 
concern that details, such as our justification documents, have 
been slow to reach you. I apologize and ask your attention to 
the details of this historic change in NASA's direction. Very 
soon, we will be announcing program office assignments needed 
to carry out the President's vision and challenges to NASA. 
Other details will become available in the coming weeks.
    Since the introduction of the budget, many have asked what 
the destination is for human spaceflight beyond low-earth orbit 
under the President's plan. NASA's exploration efforts will 
focus not just on our moon but also on near-Earth asteroids, 
strategies, and the planet Mars and its moons. For me, the 
ultimate destination in our solar system at present is Mars. 
While we cannot provide a date certain for the first human 
visit with Mars, it is a key long-term destination. We can 
identify missing capabilities needed for such a mission and use 
this to help define many of the goals for our emerging 
technology development.
    The right investments in technology will allow us to map 
out a realistic path to this destination and continues to 
inspire generations of school children, just as it inspired me 
many years ago. Growing up in Columbia, South Carolina and 
watching Buck Rogers go to Mars with ease each week from my 
seat in the balcony of a Carolina theater.

                       PRESIDENT'S BUDGET REQUEST

    The President's fiscal year 2011 budget request for NASA is 
$19 billion, including an increase of $276 million over the 
enacted 2010 level. Longer term, I am pleased that the budget 
commits to an increased investment of $6 billion in NASA's 
science, aeronautics, and enabling technologies over the next 
five years compared with last year's budget. All of us at NASA 
appreciate the President making NASA such a high priority at a 
time when budget realities dictate reductions and freezes for 
other worthwhile programs.
    With the President's new visions, the NASA budget will 
invest much more heavily on technology research and development 
than recent NASA budgets. This will foster new technological 
approaches, standards, and capabilities that are going to 
enable the next generation spaceflight, Earth-sensing and 
aeronautics capabilities.
    These investments will produce additional opportunities for 
U.S. industry and spur new businesses such as a recently 
announced partnership between NASA and General Motors to build 
an advanced dexterous humanoid robot, R2.

                   CONSTELLATION PROGRAM TERMINATION

    As the Constellation Program has ended in an orderly 
manner, I want to thank all of the NASA employees and 
contractors who have worked so hard on the program. Their 
commitment has brought great value to the Agency and to our 
Nation and they will continue to play a pivotal role in NASA's 
future path. Many of the things NASA has learned from the 
Constellation Program will be critical as the Agency moves 
forward.
    However, as the Augustine Committee concluded, the 
Constellation Program is on an unsustainable trajectory. To 
continue on our current course, at best we will probably not be 
able to fly our astronauts to the moon until sometime after 
2030. But to accomplish that task, we would have to make even 
deeper cuts to other parts of NASA's budget, terminating 
support of the International Space Station early, and reducing 
our science and aeronautics efforts. Further, we would have had 
no funding to advance the state-of-the-art in any of the 
technology areas we need to enable us to do the things in 
space.
    The President's proposal to end Constellation enables us to 
present a fiscal year 2011 budget that includes: A flagship 
technology development and demonstration program with our 
international and commercial partners and other government 
entities, to demonstrate critical technologies, automated 
rendezvous and docking, and closed-loop life support systems. 
Heavy-lift research and development that will investigate a 
broad scope of research and development activities to support 
development, test, and ultimately flight of a heavy-lift launch 
vehicle sooner than projected for the Constellation Program as 
assessed by the Augustine Committee. Robotic precursor missions 
to multiple destinations in the solar system in support of 
future human exploration, including missions to the Moon, Mars, 
and its moons, Lagrange points, and near asteroids. Significant 
investments for the development of commercial, crew, and 
further cargo capabilities. In concert with our international 
partners, extension of the utilization of International Space 
Station to 2020 or beyond. Pursuit of cross-cutting space 
technology capabilities led by the newly established Office of 
the Chief Technologist, to spawn game-changing innovations to 
make space travel more affordable and sustainable. Climate 
change research and observations, which will enable NASA to 
substantially accelerate and expand its Earth science 
capabilities, including a replacement for the orbiting carbon 
observatory. Aeronautics research and development, including 
critical areas of Next Generation Air Transportation System or 
NextGen, green aviation and safe integration of unmanned 
aircraft systems into the national airspace. Education 
initiatives, including the recently announced Summer of 
Innovation Pilot Program to inspire middle-school students and 
better equip their teachers for improved classroom performance 
in STEM-related courses.
    We understand that many concerns are being expressed about 
the budget, but I believe it is the right vision for NASA. I 
look forward to continued discussions with you and our 
authorizers about the concerns and how we might solve them.
    Americans and people worldwide have turned to NASA for 
inspiration throughout our history--our work gives people an 
opportunity to imagine what is barely possible, and we at NASA 
get to turn their dreams into real achievements for all 
humankind through the missions we execute.
    This budget gives NASA a roadmap to even more historic 
achievements as it spurs innovation, employs Americans in 
exciting jobs, and engages people around the world.
    Mr. Chairman, thank you again for your support and that of 
this Subcommittee. I would be pleased to respond to any 
questions you or other members may have.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                         ASTRONAUT HEALTH RISK

    Mr. Mollohan. Thank you, Administrator Bolden.
    Let me let the Subcommittee's members know we are into a 
vote where we have five minutes, five and a half minutes left 
for the vote, 386 members yet to vote. I intend to begin my 
questioning. We will recess during the vote and then come back 
and continue.
    Thank you.
    In testimony last month, you stated that today you could 
not in good conscience send astronauts to Mars given available 
technology. What health risks confront astronauts as they 
venture beyond low Earth orbit?
    General Bolden. Mr. Chairman, the primary health risk is 
radiation exposure. Secondarily is just the long duration 
spaceflight with less than one G. But the radiation is the long 
pole in the tent. It is the one we do not know how to overcome 
just yet.
    Mr. Mollohan. To what extent do these risks pertain equally 
to flights to the moon, to asteroids, to Lagrange points, to 
Mars?
    General Bolden. To most of the flights in the near Earth 
area such as the Moon, the exposure is not as long as it is 
going to Mars. The trip to Mars today is about eight months. It 
is significantly outside the Earth/Moon system and so the 
exposure to radiation is longer and more intense. A trip to the 
moon is two, three days, and so we do not find ourselves 
confronted by that threat as much.
    Mr. Mollohan. What technologies are needed to enable 
astronauts to survive missions to asteroids and Mars?
    General Bolden. If I had the ability to snap my finger and 
do two things, I would develop much more capable in-space 
propulsion systems that would cut the travel time, the transit 
time from Earth to Mars at least in half and more, if possible. 
The second thing I would do would be to find some material that 
can sufficiently shield orbiting or transiting crew/members 
from the threat of radiation without adding untenable weight to 
the vehicle.

                   CONSTELLATION PROGRAM CANCELLATION

    Mr. Mollohan. The President's budget request is predicated 
on the cancellation of the Constellation Program. Why is this 
drastic step proposed?
    General Bolden. Sir, there are a number of reasons for the 
cancellation of the Constellation Program and it has nothing to 
do with the people in the program who are exceptional 
engineers, scientists, and researchers. But it has a lot to do 
with the status of the program. When I became the 
Administrator, we were severely behind schedule and 
significantly over the amount of money that it would take to 
complete it. I think by the Augustine Committee's estimate, it 
probably would have taken another $45 to $60 billion dollars to 
complete it. In order to invest money in research and 
development that would enable us to get vehicles to put people 
on the surface of the moon or to transit to mars, the 
Constellation Program would have pretty much sucked up all of 
the funds that we could have used for research and development. 
So for a number of different reasons, it was not the right path 
for us to take. It was on an unsustainable path.
    Mr. Mollohan. Well, billions have been invested in 
Constellation.
    General Bolden. Sir----
    Mr. Mollohan. Is that a waste or are we wasting billions?
    General Bolden. Sir, we invested good money in 
Constellation and we have received incredible returns. When I 
look at some of the technologies that come out of the 
Constellation Program, and it is everything from just the way 
we process vehicles or the way we would process vehicles, some 
of the technologies like the robotics I mentioned, R2, the 
dexterous robot, that is a part of the Technology Demonstration 
Program that was a part of Constellation.
    A lot of the human research that we do today, actually some 
of the research that is conducted on the International Space 
Station comes from expenditures that were a part of the 
Constellation Program trying to help us find better ways for 
humans to survive the trips that they were going to have to 
make, Rovers that are present that we could use today to go to 
the moon which have changed my mind about the need for 
permanent habitats. While not a direct part of the 
Constellation Program when it started, the funding for the 
Rovers and the research actually came out of the exploration 
system in the Constellation Program.
    Mr. Mollohan. Well, those are some of the benefits coming 
out of the Constellation Program.
    General Bolden. Yes, sir.

                  LOST CONSTELLATION PROGRAM BENEFITS

    Mr. Mollohan. But there are those who are saying that those 
benefits aside, not going forward with Constellation is a waste 
because perhaps you are throwing away those benefits, but you 
are throwing away a lot of other investments, a lot of other 
progress, or is there a waste in going forward or are both 
correct?
    General Bolden. Sir, as I mentioned before, I would not 
call it a waste, but I would say going forward with the 
Constellation Program as it exists today, going forward with 
the program of record puts us on an unsustainable trajectory 
considering the economics of today.
    We would probably not get to the moon with a human until 
after the 2030s. I am convinced that with the technologies that 
we can develop, we will get there much sooner. We could not go 
to Mars probably not in my lifetime to be quite honest. I am 
convinced that given the opportunity to expend some funds on 
research and development, technology development, we can 
actually do that.
    Mr. Mollohan. Well, I am one that totally subscribes to the 
idea that President Bush announced a great vision and then did 
not fund it. But we are where we are. So why would we not just 
stretch it out, keep the investment, stretch out the 
investment, and not throw away the accomplishments up to date?
    General Bolden. Mr. Chairman, I think one of the reasons 
that Constellation has grown the way it has is because that was 
the technique used. We stretched out the investments. You made 
the comment about the cost of the Space Station Program, that 
it was envisioned to be, $8 billion when proposed by the NASA 
Administration under President Bush or President Reagan and it 
ended up costing $40 billion plus.
    What was not said in your statement was that the 
International Space Station, if I am not mistaken, is the third 
or fourth iteration of a space station and that resulted from 
stretching the program out and rewicking it looking for a 
better way to do it. I just could not in good conscience advise 
the President that we should follow that same course with the 
Constellation Program. Constellation today, the program of 
record today is a lunar-centric program. It has us trying to 
get Ares I that would take us to the International Space 
Station, take us to low-earth orbit, and then Ares V would come 
somewhere along the road. That would be the vehicle that we 
would use to go beyond low-earth orbit. The Ares V would get us 
to the Moon and it would get us there without a way to get down 
to the surface of the Moon. Altair, the landing vehicle, had 
not been funded. We were about to do some studies on it, but we 
had whittled away at the Constellation Program and had gotten 
ourselves in a situation that was essentially unrecoverable.

                                 ARES I

    Mr. Mollohan. Well, elaborate on that. Why wouldn't Ares I, 
why shouldn't it become the basis for the U.S. astronaut 
transport to the space station?
    General Bolden. Well, sir, in my opinion, Ares I is a very 
costly program that keeps us in the same paradigm that we have 
been since the earliest days of human spaceflight here in the 
United States with a huge infrastructure. That is in terms of 
facilities, people to run those facilities. We think that we 
can actually get away from that way of operating by utilizing 
the commercial entities that already build the vehicles for us 
and already operate the vehicles for us as they do in Shuttle 
today.
    My vehicles today are commercial vehicles. Every Shuttle is 
a commercial vehicle built by a commercial vendor that will 
probably participate in the building of the commercial next 
generation vehicle. The only difference is the acquisition 
strategy used to operate that vehicle.
    And today we buy shuttles. Well, we bought at the cost of 
about $2 billion a copy. In tomorrow's paradigm, I am not going 
to buy a vehicle, but I am going to use the vehicle produced by 
an American corporation in terms of, what do you call it, my 
idea is that we lease it and then we use it to fly a NASA crew 
to the International Space Station to do a mission.
    The operation of that vehicle is primarily done just as it 
is today by USA with the Space Shuttle. It will be done by the 
vendor that owns the vehicle. The mission control center will 
be done just as it is today probably with Shuttle and the 
International Space Station. The people in the mission control 
center will be partially those from the company that built the 
vehicle and partially from NASA engineers and flight 
controllers.
    Again, in my way of thinking, the operational concept, 
which has not been developed yet, but I will have a large part 
to play in what it ends up being, in my operational concept, 
the Flight Director is still a NASA person, the one NASA person 
that you can count on being in the control center.
    Mr. Mollohan. So you are not suggesting that Ares costs any 
less or any more than developing the technology and doing it 
commercially? You are suggesting, I think I am hearing you 
suggest that the savings is in the operations; is that correct?
    General Bolden. I am suggesting that the production----
    Mr. Mollohan. Do we have a comparable development cost----
    General Bolden. I do not----
    Mr. Mollohan [continuing]. Going commercial versus Ares?
    General Bolden. Mr. Chairman, I actually think the 
development costs, which we pay in part through the amount that 
we pay for seats, I think the development costs will actually 
be somewhat less than Ares I. That is something that it is too 
early to say, but I do believe that.
    Mr. Mollohan. Well, what is the basis of that belief?
    General Bolden. The basis of the belief is that the 
technology today, you know, it----
    Mr. Mollohan. You are pretty far down the road with Ares.
    General Bolden. With Ares?
    Mr. Mollohan. Yes.
    General Bolden. Sir, we have quite a way to go. You know, 
we just finished the----

                      COMMERCIAL ORIENTED APPROACH

    Mr. Mollohan. Well, does not commercial approach have as 
far to go or even further?
    General Bolden. They have as far to go in one respect, but 
they are getting ready to actually test fly the vehicle here 
next year. In fact, we are going to test fly two of those 
vehicles.
    Another potential source of commercial is the Atlas V and 
the Delta IV and those vehicles have been flying for quite some 
time. So for cargo to orbit, they are ready right now. If the 
companies that own them, if ULA decides that they want to enter 
the competition----
    Mr. Mollohan. The cargo----
    General Bolden [continuing]. That will be another round.
    Mr. Mollohan. Yes. But cargo transport is not the defining 
goal here. It is----
    General Bolden. Sir, the defining----
    Mr. Mollohan [continuing]. Human transportation.
    General Bolden. The defining goal is commercial transport 
of crew to orbit. And we are at the same stage of development 
whether it is Atlas, Delta, Falcon, Taurus in terms of 
certifying them for spaceflight, for human rating. There is an 
involved process of human rating that we would have to go 
through with any vehicle.
    Mr. Mollohan. We are going to have to recess.
    General Bolden. Yes, sir. I understand.
    Mr. Mollohan. We will return afterwards sometime. Thank 
you.
    [Recess.]
    Mr. Mollohan. The hearing will resume.
    I am going to have a couple continuing questions with 
regard to costs and timing of these two different approaches.
    I believe your testimony up to this point was that you 
think the cost of a new commercial oriented approach would be 
less than pursuing the Constellation Ares approach; is that 
correct?
    General Bolden. Mr. Chairman, I do. I went back and thought 
about it after you went out. When I last asked my folks how 
much it would cost us if we were to try to fly Ares, for 
example, Ares I, it turns out that it is about four billion to 
four and a half billion a year just for Ares I.
    The primary reason for that is there are $600 to $700 
million dollars alone just in the infrastructure that is left 
over right now from the Shuttle era. We need to phase out all 
of that if we are going to gain the cost savings that I 
anticipate we can do.
    Mr. Mollohan. What about if you used a different upper 
stage and a limited capability crew module, one not capable of 
transit to the moon? Would that be an acceptable approach and 
would that bring the cost comparison in line or would that give 
Ares a cost advantage?
    General Bolden. Sir, are you asking if--let me make sure 
I----
    Mr. Mollohan. If you used a different upper stage, would 
the cost of Ares be significantly reduced through the use of a 
different upper stage and a capability of just going to the 
moon?
    General Bolden. Mr. Chairman, the Ares I is----
    Mr. Mollohan. I am sorry. Station.
    General Bolden. Oh, to go to station, the problem there we 
found was that in order to design and build a crew vehicle, it 
ends up being what some people call an Orion light. I am 
certain you get visited by the commercial entities every day 
and some of them will tell you that they would like to use a 
readily available expendable launch vehicle, an EELV with an 
Orion light.
    Orion light is a vehicle that carries crew, but we would 
not send it anywhere outside of lower-earth orbit. So, you 
know, we end up having to design and build different vehicles 
for low-earth orbit than you do for the lunar and Mars 
missions. And it all----
    Mr. Mollohan. How is the commercial approach and the 
technologies and capabilities that are going to be developed 
there different?
    General Bolden. Because the commercial vendors will develop 
their own--for example, if I name Space X, for example, their 
capsule is Dragon and it has the ability to cargo and crew 
with--you look at orbital, theirs is Cygnus. If you talk to 
ULA, either of their partners, Boeing or Lockheed Martin, they 
would probably use something like an Orion light. So the 
vehicle in which you carry the crew is going to vary by who the 
vendor is.
    One of the things I would like to do is help them use some 
of the research and development money that we have to help 
build a common crew module that can be interchangeably used on 
a number of launch vehicles. We cannot do that today. Today 
everything is tailored. Everything is individual.
    One of the reasons that it costs so much or when we talk 
about the 21st century range, that concept, it is because 
everything is unique today. I cannot put an Orion vehicle on an 
Atlas or a Delta or a Space X vehicle, and I would like to help 
the commercial entities design a single crew module because it 
is good for us to train in.
    We do not have to train crews for multiple crew modules. 
That can be used interchangeably on any launch vehicle. We can 
not do that today or we have not done that today. But those are 
the kinds of things that you would be allowed to do with the 
President's budget when we talk about research and development.

                     HUMAN LAUNCH CAPABILITY TIMING

    Mr. Mollohan. Moving from cost to timing, what is the 
fastest path to restoring U.S.'s human launch capability, Ares, 
commercial?
    General Bolden. It is my belief right now, Mr. Chairman, 
that the fastest path is the one that I helped the President 
propose and that is to go to the commercial entities to allow 
them just to qualify their vehicles first for cargo to low-
earth orbit, to the International Space Station.
    Mr. Mollohan. All right. You are describing in your 
testimony a kind of faster, better, cheaper.
    General Bolden. No, no. I----
    Mr. Mollohan. Not in----
    General Bolden. You will never, Mr. Chairman----
    Mr. Mollohan. Not in the way that has been understood.
    General Bolden. You will never hear me say faster, better, 
cheaper.
    Mr. Mollohan. Well, it sounds like it is going to be 
faster. It is going to be a better way of doing it and it is 
going to cost less when they say it like that.
    General Bolden. Well----
    Mr. Mollohan. That is what you are describing.
    General Bolden [continuing]. If it works out that way, that 
would be----
    Mr. Mollohan. Well----
    General Bolden [continuing]. that would be incredible. 
But----
    Mr. Mollohan. And that is my question. What is your feeling 
testifying here today about it working out that way?

              COST OF ASTRONAUT FLIGHTS TO LOW EARTH ORBIT

    General Bolden. My feeling is that it will be cheaper for 
NASA to get to low Earth orbit on a commercial vehicle. Also, I 
do believe that we will get to the International Space Station 
quicker than we could with Ares I just because of where I found 
the program when I came in.
    In terms of getting to the Moon, which is really NASA's 
ultimate goal, it is getting to the Moon and Mars, we cannot do 
that right now if we continue to march with the Constellation 
Program. That is my concern.
    I really want to get NASA back into the exploration 
business and free us up from the day-to-day responsibility for 
operations of activities in low Earth orbit. That is critical 
and we will have oversight of that. But there is a big 
difference between oversight and day-to-day operations. And I 
want to get us----
    Mr. Mollohan. And that is where you see the savings, the 
cost savings----
    General Bolden. I see the cost savings----
    Mr. Mollohan [continuing]. Managing these systems, the----
    General Bolden [continuing]. In managing the systems and 
getting away from having to maintain the infrastructure, the 
things that we have to do today.

                    OBJECTIONS TO THE BUDGET REQUEST

    Mr. Mollohan. The Financial Times, the March 18th issue, 
there is a, and I know you read this, feature story, the Pull 
of Gravity. You are smiling already. And some of those who are 
expressing concerns about this program. I have a couple quotes 
here I would like you to respond to.
    The President's proposal, opponents of the President's 
proposal from, and now I am quoting, from both political 
parties say the decision to turn from Constellation to the 
approach reflected in your budget jeopardizes national 
security, prestige, and commercial interests at a time when 
other countries are boosting their own space programs.
    What is your response to that?
    General Bolden. Sir, I disagree with that. I do not think 
it jeopardizes our national security. In fact, in my 
conversations with the national security representative if it 
is all the way from Secretary Donnelly, the Secretary of the 
Air Force, to General Kehler, to General Carlson, we all agree 
that going the commercial route is the best thing for the 
country. I think if you talk to any of us, we will tell you 
that. Is it risky? Yes, it is. But it is risky to go to space.

                            U.S. LEADERSHIP

    Mr. Mollohan. Further in the article, I would like you to 
respond to this, the article makes the point that NASA would 
pursue new technologies that could eventually take astronauts 
beyond earth orbit to places that humans have never visited 
such as asteroids or the moons of Mars, your argument, but 
there is no clear headline destination and no timetable for 
going further than the hundred billion dollar space station 
which has been assembled over the past 15 years as a 
collaborative venture group among the U.S. and its partners.
    Is that the problem here, that you are not really 
articulating a vision that inspires or you are rolling it out 
piecemeal or why is this not grabbing a lot of people?
    General Bolden. Mr. Chairman, my attempt to articulate a 
vision was to answer the question that everybody said. If you 
are not going anywhere, you are not going anywhere. We are 
going to Mars eventually. That is the destination.
    As I have told everybody, I wish I could tell you the date 
certain, but I do not have the capability of getting there just 
yet. That is what I need time to put into place, the 
capabilities that will allow us to get there.
    It is very important for people to understand we are still 
going to be, Americans are still going to be very active aboard 
the International Space Station for another ten years, thanks 
to the budget that has been proposed by President Obama.
    In the article, it talked about national security and 
leadership. It is really important for people to understand 
that the International Space Station today is what allows us to 
lay claim, uncontested claim to international leadership in the 
world in human spaceflight.
    I Chair something that is called the International Space 
Station Heads of Agency. It is an organization of five people 
who represent the five partners in the International Space 
Station, Russia, Japan, Canada, the European Space Agency, 
which is 15 nations that Mr. Dordan has responsibility for, and 
the United States. The Chairperson of the Heads of Agency is 
the United States. It is not questioned by anyone.
    In our last meeting a little bit more than a week ago in 
Tokyo where we all endorsed extension of the utilization of the 
International Space Station, the statement was made by the 
Russian counterpart that the leadership of the United States is 
greatly appreciated and they hope that that would remain the 
case.
    It is because we are the acknowledged leader. Everybody 
realizes that the International Space Station would not even 
exist today had it not been for us. Everybody wants to partner 
with us. That is something that our international partners make 
very clear every time I talk to them.
    So it is very important that we not shrink from that, but 
that we also, as the President himself says, we have to take 
bold steps. We are a bold nation. Sometimes people confuse 
bigness with boldness. I am sorry. Sometimes you lead not by 
being out front where you are very visible, but you lead by 
being influential and being able to get people to do the things 
that you need to do. We do that every single day on the 
International Space Station.
    When there is an issue, whether it is in a Russian module 
or a Japanese module or the European module, everybody comes to 
us. We pull the teams together in Houston whether it is by 
internet, by telecon or by video telecon or whatever, and the 
solution is made right in Houston.
    So I cannot give a better example of leadership than that. 
I wish I could vocalize it better. We are the acknowledged 
leader in the world in human spaceflight. Unless we choose to 
say we are, that is not going to change.

                      GENERAL BOLDEN'S EXPERIENCE

    Mr. Mollohan. General, how long were you in the Astronaut 
Corps?
    General Bolden. Sir, I was there for 14 years right in the 
middle of my 34 years in the Marine Corps.
    Mr. Mollohan. How many Shuttle flights did you participate 
in?
    General Bolden. I flew four and my first flight ended ten 
days before we lost Challenger. And my next three came in the 
wake or in the aftermath of Challenger when I realized that it 
was so important that we do what we do that I remain a part of 
the program.

                    CONSTELLATION PROGRAM CONTRACTS

    Mr. Mollohan. That would suggest you had some insights into 
these issues.
    A final question here. In our report last year, we included 
this provision ``provided, none of the funds provided herein 
and from prior years, shall be available for the termination or 
elimination of any program, project, or activity of the 
architecture for the Constellation Program, nor shall such 
funds be available to create or initiate a new program, 
project, or activity unless such program termination, 
elimination, creation, or initiation is provided in subsequent 
appropriation Acts.''
    There is some concern that or some question about whether 
that provision is being strictly complied to. Can you speak to 
that question?
    General Bolden. Mr. Chairman, that provision is being 
strictly complied to. We have not terminated nor cancelled any 
contracts in the Constellation Program. We have not directed 
the slowdown of anything in the Constellation Program. I have 
authorized the cessation of procurement activities, five 
different activities that were in the process of going through 
competition to become contracts and I have explained that to 
members of Congress before. They were decisions that I felt 
were prudent because they had to do with downstream 
Constellation type projects.
    One of them was construction of the processing platforms at 
the Kennedy Space Center. We would not have gotten to that in 
2010 anyway. So, I just stopped the procurement activity that 
would have gotten that contract.
    Another one was for what we call an Eagle contract. It is 
the ground support. It is all the engineering and everything at 
the Kennedy Space Center. I on the recommendation of Bob 
Cabana, the Center Director at the Kennedy Space Center, 
terminated the efforts on that because his advice to me was, if 
we compete this contract and it is won and we do not have a 
budget that funds a follow-on program, I am going to have 
people out of work because they will be working under a 
contract that is not funded.
    And there are three others that I could mention that we 
stopped because it----
    Mr. Mollohan. Well, with regard to that one, could anybody 
fairly consider that to be a termination?
    General Bolden. No, sir. That was not a termination because 
we did not have a contract. So all of the existing 
Constellation contracts their work is still being fulfilled.
    I did ask people please do not expand the scope of any 
work, please do not go out and begin any new work because I am 
not authorized to do that.
    Mr. Mollohan. In regard to the decisions that you have 
referenced here in answer to my previous question or with 
regard to any decisions you might have made that could be 
construed as being covered by my question, have you consulted 
lawyers in making those decisions?
    General Bolden. Sir, I consult my Office of General Counsel 
before every decision and frequently we consult lawyers from 
other organizations which I have learned is not always, and I 
do not say this meaning any slight about attorneys, but----
    Mr. Mollohan. Of course.
    General Bolden [continuing]. As a general rule when I ask 
for multiple opinions from multiple organizations' attorneys, 
then I get multiple answers. So I do count on my General 
Counsel who I consider to be an incredible attorney and his 
team. So the advice was that I was not in violation of the 2010 
Joint Appropriations Act and I do not believe I have done any 
of that.
    Mr. Mollohan. So based on your----
    General Bolden. In fact, the GAO is about to undertake or 
has already initiated an investigation into just those things. 
It will allow me to have an outside organization assess that I 
have not violated the law, that I did not violate the direction 
of the Congress.
    Mr. Mollohan. So with regard to these questions and those 
decisions, you feel, your testimony is here today that you have 
made all of them in compliance with the law based upon the 
advice of your lawyers?
    General Bolden. Yes, sir, I have.
    Mr. Mollohan. Mr. Wolf.

               PRESIDENT'S PROPOSAL FOR SPACE EXPLORATION

    Mr. Wolf. Thank you, Mr. Chairman.
    And I apologize for not being here at the outset. I was 
Chairing a hearing on Human Rights and Religious Freedom in 
Vietnam, so hopefully the questions will not repeat.
    But I talked to a lot of people about this. There are two 
things. One, everyone thinks you are a fine person. So I think 
if there were a vote on that, you would win a hundred percent.
    The other side of the coin is that not many people that I 
have spoken to, some who have interest because of jobs, but 
others who just care about the country, do not agree with the 
Administration.
    Some of the comments. Former NASA Administrator, Mike 
Griffin, said I believe this budget request advocates a 
strategy that is frankly disastrous for U.S. human spaceflight.
    Dr. Chris Kraft, the legendary Apollo Flight Director and 
former Johnson Space Center Director said, ``the U.S. Space 
Program is in great peril if the President's budget proposals 
are enacted.''
    Apollo 7 astronaut, Walter Cunningham, said ``the proposal 
accelerates, quote, accelerates America's downward spiral 
toward a mediocrity in space exploration.''
    Apollo 17 astronaut and former U.S. Senator, Harrison 
Schmidt, wrote this proposal, ``would cede the moon to China, 
the American Space Station to Russia, and assign liberty to the 
ages. Other nations would accrue the benefits, psychological, 
political, economic, and scientific, that the United States has 
harvested as a consequence of Apollo's success 40 years ago. 
This lesson has not been lost on our ideological and economic 
competitors.''
    Apollo 16 astronaut, Charlie Duke, said we cannot afford to 
lose our leadership in space.
    Then it goes on. I will not go through them all? I will 
just ask unanimous consent to submit them for the record.
    [Clerk's note.--Letters can be found following QFR 
responses.]
    I have a series of question. The first is, the President's 
proposal for space exploration has not been embraced by many 
members of Congress. There are some that have. But overall, it 
has not.
    I made an effort to solicit the views, positive or 
negative, of space exploration experts, former astronauts, and 
former Administrators. And I have done it in a very 
intellectually honest basis. I would call them and say just 
tell me, and I could off the record sit down with you and tell 
you who, what do you actually think. Some were astronauts, but 
some were not. Some were in the program. Almost no one has an 
involvement with regard to jobs.
    And one of the most frequently heard criticisms is that 
there is no set mission goal. And what are the goals of the new 
program and what time table will these goals be achieved?
    General Bolden. Sir, the primary goal for NASA with the 
President's new program is to be able to put humans on Mars in 
the foreseeable future. As I have explained before, the 
difficulty in doing that and the reason that I cannot give you 
a time certain is because we lack certain technological 
capabilities to do that. That is what is the basis for the 
technological development programs that I would like to put in 
place, so that we can develop those technologies and the 
capabilities that will allow us to do that.
    The reference you made to the group, and I did look at the 
document and I appreciate your giving me that before, they are 
very learned people, but I contend that the paradigm that they 
use is the paradigm of the Cold War when we had a defined 
enemy. So it was a matter of defeating the Soviet Union in the 
Cold War.
    We did not do anything in partnerships at that time. It was 
the United States against if we need to. That is not the 
paradigm under which I have grown up, in my 34 years in the 
Marine Corps. Today we do international partnerships and we 
will not be able to go to Mars, we will not be able to go back 
to the Moon unless we are able to team with our international 
partners.
    The International Space Station which right now is the 
focus of any hope to be able to go beyond lowearth orbit. That 
is an international effort. So, I think they remember the way 
it was when we had a defined enemy and you could state that, 
okay, we are going to beat that enemy to a certain finish line, 
if you will.
    People talk about losing out on the race to the Moon to 
China. That is impossible. We already won the race. There is no 
race to the Moon. We won it. Whenever any other nation gets to 
the Moon, they will find six flags and all six flags will bear 
the colors of this nation. They will have a different number of 
stars depending on when they were there, but, they will be 
United States flags.
    As I tell people all the time, they will probably, because 
the moon surface does not get disturbed like ours, they will 
probably walk in some footsteps. Those footsteps will be the 
footsteps of the 12 American astronauts who first set foot on 
the Moon. So there is no race. We have won that race.
    Mr. Wolf. A lot of the----
    General Bolden. There is no backup leadership. We are the 
designated leader.
    Mr. Wolf. A lot of the individuals I am referencing, and I 
will send you the letters, too, are not in that category. They 
are younger people, younger than you, some of the best minds in 
the country, a vast array of people. And they say basically the 
same thing. And I am going to share everything I have with you 
so that there is no surprises.

                           WORKFORCE CONCERNS

    The Shuttle Program is being closed down at the end of this 
year. NASA was already faced with the difficult task of 
transitioning the Shuttle workforce into the Constellation 
Program. Now you are proposing to terminate the Constellation 
Program at the same time.
    What do you anticipate are the impacts of this decision on 
the workforce, both Civil Service and contractors? How many 
jobs will be lost and what measures do you plan to take to 
minimize the impact of job losses and the negative impact on 
the industrial base?
    General Bolden. Sir, as I think everybody knows, the Obama 
Administration is not the Administration that brought about the 
closeout of the Shuttle Program. We have been working on that 
since 2004.
    While I was sad to see it come, it was time. We have 
learned a lot of lessons in going through the Shuttle 
transition process. So, we think we know how to transition as 
we close down a program.
    So, while we were going to be able to transition a portion 
of the Shuttle workforce to the Constellation Program and this 
has exacerbated that somewhat, we think we know how to 
transition a workforce to a new program. And as I mentioned 
earlier, it is my hope that we will be able to announce the 
programs that we would have as follow-on under the President's 
proposed budget.

                           CENTER JOB LOSSES

    Mr. Wolf. Well, how many jobs do you foresee being lost?
    General Bolden. Sir, I will get that information for you 
for the record because I do not want to--you know, we know that 
in the Kennedy Space Center area from the Shuttle Program, it 
was probably going to be in the neighborhood of 5,000, but then 
we were going to get some that we would transition to 
Constellation. But I will get the definitive numbers for you 
for the record for each of the centers affected.

                          Workforce Transition

    NASA is assessing the workforce implications of the FY 2011 budget 
request. While more precise workforce projections are not likely to be 
available before the submission of the FY 2012 budget request, the 
Agency believes it will be able to support delivery of the next 
Workforce Transition Strategy update--with updated, by-Center estimates 
for the Space Shuttle and Constellation programs and parametric 
estimates for new work, reflecting the President's proposed budget--by 
this August. In May, the Agency plans to deliver an update on its 
workforce transition efforts that will focus on employee assistance and 
related activities. While the May document will not include workforce 
projections, it will reflect the significant ongoing transition 
activity that has occurred since the July 2009 edition of the Workforce 
Transition Strategy as NASA has continued to work towards the 
retirement of the Space Shuttle, and will set the stage for the August 
edition of that report.

                    LEADERSHIP IN HUMAN SPACEFLIGHT

    Mr. Wolf. Okay. Many have characterized this proposal of 
ceding leadership in manned spaceflight to other nations. 
Charles Krauthammer wrote that decades from now, there may be a 
robust private space industry, but ``in the interim, space will 
be owned by Russia and then China.''
    What are the implications of this, because we also have 
seen that the Chinese are very aggressive? And you say that we 
have won and we have, but the opportunities for ceding that 
leadership, because once you are ahead in the race and fall 
behind and somebody comes up, what are the implications if 
China gets back to the moon--gets to the moon before we return? 
Do you see any implications?
    General Bolden. Sir, I do see implications to it, but they 
are not necessarily bad. You know, if the Chinese choose to go 
to the moon while we are trying to go to Mars and we are able 
to develop the technology necessary to do that and we reach 
both destinations simultaneously, which we could, you know, it 
depends on how long it takes them to get there, then I would 
say once again----

                           CHINA AND THE MOON

    Mr. Wolf. But you were mentioning going back, you said, to 
the moon and then to Mars. Assuming you are going back to the 
moon and China is going to the moon, who gets there first the 
next time?
    General Bolden. Oh, the next time?
    Mr. Wolf. Yes.
    General Bolden. Sir, I do not intend, it will sound 
trivial, but I do not think it matters who gets there.
    Mr. Wolf. Well, it does to me. It does to me. And I think 
it matters, with all respect to a lot of Americans. I mean, it 
may not with you. And, believe me, I admire your service, so I 
want to make that clear. But it does to me. And I think it does 
to a lot of young people. We are trying to increase math and 
science and physics and chemistry and get excitement. And 
people do not sign up to get the autographs of the Land Rover. 
They line up to get the autographs of the astronauts. So I 
think it does.
    Somebody said the other day astronauts are the only people 
that people stand in line not knowing who they are just to get 
the names, the autographs of people they do not even know. They 
do not do that with other people. So it matters to me and I 
think it matters to a lot of others.
    But based on that question, who do you think gets there 
first the next time? Do we get back to the moon before China or 
does China get to the moon before we get back to the moon?
    General Bolden. Sir, because of where we are 
technologically in comparison to them, I think we get back 
first. If I am allowed to carry out the vision of President 
Obama and as supported by the 2011 budget, I think we stand a 
pretty good chance of getting to the Moon much quicker than we 
would have with the Constellation Program.

                          PRESIDENT'S PROPOSAL

    Mr. Wolf. The President's proposal seemed to take NASA 
workforce by surprise. To what extent was this new plan 
developed and vetted and refined by the NASA scientists, 
engineers, and managers who represent the country's best 
qualified experts in space exploration?
    General Bolden. Congressman, for months prior to the budget 
being announced, I had worked with my senior staff. But 
development as a general rule happens at the--is an iterative 
process. When we prepared our inputs, then there were 
participation among all my senior staff in providing the input 
for the budget.
    Mr. Wolf. Well, that is not completely what we hear when we 
talk to someone.
    General Bolden. Congressman Wolf, if I may----
    Mr. Wolf. Yes, sir
    General Bolden [continuing]. The data that we put together 
for submission for a budget does not mean that, it is like any 
budget. Everybody puts in what they want and then you go 
negotiate and you get out maybe not everything that you asked 
for.
    Mr. Wolf. Well, I understand. For five years, I worked for 
a Cabinet Secretary, former Congressman Roger C.B. Morton. And 
when big decisions were made in a particular area, if it dealt 
with national parks, the National Park Director would come in, 
the park superintendents would come in. It was an in-depth kind 
of consultation before the Secretary just rolled something out.
    And the centers most impacted by this decision, Kennedy, 
Johnson, and Marshall. So I guess directly were the Directors 
of those centers part of the team making the decisions on the 
new proposals and, if not, why not?
    General Bolden. Sir, all Center Directors as well as all of 
my Mission Directorate Associate Administrators were involved 
in all the deliberations that we made prior to my going in and 
meeting with the President and working on the budget with him.
    But as I said again, everything that you propose does not 
always come out the other end. I think the budget that we got 
is the best budget for the nation and the best budget for NASA. 
It essentially represents what I recommended to the President.

                       REVIEW OF THE NEW PROPOSAL

    Mr. Wolf. Okay. I just will have one other on this round, 
Mr. Chairman. I appreciate that.
    After talking to a number of these people, and I appreciate 
the conversation I have had with you, in light of the 
widespread opposition, and I think you would acknowledge there 
has been some fairly widespread opposition, on March 11, I and 
several other members wrote to you asking you to assemble a 
team of NASA experts to conduct a 30-day review of the new 
proposal tested for ground truth and suggest possible 
alternatives and modifications within the current proposed 
budget. Will you be conducting this review?
    General Bolden. Congressman Wolf, we are constantly 
reviewing everything that we do. And I think you will find when 
I respond to your letter, that we have looked long and hard at 
ways to--for example, the one question you asked about, 
ensuring continuous American access to low-earth orbit, we 
continue to look at that in hopes that we would be able to find 
a way to do that. We are unable to do that. So that will be a 
response that I will give to you. I am working on your 
response.
    Mr. Wolf. So are you looking then? Or have you looked and 
decided not to? The request was to take 30 days because the 
President is going to go down to Cape Canaveral on April 15th. 
When something is rolled out then, then you are going to have 
kind of a fairly significant complication.
    Is there an effort to develop, and I do not know if the 
word is compromise, but is there an effort to look at this 
thing again and compromise?
    General Bolden. Congressman, my intention is to continue to 
work with the Congress. I know that the President is going to 
work with the Congress.
    But I think in your letter, if I remember, you asked if I 
were looking to develop a plan B and there is no alternative 
plan. There is no alternative budget. I stick by the budget 
that I helped the President develop. So if the question is am I 
developing a plan B, there is no plan B.
    Mr. Wolf. And what if it is rejected by the Congress?
    General Bolden. Sir, it is my intent to work diligently to 
find a solution to the differences that we have on the 
different parts of the budget. I think, and I hope I am not 
being presumptive, but I think with the exception of the 
portion of the budget that deals with the cancellation of the 
Constellation Program, we are probably in unanimous agreement 
that we have an incredible budget. So my intent is to focus on 
work with the Congress and I know that that is the President's 
intent.
    Mr. Wolf. Well, I guess I could take that as a, yes, we are 
going to try to accommodate and work or I could take it as it 
is and I am uncertain.
    It troubles me, as you know, I do not support what you are 
doing, some parts are positive, but I am already getting calls 
and hearing that some of the companies and our lobbyists 
downtown, former members of Congress, people who really are 
working on this not necessarily for America but to make a 
profit. And that is, I guess, the way this process works in 
this town.
    But are you open to other ideas or is it just the way it 
came out?
    General Bolden. Congressman, personally I am open to any 
ideas that come through my organization. I constantly challenge 
my Center Directors and all of my employees to help us 
determine better ways that we can do what we do.
    We have a budget that has been proposed by the President. 
As I said before, I think it is an incredible budget. I think 
it gives us great opportunities. And I think within the 
constraints of the budget, we are going to find a way to get 
America to mars in due course and we are going to develop the 
technologies utilizing the funds that hopefully will be 
appropriated in that budget to get us there quicker than we 
would have been able to do under the program of record, under 
the present Constellation Program.
    So that is my focus. And I really want to work with this 
body to make sure that we are able to do that.
    Mr. Wolf. Okay. Thank you, Mr. Chairman.
    Mr. Mollohan. Mr. Ruppersberger.

                           U.S. SPACE PROGRAM

    Mr. Ruppersberger. Yes, first I know that your position as 
Administrator, you have the President's budget and, you know, 
there are issues there. Once he puts out the budget you are 
going to have to defend that budget. I want to say I respect 
your role as Administrator. And one of the reasons is because 
you were an astronaut and you understand the business, and that 
is important.
    My concern is that if you look at the history of our 
country, and how we evolved to be number one in space, it all 
started really I think with Sputnik. And when the Russians came 
out with Sputnik we were concerned they were going to control 
the skies. And we got together as a country, our American 
ingenuity, our education, and we put a man on the moon in 
twelve years.
    Since that time, though, we have had a lot of failures in 
the space program. We have lost billions of dollars and we have 
had to cancel other programs. And the issue of canceling a 
program is very serious when you have had a lot in it but you 
cannot keep throwing bad money, and you have to have, if you 
are a leader you have to make certain decisions and prioritize.
    My concern is the way this was done, because I think it has 
happened way too quick. When you read about it in the paper, 
and those of us who deal in space and deal with, whether it is 
military intelligence or NASA. And I am concerned that we do 
not have the road map. That we all of a sudden have a plan, and 
because of the fact that we have 25,000 jobs at stake, we are 
competing with Russia and China, I think it could put us at a 
disadvantage.
    So I want to ask you a couple of questions. The first 
thing, you have said that you feel that clearly we are number 
one in space at this point. But I think you also, do you feel 
that there are a lot of challenges that we have ahead of us?
    General Bolden. Sir, I think there are definite challenges 
that we have ahead of us and they would be there if we had no 
competition.

                         HEAVY-LIFT CAPABILITY

    Mr. Ruppersberger. All right. One of the challenges that I 
am concerned about is launch. It is my understanding that we 
have not, are not where we need to be with respect to launch, 
that probably Russia and China are ahead of us as far as launch 
capability. And I think this is something we really have to 
focus on. And I hope that you have certain priorities that you 
are focusing on the launch issue. There is a lot, whether it is 
resources, whether it is management, but it is something I 
think that we have to deal with it. We have had too many 
cancellations that seem to we are going down the wrong road on 
launch. Do you have an opinion on that?
    General Bolden. Congressman, you and I have talked about 
this in the past, as I have with several other members. This is 
an area of concern for all of us who are involved in the 
national security arena or space access arena. Just as recently 
as last week I was involved in a video teleconference with the 
space related agencies in our government, led by Secretary 
Donley, the Secretary of the Air Force, and General Kehler, 
General Carlson and me. The issues that we discussed included 
the need for a broad national launch system that will put us 
back where we need to be. We are too reliant right now on old 
systems, and that is one of the reasons that I try to 
reemphasize the importance of President Obama's budget. Because 
in that he has challenged me to find state-of-the-art 
propulsion systems, both for leaving the planet but most 
importantly for in space propulsion. So that we can get to the 
places like Mars, and asteroids, and the Moon, much quicker 
than we can do today.

                             NASA'S BUDGET

    Mr. Ruppersberger. All right, I understand that. I want to 
get back to the President's budget again. I think that when you 
have such a large program, so many jobs at stake, our national 
security at stake, you really have to focus on where your 
priorities are. But you have to work with the group. And what I 
mean by the group, the DOD. You have to work with intelligence. 
You have, with NASA where you are. You also have to work with 
Congress. And I feel that there needs to be more of a balance 
that has not occurred yet. I think by moving so quickly, and 
having to be here to defend, I think that we ought to really 
take a couple of steps back and evaluate where our priorities 
are going to be as far as jobs, as far as money.
    And I agree with you on the commercial issue. We have not, 
because we had more money than anybody, that is one of the 
reasons why we are superior in space. Europe is doing very well 
with commercial. They are getting a lot of the same pictures 
that we are getting. They are getting a lot of same information 
that we are getting. So we have to make sure, if we can have 
four satellites to one, that we really explore commercial. But 
commercial will not get us to the Moon, commercial will not get 
us to Mars. And this is why I am concerned that based on the 
President's budget at this point, that if we, if we are taking 
man, we are really not focusing on space involving the ability 
to get a man to the Moon or to Mars, it is almost as if we are 
having a mile race to China and we are giving them a half-mile 
head start.
    We know the money that China is putting into their space 
program. And I think if we are going to collaborate, and we are 
going to work with these other countries, that we have to be 
stronger so we have the leverage to work with them. And I would 
like your opinion on if you feel there is a way of flexibility 
to work with us, to make sure that we can reevaluate and we can 
help you put together a plan so that we have all of the 
entities, American entities, whether it is military, intel, 
that is coming together. Because I think right now you are 
going to spend a lot of time defending a budget when maybe we 
should spend more time on how we can be successful in the 
future in our space program.
    General Bolden. Congressman, I appreciate that and that is 
exactly what I intend to do. I want to go forward, and I do not 
want to stop, retrench, go back and look at something. Mistakes 
that I have made, I have made, I cannot correct that. If I were 
to go through the budget roll out again I would not do it the 
way I did it. I would listen to some of these people sitting 
behind me who advised me that this is the way we usually do it. 
I thought I was smarter, and I have apologized for that before.

                       HEAVY LIFT PROPULSION R&D

    Mr. Ruppersberger. Let me give you an example of what I 
would mean, though, why we have to reevaluate. Heavy lifting 
propulsion R and D. Fiscal year 2011 budget for heavy lifting 
propulsion R and D, it looks like you are spending $5 billion 
over the next five years. Now, your budget proposes $3 billion 
over the next five years for a heavy lift vehicle. This is not 
adequate funding for a heavy lift vehicle development program 
and will require a top line increase in NASA's budget. Now, in 
those five years are we going to build, test, or fly anything? 
And with these funds it looks like we are only going to study. 
We have, we have done a lot of study and research, and we need 
to do the testing and the research. But there comes a time when 
we have to make a move. Now, I am going to ask the question. In 
those five years are we going to build, test, or fly anything?
    General Bolden. Sir, it is my hope that we will build, 
test, and fly things in this coming period.
    Mr. Ruppersberger. What will that be, then? That we are 
going to test?
    General Bolden. Well sir, the reason----
    Mr. Ruppersberger. Based on this budget? I do not see that.
    General Bolden. Well the reason that I have asked that we 
be allowed to take an opportunity to look at what is available 
in current technology and where we think we can go is so that 
we build smartly. We design and we develop smartly. I think 
there are better capabilities than we presently have today, and 
I want to make sure that when we build and test a rocket that 
it is the best we can do.
    Mr. Ruppersberger. No question.
    General Bolden. I think we can get there within the 
constraints of the present budget, and then, we will certainly 
be required when we get ready to really start going to Mars----
    Mr. Ruppersberger. Getting back to my question, though, if 
Constellation is canceled, and I hope we can look and 
reevaluate that. Maybe there are a lot of things that need to 
be canceled within that program, but the whole program being 
canceled I believe is too quick. But let me ask this. And I do 
not know where my time is, Mr. Chairman. But with Constellation 
being canceled, should we not be looking to make sure we are 
pressing forward with good heavy lift capabilities? I do not 
see it with a $3 billion over five years. I do not think we can 
get there with that.
    General Bolden. Sir, I have asked my, one of the things 
that we are doing with the teams that I know everybody is not 
happy with, but one of those teams is a heavy lift launch 
vehicle team. They are assessing what will be required for us 
to, as speedily as possible, develop a new heavy lift launch 
vehicle that will get us where we want to go. So I think when 
we finish that work we will be ready to proceed to develop what 
the nation can be proud of.

                             CYBERSECURITY

    Mr. Ruppersberger. My time is up? Oh, I have got to get 
into cyber, too. Because that is another area that we have to 
deal with. And we know, and it is not classified, that we have 
had, that NASA has had a lot of cyber attacks, especially from 
China, throughout the years. And, you know, a lot of what we do 
in space deals with a lot of issues, some that we cannot talk 
about. But, you know, how we, commercially, our national 
security, and whatever. Where is NASA now as far as the focus 
on cybersecurity? Are you working with NSA, since NSA has 
jurisdiction over the .mil. What is your plan for 
cybersecurity?
    General Bolden. Sir, I brought in a new Chief Information 
Officer shortly after taking over as the NASA Administrator. 
And she knows that that is probably her number one focus. We 
have actually begun to work with other agencies and other 
organizations that have had perhaps not as many hits as we have 
had but more severe intrusions. We are trying to learn lessons 
from them so that we can restructure ourselves.
    One of the things we could not do, or did not choose to do 
before I became the Administrator, was devote the funds 
necessary to strengthen our cybersecurity----
    Mr. Ruppersberger. Are you working with NSA to protect 
these networks?
    General Bolden. Sir, I will get back to you for the record.

                             Cyber security

    The NASA Chief Information Officer is working closely with members 
of the intelligence community and Department of Human Services on 
matters related to cyber security.


    Mr. Ruppersberger. Okay, well then you do not have to----
    General Bolden [continuing]. Do not want to say 
specifically the agency that we are working with. Not that I do 
not want to, I do not want to tell you that we are working 
specifically with NSA if I do not, and I do not know that we 
are working specifically with which organizations. But I will 
get that information to you.

                         CONSTELLATION PROGRAM

    Mr. Ruppersberger. Okay, the final question is about 
Constellation being canceled. You talked about going to Mars 
maybe in twenty years, and maybe that, we are not sure where 
our priorities are. It seems to me that is a long way off, and 
that we need to maybe refocus our priorities and our goals. But 
I think at this point if we just, one year Constellation is 
there, the next year maybe a loss of 25,000 jobs, that if we do 
not reevaluate where and what we can take out of Constellation, 
if it is going to be canceled, where we are going to put these 
jobs, where we are going to get the best. You know, China and 
Russia are Communist countries. They can order the smartest 
people in that area to work wherever they make them work. We 
cannot. So I really would hope that you would reevaluate that 
twenty years, because I cannot see a goal twenty years out with 
canceling Constellation. I think we have to work up to that.
    So I am just saying we are going to work with you. You are 
going to get a lot of accusations, and there is emotion just 
like the healthcare emotion and, you know, everything else. But 
this is so serious to our country and our national security. 
And I think you are the right person in the right place, by the 
way.
    General Bolden. Congressman, if I may? I share your concern 
about having a target that is twenty years away, and trying to 
tell the American public that, ``Just wait twenty years.'' That 
does not get it, and I say that. What I have told my leadership 
team, and everyone in the NASA workforce, all 18,000-plus of 
them, is that if we cannot do something that gets people's 
attention preferably every year, but every other year, then we 
are going to be lost. I really believe that.
    And what the President's budget allows me to do is to 
launch smaller test flights of technology. I do not have to 
have a specific vehicle to launch a technology test. I can use 
anything. I can put something on one of these commercial 
vehicles that is going to the International Space Station. I 
can fly it on a commercial vehicle that is doing their own 
thing, taking tourists around the planet. I can fly it on a 
suborbital vehicle. I can, that is the way we do things today. 
We put more than one payload on a satellite. Or we put a 
payload on somebody else's launch vehicle that has nothing to 
do with what we are trying to do. That is what the money for 
technology development is going to allow me to do. Because we 
cannot, we cannot just fly, twenty years from now. We have got 
to be doing things that are causing us, or allowing us, to get 
incrementally to where we want to go. And that is exactly what 
I want to do.
    Mr. Mollohan. Mr. Visclosky.

                   HEAVY-LIFT LAUNCH VEHICLE CAPACITY

    Mr. Visclosky. Thank you, Mr. Chairman. Mr. Administrator, 
thank you very much for your time. And in many ways you have 
answered the question I am going to ask you and that is about 
lift capacity. I serve on a Defense Subcommittee as well and we 
are very concerned as far as launch capabilities. You had 
mentioned your meetings with the Air Force, and you had talked 
about crew modules, and cargo. As you are looking ahead, is it 
your anticipation that you are going to use something along the 
lines of the evolved expendable launch vehicle? Or will there 
be a new system in place as far as launch capabilities?
    General Bolden. Sir, if I understand your question 
correctly, for a heavy lift launch vehicle my intention would 
be that that would be a newly developed system. We can use the 
EELVs for any number of things. We can use them for getting to 
low Earth orbit. We can use them for getting satellites to 
orbit. But that would not be my vision, that we would use that 
as the nation's heavy lift launch vehicle to try to get us to 
Mars. And that is simply because in the----
    Mr. Visclosky. I am not talking, I am sorry, I am not 
talking about Mars. I am talking about just this country's base 
launch abilities. And are you as you pursue new launch 
capabilities for NASA, you mentioned Air Force----
    General Bolden. Yes, sir----
    Mr. Visclosky [continuing]. Are you working----
    General Bolden. My desire is to----
    Mr. Visclosky. Put out of your mind human space flight.
    General Bolden. Yes, sir. I understand.
    Mr. Visclosky. Okay.
    General Bolden. There are needs for a heavy lift launch 
vehicle for national security purposes. So, my intention is to 
develop in coordination and consultation with the other space 
agencies that need that capability, so that we build a 
nationally usable heavy lift launch vehicle. The same thing 
with propulsion systems. I want to be able to develop the first 
stage engines that can not only lift a NASA crew and cargo that 
is going to go to Mars, but will be able to lift something for 
the national security apparatus. Or even the commercial 
entities can use it on a vehicle should some business 
entrepreneur decide that he or she wants to fly something to 
the Moon.
    Mr. Visclosky. And you are hopeful you would see that 
flight within five years? If I understood your answer to the 
gentleman from Maryland?
    General Bolden. Sir, I do not think I said we would have a 
heavy lift launch vehicle in five years, no sir.
    Mr. Visclosky. Okay. Do you have an estimated time?
    General Bolden. My desire would be to get us on a 
trajectory where we can realize a heavy lift capability by, 
within the next ten years or so. That is what we show on most 
of our forecasts if we are able to expend the funds the way----
    Mr. Visclosky. And you are in consultation with DOD?
    General Bolden. I am in consultation with DOD and the 
intelligence communities also.
    Mr. Visclosky. And you believe you have enough money in the 
2011 budget to pursue that?
    General Bolden. I have enough money in the 2011 budget to 
begin the pursuit, yes sir.

                       ROBOTIC SPACE EXPLORATION

    Mr. Visclosky. A more philosophical question if I could. 
And this is the first time I have had a NASA hearing. I believe 
the agency does an incredible amount of good work with unmanned 
exploration of space. Do you have a list at NASA of projects 
and proposals for unmanned exploration that we simply do not 
have money on because of the cost of keeping a human being 
alive in space, that are being unmet?
    General Bolden. Yes, sir. I could give you----
    Mr. Visclosky. I would take, I guess, an approach different 
from colleagues----
    General Bolden. I could give you a long list of those that 
existed while we were trying to sustain the Constellation 
program. As I have said before this panel, before this 
Committee and others, Constellation itself was on an 
unsustainable trajectory to getting where we wanted to go in 
human space flight. While doing so it was sucking all the 
oxygen out of the room in terms of support to aeronautics 
research, science research, and the like. That is no fault of 
the people involved. That is just a fall out of the funding 
that went to the program over the last ten years. I just do not 
know how to explain it any better.
    But in the 2011 budget I think you will see, I would love 
for us to be able to talk about the ninety-some odd percent of 
the 2011 budget that is really, really good. And it is the 
increase in spending on Earth science, climate science, 
planetary science, pulling missions forward that we, that came 
out of the decadal surveys by as much as a year to two years. 
When we start flying these missions in, I think, 2013, 2014, 
there is going to be a string of missions that we could not 
honestly say we would be able to pull off----

                     Human Exploration and Robotics

    NASA is continuously engaged in the study of potential future 
missions and projects. The Agency is guided in this process by national 
needs and priorities as well as by scientific priorities as established 
by the National Academies of Sciences. The sets of meritorious and 
exciting robotic missions identified by the National Academies 
inevitably exceeds the available resources. NASA considers a balanced 
program that includes both human exploration and robotic exploration to 
be essential to America's future in space exploration. Robotic and 
human exploration are mutually supportive and interdependent. NASA's FY 
2011 budget request reflects an appropriate balance between these two 
critical activities.

                           FY 2011 PROPOSALS

    Mr. Visclosky. And let me ask you one final question, 
setting aside human space flight and setting aside Earth 
science, what are some of the things you would, under the 
proposed 2011 bill, be able to do that you would not have been 
able to do?
    General Bolden. Under the 2011 bill in the field of 
aeronautics we are going to do, I think there was recently the 
FAA authorization bill passed that put a significant plus up in 
the FAA budget for Next Generation Air Transportation Systems. 
We are vital cogs in the wheel in producing that system. I 
would like to be able to get to the 2011 budget because it has 
a significant amount of money that we are going to be able to 
put into the NASA portion of the development of next year. When 
you look at green aviation, or when you look at other types of 
things in the field of aeronautics, that is all covered in the 
2011 budget where the aeronautics budget had pretty much shrunk 
to about half of what it used to be over the last eight or ten 
years.
    Those are the things that I am very excited about----

                           PLANETARY SCIENCE

    Mr. Visclosky. Any additional programs in planetary 
science?
    General Bolden. I beg your pardon, sir?
    Mr. Visclosky. Any additional programs in astrophysics or 
planetary science?
    General Bolden. We have some that we are now hopeful that 
we can fly that were doubtful before. The one that I like, 
because it goes to a place called Europa, where we think that 
it is an ice-covered moon of Jupiter that we think has a huge 
ocean beneath it. Where there is an ocean there is a 
possibility of some type of life. So for a planetary scientist, 
or a life scientist, that is exciting.
    Mr. Visclosky. Thank you very much. Thank you, Mr. 
Chairman.

                              NASA'S ROLE

    Mr. Mollohan. Mr. Culberson.
    Mr. Culberson. Thank you, Mr. Chairman. General, thank you 
for your service to the country and your leadership at NASA. We 
all admire you immensely and just continue to hear great good 
things about you. I especially appreciated, Mr. Chairman, I 
think your line of questioning was right on target, Mr. Wolf's. 
And particularly I want to follow up on Mr. Ruppersberger's and 
Mr. Visclosky's line of questioning. I think the questions they 
asked are right on target.
    The concern we all have as part of our job as members of 
this Committee, as members of Congress, is to protect the 
nation's national security interests and NASA's role in 
preserving America's national security is vital. That ability 
to have a heavy lift vehicle, the manned space program, there 
is just no substitute for it.

                             HUBBLE REPAIR

    Hubble could not have been repaired, the initial problem 
with the mirrors, the final, the other two repairs. I think you 
actually flew on one of the, did you fly on one of the repair 
missions?
    General Bolden. I put the flawed telescope into orbit.
    Mr. Culberson. You were on the first one, then, that fixed 
the spherical aberration problem with the mirrors?
    General Bolden. I, when I left it we did not know it. But a 
couple of weeks later when we started to check out we 
discovered we had what was called a spherical aberration. And 
that is all I am going to say, because somebody told me that 
but I cannot describe it.
    Mr. Culberson. That is right, you were on that. And I do 
not think a robot could have done that, could they?
    General Bolden. I also worked on the National Academy of 
Science Committee to save Hubble. And we thought we could 
support NASA's intent to develop a robotic mission to Hubble. 
When I talk about the necessity of technology development, at 
that time in 2003, 2004, when I met, although it was our firm 
intent to find a robotic method to go and service Hubble the 
technology was not there at the time.
    Mr. Culberson. Right, it had to be a manned mission.
    General Bolden. It had to be a manned mission. And----
    Mr. Culberson. And so many other ways.
    General Bolden [continuing]. We were able to convince the 
incoming NASA Administrator Mike Griffin that it was worth the 
risk.

                            THE HIGH GROUND

    Mr. Culberson. Right. The problems you encounter in space, 
whether it be the deployment of a solar panel, or whatever has 
happened before, you have just got to have human beings in 
space. And that is an absolutely essential part of America's 
national security. And space is the high ground today, is it 
not? That is the high ground.
    General Bolden. It is the absolute high ground. Going back 
to your point, robots can do almost everything. But today they 
do not reason, they cannot. Although they are very good, we 
build dexterous robots. I think you and Congressman Wolf 
hopefully saw R2 in a recent visit to the Johnson Space Center?
    Mr. Culberson. Yes, sir.
    General Bolden. R2 can do amazing things, but R2 cannot 
think.

                             EUROPA MISSION

    Mr. Culberson. Right. Well your, and I was glad to hear the 
Europa mission. Mr. Visclosky is right, how important that is 
that NASA also maintain world leadership in exploring the outer 
planets. And those are now of necessity robotic missions. The 
Europa mission in particular, the highest priority of the 
decadal survey, because Europa has more liquid salt water than 
the Earth even. And we know it has got heat, there is almost 
certainly volcanic vents and life. Very exciting mission, look 
forward to seeing that blossom and develop and fly.

              HEAVY LIFT LAUNCH AND HUMAN CAPSULE VEHICLE

    But Mr. Ruppersberger asked and Mr. Visclosky a very, very 
important question, and I cannot see it either, they are all as 
concerned as I am, about the heavy lift capability of NASA that 
we just do not see it in the budget. And I would say to Mr. 
Visclosky and Mr. Ruppersberger, the letter that Mr. Wolf sent 
you in asking how within the existing budget can we preserve 
the ability to have a manned capsule and heavy lift vehicle 
within the existing budget? That question we asked I think 
would give us the fall back, if you do not want to use the word 
compromise, position that we are all looking for. So you will 
be able to answer that question within the thirty days?
    General Bolden. Congressman, it is my intent to get your 
response, a response to Congressman Wolf in the very near 
future.
    Mr. Culberson. So within the timeframe Mr. Wolf gave you?
    General Bolden. In that timeframe Mr. Wolf----

                   CONSTELLATION PROGRAM CANCELLATION

    Mr. Culberson. Super. That is critical. Because, Mr. 
Visclosky, Mr. Ruppersberger, I know members of the Committee, 
members of Congress, and I, we have only been able to find one 
member of the House that supports the President's budget 
proposal. And we need to make sure we will as a nation preserve 
America's leadership in manned space exploration. And the key 
is to find a reasonable middle ground, and that letter will 
help us do that. How many----
    General Bolden. Congressman, may I make one, please?
    Mr. Culberson. Yes, sir.
    General Bolden. Because the tone of your comment, I want to 
make sure that everyone understands, I am not developing a Plan 
B. There is no Plan B. There is no alternative budget. But I am 
trying to answer the Congressman's letter----
    Mr. Culberson. Yes, sir. That is right. We will do that.
    General Bolden [continuing]. Within the constraints----
    Mr. Culberson. Yes, sir.
    General Bolden [continuing]. Of the President's proposed 
budget.
    Mr. Culberson. Yes, sir. The President----
    General Bolden. As long as everybody understands that.
    Mr. Culberson. The President has made a proposal and we 
will, yes sir. I wanted to ask you, General Bolden, the 
President's budget was announced on February 1st. How many days 
before that did you first hear that the Constellation program 
was going to be canceled?
    General Bolden. Sir, that particular piece is what they 
call pre-decisional. I am not, I think it would be 
inappropriate for me to talk about the date on which the 
President, I was notified----
    Mr. Culberson. Well what I am really driving at, though, is 
that the, the decision to cancel Constellation was a surprise?
    General Bolden. Sir, because of the way that I chose to 
roll out the NASA budget, and I did not go through the normal 
process of getting with members of this Committee, or other 
members of Congress several days before the budget was 
announced, then it was a surprise to the world.
    Mr. Culberson. It was a surprise to you?
    General Bolden. Oh, no sir.
    Mr. Culberson. And a surprise to, certainly a surprise to 
the center directors. And Mr. Wolf is right. We, Mr. Wolf has 
talked with all of them. I have talked extensively with Mike 
Coats, who I just admire. He is a national treasure, take good 
care of that man.
    General Bolden. Yes, sir.
    Mr. Culberson. It was a surprise to everybody. Because the 
Augustine Commission said that the Constellation program was 
unsustainable because of inadequate funding. And the reason we 
are in the box ring today is because of inadequate funding from 
the Bush administration Office of Management and Budget and 
failure to fully fund the vision that was laid out prior to the 
election in 2004. So that is the dilemma. It is not that there 
are any inherent flaws in the Constellation program. The 
Constellation program is, was on track, had a successful test 
flight? Right? It was on track? It was inadequately funded.
    General Bolden. Congressman----
    Mr. Culberson. That is the problem with Constellation.
    General Bolden. I wish I, I honestly wish I could say that 
it was a singular problem of funding. Funding was the principal 
driver in causing the Constellation program to be 
unsustainable. But the Constellation program as it is had been 
downgraded to the extent that it, as I mentioned earlier, it 
had denigrated to, or degraded to a lunar program. And it was a 
lunar program without a lander.
    Mr. Culberson. Right.
    General Bolden. Those decisions, while they had to be made 
because of insufficient funding, they put us in a situation 
where we almost could not recover.

                      COMMERCIAL ASTRONAUT LAUNCH

    Mr. Culberson. Thank you. Thank you. And if I could, Mr. 
Chairman, I will be as brief as I can because I understand they 
have called a couple of votes, you said earlier, General 
Bolden, in your testimony at the beginning that essentially 
what you envision, and I tried to write this down accurately. 
What you are envisioning is that NASA will, you will no longer 
buy vehicles, NASA will lease them. And the operation will be 
by the vendor who owns the vehicle, correct?
    General Bolden. Yes, sir.
    Mr. Culberson. Okay.
    General Bolden. And ``lease'' is my term.
    Mr. Culberson. I understand.
    General Bolden. The acquisition strategy has not been 
decided yet.
    Mr. Culberson. Yeah, yeah----
    General Bolden. But that is the closest thing I can, lease 
it as opposed to getting it as a taxi. I differentiate it 
between the taxi service and getting the vehicle that becomes 
mind for a period of time.
    Mr. Culberson. Right. The analogy, the concern that I think 
we all have as members of Congress is, can you imagine the 
United States government having to lease the USS Harry Truman 
from Northrup Grumman? If Northrup, imagine if Northrup Grumman 
owned the Harry Truman, and we had to lease it, or ask 
permission to take it to the Persian Gulf. That is really what 
you are talking about.
    General Bolden. Sir, I do not, I appreciate the analogy.
    Mr. Culberson. Or the nuclear subs. You know, General 
Dynamics. Imagine if we had Mr. Visclosky go to the General 
Dynamics and lease a USS Texas, for example. That is really 
near and dear to my heart. There is a big problem there.

                 SPEECH BY DEPUTY ADMINISTRATOR GARVER

    And then finally Mr. Chairman, let me point this out 
because I know time is short, but the, and I do not know if the 
Committee is familiar with this, and I am going share this with 
you. Lori Garver gave a speech on March 10th to the American 
Astronautical Society. And I, this was dumbfounding to me. The 
statute creating NASA, Congress' direction to NASA, and the 
nation's direction, is that NASA's job is, ``to pioneer the 
future in space exploration, scientific discovery, and 
aeronautics research.'' Lori Garver told the American 
Astronautical Society that NASA's priority are to fight 
poverty, promote world peace and societal advancement, and 
protect the environment. I, this is, I think, she says and I 
will quote it directly. She says, ``The President's budget will 
enable NASA to align with the priorities of the nation, and 
these key national priorities that I am referring to are 
economic development, poverty, hunger and jobs, international 
leadership and geopolitics, world peace, education, society 
advancement, environment, future of the planet, and humanity.'' 
And I would suggest to you that Ms. Garver has completely lost 
sight of the core mission of NASA, which is to preserve and 
protect America's leadership in manned space, manned and 
robotic space exploration to pioneer the future in space 
exploration, scientific discovery, and aeronautics research. To 
go where no one has gone before and explore new world. And that 
is NASA's mission. It is, NASA's mission is not fighting 
poverty, world peace, and protecting the environment. Those may 
be subsets or spinoffs. But I, you know, Ms. Garver's, I will 
make sure my colleagues see this. This is very disturbing. Were 
you aware of this?
    General Bolden. Congressman, I----
    Mr. Culberson. Is your vision of NASA that NASA's number 
one job is to fight poverty and world peace? Surely not.
    General Bolden. Congressman I, know Lori incredibly well 
and I know that Lori knows what the mission of NASA is.
    Mr. Culberson. Well, this is what she told the astronomers 
at----
    General Bolden. I do not think she questions whatsoever 
what our charge is and what our mission is under the National 
Space Act and the subsequent appropriations acts.
    Mr. Culberson. Would you please talk to her and get, I 
mean, this needs to be retracted. This is not acceptable.
    General Bolden. Yes, sir.
    Mr. Culberson. You do not agree with this, do you?
    General Bolden. NASA's mission as established by the 
National Space Act has not changed. NASA's mission, is still 
what it is.
    Mr. Culberson. So you disagree with Ms. Garver? You 
disagree with this speech?
    General Bolden. Congressman, that is the first I have seen 
that.
    Mr. Culberson. I will share it with you, make sure you see 
it. Thank you. Thank you very much, Mr. Chairman.
    Mr. Mollohan. Was Ms. Garver asserting that that was the 
sole mission of NASA? Was she asserting that was the sole 
mission of NASA?
    Mr. Culberson. Yes, sir. The speech was to the----
    Mr. Mollohan. No, I'm not asking you, was she asserting 
that was the sole mission of NASA?
    Mr. Culberson. Yes, sir. Yeah, these are their national, 
these are NASA's, aligning with the priorities of the nation, 
and here are the priorities.
    Mr. Mollohan. I did not hear that was the mission of NASA. 
My question is, was she asserting that was the sole mission of 
NASA?
    Mr. Culberson. She lists all the other things they are 
doing as spinoffs. Yes, sir. This is their lead role. This is 
their lead mission.
    Mr. Mollohan. So you are saying she said in that speech 
that those are the sole missions of NASA?
    Mr. Culberson. The sole mission? This is NASA's mission. 
Yes, sir, this is NASA's mission.
    Mr. Mollohan. You----
    Mr. Culberson. The word mission is not, but it is clear 
that is what she is saying. I mean, it----
    Mr. Mollohan. Ah, thank you. Mr. Honda.
    Mr. Honda. Thank you very much. Just to gentlelady Garver, 
I guess there are a lot of visions that we have of projects 
that we get involved in. And it is probably her vision that 
ultimately all the things that we do scientifically and 
socially, it is for ultimately world peace, and getting along 
with each other, and creating international cooperation. Not 
unlike the Spaceship Enterprise, hm?
    General Bolden. Congressman, I think if we are allowed to 
take her speech in context I think it would be the same thing 
that I do. Anybody that has heard me speak knows that the most 
passionate part about anything I say is about education.
    Mr. Honda. Yeah.
    General Bolden. That is not NASA's primary mission. And I 
am criticized by some of my predecessors and some of my 
contemporaries because I focus, I put big focus on education 
because I think it is critical for this nation. I think that 
NASA has a responsibility to partner with the President in 
trying to pull our nation out of its, now if you want to talk 
about leadership, we are twenty-something in the world in math 
and science. We have got to be the leader there. And I think 
while that is nowhere in NASA's mission statement from the 
National Space Act, I do not think, it is incredibly critical 
that we play a role in that. I just think we need to look at 
Lori's comments in context.
    Mr. Mollohan. Excuse me just one minute, would the 
gentleman suspend for a minute? We have six minutes to finish 
this vote, which means we have some more minutes. I plan to go 
past the voting time. And we have three members, including Mr. 
Honda who is now questioning, and then any second rounds. If we 
cannot finish before, which is perfectly fine, I intend, if the 
Administrator is able, to return after the vote for further 
questions. I just wanted to let the members know that.

                            NASA'S MISSIONS

    Mr. Honda. Thank you, Mr. Chairman. And thank you for the 
continued comments regarding science. Because I, you know, one 
of the things that would, we could think about reestablishing 
is a independent office, like the old Office of Biological and 
Physical Research. But I think in the last few years that I 
have been here we have been trying to keep the A and the S in 
NASA, you know aeronautics and space. So I think after the 
shuttle disaster things got a little bit disarrayed and 
confused. And then I think that the way NASA was being 
administered in terms of its mission, its budget, and 
everything else like that, it seemed like we sort of tried to 
find out why. I think that it caused a lot of confusion. We 
lost a lot of good scientists and good contractors on that way.
    It feels like the administration, it feels like the 
administration is trying to refocus and capture what we have, 
what we inherited. And it seems like the piece that the 
Constellation, that is left over from the Constellation is that 
piece of the heavy lift portion. And I heard you say that you 
did not cancel any contracts, you just said, ``Let us stop and 
figure out where we are going to go from here.'' And it feels 
like that, that might be part of the piece that the Augustine 
Commission was looking at when they said that you all ought to 
look at some of the different options we put out there. And 
some of them are, I guess it was suggesting a flexible plan so 
that you have options and in using some of the different 
options you might be able to catch up and recapture the lead in 
the space exploration.
    You stated very clearly that the vision was not necessarily 
staying at the Moon but going to Mars. And in order to do that 
we have to probably bring back the issues around human biology 
in space and the other things that were cut out. And a lot of 
things were cut out, I think, to support the old Constellation 
program. And I think we lost a lot of pieces in there. And I 
think, it feels like you are trying to look at how do we piece 
it back together so that we have a coherent program so that we 
can move forward? Would you like to comment on that?
    General Bolden. I would be happy to comment on that. NASA 
can walk and chew gum, and we can keep many balls in the air. 
As you said, the National Aeronautics and Space Administration, 
the aeronautics have suffered. Through no fault of any of my 
predecessors, but we just did not have the funding to support a 
robust aeronautics program. President Obama in the 2011 budget 
proposal is giving us significant amounts of money to rebuild 
our aeronautics program, to put money into colleges and 
universities so that we can get researchers who will want to do 
research in aeronautics and basic science in any number of 
things.
    We talk about inspiring kids, and Congressman Wolf have 
talked about this a lot because he does it with a school in 
this area. Kids have got to have someone to whom they look up. 
While I agree they will stand in line to get the autograph of 
an astronaut they have never heard of, but they make decisions 
about what areas of study they are going to go into based on 
the professors and what they are doing when they get to 
college. Today in colleges and universities across the country 
we are not putting sufficient money in for research and 
development. President Obama's proposal for 2011 will allow me 
to put money back onto college and university campuses. I think 
professors are going to be doing robust research and 
development that is going to help us do the things that we have 
talked about, help us get a better heavy lift launch vehicle, 
and kids are going to want to be with them.
    Some of them, hopefully some few, will want to be 
astronauts. But most of them are going to decide that they want 
to go to graduate school, and that they want to become a 
professor. That is just not happening today in the fields of 
science and engineering. Most of our students are turning to 
business. Not that it is bad, but we need scientists and 
engineers if we are going to continue to lead the world in 
technology.

                     RETAINING CONTRACTOR EXPERTISE

    Mr. Honda. Just very quickly, given what you said, and I 
think that is the right direction, and the uncertainty that we 
are faced with right now, what is it that we are going to be 
able to do to hold the contractors and the experts that we have 
currently and not lost them because of the uncertainty? What is 
it that we can provide them so that they hang in there until 
things become more clear?
    General Bolden. Congressman, I have a two-headed workforce. 
I have civil servants and then contractors. And it is the 
second head of my workforce, it is the contractors that I am 
concerned about. Because in going away, in phasing out the 
shuttle program, we were going to lose some of those jobs. We 
were trying to find ways to help them transition either into 
another program in NASA or to the civilian workforce in the 
fields of science and technology. We have another challenge now 
in that we have decided that it is best to cancel the 
Constellation program and move on to something that will enable 
us to do the things we want to do much sooner. So it is 
incumbent upon me to work with the contractors and help them 
find ways that we can transition as many members of the 
workforce as possible to our follow on programs. But we will 
not be able to place everyone. So it is incumbent upon me to 
work with them to find transition programs where we can try to 
get them into other jobs in the high technology community. 
Because that is the way the nation has to go, if we are going 
to remain the leader. I pledge to all of them, I meet with the 
CEOs and the leaders of these companies on a regular basis, and 
I have asked them and told them, I want to be a partner with 
them in finding ways that we can find employment for their 
people. That is not going to be easy. But I am not the only 
aspect of American society that is going through that right 
now.
    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Mollohan. General, we are going to recess. Are you able 
to stay past 4:00?
    General Bolden. Sir, I am able to stay until you are ready 
to go home. This is my day today.
    Mr. Mollohan. There are several other members that have 
questions. Mr. Wolf may have some more.
    General Bolden. Sir, I can stay as long as you all can 
stay.
    Mr. Mollohan. Thank you.
    General Bolden. I can stay longer. I am a Marine.
    Mr. Mollohan. Well, we will see.
    General Bolden. Thank you, sir.
    [Recess]

                         HEAVY-LIFT TECHNOLOGY

    Mr. Mollohan. The hearing will resume. I am going to ask a 
few questions before we get some other members back. General, 
you had some questions with regard to heavy lift. Let me ask, 
what are the challenges in heavy lift technology, and to what 
extent are the technology requirements dependent upon the 
ultimate mission?
    General Bolden. Sir, the principal challenge in any launch 
vehicle is mass. My exploration systems associate administrator 
has shown me a chart that he has that shows you historically as 
we have progressed in space exploration we have been able to 
get the mass of the vehicles down. So that is one of them. That 
may be just in the material that we use to construct the 
rocket. We now have something called ``friction stir weld.'' It 
is a means by which we put components together that makes them 
much stronger, but it is much less weight than in the old 
method where you applied molten metal to a joint. Friction stir 
weld just takes two pieces of material together and it uses 
pressure and heat, and it bonds the material from its own 
composition instead of adding something to it. So they tend to 
be much lighter weight. We use it quite a bit now in the 
external tank and in some of the other, and it was actually 
developed for the dome of one of the Constellation modules, but 
that is just a technique that came about from Constellation.
    So propulsion is the big challenge. And I was having a 
discussion over here, whereas I am not, to be quite honest I am 
not real confident that we are going to find any revolutionary 
type of propulsion to leave the planet. You can take much less 
weight with you if you are able to develop propulsion systems 
that can be refueled on orbit, or if you go to Mars, you can 
dramatically reduce the amount of weight you have to take to 
the planet if you have a way to get in situ material, material 
that is there, like methane. So, if you develop a LOX-methane 
engine that can be refueled on the Martian surface because you 
have developed a method to take methane from the planet, then 
you reduce the amount of weight required for a heavy-lift 
launch vehicle.
    Mr. Mollohan. Which speaks to the last half of my 
questions. The rocket is the substantial part depending upon 
the mission, and the design of it?
    General Bolden. Yes, sir.
    Mr. Mollohan. Mr. Schiff.

                CONSTELLATION PROGRAM CANCELLATION COSTS

    Mr. Schiff. Thank you, Mr. Chairman. Thank you for being 
here, Mr. Administrator. You have a very tough job. And in many 
respects I think the job your predecessors had was easier 
because we had the vision, we did not have the resources, but 
we were content to suspend belief. But we have to come to grips 
with the financial realities.
    There are three things I would like to ask you about. One 
is, I know one of your colleagues testified, the President's 
Science Advisor, that he was not sure what the cost would be of 
canceling Constellation. That it was a very substantial sum, 
the attorneys were still trying to figure that out. Are the 
contracts written in such a way that the taxpayers can get, if 
there is a major change of direction like this, taxpayers can 
get their money's worth in the sense that the contractors can 
be redirected to do the R and D, or other work, that will be 
useful in building the program and the launch capability, even 
if it is not building Constellation? Doing the R and D? Do we 
have the flexibility to do that so that we are not just paying 
liquidated damages?
    General Bolden. Congressman, that is one of the things that 
I have asked each of the tiger teams or the teams that are 
looking into the Constellation program. One of the things that 
we do want to determine is, are there contracts either in 
existence or contracts that we were considering that can be 
transitioned to a new program so that you do not go through 
termination liability, you do not go through a lot of the other 
things that, where you incur cost because you are completely 
doing away with a program. We are not there yet. I wish I could 
tell you today that we have answers in all these regards. But 
that is one of the things that we are looking at. How can we 
take advantage of what we have in Constellation that we may 
want to use as a part of another system? And just transition 
that over to the other system? There are methods to do it, but 
I would really mislead you if I tried to describe them because 
I am neither informed nor educated on them.

                    ARES V AND HEAVY-LIFT CAPABILITY

    Mr. Schiff. Well I would think that it would have three 
benefits. The first is making good use of the taxpayer dollars, 
not just paying damages. The second is you maintain a lot of 
those jobs. And then the third is that you maintain the skilled 
workforce. So I would hope that we would maximize the degree to 
which we do not pay damages but rather put the contractors to 
work in a new direction, if that is the course we head in.
    What kind of a budget would you have needed to have to go 
forward with let us say the Ares V, to go forward with the 
heavy lift capability? And let me give you the context of my 
question, which is it would be, I am sure, very advantageous to 
the Defense Department, to our intelligence agencies, to have 
access to our satellites. If we have a malfunction in a 
satellite, or we have aging components in a satellite, it would 
be of a great, you know, probably ascertainable value to DOD 
and intel to be able to say, ``Okay, we have the proprietary 
capability to get to that satellite to make repairs.'' And we 
could probably project that into the distance, however long it 
would take us to develop that capability. So to the degree 
that, you know, we may not be able to redirect the workforce 
that is working on Constellation, and have to pay damages, if 
you take that sum and you invest it in a proprietary 
capability, let us say an Ares V kind of capability, if you 
take a DOD investment, or an intel investment, and what it 
would save them from seeing satellites that malfunctioned or 
aged out, and have the capability to be repaired, does that get 
you close to the budget that you would need to go forward with 
the proprietary capability? And how much time does that shave 
off of the current plan that you have developed for heavy lift?
    General Bolden. Congressman, I asked about this because I 
thought it would be much less if we kind of picked and chose. 
Just to do Ares I would be in the neighborhood of $4 billion to 
$4.5 billion a year, on top of the President's budget proposal. 
Say we wanted to do that and do all the science and technology 
development, the aeronautics increase, and everything else. The 
Constellation program in 2011 had it, were it to go on, you are 
probably talking up to $5.9 billion over and above. I cannot 
really say that we would be able to get where we want to go any 
faster, even having spent that amount of, if we were to spend--
--
    Mr. Schiff. How is that, though? I mean, if we decide that, 
you know, Ares V is the design we want to use, and we just 
start the development of Ares V, how can that possibly take 
longer than doing R ` D on other potential lift technologies, 
settling on a new technology, developing that new technology, 
how could that possibly be quicker than developing Ares V?
    General Bolden. Congressman, I think the biggest thing 
would just be the fact that we would not be able to--let me ask 
a question here because I want to make sure I understand your 
question. You are saying if we decided that we were going to 
put the money into Constellation to develop Ares V, and not add 
any, just take money the way we could find it? If that is the 
question you asked, without putting an additional $5.9 billion 
on top of the program, what we would find would be that we 
would have a heavy-lift launch vehicle with no capability of 
putting people on the surface of the Moon or on Mars or 
anywhere else because we would have expended all the money on 
the vehicle itself. We would find that we are back in this 
conundrum that the Augustine Committee found us, where money 
was really not the only problem. It was a significant problem. 
But it was not the only problem because we had allowed the 
program to deteriorate to the point that if you threw all this 
money down here, it was not that we had things waiting to be 
built.
    For example, one of the procurements that I stopped was a 
study for the Altair, the lander. The Constellation had not 
been allowed to go that far because of the shortage of funds. 
So, we would have found ourselves having to go from scratch to 
do the studies on development, and design and development of a 
lander for them.

                             EUROPA MISSION

    Mr. Schiff. Let me ask you about one other subject matter 
area. The budget does do a great job of funding Earth science 
missions, and continues funding for current planetary science 
missions. It does not, however, move future planetary science 
into the formulation stage. In particular, the outer planets 
flagship mission to Europa is not moved forward. The budget 
mentions NASA is awaiting the results of the upcoming planetary 
science decadal survey before finalizing the mission, or 
formulating the mission. But this mission was recommended in 
the last decadal. My understanding was that NASA had also 
endorsed Europa, and to be followed at some later time by 
Titan. So why are we kicking this can down the road again? I 
mean, how many decadals do we have to have recommend Europa? 
And if this was ready to begin development, why are we not 
moving forward? Why the delay?
    General Bolden. Congressman, I will have to get back to you 
with the details. But as I think you had discussion with Ed 
Weiler, with my Science Mission Directorate Associate 
Administrator. I went back and talked with him after I 
consulted with you, and I think it is a matter of making it a 
priority of the agency when the decadal comes out, and list it 
where we think it is going to be listed in terms of priorities. 
I think you are familiar with the tier system that they use. I 
do not know why it did not rank high enough in a previous 
decadal, but I will go back and ask the question.
    Mr. Schiff. Well I mean it has always, I mean, it did rank 
very highly in the last decadal. And Mr. Culberson is not 
present at the moment, another big advocate of Europa. But last 
year, and I think the year before, we went through kind of a 
similar permutation. And NASA finally kind of made a decision, 
let us do Europa, let us do Titan next. Now it seems we are 
stepping back from that. And if you could get back to me I 
would like to----
    General Bolden. I will do that.
    Mr. Schiff [continuing]. I would like to see this----
    General Bolden. Yes, sir.
    Mr. Schiff [continuing]. Us move forward with this, and 
not, you know, punt it again, and go through another kind of 
soul searching about it, that it enjoys such support in the 
scientific community.
    General Bolden. Sir, I will get back to you. Because I got 
excited about it after having talked to you and Ed Weiler, and 
again, because I am just a Marine I did not realize that Europa 
had what it has. And that is pretty exciting, as I said to 
somebody.

                                 Europa

    As you noted, NASA takes its priorities for its science missions 
from the National Academy of Science's decadal surveys. These surveys 
involve the broad scientific community and peer review to delineate the 
highest priorities for future missions and research targets for the 
next decade. The Europa-Jupiter System Mission was identified by 
National Academy in the 2003 Planetary Science Decadal Survey as the 
highest priority flagship planetary mission. Because of this, NASA 
recently initiated discussions with the European Space Agency (ESA) to 
significantly increase the potential science return from this mission 
as a possible joint mission. NASA's budget over the past several years 
was fully subscribed by the Planetary Science missions in development, 
and did not afford the initiation of any flagship missions.
    NASA FY 2011 budget request does not include funding for the 
Europa-Jupiter System (EJSM) mission, as NASA is awaiting results of 
the NRC Planetary Science Decadal Survey before setting a budget 
priority and pace for this future Outer Planets mission, vis-a-vis 
other Planetary Science programs. However, funding is included in the 
FY 2011 budget request to continue to invest in technologies to 
mitigate several key mission risks that a Europa mission would 
encounter, such as technologies for radiation-hardened science 
instruments and components necessary to survive the harsh radiation 
environment in which this mission will operate. NASA and ESA have 
cosponsored three instrument workshops, with a fourth and final 
workshop scheduled for July 2010 to help prepare the science community 
to design these radiation-hardened science instruments. NASA will fund 
the conceptual study and preliminary analysis for this mission and 
initiate a two-step instrument selection process, all of which would 
significantly reduce the cost risk for this future mission.
    NASA's ability to move forward with any major Outer Planets mission 
is also dependent on the availability of Pu-238 needed to power this 
mission. Pu-238 has provided power for 26 different missions that NASA 
has flown over the years, most of which would not have been possible 
without the radioisotope power sources that require this particular 
fuel. Both the Department of Energy and NASA requested $15 million in 
their FY 2011 budget request to restart the nation's ability to produce 
this critical isotope.

                   ORBITING CARBON OBSERVATORY (OCO)

    Mr. Schiff. Last item is OCO. I am glad the decision has 
been made to do OCO again. Do you know what the planned launch 
date is for OCO?
    General Bolden. Sir, we are looking at 2012, I think. And I 
will get back, I will make sure that I enter it into the 
record, the official launch. But I, as my memory serves me, I 
was hoping we would be able to turn it around real quickly, but 
I think it is 2012.

                     MARS SCIENCE LABORATORY (MSL)

    Mr. Schiff. And finally, any progress report on MSL, on the 
Mars program?
    General Bolden. Sir, the reports on MSL are all good. You 
are very well aware of the fact that we were in the doldrums a 
couple of months ago because we had problems with titanium, 
which is almost everything on the vehicle. We had problems with 
actuators that we did not know whether they would even last. 
According to what I have been briefed, all of the actuators 
have now been cleared, the titanium has been cleared, and I 
think we are on target for a 2011 launch date for MSL. We even 
have, as you may or may not know, there is always a good side 
to every bad thing that happens to you. The delay has actually 
allowed famed director James Cameron, who is actually a 
scientist of a sort. He has a 3-D camera system that is going 
to allow us to bring down real time images of Mars unheard of 
before. The development of the camera just did not come along 
to make the original launch date, because of the delay they 
have been able to do it, and we can really swap out the camera 
now. So, instead of having two mono cameras we are going to 
have a real 3-D camera.
    Mr. Schiff. I hope you get a cameo out of it. Thank you, 
Mr. Chairman.
    General Bolden. And I just got something that says the 
projected launch date of OCO is February of 2013, so I was in 
error.
    Mr. Schiff. Thank you.
    Mr. Mollohan. Mr. Aderholt.

                   COST ESTIMATE OF ARES I AND ARES V

    Mr. Aderholt. Thank you, Mr. Administrator. Thank you for 
your service and as has already been said by several members on 
this Subcommittee you have a fine reputation and everyone 
agrees that you are certainly someone that people hold in very 
high regard. I know sometimes we may disagree with some of the 
things, so you know, do not take any of this personally. It is 
all, we just sometimes have different opinions on some of these 
issues.

                  AUGUSTINE COMMISSION COST ESTIMATES

    There is a strong reason to question the dollar figures 
that were produced by the Augustine Commission. Can you provide 
the Committee the Ares I and the Ares V cost estimate NASA had 
last spring, they had estimated last spring? And also provide 
the Committee with a written, detailed explanation from NASA as 
to how operating Ares I would cost $4 billion a year?
    General Bolden. Sir, I can provide that for the record. I 
will be glad to do that.

                    Ares I and Ares V Cost Estimates

    Ares I operational costs, if the systems were completed, would be 
an estimated $3.6-4B per year, which equates to the estimated annual 
operational costs for two crewed flights to the ISS following 
successful completion of the IOC, currently targeted for March 2015. 
However, this estimate assumes that NASA has received full funding to 
fully complete development of the Ares, Orion and associated support 
elements prior to IOC. (Note: NASA does not currently believe an IOC of 
2015 would be achievable, given the impact of several FY 2010 
appropriations actions, including the FY 2010 Continuing Resolution.)
    NASA recognizes that there is often confusion with regard to 
publicized flight cost estimates associated with the Ares projects, 
largely because those estimates often include different assumptions. 
One key point of confusion, for example, comes from the fact that the 
Ares I and Ares V share significant fixed costs for vendor production 
base and sustaining engineering, since both vehicles would use similar 
solid rocket boosters, upper stage engines and avionics. Therefore, 
there are two ways to consider the cost of an Ares I flight--one, where 
the Ares I fixed costs are lower because it is assumed that certain 
fixed operational costs would be shared with the Ares V, and another, 
where the Ares I fixed costs are higher because the current shared-cost 
scenario is not assumed.
    In general, NASA does not budget by flight, but rather by fixed and 
marginal costs expected on an annual basis. The fixed cost (i.e. prime 
and non-prime support labor, costs of facilities) would be the cost 
that must be incurred whether one rocket or multiple rockets are built. 
In other words, the fixed cost is absorbed by the first annual flight 
and is not counted again that year. The marginal costs, on the other 
hand, are those costs that can be cleanly attributed to the production 
of one unit, and that cost is generally the same, unit by unit. So for 
each subsequent annual flight, NASA adds on only the marginal cost, 
given that the fixed cost has already been absorbed into the first. It 
is important to note, however, that NASA's formula of calculating the 
cost of an Ares I flight (or subsequent annual flights) does not 
include the project costs for the associated support elements, such as 
ground operations, mission operations, EVA and program integration. 
Those costs would be book kept under their respective project lines.
    With regard to the cost per flight, NASA currently estimates that 
both Ares I and Orion account for $69M each in marginal costs for a 
flight unit, thus totaling $138M in marginal costs for each flight 
since each flight would be assumed to have a capsule and a rocket. 
However, the fixed cost per flight would vary based on whether Ares I 
and Ares V shared operational costs were assumed.
    For example, the FY 2010 budget request assumed that Ares I and 
Ares V would share some operational costs--approximately $700M per 
year, which would, in turn, equate to lower fixed costs for the Ares I. 
Therefore, under that scenario--which was provided to Congressman 
Aderholt's staff in November 2009--the total cost for the first flight 
would be $919M ($781M in fixed cost plus $138M in marginal costs) with 
each subsequent flight costing $138M extra in marginal costs, as 
outlined in the chart below:

   ESTIMATED ANNUAL OPERATIONS FIXED AND MARGINAL COSTS FOR ARES I AND
         ORION WITH ARES I AND ARES V SHARING OPERATIONAL COSTS
                          [Dollars in millions]
------------------------------------------------------------------------
                                                                 FY08
------------------------------------------------------------------------
Fixed Costs (Ares I and Orion).............................        * 781
Marginal Cost for 1st flight...............................          138
                                                            ------------
Total cost for first flight................................          919
Marginal Cost for 2nd flight...............................          138
                                                            ------------
Total cost for 2 flts per year.............................        1,057
Marginal Cost for 3rd flight...............................          138
                                                            ------------
Total cost for 3 flts per year.............................        1,195
------------------------------------------------------------------------
* Note: This assumes Ares I fixed costs are shared with Ares V. It also
  excludes fixed costs for supporting elements.

    However, if the assumption is that Ares I and Ares V would not 
share operational costs, it is equally true to say that the cost of an 
Ares I flight is nearly 
$1.6B--. Under this scenario, all operational costs would be carried by 
Ares I--which would account for an approximate $700M increase in the 
fixed cost for Ares I. Thus, under this scenario, the total cost for 
the first flight would be $1.461B in fixed cost plus $138M in marginal 
costs, with each subsequent flight costing $138M extra in marginal 
costs, as outlined in the chart below:

   ESTIMATED ANNUAL OPERATIONS FIXED AND MARGINAL COSTS FOR ARES I AND
         ORION WITH ARES I CARRYING ALL OF THE OPERATIONAL COSTS
                          [Dollars in millions]
------------------------------------------------------------------------
                                                                 FY08
------------------------------------------------------------------------
Fixed Costs (Ares I and Orion).............................      * 1,461
Marginal Cost for 1st flight...............................          138
                                                            ------------
Total cost for first flight................................        1,599
Marginal Cost for 2nd flight...............................          138
                                                            ------------
Total cost for 2 flts per year.............................        1,737
Marginal Cost for 3rd flight...............................          138
                                                            ------------
Total cost for 3 flts per year.............................        1,875
------------------------------------------------------------------------
* Note: This assumes Ares I fixed costs are shared with Ares V. It also
  excludes fixed costs for supporting elements.

    NASA is unsure about the source of the number cited since there are 
similar figures often used, albeit with different assumptions included 
in each. However, judging by the hearing exchange, it seems the 
question derived from a discussion about how much it would cost to keep 
the Ares project running in FY 2011. If that is indeed the question, 
then, in order to understand the cost of the Ares I project, it is 
important to understand the full cost of the Constellation Program. 
Based on the FY 2010 budget request, NASA estimates it would cost $5.4B 
in FY 2011 to continue the full Constellation Program, including Ares I 
and Orion development and testing, and all supporting elements (ground 
processing facilities, mission control, program integration etc.) which 
together would lead to an Initial Operational Capability for two crewed 
flights to the International Space Station per year. Of the $5.4B 
figure, the Ares I project was estimated to cost $2.1B, with Orion 
costing $1.8B, and other Constellation supporting elements equating to 
about $1.5B.
    The FY 2011 budget request transitions away from the Constellation 
Program. Therefore, under this assumption, if NASA were required to 
continue only the Ares I project, the cost to do so would be about $4-
4.5B in FY 2011--which would pay for the project elements and also 
include the full cost of all supporting elements outlined in the FY 
2010 budget request, such as ground processing facilities, mission 
control, program integration etc. Without these supporting elements, 
the Ares I could not fly. This scenario also assumes that Orion would 
be cancelled, so close-out costs for Orion were factored into this 
estimate. (Note: Without an Orion, this scenario would not provide an 
IOC capability.) Additionally, it is important to remember that under 
the FY 2010 budget request and its five-year runout, the Constellation 
Program as a whole was expected to begin ramping up work in FY 2011, 
and in doing so, was expected to also begin assuming additional Shuttle 
infrastructure and workforce costs in addition to increased development 
costs, currently estimated to be $600-700M. Therefore, those costs are 
factored into the continuation cost estimate.


    Mr. Aderholt. And the reason I mention that was because 
the, you know, my staff was given the numbers of Ares I, the 
operation cost at $1.3 billion.
    General Bolden. That is per flight.
    Mr. Aderholt. Okay. So you are saying----
    General Bolden. I do know that, I do know that the $1.3 
billion, $1.6 billion, and when I talk about things that 
shocked me, because, I wanted to use an Ares type vehicle as a 
test vehicle. And when I asked the question how much would it 
cost me to fly, not an Ares I but that kind of vehicle, then 
the number given me at the time was $1.6 billion per flight. It 
seems like an extreme number to me, and I am still looking. So 
I will be glad to provide you with the information for the 
basis for that number.
    Mr. Aderholt. Well the reason I say that is because this is 
the response from NASA and it says total cost for three flights 
in a year is $1.1 billion.
    General Bolden. I will go back and double check my numbers, 
and then get back to you for the record, sir.

                           ANTIDEFICIENCY ACT

    Mr. Aderholt. If you could, yeah, give us some explanation 
on that. Because there is some difference, a big difference in 
the amount of money that is in there. It is, it has been 
rumored that NASA is about the send the prime contractors of 
the Constellation program letters which remind them of the 
Antideficiency Act, and telling them that NASA is under no 
obligation to cover termination costs beyond appropriated 
funds. I just wanted to, is that correct? Or----
    General Bolden. Congressman, I think most of the 
contractors are fully aware of what is in their contract. They 
realize that they are obligated by their contract to reserve 
funds that would be needed for termination liability. One of 
the things that I have asked be done is that we go out and get 
estimates from the contractors as to what their estimate on 
termination liability will be. And then that will determine 
what type of action that we take. I do not think we have seen 
more than a couple of the contractors that have said they have 
a significant problem. And in that case, it may be necessary 
for us to have the contracting officers talk with them about 
their obligation under the contract as opposed to ours.
    Mr. Aderholt. So you are saying there is no, no letter is 
about to go out like that?
    General Bolden. There probably are letters going out to 
some of the contractors who say that they thought it was our 
responsibility. There probably are.
    Mr. Aderholt. Was this the direction of OMB?
    General Bolden. No, sir, that was my direction, because 
under the Antideficiency Act, I hope I am wrong, but I am 
legally liable if I allow a company to spend more than I have 
to pay them, I go to jail. So, I am very serious about wanting 
to be around for my three granddaughters. So on advice of 
counsel, it was felt that we should at least remind people of 
what is in their contract. And you would think that that would 
not be necessary. But in some cases, it may be necessary.
    Mr. Aderholt. Certainly I can appreciate the going to jail 
aspect of that. So what do you think the contractors will do in 
response?
    General Bolden. Sir, I don't even want to conjecture on 
that. But, I hope that they will take it as, responsible 
direction.
    Mr. Aderholt. Is there similar letters that are going out 
to contractors about the shuttle program?
    General Bolden. To my knowledge, we have no letters that 
are going to any of the shuttle contractors, because as I 
mentioned before, we have a very well developed transition plan 
for shuttle that covers termination costs and everything. That 
is pretty well known.
    So I will get back to you if I find that I am incorrect. 
But I think shuttle is in pretty good shape in terms of 
termination.

                         Termination Liability

    Termination liability letters are not being sent to Space Shuttle 
Program contractors. The Shuttle contracts are not being terminated--
they are being concluded as the fleet flies out the remaining manifest. 
Plans for the safe fly-out and retirement of the Space Shuttle have 
been underway for several years, and were initially developed in 2004. 
Space Shuttle contractors have, therefore, had sufficient time to plan 
for contract closeout activities.


    Mr. Aderholt. Okay. If you could get back on it, it would 
be great.
    General Bolden. And it is not--I don't even know if it is 
termination. I will get back to you, because I don't think it 
is termination in the case of shuttle. That was an orderly 
phase out from 2004 to 2010 agreed upon by everyone.
    So I will get back to you to make sure that I am not giving 
you misinformation. But, I am certain that is not a termination 
activity, so we don't run into the same problem.

                    ANTIDEFICIENCY ACT PROSECUTIONS

    Mr. Aderholt. The Antideficiency Act in itself, predecessor 
statutes have been in existence for about 120 years, do you 
know how many people have been prosecuted under it?
    General Bolden. Sir, I do not. But I was told that there 
have been some. And that if I did not want to be among the few, 
then I should take it seriously. I can find out for you, sir. 
And I will make----

                           Antideficiency Act

    NASA does not have specific information as to prosecutions under 
the Antideficiency Act. NASA is required to and intends to comply with 
all laws, including the referenced provision of the FY 2010 
Appropriations Act.


    Mr. Aderholt. We were told that there is none that have 
been----
    General Bolden. Under Antideficiency Act?
    Mr. Aderholt. That is what we have been told. Now, again, 
we will--maybe you need to check the record on that. That is 
according to a book, The Antideficiency Act Answer Book that 
was published back in 2009, that--a book by William G. Arnold. 
But, again, we----
    General Bolden. If that is the case, there are two of us I 
know in NASA who would be--although as Congressman Wolf 
mentioned, we could be the first. But Doug Cooke, my 
Exploration Systems Mission Director, and me, we would be very 
relieved to find that nobody uses that Act. I am told that it 
has been around.
    Mr. Aderholt. Well, we will certainly need to verify that. 
Of course, like I said, this is--this was something that was 
written. And, of course, as you know anything that always is 
published is not always true.
    General Bolden. Yes, sir.
    Mr. Aderholt. Congress has not specifically told NASA not 
to terminate those programs. And yet in the case of 
Constellation you can hardly be blamed for the Antideficiency 
Act's actions since Congress has specifically told you not to 
terminate these programs.

              CONSTELLATION PROGRAM CONTRACT MODIFICATIONS

    The rumor was that the head of contracting at NASA was in 
the process of explicitly inserting a clause in the 
Constellation contract to advise the contractors that NASA 
would cover termination costs but was told to stop last fall. 
Is there any validity to that?
    General Bolden. Sir, I will have to get back to you on 
that. I do not know the answer.
    Mr. Aderholt. But you could check that and let me know?
    General Bolden. I can find out.
    Mr. Aderholt. Okay.
    General Bolden. And so I make sure that I understand the 
question, did the contract manager--did the COTaR issue a 
letter advising them----
    Mr. Aderholt. Explicitly, yes, sir, in a clause in the 
Constellation contracts by the contractors that NASA would 
cover contract termination costs but was told to stop.
    General Bolden. I will get back and get that information 
for the record.

                   Constellation--Antideficiency Act

    That is not correct. There was no direction to stop processing this 
clause in the fall of 2009. In fact, this clause was inserted in the 
Boeing Avionics and Upper Stage contracts on January 21, 2010, and 
January 25, 2010, respectively. Upon learning that the President's 
proposed FY 2011 budget request on February 1, 2010, proposes to cancel 
the Constellation Program, the Head of Procurement at NASA determined 
that NASA would not pursue adding this clause to other NASA contracts.
    The activity that was ongoing relative to a termination liability 
clause during this time period was the investigation by NASA personnel 
as to whether to incorporate into NASA procurement regulations a 
special termination liability cost clause similar to the one utilized 
by the Department of Defense. These types of special termination 
liability cost clauses generally delineate that potential termination 
liability costs will not be funded on the contract; the identification 
of funds to cover potential termination costs; and the maximum amount 
of termination liability under the contract. Incorporation of such a 
clause into NASA procurement regulations is not imminent.

                              ARES V COST

    Mr. Aderholt. Okay. We have heard a lot about inflated 
numbers, about how much it will cost to complete the 
Constellation Program, including the heavy lift of Ares V, 
which I mentioned.
    My understanding is that NASA's estimate in the spring of 
last year for developing Ares V was about--that by 2020 through 
the first part of Ares V, the cost of development plus 
production costs, would be $16.5 billion.
    If Ares I is not completed, which means we could not 
benefit from the way the two programs were designed to use some 
of the same technology, then the fact would result in a cost of 
Ares V of about $27 billion.
    Our staff were told last Friday by the CFO that the cost of 
developing a heavy lift rocket would be $30 to $50 billion. 
What engineering data would you--have you obtained since the 
spring of 2009, which leads to the incredibly inflated figure 
of $50 billion?
    General Bolden. Congressman, I will have to get back to you 
for entry into the record. I was not aware of that figure.

                         Heavy-lift Capability

    NASA has not established a formal cost estimate for Ares V, nor has 
NASA established a formal cost estimate for a similar heavy-lift 
capability. Additionally, no additional engineering data has been 
obtained to influence these cost estimates. However, the Agency has 
developed rough, preliminary estimates for Ares V costs--estimates that 
vary based depending on which assumptions (i.e. schedule, budget year, 
shared costs etc.) are included in an estimate. Therefore, comparing 
one cost estimate against another can lead to a misunderstanding if the 
assumptions are not standardized or fully understood.
    With regard to the $30-50B figure cited by NASA's Chief Financial 
Officer, NASA would like to clarify that those numbers are most closely 
related to the Ares V project and are rough cost estimates, based on 
varying assumptions. Based on preliminary Agency estimates, NASA 
anticipates that the Ares V project costs, through 2020, including 
development and early production, would be $27B--similar to the $30B 
ballpark figure cited at hearing. The $50B estimate cited is comparable 
to Ares V costs, including development and early production through 
2025--again, if Ares I were cancelled. However, none of the 
aforementioned estimates include any of the supporting elements 
required for launch, such as ground facilities, mission control, and 
program integration, or any payload. Those costs would be additional. 
(Note: Ares I and V share substantial development and fixed costs such 
as shared hardware, which must be considered in any estimate for one 
vehicle without the other. Therefore, if Ares I were continued, Ares V 
project costs through 2020, including development and early production 
would be around $16.5B.
    With regard to cost estimates for heavy-lift, it is difficult to 
provide an accurate estimate given that this estimate would depend on 
type of vehicle chosen and its capabilities, among many other things. 
Such an estimate also would depend greatly on the phasing of funds 
available. However, NASA believes that cost savings could be realized 
by developing a heavy-lift vehicle that could be used by multiple users 
(EELV, commercial, other Government agencies.) As such, multiple users 
of the same vehicle would likely lower the overall lifecycle cost 
through higher production rates.


    Mr. Aderholt. Okay. That is all I have for right now.
    Mr. Mollohan. Mr. Fattah.

                          NASA BUDGET INCREASE

    Mr. Fattah. Thank you, Mr. Chairman.
    Administrator Bolden, I am very pleased to have you before 
the Committee, and your extraordinary record of achievement, 
and leadership now of one of the finest agencies in the 
government. I think that NASA brings a great deal of 
inspiration to Americans because of the work that is being done 
and that has been done.
    I just want to walk through a couple of things. You know, 
we have a major deficit in the government now and a national 
debt that is growing. There is a lot of discussions about cuts 
in programs.
    But in terms of NASA, it is true for the record, that this 
is an increase. This request is an increase in your budget. Is 
that accurate?
    General Bolden. That's correct, sir.

                              ASTROPHYSICS

    Mr. Fattah. Now one of the areas that I have some interest 
in is in astrophysics, your observatory program, because it 
really I think is kind of like at the vanguard of creating the 
dynamics under which further exploration, even human 
exploration, could go forward under.
    So you have a request for over the allowance in 
astrophysics. Is that for your existing 14 observatories and 
what else?
    General Bolden. Sir, I will get back to you for the record 
with what the funds are specifically identified for.
    Mr. Fattah. Okay.
    General Bolden. There is a number of different projects and 
programs. And I will get that to you for the record.

                              Astrophysics

    In Astrophysics, NASA is discovering how the universe works, 
exploring how the universe began and developed into its present form, 
and searching for Earth-like planets. The Agency's Astrophysics Theme 
has an integrated strategy, supported by the 14 operating missions 
noted, plus a robust research program, and 10 flight projects in 
various stages of planning and development.
    The overall increase in the FY 2011 NASA budget request for 
Astrophysics (as compared to the FY 2010 request) is due primarily to 
the selection of the Gravity and Extreme Magnetism (GEMS) Explorer 
mission, funded with a transfer from the Heliophysics budget to the 
Astrophysics budget. The Explorer Program is shared by the Heliophysics 
and Astrophysics Themes, and the Heliophysics Theme transfers budget to 
the Astrophysics Division when an Astrophysics Explorer mission is 
selected. The FY 2011 and FY 2010 budget request and runout for 
Astrophysics is below.

                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                             FY 11      FY 12      FY 13      FY 14      FY 15
----------------------------------------------------------------------------------------------------------------
FY 2011 NASA Budget Request..............................    1,076.3    1,109.3    1,149.1    1,158.7    1,131.6
----------------------------------------------------------------------------------------------------------------


                                              [Dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                             FY 10      FY 11      FY 12      FY 13      FY 14
----------------------------------------------------------------------------------------------------------------
FY 2010 NASA Budget Request..............................    1,120.9    1,074.1    1,042.7    1,126.3    1,139.6
----------------------------------------------------------------------------------------------------------------

    The FY 2011 budget request for Science includes $1,076.3M for 
Astrophysics. The golden age of Astrophysics from space continues, with 
14 observatories in operation. Astrophysics research, technology 
investments, and missions aim to understand how the universe works, how 
galaxies, stars and planets originated and developed over cosmic time, 
and whether Earth-like planets--and possibly life--exist elsewhere in 
the cosmos. The NASA Kepler telescope has discovered five exoplanets, 
ranging in size from Neptune to larger than Jupiter, demonstrating that 
the telescope is functioning as intended; additional discoveries are 
anticipated in the coming months and years. NASA's newest space 
observatory, WISE (Wide-Field Infrared Explorer), has captured its 
first look at the starry sky and its sky survey in infrared light has 
begun. Radio astronomers have uncovered 17 millisecond pulsars in our 
galaxy by studying unknown high-energy sources detected by the Fermi 
Gamma-ray Space Telescope.
    The Hubble Space Telescope is operating at its peak performance 
thanks to the very successful servicing mission last year by the STS-
125 crew. The Herschel and Planck missions, led by the European Space 
Agency with NASA as a partner, were launched in 2009 and are returning 
remarkable scientific results. In FY 2011, NASA will complete most of 
the development of the NuSTAR mission and prepare it for launch. NASA 
will also begin developing the Gravity and Extreme Magnetism (GEMS) 
mission recently selected in the Explorer small satellite program. The 
James Webb Space Telescope (JWST) continues to make good progress in 
development toward a 2014 launch. Flight hardware for the many JWST 
subsystems is being designed, manufactured and tested, including the 18 
segments of its 6.5-meter primary mirror; and the mission-level 
Critical Design Review for JWST will occur this spring. The SOFIA 
airborne observatory successfully conducted its first open-door flight 
test in December 2009--a major milestone toward the beginning of early 
science operations this year.
    The NRC is conducting a new Decadal Survey in astronomy and 
astrophysics, which will set priorities among future mission concepts 
across the full spectrum of Astrophysics, including dark energy, 
gravity wave, and planet-finding missions. The ``Astro2010'' Decadal 
Survey is expected by September.

                    MIDDLE SCHOOL EDUCATION EFFORTS

    Mr. Fattah. Okay. And I also want to commend you for the 
requests related to the education efforts in middle school and 
the budget is $445 million.
    The Chairman has been quite supportive of NASA. And the 
Subcommittee always follows his lead. So I am sure that you 
will have, after a detailed examination, a very favorable 
consideration for your request.

                              SPACE SUMMIT

    And I want to thank you for your great leadership. Now the 
President is coming to host a summit of sorts, a space 
exploration process. Is there anything you can tell the 
Committee about what is expected?
    General Bolden. Sir, it is still in the works. It is in the 
early stage of planning. It is intended to be a space 
conference to be held in Florida where the President and 
members of Congress will participate.
    The primary purpose for the President, is to allow him to 
provide his vision to the nation and the world actually. Also 
to allow him to have an opportunity, which he has not so far, 
to at least see some of the facilities at the Kennedy Space 
Center and hopefully talk to some of the workers and the like.
    Mr. Fattah. Has there been an occasion on which this has 
happened in the past to your knowledge that----
    General Bolden. There have been visits to the Kennedy Space 
Center----
    Mr. Fattah. Walk-throughs, right?
    General Bolden [continuing]. By past Presidents. I don't 
know that there has ever been a President who has taken the 
opportunity to travel there to have a conference on space. I 
know there has never been a President who has had the challenge 
of trying to promote exploration and human space flight at a 
time that is more challenging fiscally.
    Mr. Fattah. Well the fiscal challenge is obvious. And that 
is why the Administration really ought to be commended inasmuch 
as making a submission that would call for an increase in 
exploration.
    So I want to commend you, and OMB, and the Administration 
for seeing the importance of exploration. And, again, I am 
interested in the details on the astrophysics program.
    General Bolden. Yes, sir. I will get that for you and get 
it to you personally. And then make it an entry for the record.
    Mr. Fattah. Thank you.
    Mr. Mollohan. Thank you, Mr. Fattah.
    Mr. Wolf, do you have any questions?

                          HEAVY-LIFT CONTRACT

    Mr. Wolf. I do, thank you. Thank you, Mr. Chairman.
    When do you see NASA issuing a contract for heavy-lift 
system?
    General Bolden. Congressman, I don't have a date, because I 
have a heavy lift launch vehicle team that is looking at the 
path that we should take to get there. I can tell you that we 
are probably years away from identifying a specific 
architecture, because the architecture on which we settle will 
be greatly dependent upon what we learn from the technology 
development efforts that we are going to do using the 
International Space Station, using other vehicles, and using 
some of our research. So the architecture itself won't be 
defined until we find out what capabilities or what 
technological capabilities we have today, which are different 
from what we had when the Constellation Program was originally 
envisioned.

              SHUTTLE WORKFORCE TRANSITION STRATEGY REPORT

    Mr. Wolf. Fiscal year 2008 Appropriation Bill requires NASA 
to issue a report on shuttle workforce loss every six months. 
NASA has not updated this report for nearly a year. When will 
that be updated?
    General Bolden. Sir, we are going to actually provide a 
preliminary report this coming May that will not be the full 
workforce report as required. We hope to have that one 
completed by August.
    And, again, I must take the blame, because that particular 
report, as you all asked for, is supposed to give a detailed 
estimate in terms of numbers of people and the like and how we 
plan to transition them.
    When I came in to my position, things were in flux, and we 
just did not feel that we had enough facts about where the 
workforce was going to be down the road given the questions 
about NASA's direction. That is why we did not provide one 
recently. But hopefully it will be available in August.
    Mr. Wolf. I don't think there is a criminal penalty for 
that one I don't think. But the Chairman's done a lot of good 
work on prison reform. Well, if you could, I think it is 
important.
    General Bolden. If there had been a criminal penalty for 
that, I probably would have had to suffer the penalty, because 
I just did not have the information to adequately put together 
the report, and we are working diligently to try to do that in 
August.
    Mr. Wolf. How long has it been since there has been a 
report? When was the last report?
    General Bolden. I think the last one, when I looked a 
couple of days ago, I will get back to you for sure. But it 
was--we did one in 2009 I think. I will look and try to find 
it.

                            PRIMACY IN SPOKE

    And, sir, may I offer an apology to you. It has bothered 
me. When I responded to your question on China in the moment, 
it does make a difference to me who is first. And I think in my 
exuberance I said something that I didn't mean. You know, it is 
important that we be first all the time. I am extremely 
competitive. And so I apologize to you for making what was a 
flip statement to be quite honest.
    Mr. Wolf. Well let me ask unanimous consent that your 
apology be taken and you go back and we take out what was said 
the first time, Mr. Chairman, if we can.
    General Bolden. Mr. Chairman, I appreciate that, sir.
    Mr. Wolf. Yes, I think we should do that.
    General Bolden. I appreciate that. But I should have 
spoken----
    Mr. Wolf. Sure. I ask unanimous consent, Mr. Chairman, that 
the first comment be taken out. And you give me your position 
for the record. You submit it for the record.

                    Moon--United States Versus China

    The United States is and should be proud of being the first and 
only nation to land a human on the Moon and should we choose to go to 
the Moon on a priority basis, because of where we are technologically 
in comparison to China, I think that the United States would get back 
there first. However, the President's vision for space exploration 
enables a set of stepping stones that I believe will take us further 
and faster into space, allowing us to reach a range of destinations 
including lunar orbit, Lagrange points, near-Earth asteroids, the moons 
of Mars and eventually Mars itself.


    Mr. Mollohan. We will look at that carefully and excise it 
as appropriate.

                    CONSTELLATION PROGRAM CONTINUITY

    Mr. Wolf. Thank you, Mr. Chairman. If part or all the 
Constellation Program ends up being restored by Congress, can 
we be assured that the actions you are taking this year will 
not unnecessarily hamper or delay the continuity of the 
program?
    Mr. Mollohan. Pardon me for yielding. I have a 5:15 
meeting, which I have to attend. Mr. Wolf, I would like to 
extend my appreciation for the General testifying here today, 
for his hard work and that of all his employees. And we look 
forward to working with you.
    I will leave you to the tender mercies of Mr. Wolf. And I 
will yield the Chair to my good friend and colleague Mr. 
Fattah. Thank you very much for your testimony today. Mr. Wolf, 
thank you for yielding.
    Mr. Wolf. To repeat, if part or all the Constellation 
Program ended up being restored by Congress, can we be assured 
that the actions you are taking this year will not 
unnecessarily hamper or delay the continuity of the program?
    General Bolden. Well, sir, I can assure you of that. In 
fact, the only action that we have taken that I mentioned 
earlier in stopping procurement activities that would have 
brought us to a contract competition, those are all procurement 
activities that can be restarted at any time. So there would be 
no break.

                      CONSTELLATION CLOSEOUT COST

    Mr. Wolf. Okay. Your budget describes tiger teams that will 
assess workforce procurement and other closeout issues over the 
coming months. If these issues have not yet been fully 
assessed, what confidence do you have that 2.5 billion is an 
accurate estimate of closeout costs?
    General Bolden. Sir, that is the best estimate that we 
could come up with. And as always, you are hoping that you have 
made a very conservative estimate and that it won't be anywhere 
close to that.
    We looked at past program closeouts and we looked at what 
was in the Constellation Program. There are other factors that 
were taken into consideration that I don't remember. But I can 
get that back to you. But I am hoping that that is a 
conservative number.
    Mr. Wolf. Okay.
    General Bolden. Sir, you asked about the Workforce 
Transition Strategy Report.
    Mr. Wolf. Right.
    General Bolden. The last time we sent one was in July of 
2009.

                        PLUTONIUM-238 PRODUCTION

    Mr. Wolf. July of 2009. I recently talked with Steve 
Squyres, the lead scientist on the Mars Rover Program. He had 
serious concerns about the President's new plan. But also 
raised another area of concern with solar system science and 
exploration. And that is the availability of plutonium-238 to 
power a spacecraft.
    I understand that the fiscal year 2011 budget includes 
funding to restart plutonium-238 production. Can you describe 
the need for this, how much money is in the budget, and whether 
other alternatives exist, and what the plan is for restarting 
the production?
    General Bolden. Sir, we have as recently as this past week 
been involved in discussions with OMB, the Department of 
Energy, on what is the actual future need for plutonium-238. We 
have agreed that we will pay a portion of whatever the cost for 
that production is. We really are just interested in getting 
the production restarted.
    And I think the other question you asked was when would we 
start and how much would we pay.
    Mr. Wolf. Right.
    General Bolden. And those answers I will get for the 
record.

                        Plutonium-238 Production

    NASA has always worked with the Department of Energy (DOE) to 
acquire the plutonium-238 we need to fuel the radioisotope power 
systems that enable many of our most demanding planetary missions. DOE 
and its predecessor agencies have the legislative mandate to ensure the 
national needs for Pu-238 are met and they have been producing 
radioisotope power systems for nearly fifty years. Radioisotope power 
systems uniquely enable missions that require a long-term, unattended 
source of heat and/or supply of electrical power in harsh and remote 
environments. These systems are reliable, maintenance free, and capable 
of producing heat or electricity for decades. The plutonium-238 in 
these units serves as the source for generating heat and electricity.
    In the past, Pu-238 was produced at DOE's Savannah River Site in 
South Carolina, using reactors that are no longer operating. The last 
operating reactor was shut down in 1996. After DOE stopped producing 
Pu-238, DOE made use of its limited, existing Pu-238 inventory to 
supply power systems to user agencies. Beginning in 1992, this 
inventory was augmented by Pu-238 purchased from Russia for peaceful 
applications to fuel power sources that provide heat and electricity 
for NASA missions. However, the agreement to purchase this Russian 
material was recently defaulted upon by the Russian government. 
Although DOE is pursuing a new agreement under new terms with the 
Russians for this material, such an arrangement will always be a risk 
to NASA missions. DOE plans to return to Russia in May 2010 to attempt 
to negotiate a resumption of planned purchases from Russia to continue 
to fill the gap until U.S. domestic production can be restored at a 
rate that will meet our future national needs.
    It is imperative that the funding requested in the President's FY 
2011 budget request for restarting domestic production of Pu-238 be 
approved by Congress. Specifically, $30M is included in the President's 
request, evenly divided with $15M in the DOE's budget request, and $15M 
in NASA's budget request. It is planned that DOE and NASA will share in 
the capital cost of reestablishing a domestic production capability. 
Although NASA is expected to be a primary user of Pu-238 produced in 
the near future, this capability will also be available to support 
future national security applications, if needed. DOE's share in the 
capital costs is consistent with the Department's mission to maintain a 
national capability for a range of potential Federal users.
    In short, a new Pu-238 production capability is required to 
maintain Radioisotope Power Systems as an important national 
capability. Because of dwindling stockpile of existing Pu-238, and the 
long lead-time associated with reestablishing a domestic production 
capability (as much as 6-8 years), DOE is working, in coordination with 
user agencies, to reestablish Pu-238 production at a rate sufficient to 
support both NASA and potentially other missions. Based upon NASA's 
requirements, we believe that a production rate of 1 to 2 kg per year 
is sufficient for the foreseeable future. This rate can be accomplished 
using known technology and similar existing National Laboratory 
capabilities to produce and separate Pu-238.
    This approach minimizes the necessary startup investment, and 
provides the most rapid initial production of Pu-238, which is 
necessary to meet NASA's mission requirements.
    DOE and NASA are preparing a restart plan that will provide 
additional details. We expect to provide that restart plan to the 
Subcommittee in the near future.
    DOE and NASA are also working together to ensure needed purchases 
from Russia are completed to ensure an adequate supply of Pu-238 to 
avoid delaying future NASA missions, including a major Outer Planets 
Mission. This additional plutonium is necessary to retire any mission 
risk due to the schedule of re-establishing U.S. production capability 
in meeting mission requirements. There are no other alternative 
materials or energy sources appropriate for deep space missions other 
than purchasing Pu-238 from Russia or restarting domestic production. 
The potential impact on future missions from delay in restarting 
domestic production is, NASA believes, what Dr. Squyres may have been 
referring to.
    NASA has requested FY 2011 appropriations language that instructs 
NASA to partially fund restart of DOE production infrastructure and 
direct all the necessary NASA to DOE funds transfers. NASA recommends 
that Congress provide this direction in the FY 2011 appropriation and 
has submitted as part of its FY 2011 budget request proposed 
appropriations language that would accomplish this. This inclusion will 
avoid inadvertently creating additional National Environmental 
Protection Act (NEPA) review requirements and/or litigation risk by 
requiring a discretionary NASA funding decision to support this 
project. Formal arrangements to be established under an existing DOE/
NASA memorandum of understanding (MOU) would also need to be consistent 
with this approach. If approved, NASA will work closely with DOE to 
ensure that the appropriate steps are taken to ensure a timely restart 
of domestic Pu-238 production.


    Mr. Wolf. And whether other alternatives exist.
    General Bolden. Sir, one of the alternatives that we are 
trying to avoid is buying it from Russia.
    Mr. Wolf. Okay. Yes, I would agree with that.
    On education, I congratulate you on identifying education 
as important. Well, let me go back to the Squyres issue too. 
Have you spoken to Steve Squyres since
    General Bolden. Sir, I have not, and I was not aware of his 
concern, but that has not been an issue with us. We understand 
what amount of plutonium-238 is necessary for us, and that we 
have looked at our programs and future projects, and what we 
have stated we need is sufficient for the programs that we have 
on the books. I was surprised that someone feels that we need 
more.
    Mr. Wolf. Yes, he had some serious concerns. I would also 
suggest there are about four, or five, or six people, which I 
am not going to give you. I can give you off the record. But I 
really think it would be helpful for you just to call. I mean, 
you know, everyone has--you know, when I try to make a tough 
decision on something, I try to call people who don't 
necessarily agree with me. But I just want to kind of honestly 
get their best wisdom. The Bible talks about wisdom and the 
judgment of wise men.
    I had a conversation with him. He is someone I think you 
ought to talk to about this and about the overall program. But 
I learned a lot from him.
    I know you are busy. But I think just to have a 
conversation with him on the phone or the next time he is 
Washington. You know, he comes in here periodically. Just to 
sit down and just to get four or five people like that 
together.
    But about the plutonium-238, because he expressed some deep 
concerns.
    General Bolden. Sir, I will go back and review it with my 
directorates, and also talk to Mr. Squyres, and then get back 
to you, because I was not aware. I am not aware of any shortage 
that we anticipate.
    Mr. Wolf. Okay. And we wanted to give you a letter but 
maybe we won't. We will just wait to hear from you.
    General Bolden. Yes, sir.

                            EDUCATION BUDGET

    Mr. Wolf. On the education, I appreciate your identifying 
education as an important priority for NASA. Shortly after you 
came aboard, you came to talk to me about your Summer 
Innovation Initiative. And I think one of the greatest benefits 
of NASA to our society is the inspiration and excitement it 
provides for young people.
    Yet the budget request for education is actually a 
reduction of almost $40 million to 21 percent from the current 
level.
    General Bolden. Sir, in the budget that I received, we had 
a $20 million annual plus-up. You are the second person that 
has said I have a reduction in my budget. I will go back and 
check for the record. But I think someone may have been looking 
at grants from the Department of Education.
    Mr. Wolf. Mr. English said that it went from 180 to 140, 
which was actually a reduction.
    General Bolden. I will go back and double check and then 
get back to you for the record.
    Mr. Wolf. Okay. If we could do that and then let us know.
    Mr. Chairman, I have just one or two other questions. We 
will submit the others.
    Mr. Fattah. Will the gentlemen yield for a second? We have 
an answer on the education budget.
    Mr. Wolf. Okay.
    Mr. Fattah. It is an increase over the request that was 
made from last year. And it is down from what we actually 
appropriated last year.
    Mr. Wolf. Okay. So there are a number of plus-ups.
    Mr. Fattah. No. These are not--they are separate. They made 
a request last year.
    Mr. Wolf. The overall level was plus-up.
    Mr. Fattah. Right.
    Mr. Wolf. Okay.
    General Bolden. Thank you very much.
    Mr. Wolf. Okay.
    General Bolden. That is the answer I just----
    Mr. Wolf. Well he is from Philadelphia.
    Mr. Fattah. And so is my Ranking Member.
    Mr. Wolf. Yes.
    Mr. Fattah. And the former Chair of this Committee and also 
a big booster of NASA.

                     BUYING RUSSIAN LAUNCH SERVICES

    Mr. Wolf. After the retirement of the shuttle, you will 
need to buy flights from Russia to deliver the crew to the 
station. Have you secured the necessary agreements with the 
Russians? And to combine the next question, what are the costs, 
and how do the costs compare with those in previous agreements 
with Russia? Do you have an agreement, and what are the costs, 
and how do the costs compare?
    General Bolden. Sir, the existing contract right now I 
think it is $51 million, which includes training and 
transportation. It is a lot of different things. I will have to 
get back to you for the record as to what it was on the 
previous contract.

                        Russian Support to NASA

    NASA purchases comprehensive Soyuz support from Russia, including 
all necessary training and preparation for launch, crew rescue and 
landing for an entire long-duration mission. This support includes 
training and Soyuz seat certification, individual equipment, medical 
checks, supplies, on-orbit consumables, and search and rescue services. 
NASA does not purchase launches or Soyuz spacecraft themselves, but 
rather round trip ``seats'' or crew rotations, which incorporate all 
the associated services outlined above. For the contract extension 
signed between NASA and Roscosmos on April 2, 2010, these services 
amount to an average of $55.8 million for each crew member rotation 
purchased in 2013-2014. For the previous contract extension signed 
between NASA and Roscosmos on May 28, 2009, these services amounted to 
an average of $51M for each crew member rotation purchased.

    The question was not asked. But I feel compelled to say 
that the primary means of getting humans to the International 
Space Station, the expedition crews for a number of years by 
agreement among the international partners has been Soyuz. So 
while it will seem that we are doing something different, 
because we don't have shuttles anymore, we use shuttles to get 
equipment and components, large components back and forth. But 
not as the primary means of getting crew there.
    Before I came, the agreement among the international 
partners was that we would use Soyuz as the primary means to 
get crews there and the primary means to get them back. And 
that is the only rescue vehicle that we have ever had from the 
beginning of the International Space Station Program, because 
back then we as a nation decided that we did not want to follow 
through on the production of a crew rescue vehicle.
    So the international partners again came together and 
decided if the United States is not going to provide it, then 
the next best thing is a Russian Soyuz. So today, two Soyuz, 
well one, because we only have a slight crew there, but 
whenever there is a full crew there, there are two Soyuz 
spacecraft that are there to bring the crews back in the event 
of an emergency.
    Mr. Wolf. What are the costs now? And do you have any 
agreement as to what the costs will be?
    General Bolden. I was saying the cost now is I think $51 
million.
    Mr. Wolf. Fifty one million and do you expect that to 
increase?
    General Bolden. Sir, I do not. In fact, I do not expect it 
to increase significantly. We are in negotiations right now for 
a follow-on contract. If everything works out really well and 
one of the commercial entities that says they can get us to the 
International Space Station by 2013, it would not be necessary 
for me to renew the contract. But at the Heads of Agency 
meeting, the Russians said that they did not foresee a 
significant increase in the cost.
    Mr. Wolf. Okay.
    General Bolden. They talked about it in terms of inflation.

                 COMMERCIAL CARGO AND CREW CAPABILITIES

    Mr. Wolf. Well the last question leads to just really where 
you were. The COTS Program is your attempt to develop and 
procure private sector capabilities, SpaceX and Orbital, to 
resupply the International Space Station.
    The fiscal year 2011 puts an additional $6 billion over 
five years. What is the current status of these efforts? And 
what is the earliest that the commercial cargo and crew 
capabilities to this space station could be operational?
    General Bolden. Congressman, under the current schedule, 
they are planning to take crew to the International Space 
Station by 2015. Both intend to fly their first COTS missions 
from--I think SpaceX is February of 2011 and then Orbital, May 
of 2011. I will add that was just the first round of commercial 
vendors. We are about to enter into another competition where 
we are hoping to increase the number of potential providers of 
commercial transportation. And among those, we expect that 
there will be some of the very well known providers of launch 
services to this date. While it is too early for me to announce 
something for a ULA, the information is that they or their 
partners do intend to bid in the next round.

                     RANKING MEMBER CLOSING REMARKS

    Mr. Wolf. I would end just to say since there is strong 
opposition, I do worry about a series of lobbyists rolling in 
here who, you know, plan on making a lot of money without 
worrying about where we are vis-a-vis the Nation.
    I think it would be helpful to--and I know no one wants to 
back down. No one wants to get into these things. But I did 
work for a Cabinet Secretary. And I think sometimes when you 
have something like this, this is very important. I mean, this 
is one area that we are ahead of everyone else. This is an area 
that has the imagination. I hear the President talking about 
getting young people involved.
    We just had the gentleman yesterday, Neil deGrasse Tyson. 
Have you spoken to him recently?
    General Bolden. Oh, yes, sir.
    Mr. Wolf. How recently have you spoken to him?
    General Bolden. I think the last time was about two weeks 
ago. It was at the last shuttle.
    Mr. Wolf. Okay, yes.
    General Bolden. And he is an incredible human being.
    Mr. Wolf. Yes. And so I think it would be helpful to get a 
group of people like him, and Squyres, and some of the others, 
which we can give you the names, and just bring them in and 
sort of say, you know, where do we go from here? There are some 
good things in there.
    But I really worry at times that--and I know the President 
has got a lot on his mind. He has got other things going on. We 
have a budget deficit. We got a war in Afghanistan. We got a 
war in Iraq. And there are a lot of things going on.
    But I think it would be helpful with the spirit of 
reconciliation, not to use the reconciliation that you are 
talking about in the Congress, but reconciliation from a 
biblical sense, if you will.
    Bring a group of people in and take a day or two to sit 
around and really think about this, because the decisions that 
are made are going to have so many impacts, whether it be with 
foreign nations, whether it be with stimulating that young kid 
at Patterson Elementary that is going to want to know if he 
gets into science. I mean, this is really important.
    And I do worry a little bit about every administration that 
puts something out there. They really almost consider it a 
challenge to them if anyone wants to kind of change anything.
    And I know being a Cabinet Secretary, as you are a Cabinet 
Secretary, your obligation is to advocate for the 
Administration for a proposal. If you don't, then, you know, 
you should leave and let someone else do it. But I think within 
the confines of that.
    So I would encourage you, we will give you some names, to 
pull together some of these people and take a good period to 
see if we can come up with something whereby we resolve a lot 
of the issues, that you understand certainly better than I 
understand, that are out there. And so if you would do that, I 
would----
    General Bolden. I appreciate that recommendation. We will 
do that. I will tell you, the President needs no defense. But 
he is engaged in space policy. I spent a half hour this 
morning, not with him but with the Deputy Chief of Staff, 
because he is engaged. He has promised that we are going to 
find a solution to this problem. He has stated that, or through 
his Deputy Chief of Staff, he has stated that we are going to 
find a way to come together, because it is important for the 
nation. I agree with you, and the President does also.
    Mr. Wolf. Okay.
    General Bolden. I don't think it is a matter of anybody 
backing down. I think it is a matter of us trying to find 
common ground in what is an incredible budget. But what may be 
just differences of opinion that people have. I am confident 
that we are going to find a solution that will be good, because 
no one will be happy.
    Mr. Wolf. Okay. Thank you, Mr. Chairman.

                   CONGRESSMAN FATTAH CLOSING REMARKS

    Mr. Fattah. Let me thank my colleague who is also from 
Philadelphia. Now we are going to wrap up. And it has been an 
honor to have you present to the Committee. And the Chairman 
made his--made the point that he had an appointment that he had 
to go to.
    But we appreciate your leadership. And I think the country 
will be excited to witness the Space Exploration Meeting that 
the President is coming to lead and to listen. And we are going 
to learn a lot more about the vision. And I think here a host 
of views and the choice points that have to be kind of thought 
through.
    So thank you very much and have a good day.
    General Bolden. Congressman, thank you also very much. I 
appreciate the time you have given us. And I know you didn't 
have to take all this time. But I appreciate it. Thank you.
    Mr. Fattah. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
                                         Wednesday, March 24, 2010.

        NSF (NATIONAL SCIENCE FOUNDATION) FY2011 BUDGET OVERVIEW

                                WITNESS

ARDEN L. BEMENT, JR., DIRECTOR, NSF
    Mr. Mollohan. The hearing will come to order. Good morning. 
Welcome to the Fiscal Year 2011 National Science Foundation 
Budget Overview Hearing of the Subcommittee on Commerce, 
Justice, and Science.
    Today we will cover the budget and operations of the 
National Science Foundation and the National Science Board and 
also review the status and future needs of U.S. science 
activities other than those in human health.

                       Appreciation of Dr. Bement

    Our witness is the director of the National Science 
Foundation, Dr. Arden Bement. Dr. Bement, I believe this is 
your valedictory appearance before this Subcommittee, and I 
want to begin by thanking you for your service to American 
science and technology and to the people of the United States.
    Dr. Bement. Thank you, Mr. Chairman. I appreciate that.
    Mr. Mollohan. Well, I think you are leaving NSF well 
staffed with science leaders, you have succeeded in efforts to 
bring forward major cross cutting initiatives, achieving 
cooperation across the different science dictorates, and 
between the education and human resources directorate in the 
science, technology, engineering, and the math programs.
    And on a personal basis it has been a pleasure working with 
you, and I join everybody else who works with you in being 
extremely impressed with you as a scientist and as an 
administrator and as a person, it has been a real pleasure.
    Dr. Bement. And I reciprocate that feeling.
    Mr. Mollohan. Thank you, Doctor.

                        DOUBLING THE NSF BUDGET

    Based on considerable evidence, real growth in the U.S. 
economy in excess of population growth, it is primarily the 
result of innovations and new technologies that result from 
public and private investments and research and development.
    Accordingly, we are in the midst of a ten-year doubling and 
funding for NSF contemplated by the America Competes Act. This 
doubling was accelerated by $3 billion added to the fiscal year 
2009 appropriation for the Foundation as part of the American 
Recovery and Reinvestment Act. Those funds have gone to 
increase grant funding across all areas of NSF and to various 
science infrastructure investments.
    The budget request for fiscal year 2011 continues the 
planned doubling with a roughly seven percent increase over the 
2010 enacted levels.

                         STEM EDUCATION REFORM

    In fiscal year 2010 this Subcommittee supported an increase 
to NSF education programs focused on hands on, inquiry-based 
instruction in grades K through 12 and in K through 12 teacher 
preparation.
    Last month we heard testimony from those who work in this 
area, and they provided examples of successful efforts at 
improving science, technology, engineering, and math education. 
Those witnesses offered evidence of the benefits that result 
from federal investments made through NSF.
    NSF has a major role to play in continuing and accelerating 
the reform of science education to include inquiry and student 
assessments of inquiry skills.

                          NSF CLIMATE RESEARCH

    In addition, NSF plays a growing role in climate 
observations and research. Under the Major Research Equipment 
and Facilities Construction Account the request to initiate the 
National Ecological Observatory Network and to provide major 
funding for the Ocean Observatories Initiative should result in 
new understanding of how ecosystems and the oceans influence 
and respond to climate change.
    These research networks, along with the NSF grants for 
critical zone observatories, new research in hydrology, and new 
super computer at the National Center for Atmospheric Research 
have the potential to support climate understanding predictions 
that are both more accurate and finer in spatial resolution. 
These improvements will be needed to assist the private and 
public sectors in choosing climate change adaptation strategies 
and investments.

                       BROAD SUPPORT OF RESEARCH

    NSF is involved in so many exciting areas of research 
including math, genomics, computer science, and engineering. I 
could go on, but this breadth of activity is the unique mission 
of NSF.
    While NSF and the mission agencies support R&D addressing 
changing national priorities, it is NSF's unique responsibility 
to ensure that the U.S. has continuing expertise across all 
areas of science and technology. This provides our Nation with 
the ability to address rapidly new challenges as they arise.
    Given the critical role of science and technology in the 
future prosperity and international leadership of the United 
States, we look forward to hearing from you, Dr. Bement, on the 
state of U.S. science and technology and its future needs and 
prospects.
    Following the opening statement of Ranking Member Wolf, we 
will ask you to provide a summary of your written statement 
which will be included in the hearing record and then we will 
go on the questions from Subcommittee members.
    Dr. Bement. Thank you.
    Mr. Mollohan. Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.
    I join the Chairman today and welcome you Doctor to the 
hearing to testify on the budget, and I am pleased to see the 
level of commitment to funding basic science and scientific 
research.

                       Appreciation of Dr. Bement

    And I will just have the Director submit for the record. I 
just want to thank you for your service and to the country, and 
I think it is going to be a loss for our government to see you 
leave, but I am curious to see who they appoint.
    And as we get into talking, since you are never coming back 
here again in the sense that nobody can ever fire you pretty 
much, why don't you really tell us how things really are?
    Dr. Bement. Okay.
    Mr. Wolf. No, no, I mean----
    Dr. Bement. No, I understand.
    Mr. Wolf. You are a father of how many kids?
    Dr. Bement. Eight.
    Mr. Wolf. Eight. And you are a grandfather of how many?
    Dr. Bement. Thirty.
    Mr. Wolf. So you take a different approach to maybe a 28 
year old.
    Dr. Bement. You could have kept going.
    Mr. Wolf. Yeah. And how many great grandchildren?
    Dr. Bement. Nineteen.
    Mr. Wolf. Yeah, so I think you have a perspective. So I 
would hope when the hearing begins, in your testimony you would 
really tell us the truth and just let us know. Because I think 
I really worry that the Nation is ready to come into a period 
of decline.
    I saw Charles Krauthammer's piece about a month and a half 
ago, he said, decline is a choice. As individuals we make a 
choice whether we want to decline, as great nations we make a 
choice.
    And so I would just like to hear you really tell us where 
we are. There is all this research, going on, you have got the 
Board's Foundation, you got this group, you have Arne Duncan 
doing this.
    Really so when you come and tell us, tell us really where 
you think not only as the head of the National Science 
Foundation, but as a father, and a grandfather, and a great 
grandfather somebody who has a perspective from a biblical 
wisdom, if you will, where you think the Nation is and what you 
think we have to do.
    But I join the Chairman too in thanking you for your 
service over the many years. And thank you, Mr. Chairman.
    Dr. Bement. Thank you.
    Mr. Mollohan. We are not suggesting that you had never not 
told us the truth though.
    Mr. Wolf. No, but I think--well the reality is though when 
you work in the Administration--I used to work for a cabinet 
secretary who had different views than the White House, and you 
would sit in a meeting and you would know how he felt, then you 
would come up on the testimony and----
    Mr. Mollohan. You wouldn't hear it all?
    Mr. Wolf. It would be different, so I want him to tell us 
the way it really is.
    Mr. Mollohan. Okay. Dr. Bement, we again welcome you and 
invite you to tell it the way it is.
    Dr. Bement. Thank you, Chairman Mollohan, Ranking Member 
Wolf, and members of the Subcommittee, I am pleased to be here 
with you today.

                    PRESIDENT'S 2011 BUDGET REQUEST

    The essence of the President's 2011 budget request for the 
National Science Foundation is to reaffirm the agency's roots 
as a Nation as well as bring us scientific innovation.
    An assessed 2011 request is $7.4 billion, an increase of 
eight percent over 2010. This keeps us on the road to the 
President's and the America Competes Act goal of doubling NSF's 
budget.
    But as with any budget this request reflects tough choices 
and clear priorities. It recognizes NSF's unique national 
responsibility for supporting basic research, our catalytic 
role in education, and the ongoing need for investments and 
stewardship.
    NSF's research and education agenda is both multifaceted 
and well rounded. It is designed very deliberately to support 
the Administration's plan for making innovation a center piece 
of economic strength and future well being.
    The main driver for this investment is the National 
Innovation Strategy. Nothing speaks more to what NSF is and 
does than the Administration's commitment to fundamental 
research, and that is emphasized throughout the budget.
    You will also see NSF at the forefront of educating the 
next generation of 21st Century knowledge and skills. Let me 
highlight programs that are central to this goal.
    The Advanced Technological Education Program supports new 
and enhanced two year college programs that educate technicians 
for the high-technology workforce. I might say parenthetically 
they also prepare a lot of teachers for STEM education in the 
schools.
    The Graduate Research Fellowship and Faculty Career 
Development Program supports students and early career 
investigators to foster the Nation's next generation of 
scientists and engineers.
    Climate change education addresses learning at all levels 
and is designed to stimulate careers in climate science.
    NSF programs also support next generation information 
technology and secure cyberspace. NSF will support the 
interagency networking and information technology R&D program 
at $1.17 billion.
    Overcoming challenges inherited, today's great scientific 
questions will require a new computer revolution to overcome 
the physical restrictions of today's silicon chip based 
technology.
    NSF's Science and Engineering Beyond Moore's Law is a 
multi-disciplinary research program designed to enhance our 
Nation's economic competitiveness. The program's name refers to 
the proposition that computer processing power based on 
semiconductor integrated circuits doubles about every 18 
months; however, we are rapidly reaching the physical 
limitation of that progress.
    NSF must continue to innovate in tackling the large scale 
scientific and engineering challenges of our age, including 
understanding the Nation's scope of changes in the earth's 
climate.
    NSF contributes multiple resources to support the U.S. 
Global Change Research Program and other interagency 
initiatives that are helping us understand and confront the 
global challenge of a changing climate.
    NSF's contribution to the U.S. Global Change Research 
Program is proposed to increase by 16 percent to $370 million.
    Also in 2011, NSF will spend $766 million on a portfolio of 
activities called Science, Engineering, and Education for 
Sustainability. It will seek integrated approaches to increase 
U.S. energy independence, enhance environmental stewardship, 
and reduce energy use and carbon intensity while generating 
continued economic growth.
    Regaining our Energy, Science, and Engineering Edge, or RE-
ENERGYSE, is a new $19 million program to help the Nation 
regain its leadership in science and engineering by attracting 
and educating future scientists into the clean energy fields.
    NSF will jointly fund RE-ENERGYSE with the Department of 
Energy to prepare as many as 8,500 highly trained young 
scientists and engineers for clean energy careers by 2015.
    Additionally, RE-ENERGYSE will provide training of 
technicians for clean energy industries.
    NSF's request includes $20 million in its Major Research 
Equipment and Facilities Construction account to begin 
construction of the National Ecological Observatory Network, or 
NEON.
    NEON is a multi-faceted project with a total projected 
budget of $434 million spread out over the next six fiscal 
years.
    NEON will collect data on the effects of climate change, 
changes in land use, and invasive species on natural resources 
and biodiversity.
    NEON will be the first observatory network designed to 
detect and enable forecasting of ecological change on the 
continental scale over multiple decades.
    As with any budget the most important information is the 
message between the numbers. In 2011 that message is the 
Administration's commitment to innovation and economic growth 
through science and engineering.
    The Foundation is pleased to be playing an important role 
in that effect.
    Mr. Chairman and Ranking Member Wolf, as this will likely 
be the last time I testify before you before my June 1st 
departure from the Foundation I want to make certain that you 
are aware of how deeply appreciative I am of your support over 
the past nine years as director of NSF.
    And with that I would be happy to answer your questions.
    [The information follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
         EDUCATION AND HUMAN RESOURCES ACCOUNT FUNDING REQUEST

    Mr. Mollohan. Well over the past nine years several 
chairman, several ranking, Mr. Wolf in both positions and 
myself on both positions, and Mr. Serrano I think was in there 
at a time, Mr. Rogers probably during that time, I know just 
talking with all of them offline they all hold you in such high 
regard, and so it has been easy to support you over nine years.
    Dr. Bement. And I appreciate hearing that.
    Mr. Mollohan. Yeah. And so we thank you for your service 
again.
    Well you suggest that NSF's budget request is eight percent 
above the amount appropriated in 2010, I think that was your 
testimony, and the research and related activities increase. 
What is the research and related activities increase?
    Dr. Bement. It is about eight percent.
    Mr. Mollohan. See we have it at 7.1. I think we have the 
overall at 7.2. I understand the difference in those two 
numbers, but what I am curious about is why the education and 
human resources increase is only 2.2, or that is the way we are 
computing it, but significantly less than the overall increase, 
and the increase for total NASA spending on STEM education is 
by our reckoning 2.3 percent.
    Dr. Bement. I think the primary reason is again the 
importance of the National Science Foundation to the National 
Innovation Strategy. And clearly the budget was skewed to deal 
with economic forces, putting more money into fundamental 
research.
    Again, major programs that encourage high growth and 
innovation enterprise, entrepreneurship. Learning and workforce 
development is an important part of that, and there clearly are 
three principal objectives in the National Innovation Strategy.
    One is to increase the number of graduate research 
fellowships, to provide more support for young investigators, 
especially through career grants, to----
    Mr. Mollohan. So that is all out. So you are explaining to 
me why there is only 2.2 percentage increase in education and 
human resources and only a 2.3 percent for STEM education. Is 
that what you are after?
    Dr. Bement. Well that is not the full story.
    Mr. Mollohan. That is my question.
    Dr. Bement. You are asking a comparative analysis why there 
is more money in R&RA than there is in EHR.
    Mr. Mollohan. Correct.

                LEVERAGING EDUCATION FUNDING ACROSS NSF

    Dr. Bement. And I am saying that the NIS priority of the 
President, the Administration's priority, skewed more of the 
resources into the R&RA account for the reasons that I 
mentioned.
    On the other hand, I have to say that the EHR account is 
very highly leveraged within the Foundation. For example, the 
total funding for STEM education is $1.225 billion, which is a 
substantial investment. Thirty percent of that investment comes 
from the R&RA account, and those investments deal largely with 
undergraduate education and graduate education, but a 
significant amount also contributes to K to 12 education.
    Now that is a conservative estimate. It doesn't include 
investments that are made by the individual investigators 
themselves through Broader Impacts, and a lot of the innovative 
initiatives in developing instructional materials, and also 
inquiry-based learning, comes out of the research program 
through the Border Impacts account. There is no way to sum that 
up very readily, but it is an additional contribution.
    I could give you other examples. Another factor is that we 
increased the base of several important EHR programs in the 
2010 budget. One example is the ATE Program, the Advanced 
Technological Education Program, which deals with community 
colleges. We increased the base of that program in the 2010 
budget by 23 percent primarily because it was a major priority 
of the Administration.
    By increasing that base in 2010 we also increased the 
fraction of the total funding that would be available for new 
awards. That flexibility carries over into 2011, so we left it 
flat funded in 2011 because we had the additional flexibility.
    So just looking at one year numbers doesn't really indicate 
what the pattern might be over two or three budget cycles.
    Another example is the ARRA funding that went into EHR 
primarily for the Noyce Program and the Math and Science 
Partnership Program. That was $85 million through ARRA funding. 
All that money was put out in standard grants that will be 
spent out over a period of three to five years, let us say an 
average of four years. If you put that against the base for K 
to 12 education, which those two programs support as far as 
teacher training, pre-service and in-service training, that is 
an addition of about eight percent per year to the budget for K 
to 12 education. And then if you add in the R&RA component, 
plus the two and a half percent average for EHR, that brings it 
up close to 10 to 11 percent effective increase in budget.
    We also have to pay attention to sustaining renewals of the 
ARRA funding, so we look at it over several budget cycles to 
determine what will be the impact in 2012, 2013, and so forth.
    So we feel that the 2011 budget for EHR does two things. 
Number one, it hits all the priorities of the Administration in 
graduate research fellowships, in the ATE Program and a couple 
other programs. It also provides funding flexibility for a 
number of programs that are very important for teacher 
education.
    That is what I meant in my opening remarks by saying the 
program is balanced. And it is also very highly leveraged.
    Mr. Mollohan. So this is your work up, this is your 
recommendation to the Administration, the funding increases in 
education, human resources, and the spending on STEM?
    Dr. Bement. Much of the decision making in terms of which 
programs to plus up and which ones to hold constant and the 
impacts of the ARRA funding were decisions that I made.
    Mr. Mollohan. How to manage that amongst those accounts?
    Dr. Bement. Yes.
    Mr. Mollohan. What about the absolute request number, is 
that your recommendation to OMB or is this a result of push 
back and forth?
    Dr. Bement. Well the early President's plan for 2011 was a 
much smaller number than we ended up with. The EHR component 
stayed pretty much the same as was planned, but the R&RA 
account was actually substantially enriched as a result of the 
National Innovation Strategy. So much more money went into 
research.
    Mr. Mollohan. Okay. But my question was for these accounts 
that I am asking you about, this human resources and the STEM 
education, did you request more to OMB, and the answer sort of 
suggests you did.
    Dr. Bement. Well that is a pre-decisional question, of 
course.
    Mr. Mollohan. Okay. So I am looking for a pre-decisional 
answer.
    Dr. Bement. I know I have been in this trap before.
    Mr. Mollohan. Well, you know, it is not a trap. You know, 
it is interesting why that should be a secret. And I am not 
sure in this Administration it is, but I guess I will just ask 
that question. Has OMB told you not to answer those questions 
under this Administration?
    Dr. Bement. No, this has been a practice a long time. The 
last time I was, as you recall, stymied by that question was 
during the Bush Administration, the first term.
    Mr. Mollohan. Well then I can understand why you were 
stymied in the Bush Administration. I am asking you has that 
policy changed in this Administration or is it consistent?
    Dr. Bement. Hasn't changed. Hasn't changed.
    Mr. Mollohan. So OMB is directing you not to answer these 
pre-decisional questions as you call them----
    Dr. Bement. That is correct.
    Mr. Mollohan. [continuing]. Before the Appropriation's 
Committee of the United States Congress? So you won't answer 
that?
    Dr. Bement. Obviously as a director of an agency I ask for 
a lot more money than I actually get, so you can draw your own 
conclusions from that.
    You know, it is just like the President's budget. The 
President proposes and the Congress disposes.
    Mr. Mollohan. I have heard that before.
    Dr. Bement. Yes, I am sure you have.
    Mr. Mollohan. Okay. Well let me ask you this in a more 
serious vain. When you look at NSF and its role with regard to 
education----
    Dr. Bement. Yes.

    ROLE OF NSF IN SCIENCE, TECHNOLOGY, ENGINEERING AND MATHEMATICS 
                               EDUCATION

    Mr. Mollohan [continuing]. STEM education, tell us what is 
the role that you think the National Science Foundation, and it 
is almost at the philosophy level or certainly at the policy 
level, what role do you think the National Science Foundation 
can play, should play, and apply its scarce resources to?
    Dr. Bement. First of all we invest money in research and 
development to develop best practices, but also to innovate . . 
. find innovative ways to not only enhance learning, but also 
to enhance teaching, and to bring learning and teaching 
together.
    We try to focus on quality in education, but again, our 
focus is on math and science education, and as a federal agency 
with limited resources we have to stay focused, and so we 
leverage our resources with the Department of Education which 
deals with states in their formula grants, and we expect that 
once we develop best practice that the Department of Education 
will work with us, as they do, in translating that--or 
transitioning that to broader use across many school districts 
and scaling it up across the country. And that has been the 
essence of our partnership as long as I have been in the 
Foundation.
    Now, I can tell you a story that I think will illuminate 
the point. We run the Teacher's Presidential Award Programs for 
both math and science teachers at both the elementary and 
secondary levels, and every time they come to Washington, I 
would say 100 teachers, I ask them a simple question. I have 
asked this in front of congressmen and congresswomen, and it is 
always a challenge because I never know how they are going to 
answer. I ask them how many of you have been impacted by NSF 
investment in education? And every hand goes up invariably.
    So this time I asked them why we have such an impact 
considering the scale of our program? Their answer was that 
they work in the trenches every day, and in many cases they 
have to struggle within their own social environment within a 
school in terms of what to teach and how to teach and how much 
latitude they will have to teach.
    And almost invariably when that argument ensues if they can 
cite evidence, evidence-based results of something the NSF 
supported or funded and cite that as a case they almost 
invariably win their argument. They appreciate that more than 
anyone can say, even though we don't fund them directly. We 
fund the universities, but the impact does filter down, and so 
that gives me a good feeling. And these are the best of the 
best, these are the cream.
    So hopefully next time when you have one come to town you 
will have a chance to ask that question and see what they say.

             COLLABORATION WITH THE DEPARTMENT OF EDUCATION

    Mr. Mollohan. I had one visit me this year. I think I do 
every year actually, almost every year.
    With what office or department or person at the Department 
of Education do you interface?
    Dr. Bement. Well we interface at every level. First of all 
at the highest level I think it is Michael Lach in the 
Secretary's office. There is an ongoing dialogue between 
Michael Lach and Dr. Marrett. They meet periodically and they 
meet for the purpose of identifying areas where there can be 
more cooperation.
    We also operate at the division level. We have a close 
working relationship with the Institute of Education Sciences. 
In fact we have two joint programs with them in assessment. 
First of all assessing professional development of math 
teachers, and then assessing professional development in 
science across the board, STEM across the board. But even these 
we are always looking for new opportunities.
    At the program level we have very close working 
relationships. For example, in the Math and Science Partnership 
program we sponsor joint workshops, we meet with state 
officials. We are part of each other's websites. And more than 
that we strategize how to do the transition and also the 
scaling at the state level.
    So today about 60 to 69 percent of the MSP projects that 
are closely linked with state initiatives. These are NSF 
projects that are closely linked with statewide initiatives, 
which is a pretty high fraction.
    So I think that relationship has been effective, it is 
getting better all the time, and the reason for that is that 
Secretary Duncan and many of his associates in the Department 
of Education come from the Chicago school district, and the 
Chicago school district is exemplary because they have used NSF 
funded programs within their various initiatives to improve 
science and mathematics proficiency in the grades from 8th 
grade on up to secondary education.
    We have a very easy way to communicate since we have a lot 
of common ground based on past experience, and so the 
relationship is very close.

             SCIENCE BOARD SUPPORT FOR THE 2011 NSF REQUEST

    Mr. Mollohan. Well good. Doctor, does the Board agree with 
the relative priorities for funding between STEM research and 
infrastructure and STEM education? Has the National Science 
Board, is it their judgment as to relative priorities for 
funding between----
    Dr. Bement. Well the Board really doesn't differentiate 
much in priorities between research and education because the 
philosophy of the Foundation is to integrate research with 
education, so they have a mutually supportive relationship.
    But I would have to say that in reviewing the budget they 
did review all of the Administration's priorities and they 
approved the budget in its totality before it was submitted to 
the Office of Management and Budget, so they stand behind the 
budget.
    Mr. Mollohan. Okay. Thank you, Doctor.
    Mr. Wolf.

   STATE OF U.S. INVESTMENT IN SCIENCE AND ENGINEERING RESEARCH AND 
                              DEVELOPMENT

    Mr. Wolf. Thank you, Mr. Chairman.
    Just looking at this brochure, Key Science and Engineering 
Indicators, on page 14 it shows the location and estimate of 
worldwide R&D has moved from North America and Europe to Asia. 
You said the distribution of R&D expenditures has shifted from 
1996 to 2007, Asia's shares has risen to nearly one-third due 
to mostly by China's rapid R&D. The average annual growth rated 
number researchers you look at that chart B, U.S. is flat, EU, 
flat, Russia down, South Korea dramatically up, Taiwan even 
more, China much more, and Singapore even much more than that.
    With this information and what I asked you at the outset 
and knowing that 50 percent of the money that was allocated 
last year roughly for STEM was accessed, and looking at where 
we are on the math and science scores, where do you think we 
are now as a Nation, vis-a-vis, China manufacturing, education?
    And you know one of the questions you know I am going to 
ask you is on the language that we put in for the study that we 
asked you to do. So where do you think we really on now?
    At one time you had told me that Europe was making an 
effort to bring people back to Europe to work in their 
universities. And so just kind of in a couple minutes tell us 
where you think we really are at this time.
    Dr. Bement. We are going through a period of rapid change 
and we are being challenged in terms of our position in science 
and technology more so than ever before.
    Our world share, even though we are still the dominant 
research performer in the world today, and our universities are 
ranked very highly and are highly regarded, one has to 
recognize that almost every nation in the world recognizes that 
in a knowledge economy, economic growth in prosperity, are to a 
large extent, dependent on investment in education, investment 
in research, and investment in infrastructure. So they have 
been investing very highly.
    In Europe, Germany, and the UK and other countries are 
trying to improve their relative ranking of their universities 
because they don't rank as high as they feel they should. The 
same thing is happening in the Far East.
    For example, KAIST--I was in KAIST just three or four weeks 
ago--KAIST is a Korean Advanced Institute of Science and 
Technology, it is sort of the MIT in South Korea. They have 
come from a position way down to a position where they are now 
ranked 12th in the world in engineering, and there are only 
three institutions in the United States that rank higher than 
they do, Cal-Tech, MIT, and Cal-Berkeley, which indicates where 
they stand relative to a lot of other universities in the U.S. 
as far as international ranking is concerned.
    So the world share of research and development of the U.S. 
has gone down not so much that the absolute numbers have gone 
down, the absolute numbers do continue to go up, it is that 
everyone is investing so much more.
    For example, our investment rate in federal funding has 
been increasing about six percent per year across the board 
roughly. In China it has been increasing 20 percent a year. In 
most of the other Asian nations it has been increasing at least 
ten percent a year. Well those kind of increases over time will 
make a difference.
    And for example, in China data that go back to even 2007 
indicated that the total number of researchers in China equaled 
a number of researchers in the U.S., and I am sure today they 
have more researchers in China than we have in the U.S.
    If you look at advanced technology, we aspire to push 
forward clean renewable energy, nuclear energy, bio derived 
hydrocarbon fuels, and wind energy. Well guess where the 
world's share of the technology, the equipment and the 
facilities and the displays and so forth are going to come 
from? At the rate we are going, we will be buying our nuclear 
reactors from South Korea, we will be buying most of our wind 
generators and photovoltaic panels from China. We are already 
purchasing some bio derived fields from Brazil.
    So that these changes are primarily about national will, it 
is not necessarily changes due to capacity or capability, it is 
national will. They want to be leaders, they want to set the 
standards, they don't want to be dependent on the rest of the 
world for standards, and they are succeeding.
    So that is going back to your earlier question, that is 
what keeps me awake sometimes at night.

                      INTERNATIONAL COLLABORATION

    Mr. Wolf. Well then I guess to follow the question would be 
this: If the trend continues where it is now both here in the 
United States and in Asia and other places, what do you foresee 
the circumstances if this same question were asked of the 
director of the National Science Foundation 20 years from now? 
What do you think their answer will be as to where we are? What 
impact do you think this will have?
    Dr. Bement. Well if I could have the luxury of projecting 
myself ahead 20 years and then answer that in retrospect.
    I think the point is, and this is why I put so much 
emphasis on international collaboration. This is the way of the 
world, it is not a ``king of the mountain'' approach anymore, 
it is no longer a matter that the U.S. is going to be dominant 
in all fields of science anymore in the future. We will be 
dominant in some fields, but not every field, not every 
important field.
    So it is imperative that we develop links, we network, we 
have relationships with top scientists throughout the world. We 
have to learn how to collaborate in order to compete. We have 
to know where the frontier is, and the frontier may look 
differently in China and may look differently in France than it 
looks in the U.S. They may be seeing different opportunities. 
If we are not connected, if we are not networked, and we don't 
have frequent exchange, then we are going to get blind sided. 
And blind sided means that we won't have an opportunity to move 
into fast moving markets as a leader. We will be a fast 
follower or maybe even a slow follower, but we will not 
necessarily be the leader.
    So I put a lot of priority in building up our international 
programs and the amount of resources we have for international 
collaboration. We are doing a very good job. We have broadband 
links with almost every region of the world. Some regions are a 
little bit dark, but they will be lighted up in the next five 
years.
    So science is being done on a 24 by 7 basis throughout the 
world, and it is very important that our scientists have an 
opportunity to succeed in some of the fast moving fields that 
may be emerging somewhere else. And 20 years from now in 
retrospect that will be the story.
    Mr. Wolf. Well what do you think it is going to be 20 years 
from now?
    Mr. Bement. Well, you know, that is not just a science and 
technology question, that is a political question for the very 
reason that with information and communication technology the 
world is shrinking faster now than ever before in the past. We 
used to think that international travel was a great 
democratizer or a shrinker of the world. That is no longer the 
case.
    We are going to be interconnected with broadband 
communication where any person in the world will be able to 
talk personally with any one other person in the world before 
too long. We can do it now. In fact, I have international 
meetings under bilateral agreements with teleconferencing now 
on a routine basis, and it works. You don't have to travel, you 
don't lose the time, you don't pay the extra expenses, and you 
get work done.
    We are now entering an era where we can share 
instrumentation like never before. We can have a researcher in 
the United States actually operating a piece of equipment 
somewhere else in the world and getting the data back in real-
time. They don't have to have their own instrument.
    An example is the ten meter telescope at the South Pole. No 
more remote region of the world than the South Pole. We have a 
telescope there that operates during the austral winter, which 
is summer here, and that is the best viewing season for doing 
astronomical observation. Well that has been automated to an 
extent where a researcher, an astronomer here in the U.S. with 
a laptop can operate the instrument and get the data. They 
don't have to travel all the way to the South Pole. That is 
going to be more prevalent.
    Furthermore, I think top researchers are going to become 
more peripatetic, and they are also going to be virtually 
connected with research groups in several parts of the world. 
They are very much like orchestra conductors. Orchestra 
conductors will conductors a symphony in Washington, the next 
day they will be in London, the next day they may be in Moscow, 
different orchestras.
    I see top scientists doing the same thing with research 
groups in different parts of the world where they will have an 
influence, and that will all be virtually connected. They can 
manage all that in Santa Fe, New Mexico if they wish.

                     CHINA'S POSITION IN THE WORLD

    Mr. Wolf. Well okay. I guess I would comment, you know, I 
agree with a lot of what you say, probably all.
    When I was the chairman of this Committee we reversed the 
decline in the sciences. It keeps me awake. My wife and I we 
have five kids, we have 15 grand kids, and I see things taking 
place and I think I bring a perspective of concern from outside 
to scientific area.
    Norm Augustine came to a group that we had where he made a 
comment that in the 16th Century Spain was number one, and we 
know what happened to Spain. In the 17th Century, it was the 
French century. In the 19th Century it was the British century, 
you know, the sun never set on the British empire, if you will. 
And the 20th Century was the American century. And he made the 
comment that he was concerned that the 21st Century could be 
the Chinese century.
    And I think what troubles me, I get that this institution 
doesn't seem very troubled by it, and the previous 
administration didn't seem very troubled by it and this 
Administration doesn't seem very troubled by it do they? They 
just don't seem to care.
    But if you look at China and their values; the Chinese 
government. I mean the persecution of the Catholic church. I 
used to say there were 34 Catholic bishops in jail, I can't say 
that anymore because some of them were so old they have died. 
But everyone that was in jail was still in jail, the ones that 
are out of jail now have died. Nobody says anything, nobody 
seems to care. That is a value that is not good for the 
country.
    Protestant pastors are being rounded up, thrown in prison. 
That is bad, that is a value. A government can round up 
somebody purely preaching the gospel. That is not good.
    What they have done to Tibet. I went to Tibet ten years 
ago, I went with a young Buddhist monk, we went in the 
monasteries. They have tortured the mild mannered Tibetans. 
Nobody cares.
    This Administration, the President won't even meet with the 
Dalai Lama the first time he came. They are persecuting the 
Muslims, the Uighur. The Uighur are going through a very 
difficult time. They are spying against us. These are cyber 
attacks. I am sure you have had Chinese cyber attacks against 
you. They have had cyber attacks against this Congress and they 
don't really do anything about it.
    And so the values--and if you want to take it down to the 
raw what it means for real people, the number one supporter, 
the government is China, the genocide in Darfur is Chinese 
generated. Chinese generated. They sell the bombers, the 
Kalashnikov's, the Soviet helicopters.
    So the world will be a different world from a values point. 
And so while the Chinese people are wonderful, when they come 
here they come through my office, I don't worry about the 
Chinese people, but I worry about the Chinese government.
    Dr. Bement. Yeah.
    Mr. Wolf. And since the Bush Administration and this 
Administration, China has the worst human rights record than it 
did ten years ago.
    And we see Google. Very few people want to come to the 
defense of Google. You know I admire the leadership of Google 
that is willing to speak out.
    So the world will be different with China with those values 
because then they can use it for bad, for evil, for bad things. 
And so it worries me deeply.
    Dr. Bement. Well, I don't believe very much at all of what 
Lenin said, but he did say one thing that I think applies to 
this situation. His statement was ``quantity has a quality of 
its own'', and that is what we are facing is quantity.

                  EXAMPLES OF EFFECTIVE STEM EDUCATION

    Mr. Wolf. The question I wanted to ask you. We put language 
in asking NSF to convene a panel. We had originally-- we were 
going to put in Norm Augustine's name, but we didn't, we didn't 
do that. I was a little disappointed that we got a response 
back from your people saying we have identified the National 
Research Council Board because we wanted some best practices, 
and with all the funding they get we believe that you know 
understand best practices.
    The response we got back said that you are going to 
contract it out, the report will require nine months to 
complete from the time the award is made, from the time the 
award is made. The language called for 180 days. So if you can 
use your bill signing ceremony pen just to tell whoever is 
responsible we would like to see this kind of pushed up much 
faster. The bill passed in what, November?
    Dr. Bement. Yes.
    Mr. Wolf. So you have had December, January, February, 
March, and now we are almost at April. So if you can expedite 
it and try to get something out quickly, I don't think it is a 
major B1 Bomber contract, it is something to get the very best 
information that is around that and kind of pull it together so 
we can get something. Ideally I would like to see you have 
something by the beginning of the school year. I think we 
missed this upcoming school year, so that superintendents 
around the country and other curriculum people can see what 
works.
    Because you would agree, I assume, that if you lost a young 
student by 6th grade, the likelihood of getting them back 
interested in math and science and physics and chemistry is 
very small; if not impossible. But if we capture them in those 
early, early years the better opportunity they will have. 
Because this shows that we are falling behind in that area too.
    Dr. Bement. I will look into a dual track on this. I think 
the approach with the National Research Council is a more 
deliberate approach, but it may be that we do a shorter term 
approach in parallel. I am going to try and satisfy that.
    Mr. Mollohan. Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman, and welcome, Dr. 
Bement.
    Dr. Bement. Thank you.

       INTEGRATING STEM RESEARCH AND EDUCATION ACROSS GOVERNMENT

    Mr. Honda. I read the testimony with a lot of interest, and 
permeated throughout the testimony was a discussion around how 
we can improve our research and development, the information, 
and the knowledge that we have gathered through grant funded 
research in the area of STEM, and also the discussion about 
innovation and teaching innovation and inventiveness, and all 
these things that I think came out in the report that the 
National Science Board had put out in 2006.
    And in 2007 I introduced a bill. Right now it is H.R. 2710, 
but at that time in 2007 when we put out a bill it was H.R. 
6104. H.R. 6104 had laid out basically what the report had 
asked us to do.
    And the other thing that we noticed is that based upon the 
report it appeared that there were a lot of silos that were not 
talking to each other in terms of STEM research. Agencies, 
different agencies had done STEM research. I think the number 
was--we spent close to $2 billion with 12 agencies and none of 
the information was being shared with each other where there 
could be a repository of information and conclusions that could 
be shared with the education field and other fields. And we 
shared the Board's concern through that report.
    And it appears that again we are rehashing what was said in 
2006, we tried in 2007, and again we tried to do it this year 
under H.R. 2710. We did H.R. 2710 because part of our original 
bill is taken up by the Science and Technology Committee, so we 
have taken the rest of it.
    Our interest in E-STEM, enhancing STEM education was also--
we were also saying that in the Department of Education there 
should be an office that would be headed by an assistant deputy 
secretary of education, that you also had a National Science 
and Technology Council, that within that there should be a full 
committee that deals with STEM. None of those things have 
happened, but it sounds like this is what you are suggesting in 
terms of just out of administrative fiat.
    Given that and for sustainability and also assuring this 
scientific innovative ecosystem, I think you called it 
ecosystem, would it not be beneficial to put this into statute 
rather than just have an existing one in the Administration and 
then not having it sustained throughout the time?
    Dr. Bement. Well, Mr. Honda, the current activity in the 
current Administration is to take up this issue based on the 
American Competitiveness Council activity in the previous 
administration where they identified all the various programs 
across the government and to develop a government-wide strategy 
for STEM education. So I think it is totally faithful with what 
you are trying to accomplish with the bill.
    There is within the National Science and Technology Council 
a subcommittee on education which is co-chaired.

   FIRM DIRECTIVE FOR INTEGRATING STEM RESEARCH AND EDUCATION ACROSS 
                                SOCIETY

    Mr. Honda. Right, I understand that, now I am suggesting it 
goes up to level of committee.
    Dr. Bement. Well that is up to the director of OSTP.
    Mr. Honda. Well would it have more stature and more impact 
if you had a committee rather than a subcommittee?
    Dr. Bement. I am not sure it would be anymore effective. 
You know, they have got a full platter of work at the present 
time, and I think they have plenty of support. I am not sure 
what the next step would amount to.
    Mr. Honda. Well not to be argumentative, they may have a 
lot of things on their plate, but if all this discussion about 
integrating the research and the development into various parts 
of our societies and various parts of our activities in terms 
of instruction, pre-K to postgraduate, if that is not part of 
the daily discussion, how you doing, how is it going, it will 
never get done.
    But you know, upon reflection everybody will say that was a 
good idea, how come we didn't do it? And we are at that point 
again in 2011, this would be a good idea, now we are getting 
started, we lost five years. And so putting in a statute where 
you have an expectation rather than just only, you know, having 
an expectation to statute at least we can have some guidance 
and create some benchmarks.
    If there were a bill out there like that would that be 
something that you could sign onto?
    Dr. Bement. Well, I think what I would like to suggest is 
that we have people within the Foundation work with your staff 
to at least inform you what the current pace is and what the 
current activity and schedules are so you have a general idea.
    Mr. Honda. We have done that, and we would love to do it 
again. But in terms of----
    Dr. Bement. But I think what is going on now will have an 
impact on the next budget cycle, the 2012 budget.
    Mr. Honda. I am sure it will, but I am looking for 
sustainability. Part of terminology we use in the green 
vernacular is sustainability, and if we are looking for E-STEM 
to be imparting enhanced STEM into everything.
    The other thing you mention in your report, your testimony, 
you are suggesting that there should be an integrated approach 
to other areas, because it does have impact, but there is 
nothing there----
    Dr. Bement. Yes, I fully agree with that.
    Mr. Honda. But there is nothing that says thou shalt. There 
should be some sort of directive or a very stronger statement 
in that, because we could produce engineers.
    My son is an aerospace engineer, and he admits that he is 
not well rounded, he is kind of lopsided and he can do some of 
the other stuff, and all this stuff should be embedded in all 
the other activities it seems to me so that we have a citizenry 
that at least has the baseline and not be not be, misled by 
misinformation to the media that, there is no such thing as 
global warming. At least have an argument with yourself that 
is, critical and based on some facts.
    And I think that is one of the downfalls of our country. We 
only see one side, and our side is always right whether it is 
empires or----
    Dr. Bement. Well, I don't think you could find a better 
champion for STEM education than the President.
    Mr. Honda. I am not arguing that.
    Dr. Bement. He is going on record--gone on record many 
times pushing STEM education.
    Mr. Honda. Dr. Bement, I am not arguing that point. I am 
just asking would it not be sustainable if we had this embedded 
in some statute that reflects the President and your--and this 
report's sense of direction and importance?
    Dr. Bement. Well, I guess I could only say I am not 
inimical to it, I just don't--I just can't speak for the 
Administration on that issue.
    Mr. Honda. Well as an educator it seems to me the public 
policy and the kinds of things you are talking about that we 
should be able to do this.
    I asked Dr. Augustine the question, can innovation be 
taught? And he said, well it is very difficult, because it is 
in the character of each person. And now we are talking about 
being able to teach inventiveness and innovation if we did it 
right, and we put something together for NSF to look at that 
for funding, and hopefully we can revisit that, because as an 
instructor I think we can do that. All you have to do is look 
at the walls of a lot of these companies where they have their 
engineers and scientists with their patents up there, the ones 
with peaks are the ones you want to study I guess.
    But I just wanted to lay that out just so we can have a 
future discussion with our staffs with your staff.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman, and thank you for 
joining us today.
    I want to take you to one of my favorite recurring 
subjects, and that is the observatory in Arecibo, Puerto Rico.
    Dr. Bement. Yes.

           NATIONAL ASTRONOMY AND IONOSPHERE CENTER (ARECIBO)

    Mr. Serrano. And I want to first of all, as you know the 
plan seems to be to continue to reduce its funding, while they 
seem to be to want to close it down in the process, and 
continue to reduce its funding, yet I seem to find in my way of 
looking at things a contradiction between people who make 
budget decisions and the scientific community.
    There seems to be more and more statements coming forward 
every so often telling us that there is a need for the work 
done at the observatory.
    Now needless to say in the territory of Puerto Rico this 
has caused great alarm for many reasons. For the importance 
they feel it has in the scientific community, the importance it 
has to the commonwealth of Puerto Rico, you know, in so many 
ways and we just finished that debate this week, that the 
territories get treated differently. In this case having placed 
the observatory there was quite a boost years ago to the 
relationship between the United States and Puerto Rico. There 
is an issue of jobs obviously and of tourism where folks go to 
see it because they know it is advertised as having been in a 
couple of movies. James Bond has a lot of fans throughout the 
world and people want to see this observatory.
    But any way, first of all, is there a contradiction or is 
there at least a difference of opinion between folks who want 
to reduce the budget and eventually close it down and people in 
the scientific community that say there is an importance and a 
need for the observatory?
    Dr. Bement. Well let me state my position. First of all, I 
have never taken a position of closing it down. The senior 
review that looked at all the telescopes and all the assets in 
astronomy made the statement that it continued to do valuable 
research, and I believe that.
    The problem is that it has gotten beyond the capacity or 
the capability of the Foundation to be the sole supporter of 
the telescope, so we have been looking for partners. One 
partner would be NASA, for example. They have the mission of 
tracking low earth objects such as asteroids and so forth. 
Arecibo is the ideal instrument for doing that, and it does do 
so at the present time.
    The opportunities in astronomy are still so great in terms 
of getting back closer to the Big Bang and understanding how 
the universe began and all the aspects of evolution of the 
universe. It is still a very compelling topic. So there is 
always a need to build new telescopes. And we have at the 
present time substantial investment not only in ALMA, but also 
a new solar telescope that we wish to build in Hawaii. All 
those put pressure on the operation and maintenance expenses of 
our existing telescopes.
    Now Puerto Rico has done quite a lot and they have 
increased investment in Arecibo. So you know the intent is not 
to just keep drawing down the budget to zero. The point is to 
find how we can continue to operate Arecibo, but not at its 
full capability. Other people are going to have to come in and 
help.
    Mr. Serrano. But there is a recommendation for yet another 
decrease I believe of $1.6 million less than last year.
    Dr. Bement. Yes.
    Mr. Serrano. So there is that intent, and my question to 
you is how successful are we in getting NASA or others to share 
funding?
    Also the projections were made on flat funding for the 
Foundation. Well that has not been the case in the last couple 
of years, nor do I think it will be the case in future years.
    So you see here is the problem. As I tell many people in a 
very serious way and half joking for some folks, I represent 
two districts. I represent the Bronx and I represent the place 
where I was born, Puerto Rico. And you wonder how much of this 
has to do with the relationship with the United States. The 
territories are always last. I mean, I don't want to drag you 
into another discussion, but you should have seen what we went 
through in the health care bill just to get the territories 
something.
    Dr. Bement. Yes.
    Mr. Serrano. And it wasn't enough that you were talking 
about American citizens. The fact that they don't have two 
senators, and you know, in Puerto Rico's case seven members of 
Congress makes a big difference.
    So it will always, unless we make a special effort to save 
it and to keep it open, Arecibo will disappear because it is 
not a priority.
    In fact when you are telling me you are building a new one 
in Hawaii I am all for that, but it doesn't hurt to have a 
president in the White House--I was born in Hawaii, so I 
suspect that one will do very well.
    Dr. Bement. Well that was planned well before the election.
    Mr. Serrano. I understand. It just coincides this way, you 
know. Just like it coincides on my watch.
    Mr. Bement. Let me clarify one of your issues. I simply 
needed to bring on additional partners.
    Mr. Serrano. Right.

   LONG-TERM FUNDING OF THE NATIONAL ASTRONOMY AND IONSPHERE CENTER 
                               (ARECIBO)

    Dr. Bement. We are also looking within the Foundation for 
additional partners. For example, one of the capabilities at 
Arecibo is they're working on atmospheric and geospace 
sciences, and I have been there and I have seen the facility 
and they do have a good staff and they do make a major 
contribution.
    So we have got in our Atmospheric and Geospace Sciences 
Division and they are--in the fiscal year 2010 budget they put 
in $2.2 million which brought the total up to $10.6 million, 
and as compared with the 2009 budget of $9.6 so that was an 
addition of a million over all.
    Now the 2011 request it goes back down again, but it is 
hovering at around $9 to $10 million a year. I don't see that 
that is inconsistent with my statement that we are trying to 
maintain.
    But I would be more than happy to have another federal 
agency come in and become a co-supporter of that facility so 
that it would have a much more robust program.
    Mr. Serrano. All right. Let me just make two quick points 
here, I don't want to take too much time on this, and at the 
same time ask you a question.
    The original report did recommend closure after 2011 if 
significant non-federal sources of funding are not found.
    Dr. Bement. That was made by a senior review panel that did 
not include officials of the Foundation. I told you my 
position.
    Mr. Serrano. So officials of the Foundation you are saying 
for the record are looking for a comfortable level of funding 
that you can afford, but not intending to close it down?
    Dr. Bement. That is my position.
    Mr. Serrano. Okay. And is that position shared by others 
who may be around after you are not there?
    Dr. Bement. Well that position was taken in fiscal 2007.
    Mr. Serrano. Right.
    Dr. Bement. It hasn't changed in three budget cycles, I 
hope it won't change in the future.
    Mr. Serrano. Okay. And lastly, I just want to for the 
record, Mr. Chairman, remind folks that this past January the 
National Research Council released a report on near earth 
asteroids, that is asteroids that have the potential to hit 
earth, entitled, Defending Planet Earth Near Earth Object 
Surveys and Hazard Mitigation Strategies. The report outlined 
the importance of Arecibo, and it says, quote, ``Immediate 
action be taken to ensure the continued operation of the 
Arecibo observatory at a level sufficient to staff and maintain 
the facility and that it should be supported.'' The report in 
fairness says NASA and NSF.
    Dr. Bement. That is exactly the point I was making earlier. 
This is a NASA mission too.
    Mr. Serrano. And the point I am trying to make is which you 
agree with, that there are folks involved today in scientific 
research who claim that Arecibo is necessary.
    Dr. Bement. And I agree with that.
    Mr. Serrano. All right. Okay, thank you, Mr. Chairman.

                        INQUIRY-BASED EDUCATION

    Mr. Mollohan. As I noted, Dr. Bement, in my opening 
statement, this Subcommittee held a couple of hearings last 
month focusing on STEM education.
    From the testimony it is clear that the effectiveness of 
the inquiry-based education in STEM education is needed at all 
levels, but implementation is woefully lacking.
    How many and what percentage of colleges and universities 
receiving NSF funding offer courses that are inquiry-based 
other than undergraduate research opportunities and graduate 
thesis preparation?
    Dr. Bement. Our information is that in almost all the 
universities that we support there are faculty that effectively 
use inquiry-based education or promote inquiry-based education. 
As a matter of fact, many of investigators under Broader 
Impacts make a significant contribution to inquiry-based 
education through the type of research that they are doing. But 
that is the good news.
    The bad news is it is not being used enough, especially in 
undergraduate education. It is being underutilized. We would 
like to see a much broader application of inquiry-based 
education and we continue to press for that.
    We feel that first of all the evidence is compelling that 
it not only contributes to understanding concepts, improving 
problem solving, but it also aids retention, recruitment, and 
also graduation success, because students have become more 
interested in the subject if they have an opportunity to either 
carry on some type of project work or some type of research as 
part of the learning experience.
    Even computational application, use of computers, computer 
modeling is a good application of inquiry-based learning, and 
they get a chance to deal with more complex problems than they 
might otherwise do.
    That is the reason why we are stressing the Cyberlearning 
Transforming Education initiative, the CTE initiative, to bring 
on more cyber technology into the classroom for inquiry-based 
education.
    That is pretty much the situation as it currently extends. 
We have made progress, but we have a long way to go.
    Mr. Mollohan. At NSF you primarily fund colleges and 
universities. How can you increase the use of inquiry in the 
teaching of science in our schools?
    Dr. Bement. We can build it into our solicitations, and we 
do in many respects. A lot of our programs focus on inquiry-
based education, so those are some of the things that we can 
do.
    Mr. Mollohan. To what extent are you doing that?
    Dr. Bement. Well, I will ask Dr. Mundy to answer that 
question. This is Joan Ferrini-Mundy who is the Acting 
Assistant Director for EHR.
    Mr. Mollohan. Well we should have another chair up there if 
you want to do that. That was very clever. It is not June yet.
    Dr. Ferrini-Mundy. So the question is what are we doing 
now? There are lots of strategies for improving the use of 
inquiry methods for improving in general teaching of science 
that leads to conceptual understanding and that leads to 
ability to solve complex problems. And so we have various 
programs that address this.
    One is to try to get the faculty themselves to become aware 
of these methods, to understand them, to try them out in their 
teaching, and we do that through our Transforming Undergraduate 
Education in STEM program.
    Another is to continue the research about these methods so 
that we have evidence about their effectiveness, because that 
helps in their dissemination too. We have other programs that 
do that.
    Helping K through 12 practitioners come into contact with 
undergraduate faculty is another way to try to spread the word, 
and we do that through our GK-12 Program as well as our Math 
and Science Partnership Program.
    And then finally we invest in the STEM faculty of tomorrow, 
during their own graduate preparation, in helping them to 
understand these methods.
    So we work on multiple strategies and continue to promote 
the ideas through several programs.
    Mr. Mollohan. And that is through grant funding?
    Dr. Ferrini-Mundy. Yes.
    Mr. Mollohan. And give me an example of a college, 
university, where that is happening.
    Dr. Ferrini-Mundy. So the University of Colorado Boulder is 
a place that has a whole program on using undergraduate 
learning assists in the teaching of physics, I believe, and so 
the physics faculty who are also involved in that teaching are 
working together with undergraduate students to try to improve 
opportunities for physics learning in the classroom. You have a 
mix of undergraduates, folks from the School of Education who 
are doing some evaluation and research about the project, and 
faculty in the sciences coming together to try to improve the 
opportunities to really understand physics as opposed to 
learning physics in a rote kind of way.
    Mr. Mollohan. And that is at what level? That is at the 
college level?
    Dr. Ferrini-Mundy. Undergraduate level.
    Mr. Mollohan. Undergraduate level.
    Dr. Ferrini-Mundy. Right.

           INQUIRY-BASED EDUCATION IN K THROUGH 12 CLASSROOMS

    Mr. Mollohan. Okay. And so how does that lay a foundation 
for migrating inquiry into K through 12?
    Dr. Ferrini-Mundy. Sure. First of all you have the faculty 
in physics and in the science departments who are those folks 
who actually teach the future teachers their subject matter 
contents and so they are getting the chance to see this used 
and then to try to bring it into their own teaching. And then 
hopefully some of these undergraduate learning assistants 
ultimately might consider becoming K through 12 teachers.
    Mr. Mollohan. When you say hopefully, what does that mean? 
Is that what you do once that program is done, then you are 
hoping something happens after that?
    Dr. Ferrini-Mundy. No, we actually follow--all of our 
programs have very strong evaluations components, and so we are 
very interested in particular kinds of outcomes, and a program 
like that the main outcome is I suspect about the undergraduate 
students learning of physics. But our programs for teacher 
preparation are looking at the impacts of our teachers on the 
instruction in K through 12 classrooms.
    Mr. Mollohan. Do your goals go to migrating this or 
inserting it into the K through 12 undergraduate programs that 
are inquiry-based?
    Dr. Ferrini-Mundy. Oh, absolutely.
    Mr. Mollohan. What initiatives do you have to help 
facilitate that?
    Dr. Ferrini-Mundy. One of our major programs is the Math 
and Science Partnership Program which involves STEM 
undergraduate faculty, as well as K through 12 teachers and 
leaders, as well as education faculty at universities and 
colleges, and so by using those combinations of leaders you get 
the opportunity to really put ideas together that make their 
way into teacher education programs.
    Mr. Mollohan. How do they make their way into teacher 
education programs?
    Dr. Ferrini-Mundy. Well the people who are working in say 
an MSP project may have as a partial goal for their work to do 
some reform of their undergraduate STEM teacher preparation, 
they might make new courses or create new opportunities for 
internships in schools or opportunities for connections to 
industry.
    Mr. Mollohan. It doesn't sound very certain, it doesn't 
sound like it is a piece of that actual strategy forcing a 
prototype experience that was tested out. And is that 
occurring, and if so would it be useful, and if not would it be 
useful?
    Dr. Ferrini-Mundy. All of our programs have a very strong 
research and development focus, so we ask our PI's to come with 
a really clear hypothesis about what they are trying to change 
and why they are--why they believe it is going to make a 
difference based on the literature, based on best practice and 
so forth. They implement those ideas and they study them.
    The idea is to produce models, which as Dr. Bement has 
mentioned, then might be scalable by other organizations by 
connections to the Department of Education.
    So that is the major focus of much of our work, to try out, 
test, refine, and improve models that then are published, are 
discussed, are circulated, and are disseminated.
    Mr. Mollohan. Okay. What I am hearing is that, you know, 
you are doing education inquiry-based incentivising--
incentivising inquiry-based as you are instructing at the 
undergraduate level research, at the graduate level, that there 
is--this may go down into the K through 12 where you have 
some----
    Dr. Ferrini-Mundy. Well some of our programs are K through 
12 focused, and so we do a lot--let us say----
    Mr. Mollohan. Who are the grantees? I am sorry.
    Dr. Ferrini-Mundy. The grantees are universities working in 
partnership sometimes with school districts or with non-
profits.
    Mr. Mollohan. Where is that happening?
    Dr. Ferrini-Mundy. That is the Math and Science Partnership 
Program.
    Mr. Mollohan. But where, give me an example?
    Dr. Ferrini-Mundy. Across the country.
    Mr. Mollohan. Colorado? Is the University of Colorado doing 
this?
    Dr. Ferrini-Mundy. I don't know for sure if there is an MSP 
in Colorado, but the University of Georgia has one.

        EXAMPLES OF INDUSTRY-BASED EDUCATION IN K TO 12 SETTINGS

    Mr. Mollohan. Would you identify yourself?
    Dr. Seidel. Yes, I am Acting Assistant Director for Math 
and Physical Sciences, but I have examples of exactly what Joan 
is talking about as a PI at Louisiana State University. I had 
NSF funding at a center there, before I came to NSF, where we 
worked, for example with local school districts and had 
workshops in the summer where we would have teachers and their 
students from local high schools, in fact across the state, 
learning how to build a super computer out of PCs--how to build 
a Beowulf cluster. And the great thing about that is the kids 
get very excited because they understand PCs and they can build 
something that becomes a super computer. And their the teachers 
also get very excited about it and learn how to do this and 
then they can begin to incorporate this into the class.
    When the kids built the computers they brought them back 
into the classrooms and we donated them to the schools, and 
then they maintained these small super computers.
    Another example is funding from an ESPSCoR program where we 
involved students using Sony Play Stations, what they use for 
gaming, but actually they are small super computers themselves. 
And so we taught them to run things like storm search 
calculations on them, which is something understood by many 
kids in Louisiana because of the hurricane phenomenon that come 
all the time. And so they understand how these are actually 
super computers.
    And then we have had letters from parents saying their 
children have been turned around and they are very interested 
now in going onto college when they might not have before.
    Mr. Mollohan. Do you think this kind of education ought to 
be--inquiry-based education ought to be ubiquitous in STEM 
education across the country?
    Dr. Seidel. I think there are all kinds of evidence that 
inquiry-based experiential learning, hands-on kinds of 
experiences, and concept-based learning, that kind of activity 
can be driving what goes on in schools across the country.
    Mr. Mollohan. Okay.
    Dr. Seidel. That is a yes.

        FULL-SCALE IMPLEMENTATION OF INQUIRY-BASED EDUCATION IN 
                                K TO 12

    Mr. Mollohan. Thank you for your testimony.
    So if members of Congress who have year after year heard 
that kind of exciting testimony about these methods that if 
they were employed they would improve whatever standard test 
you judge that, and you understand that, and that if it were 
employed throughout the country would change the testimony 
before us from that of woe is me, we are falling behind to we 
are really getting it and we are implementing the policies and 
techniques and strategies in the school system integrated from 
K up. We are hearing that, but it is the same woe is me 
testimony the next year, so that that integration has never 
happened.
    And so would you think it reasonable for members after 
hearing that to wonder why this is not integrated from the 
highest levels of NSF through education down through 
kindergarten?
    Dr. Ferrini-Mundy. Absolutely a reasonable question.
    If you think about the whole K through 12 system the main 
drivers are the teachers themselves, what they know, how 
equipped they are to teach with this kind of material, to teach 
in this style, and the materials themselves. So the learning 
tools, the resources are important. NSF invests of course in 
both areas.
    But not to be overlooked piece is the assessments that are 
used. It is hard to measure some of this.
    Mr. Mollohan. Yes but see--let me--just forgive me.
    Dr. Ferrini-Mundy. Sure.
    Mr. Mollohan. And explain to me why that is an answer to my 
question.
    What I am trying to get at is I think I could do a fairly 
superficial job of answering a lot of these questions having 
asked them a lot and heard them answered, and I said 
superficial, but the question that doesn't get answered is the 
question I tried to ask just a second ago.
    By what method and does NSF have a role in introducing 
these techniques not sort of as an experiment, but as an 
accepted method to be embraced by the educational communities 
across the country, how does that happen?
    Dr. Ferrini-Mundy. Okay. I think I would go back to what 
Dr. Bement said about what he heard from the teachers. Dr. 
Bement is going to comment too.
    One way is by the creation of the funding of materials that 
use these methods that are well tested and have strong evidence 
behind them so that teachers can then pick them up and use 
them.
    Mr. Mollohan. And that is a piece of it.
    Dr. Ferrini-Mundy. That is a piece of it.
    Mr. Mollohan. Materials is a piece of it.
    Dr. Ferrini-Mundy. Teacher preparation and education is a 
piece of it.
    Mr. Mollohan. Teacher preparation, teacher support.
    Dr. Ferrini-Mundy. Yes.
    Mr. Mollohan. Superintendent involvement and acceptance.
    Dr. Ferrini-Mundy. School-based support.
    Mr. Mollohan. State board of education----
    Dr. Ferrini-Mundy. Yes.
    Mr. Mollohan [continuing]. Support and implementation----
    Dr. Ferrini-Mundy. Absolutely.
    Mr. Mollohan [continuing]. And direction perhaps.
    Dr. Ferrini-Mundy. And assessment again, if the tests don't 
measure----
    Mr. Mollohan. Okay. Assessments to do it. Integration, 
teacher retraining at the colleges. The undergraduate being 
taught inquiry. And you have all these pieces. And are there 
prototypes to tie all that together in different rural, urban, 
southern urban, northern urban, western urban environments to 
see how you can actually integrate that throughout the system?
    Dr. Ferrini-Mundy. So again, this notion of a systemic 
approach seems right where you tie together----
    Mr. Mollohan. I mean would it be NSF's role to run a 
solicitation to invite different educational systems to be a 
part of a comprehensive testing out of how you integrate all 
that, and prove out whether this STEM education works? And the 
only way you could do it would be if you did it in an 
integrated sort of way up and down wouldn't it? Would that be 
an appropriate role for NSF?
    Dr. Ferrini-Mundy. We have had different approaches to 
that----
    Mr. Mollohan. Or have you done it.
    Dr. Ferrini-Mundy [continuing]. Over the years, and we have 
done it. And I think what we have learned is that it does take 
all of that integration, but it is costly, because you have to 
have a lot of partners on board all headed in the same 
direction and you have to have the policies headed in the same 
direction, but there have been existence proofs. Our Math and 
Science--Partnership Program continues those ideas.
    And so we are all for these kinds of integrations across 
all these different parts of the educational system. But to 
make deep change does take time and does take a lot of 
collaboration.
    Mr. Mollohan. But is that exercise at this point in time 
appropriate or are you beyond that? You didn't hear my 
question, you were talking to somebody else weren't you? Or is 
it useful at this time or are we beyond that?
    Dr. Bement. Let me butt in, because we have been very hard 
at work at this, especially in bioscience.
    There has been an effort through the last three or four 
years of the whole community, and in many cases you have got to 
get community buy in, so this is an approach that involved the 
community at large. It is now being rolled out. There is a 
joint program between EHR and the Bioscience Directorate to 
carry this into implementation. It is primarily focused on 
undergraduate education in bioscience, but it will also impact 
K to 12. And if you wish I will develop a report for the record 
to tell you more about it.
    [The information follows:]

    Over the past year, the American Association for the Advancement of 
Science, with support from the National Science Foundation Directorate 
for Education and Human Resources and Directorate for Biological 
Sciences, held a series of conversations with faculty, administrators, 
students, and other stakeholders on the future of undergraduate biology 
education. The website below outlines the work of this collaboration: 
the issues, discussions, presentations, and other activities. A summary 
of recommendations may be found in the report titled Vision and 
Change--A Call to Action.
    The report may be found here: www.visionandchange.org/
VC_report.pdf.

    Mr. Mollohan. Okay, and I would like you to come up and 
talk about it, just chat about it.
    Dr. Ferrini-Mundy. Could I add one more thing?
    Mr. Mollohan. If you are not doing anything that day you 
could come too.

 COLLABORATION WITH DEPARTMENT OF EDUCATION IN INQUIRY-BASED EDUCATION

    Dr. Ferrini-Mundy. Okay, thank you.
    We are in very strong and good collaboration with the 
Department of Education, and so some of what you are talking 
about, this kind of systemic approach to how to roll things out 
in ways that get picked up widely are exactly the topics of our 
conversations with Michael Lach and others at the department.
    That is to say we have even been working on, you know, what 
is well known about math professional development and how do we 
immediately then communicate with states with--chief state 
school officers and with other parts of the enterprise to get 
these ideas out so that some of the NSF investments get picked 
up?
    So a way we have tried to work on it recently has been 
through this kind of leveraging of intellectual resources with 
other agencies that have wider reach where we have been able to 
build and understand in deep ways the models that can work and 
then to take them out broadly.

           FUNDING FOR INITIATIVES IN INQUIRY-BASED EDUCATION

    Mr. Mollohan. Well this is the 2011 budget hearing for NSF, 
and irrespective of conversations with OMB, and not to get into 
any pre-decisional secrets here, this would be your opportunity 
to say gee, if I had my druthers I would like to see something 
in this area in the 2011 budget request for NSF. Can she answer 
that, Dr. Bement? Please?
    Dr. Bement. That is sort of the answer that comes from the 
initial lead in. If you had additional money in your budget 
what would you spend it on?
    Mr. Mollohan. Well no, honestly it is--you know, if we 
wanted to do something in this area we would like to know, and 
have your advice, what would it be? Forget about your budget 
request. If we wanted to do something in this area, a direction 
from this Committee, what would your advice be to what we would 
do? That is a totally appropriate question, I would hope you 
would answer it.
    Dr. Bement. I think what you would do is you would move 
directly to be sure that those programs are well supported.
    Part of what we do in order to bring about systemic change 
is to do innovative institutional integration, and that is 
taking various programs and integrating them in order to 
achieve purposes like this, and there is a budget line for that 
in our budget. And one of the objectives of that program is to 
also boost inquiry-based learning.
    So now that we know the level of interest that you have, 
there are things that we can do with our existing budget and 
with our existing programs in order to intensify attention to 
your interest.
    Mr. Mollohan. Well it is not my interest, I don't want to 
be, you know, I don't have the knowledge base that you have and 
wouldn't pretend to be an expert.
    Dr. Bement. But you know based on our testimony that we 
agree with you fully, so you know, we are not in opposition, we 
are not talking cross purposes, we fully agree with one 
another.
    Mr. Mollohan. Well we look forward to working on this as we 
move our budget forward, and thank you, Doctor, thank you so 
much.
    Mr. Wolf.
    Mr. Wolf. Thank you, Mr. Chairman.

       COOPERATIVE RELATIONSHIP BETWEEN NSF AND SCHOOL DISTRICTS

    Following up on one of the Chairman's line of questioning. 
Has there ever been the opportunity for the NSF to develop a 
cooperative relationship with the school district whereby you 
literally, not take over the school district, but you 
literally--they were willing to turn this over to the NSF, 
perhaps one in a rural district one in an urban district 
whereby NSF would run the program?
    Dr. Bement. Not within the limitations of the Constitution.
    Mr. Wolf. No, where they would ask you. School districts 
would be very open. I mean you mentioned Chicago. You know, if 
you have a failing school district they may be very open. I am 
not talking about the federal government taking over, I don't 
believe that. What I meant is that whereby they would say our 
math and science scores are not very good, et cetera, et 
cetera.
    Dr. Bement. Well, I don't know of a single example of that.
    Mr. Wolf. Would you be interested in something like that?
    Dr. Bement. I don't think so. I don't think we are in the 
education business per se, I think we are in the education 
research business, and the investment that we make can have an 
impact on schools broadly rather than just a single school.
    Mr. Wolf. Well, I know that, but the reason we put the 
language in last year was to get you to give us something that 
would be best practices that every other school district could 
use. We don't have that from you now, and if you had a 
situation where you went into a particular urban, suburban, 
rural, whatever and did something it would be an----
    Dr. Bement. Well, we do have pieces of it, Mr. Wolf. We are 
on the website of the Institute of Education Sciences on best 
practices. Some of these best practices are on their website. 
In fact a good fraction of the best practices on their websites 
are based on NSF programs.
    Mr. Wolf. Okay.
    Dr. Bement. And we can give you that information for the 
record.
    [The information follows:]

    The What Works Clearinghouse, Institute of Education Sciences, U.S. 
Department of Education provides a list of nine topic areas under which 
reviews of research on important issues in education can be accessed. 
NSF-funded activities can be found under two of these topic areas:
    <bullet> Elementary School Math--of the nine interventions 
reviewed, two have received NSF support.
    <bullet> Middle School Math--of the fourteen interventions 
reviewed, five have received NSF support.
    The web link to the topical index is www.ies.ed.gov/ncee/wwc/
reports.

               NSF'S ROLE IN IMPROVING SCIENCE EDUCATION

    Mr. Wolf. This year and the last the Committee heard 
testimony from experts advocating a more prominent leadership 
role from the NSF in a national effort to improve science 
education. Your education budget continues to grow, but at a 
lower rate than your research program.
    How do you see NSF's role as distinct with that of the 
Department of Education, and do you feel that roles and 
responsibilities in funding are properly aligned?
    Dr. Bement. Well, I can say categorically that I believe 
that our programs are effective, I think they are making an 
impact on improving math and science proficiency. I feel that 
it is in the interest of the Nation that we continue that role, 
and we are working very hard to find ways of leveraging our 
resources to do it better.
    Mr. Wolf. But have not the scores continued to drop in 
comparison to other countries?
    Dr. Bement. No. Well the latest international data 
indicates that in 4th and 8th grades math proficiency scores 
have increased significantly.
    Mr. Wolf. What about in high school?
    Dr. Bement. I am sorry?
    Mr. Wolf. How about in high school?

             STATE OF K TO 12 SCIENCE EDUCATION IN THE NSF

    Dr. Bement. I think probably less clear in high school. The 
problem area is in science. Science has been pretty flat, it 
has not improved very much.
    I believe from what the teachers tell me they feel cheated 
sometimes in their education programs because they don't get 
very much exposure to science. Unless they are teaching in 
secondary schools they don't get focused preparation in 
science.
    Mr. Wolf. Cheated by their school district or cheated by 
the college?
    Dr. Bement. I am talking about the colleges. I am talking 
about the education programs.
    Mr. Wolf. The last study that we worked on said that the 
STEM money in 2007 was only 50 percent of the STEM money was 
used. Is that accurate?
    Dr. Bement. I don't know that.
    Mr. Wolf. Wouldn't that sort of fit in though if the 
teachers felt cheated that that would be the no cause and 
effect death?
    Dr. Bement. I think it is an issue that has to be taken 
seriously by schools of education across the board. Under No 
Child Left Behind science was not a measure. It wasn't a 
requirement. So in many cases teachers were not encouraged to 
put a lot of time and effort into science education, and I 
think that has to change. There has to be much more emphasis on 
science and it has to start early.
    Most children by the time they are eight to ten years old 
already have a world view, they already know pretty much what 
they want to be when they grow up. If you don't have an 
influence, if they don't have basic understanding of some 
science or at least the scientific method early they are going 
to have an education deficiency as they try to move up to 
higher grades.
    Mr. Wolf. Well, I think that was why we had asked you to do 
that study.
    There was a full page article in a journal a week ago 
Saturday I think by Chester Finn and he talked about in China 
for instance they go to school 41 more days than we do. He also 
commented on other countries that have Saturday classrooms, 
Saturday schools. He also commented on the number of hours in 
different countries.
    Does this also have a major impact as far as scores, and I 
don't want to use the word techniques, but something like that? 
Because if you take off as he said the full summer the school 
gets out on June 10th, doesn't go back till the day after Labor 
Day, the memory loss drops off.
    Dr. Bement. Well let me give you a case in point in South 
Korea where I just visited. The concern that the president of 
South Korea, Mr. Lee has, is that parents are putting too much 
emphasis and spending too much money on private tutoring for 
their children. The children have hardly any time of their own. 
They start school at 8 o'clock in the morning and they go 
sometimes till 10 o'clock at night, because when they finish 
the school room part of their learning then they go to a 
private tutor and they spend another two or three hours with a 
private tutor.
    That kind of learning will give you better proficiency 
scores on tests because the tests are pretty much what the 
students are being taught, but a lot of it is learning.
    A few years ago I came to realize that education 
administrators from Singapore were quite concerned because even 
though they were scoring high in math and science in Singapore, 
they were finding that their students once they got into higher 
education were not very creative or not very innovative, and 
they saw the United States as the country where education and 
creativity and innovation was the gold standard, and so they 
wanted to learn from us, and these are the exemplars when you 
look at just the scores of math and science proficiency. They 
wanted to learn from us how to teach creativity and innovation.
    Which gets me back to inquiry-based learning. It is in 
inquiry-based learning and activity-based learning that you 
teach creativity and innovation. That is our strong suit. That 
is what we ought to build on. So we are in complete agreement 
on that point. That is the strength of our education system. 
And unfortunately we are faced with a tyranny of averages as a 
Nation because we look at means.
    One has to recognize that we have the brilliance among our 
young people in this country that can go to an international 
math Olympics and come back with gold medals. They can go to a 
computer software Olympics and come back with gold medals. They 
can go for a robotics international competition and come back 
with gold medals. So the talent is here.
    Now the challenge is to make education and excellence in 
education more broadly available, that is where the challenge 
is.
    Mr. Mollohan. Is a part of that mining those high aptitude 
math and science students, those who have inclinations in this 
area, identifying them and concentrating on them?
    Dr. Bement. Well that is being done. Almost every state has 
their own academy or their own institute for bringing in the 
very bright students from around the state and putting them 
into a residence education program where they are taught by 
faculty that have master's and Ph.D. levels of education. I 
mean these are almost like mini universities for the most part.
    Mr. Mollohan. So the answer is yes, and I didn't want to 
take up any more of that time, but maybe I will follow up on 
it.
    Mr. Honda.

    IMPLEMENTING CREATIVITY AND INNOVATION IN OUR EDUCATIONAL SYSTEM

    Mr. Honda. Thank you, Mr. Chairman.
    The discussion is pretty interesting. Just to continue on 
this line of discussion where you are really promoting and 
being a champion for teaching innovation and creativity, and 
yet I don't see where you are going with it except to say that 
we got the information, but it is up to other people to do it.
    A question, and I don't want an answer right now, but the 
question is then how would you create a process from your point 
of view to operate with the other entities to have a systemic 
process where it will be embedded in our public school systems? 
That is one question.
    Then you talked about the tyranny of mediocrity I guess, 
and then you say but what we have samples----
    Dr. Bement. No, I didn't mean that, sir, I meant tyranny of 
averages. In other words we look at the averages and we believe 
in the averages. You don't see the variability around the mean.
    Mr. Honda. Okay. The tyranny of average then. And I am not 
quite sure what that tyranny is, maybe you can answer that in 
part of your answer, then how do you make excellence the 
predominant effort in our system to make it more available if 
the information you already hold that speaks to excellence is 
not shared or advocated by your group with the rest of the 
community in public education?
    Dr. Bement. Okay. We have clear examples. We have a program 
that is designed----
    Mr. Honda. No, I know we got programs.
    Dr. Bement. Well let me go on.
    Mr. Honda. No, no, I want you to answer the question. How 
do you see this becoming infused into our system then?
    Dr. Bement. And that is the question I am trying to answer.
    Mr. Honda. Okay. Because I will stop you if you say we have 
programs and yet you don't describe how that program works.
    Dr. Bement. Well they start with programs, but to get to 
your question, the math and science partnership is primarily 
designed to bring about systemic change and to improve 
performance in math and science education. And it goes back to 
my question of transitioning and also scalability.
    In other words, within a state--within your state, Chairman 
Mollohan, we have the Math and Science Partnership with West 
Virginia, Kentucky, Southern Ohio. That program has done 
magnificent work in improving math and science performance.
    Now the question, getting to your point, how do you scale 
that, how do you transition it? You have to work with the 
states. Because even though this is a national problem and a 
national issue, the responsibility for education is with the 
state and local areas, not with the federal government. So 
unless the state adopts these methods and infuses them in their 
school systems they are not going to be very effective.
    Mr. Honda. Okay. Mr. Chairman, if I just may insert myself 
again.
    This is based upon the Constitution that the Constitution 
says the states have a primary responsibility for education. 
Okay. The Constitution was written on September 17th, 1787, 
that was the first day of our federal government. They had no 
departments. And so they said it is going to be the 
responsibility of the states.
    We have developed to a point in 2011 where we could talk to 
each other in real-time as you have said, shrunk this world to 
a point where they could never have conceived it at the time 
they wrote the Constitution.
    Is it not time for us to take hold and understand that the 
span of time that has gone on that we jump to 2011 from the old 
Constitution and say in spite of that we have to find a way to 
become partners where what we know and understand should be and 
somehow convince the public, what we call the local entities, 
that this is the reason why, and if you can't understand that 
you complain about other countries, but you have to understand 
that they are not the enemy.
    Dr. Bement. Right.
    Mr. Honda. We are the enemy of our own selves.
    How do you readjust what it is that you know and understand 
in the context of what I just described and make it happen?
    Dr. Bement. Well, Mr. Honda, politics is the art of dealing 
with values, and what you are raising a question about is how 
do you deal with values in a contemporary society? That is a 
political activity that has to be determined as part of the 
national governance----
    Mr. Honda. Excuse me. Education and the expenditure of our 
funds for research and development and the knowledge that comes 
out of it becomes something that we have that we are supposed 
to be sharing. Is that not a right to have that shared with the 
rest of our country and rest of our children instead of hiding 
behind----
    Dr. Bement. Well, you know, your point is well taken, but 
you were asking how do we make it happen, and the only way I 
can respond to how to make it happen is through the political 
process.
    Mr. Honda. In your experience, and sometimes when we accept 
the infrastructure that we have right now, if we accepted the 
old infrastructure we would still be back in the days where we 
used to use people as slaves and things like that. We have 
changed. Our infrastructure has changed. Is it not time to look 
at the public education as if it were a civil right?
    Dr. Bement. No, I think we have to put education under the 
microscope and really study it very hard and make these 
determinations. At what stage do we begin to adopt national 
standards, for example? That has been an ongoing question for 
some time. What is the state-federal partnership in education? 
How do you structure the state-federal partnership? That is 
another key question that has to be resolved. How do state 
governors come together to deal with regional systemic 
initiatives rather than just statewide systemic initiatives?
    In Appalachia, for example, that is a regional initiative. 
It involves four or five different states. They are taking a 
regional approach. We need more regional approaches. But again, 
that is part of the political process.

                   QUESTIONS FOR THE RECORD TO FOLLOW

    Mr. Honda. Thank you, Mr. Chairman.
    Mr. Mollohan. Dr. Bement, we have been talking to you here 
this morning about 12 percent of your budget plus whatever you 
are spending on education out of research and related 
activities. It is not that we don't realize you are doing other 
things, but you are just doing them so well, and so we 
appreciate that, and we will have questions for the record 
regarding all that and some follow up questions along these 
lines.
    Dr. Bement. I would be pleased to respond.
    Mr. Mollohan. I would appreciate that. And I hope that we 
can find some time to sit down and visit with you.
    Dr. Bement. I will get that on my calendar.
    Mr. Mollohan. Yes. Have a cup of coffee and talk about this 
and think about ways that we can help do what you think that we 
should do in this area.
    So again, thank you for your testimony here today. Let me 
repeat what a pleasure it has been for me to work with you 
during a lot of those--well all those years actually, I have 
been on the committee one way or another during that time, and 
wish you well in your future endeavors, which I know will be as 
successful and as impressive as your career up to this point.
    Dr. Bement. I hope our paths will cross many times in many 
ways.
    Mr. Mollohan. Well, I hope so, that would be great.
    Mr. Honda. Mr. Chairman?
    Mr. Mollohan. I would certainly benefit from that.
    Mr. Honda.
    Mr. Honda. Thank you, Mr. Chairman.
    Let me just say that I apologize for being what may be 
considered unkind and unprofessional. I recognize that you are 
an independent agency, but I think of all the kids across this 
country, and we are sitting here cogitating intellectually 
about what they go through every day, and I know that you think 
about that, too.
    Dr. Bement. Yes, we have a shared passion.
    Mr. Honda. Right. And so if the only currency our 
youngsters go to school with is time, and every day that we 
talk about things that should be, that could be, that isn't, 
then that is the investment that we lose from them and they get 
nothing out of it. And if we don't start strengthening our 
systems and pointing out where some of the gaps are and 
suggesting how to fill those gaps on behalf of the children 
then I don't think we have done our work.
    But it wasn't directed to you personally.
    Dr. Bement. I didn't take it that way.
    Mr. Honda. I just wanted to squeeze something out of this 
hour, but I apologize if I offended you.
    Thank you, Mr. Chairman.
    Mr. Mollohan. Thank you, Mr. Honda. Looks like I was 
premature in ending the hearing. I hope you haven't already 
readjusted. Mr. Wolf has some other questions.

                          ICE BREAKER FUNDING

    Mr. Wolf. Thank you, Mr. Chairman. One question and one 
sort of thought.
    But the fiscal year 2010 bill transferred funding for the 
operation of coast guards pulled the ice breaking vessels back 
to the Coast Guard. It is an initiative we have been involved 
in for years. Your fiscal year 2011 budget again requested 
funding on their NSF. Why is that?
    Dr. Bement. It was our expectation that based on 
legislation that we would find the Coast Guard putting money 
into the operation of maintenance of the Polar Sea and also--
what was the other vessel? And the Healy.
    And so we were all primed to go into the new mode of our 
operation of paying incremental costs and had thought about our 
MOU with the Coast Guard in those terms; however, we discovered 
that the Coast Guard didn't put money in their budget for the 
operation or maintenance of those ships. And since they are 
essential not only for science funded by the Science 
Foundation, but also NASA and NOAA, we felt that we had to 
preserve the availability of those vessels so we put it in our 
budget.
    Mr. Wolf. Because you would rather it be the other way, but 
since it wasn't you----
    Dr. Bement. That is right. It was a default decision.
    Mr. Wolf. Okay. Well the other question I want to ask you 
is there a benefit to NSF of having the funds appropriated to 
NSF rather than to the Coast Guard? Then the answer would be it 
should have been the other way, but I understand.

                            STATE OF SCHOOLS

    Dr. Bement. Yes. That is the answer.
    Mr. Wolf. I guess the last thing I wanted to say. Once, 
again thank you for your service to our country.
    I think the concern that I have is that it just doesn't 
seem to be working as well as it should.
    And you mentioned the Chicago schools. Well the Chicago 
schools have the highest death rate of any school system. They 
have been gunning kids down left and right, Chicago. And I saw 
this Administration, I saw, you know, the Secretary moved to 
Arlington County, which I represented, because he wanted a good 
school for his kids.
    Last week I went to a school in the inner city, it was a 
little Christian private school, the kids are scoring really 
high, they are really doing amazing things, and yet this 
Administration and this Congress is cutting off the tuition and 
grants to them. These are all inner city kids who are poor.
    I talked to a single parent who said this was their 
opportunity, this was their way out, and yet so I feel the 
inconsistencies of saying we are doing this or putting all this 
in, but yet we just throw these inner city kids in.
    Dr. Bement. I won't argue that. One of the very best 
schools in this whole area is in the District, it is at Howard 
University, it is their middle school, their university school, 
and they take children I guess from about 7th grade, it is a 
middle grade, 6th grade. And so it is six to eight, and since 
they have an open enrollment policy, it is required in the 
District that they have open enrollment, they take kids into 
the school that don't come anywhere near the mean or the 
average performance of the other kids. Within about a semester 
they brought them all up to speed.
    By the time they are finished in the middle school the big 
challenge is what do they do next? I mean they brought them to 
such a high level then where do they go, where do they transfer 
to finish out their high school? But you know, that would be a 
place to do a CODEL or a STAFDEL to go and visit that school 
and see what they do. I think you would be very much impressed.
    We have another example in Alaska believe it or not at the 
University of Alaska in Anchorage where the issue is how do you 
get to the rural communities in Alaska and teach mathematics so 
that native Alaskans in Barrow or other places, in really 
remote areas, can meet the entrance requirements for 
university?
    Well what has happened is that the graduate students at--
and these are native Alaskan graduate students--decided that 
they would do an online distance learning program where they 
would connect directly with these communities and they would 
bring in the students and they would teach them online. And 
they developed innovations because they wanted to teach better 
than they were taught. And so they have done some remarkable 
things, and they have overcome that deficit. And this is self-
initiated by graduate students. That would be another great 
STAFDEL. If you ever wanted to go to Alaska that would be a 
great school to look at.
    So those things can happen. If it works in Alaska it should 
be able to work in any EPSCoR state, should be able to work in 
Hawaii, and should be able to work almost anywhere where you 
have to deal with rural school issues. And that is a best 
practice. That is a best practice that ought to be emulated and 
replicated.
    Mr. Wolf. Well hopefully when you look at the kids in the 
inner city in some of the schools, and in my area we have great 
schools. Thomas Jefferson is frankly according to the U.S. News 
and World Report the best school in the country, and I think we 
have to replicate that in the inner city.
    I think we agree you are doing a good job, I worry at times 
though when someone tells me that they are opposed to helping 
kids in the inner city with the tuition help because they want 
to improve their overall schools, but if you are a parent you 
can't wait. Because if you lose somebody you never get them 
back in a way. And so to say that their children should just 
wait unless we want to happen happens----
    Dr. Bement. No, you can't wait.
    Mr. Wolf [continuing]. In the interim. And I just think 
when you come into my--you know where I am from in Philadelphia 
the schools are dysfunctional in parts of it, Chicago, other 
parts, and I just think that is something--just how do we kind 
of broaden this whereby there are the opportunities for 
everyone.
    Anyway, I will just submit the rest of the question for the 
record, and again wish you the best.
    Dr. Bement. Thank you.
    Mr. Mollohan. Well as I indicated there is a tremendous 
amount of interest in this----
    Dr. Bement. Obviously.
    Mr. Mollohan [continuing]. And I was premature in thinking 
we were closing up, but some really good questions happened 
after I said all those good things about you.
    So let me just--let us refer to the record to see what I 
said and by reference will be the end of the hearing.
    Thank you, Dr. Bement.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Bement, A. L., Jr................................................   423
Bolden, Major General C. F., Jr..................................   189
Hill, Dr. Oliver.................................................     1
Holdren, Dr. J. P................................................   107
Luft, Dr. Julie..................................................    55
Miele, Dr. Eleanor...............................................     1
Strang, Dr. Craig................................................    55


                               I N D E X

                              ----------                              

       SCIENCE, TECHNOLOGY, ENGINEERING AND MATH (STEM) EDUCATION

                                                                   Page
Breaking the Cycle of No Inquiry.................................    11
Decline in U.S. Manufacturing....................................    26
Education
    Creativity and Innovation....................................    83
    Crisis.......................................................     5
    Drivers of Curriculum Choices................................     9
    Educational Materials........................................    93
    Effective, Accelerated Implementation........................    24
    Effects of Poverty...........................................    33
    Eighth Grade Projects........................................    29
    English As a Second Language.................................    33
    Grants.......................................................    46
    High Stakes Standardized Testing.............................    14
    How We Can Bring About Change................................    35
    Improving Higher Education...................................    45
    Mathematics..................................................     3
    National Science Education Standards.........................    99
    New Course Development.......................................    13
    Science Teacher Certification................................    92
    Standards of Learning........................................    84
    Student Assessment...........................................    99
    Teacher Challenges...........................................    86
    Teacher Preparation in Science...............................    88
    Teacher Preparation in Science...............................    88
    Teacher/Student Rapport......................................    45
    Teacher Talent...............................................    25
    Teaching Instead of Retiring.................................    37
    Test Scores and Science Interest.............................    43
Exit Projects and Student Assessment.............................    13
Historically Black College and Universities (HBCUs)
    Challenges for Young Faculty at..............................    27
    Role of......................................................     4
Inquiry Based Instruction
    Assessing Student Inquiry....................................    82
    Building a Cognitive Network.................................    41
    Doing Science--Inquiry.......................................     9
    English Skills...............................................    34
    Implementation of............................................    78
    Inquiry Skills...............................................    39
    Instruction and Evaluation...................................    10
    Recommendations through NSF Funding..........................    51
    Student Math Achievement Evaluation..........................    42
    Superiority of...............................................23, 77
    Support/Spreading............................................76, 86
    Testing......................................................    42
National Science Foundation
    Funding......................................................    11
National Security Perspective....................................    36
Prepared Statements
    Hill, Prof./Chairman Oliver, PhD.............................     6
    Luft, Dr. Julie..............................................    58
    Miele, Eleanor, PhD..........................................    16
    Strang, Dr. Craig............................................    65
Schools
    Are Improvements Ready for Broad Implementation..............    43
    Building Student Support.....................................    33
    Charter......................................................    30
    Local School District Issues.................................    36
    Math and Science School......................................    28
Science, Technology, Engineering and Math (STEM) Education
    Career Choices...............................................11, 23
    Department of Education......................................    88
    Good Education...............................................    27
    Importance of................................................    84
    Increased Undergraduate Majors...............................    14
    Individual Successes and Pervasive Problems..................    25
    Funding Impact...............................................    49
    National Security & Production of STEM Professionals.........    34
    NSA..........................................................    35
    Personnel Turnover...........................................    98
    Reward of STEM Careers.......................................    26
    Rural America................................................    28
    Systemic Initiatives.........................................    97
Training
    Cognitive Training...........................................    21
    Innovative Role of Junior Faculty............................    37
    Inquiry Skills...............................................    39
    Skills Training Versus Inquiry...............................    39
Using Local Resources............................................    12

             OFFICE OF SCIENCE AND TECHNOLOGY POLICY (OSTP)

American Recovery and Reinvestment Act...........................   153
Climate Change...................................................   181
Climate Observing Systems........................................   163
Doubling Path for Basic Research Agencies........................   187
Exploration Beyond Earth's Orbit.................................   176
International Space Station and Crew Transportation to LEO.......   175
National Aeronautics and Space Administration (NASA).............   110
    American Leadership..........................................   134
    Augustine Commission Report..................................   131
    China........................................................   149
    China and Russia.............................................   126
    Commercialization of Space Exploration................134, 141, 170
    Constellation..........................123, 126, 128, 131, 140, 188
    Heavy Lift Capability........................................   138
    Hubble Space Telescope.......................................   169
    Human Space Exploration....................................125, 168
    International Space Station..................................   169
    Intelligence.................................................   142
    Job Losses...................................................   127
    Manned Space Program.........................................   148
    Mars.........................................................   128
    Planetary Science Program....................................   138
    Satellites.................................................137, 143
    Vision................................................139, 146, 147
National Polar-orbiting Operational Environmental Satellite 
  System (NPOESS)..............................................161, 184
Ocean Surface Vector Wind (OSVW) observing system................   162
Opening Statements
    Holdren, Dr. John............................................   108
    Mollohan, Chairman Alan......................................   107
    Wolf, Ranking Member.........................................   121
Research and Development.........................................   171
Science
    Astrophysics and Heliospheric Physics........................   161
Science, Technology, Engineering and Math (STEM)
    Advanced Technology Education................................   166
    Education....................................................   155
    Inquiry Based Instruction....................................   164
    Reform.......................................................   166
Space Exploration................................................   174
Prepared Statements
    Holdren, Dr. John............................................   112
Questions for the Record
    Mollohan, Chairman Alan......................................   153
    Wolf, Ranking Member Frank...................................   174
    Culberson, Representative John...............................   188

          NATIONAL AERONAUTICS AND SPACE ADMINISTRATION (NASA)

Aeronautics Research
    Aviation.....................................................   313
    NextGen......................................................   316
Antideficiency Act (ADA)..................................249, 250, 367
    Antideficiency Act Prosecutions..............................   250
Astronaut
    Commercial Astronaut Launch................................237, 272
    Corps........................................................   270
    Flight Schedules.............................................   268
    General Bolden's Experiences.................................   220
    Health Risk..................................................   213
    Launch Capabilities..........................................   271
    Positive Effects of Astronaut Visits.........................   304
    Safety.....................................................270, 377
    Training Facilities..........................................   271
Budget Request
    Authorizations and Obligations...............................   326
    Cost of Astronaut Flights to Low Earth Orbit.................   218
    FY 2011 Proposals............................................   234
    NASA's Budget..............................................228, 252
    Objections...................................................   219
    President's................................................191, 213
Closing Remarks
    Congressman Fattah...........................................   263
    Ranking Member Wolf..........................................   261
Construction of Environmental Compliance and Restoration
Constellation
    Constellation Closeout Cost..................................   257
    Constellation Program.................................231, 275, 276
    Constellation Program Continuity.............................   256
    Constellation Program Contracts.......................220, 251, 366
    Constellation Program Contract Modifications.................   251
    Constellation Program Cancellation Costs..............242, 275, 278
    Constellation Program Termination................191, 213, 236, 353
Contracts
    Constellation Program Contract Modifications.................   251
    Heavy-Lift Contracts.........................................   255
    Termination Cost.............................................   366
    Termination Liability........................................   250
Cooperation with China...........................................   274
Cost Overruns in Major Projects..................................   357
Cross-Agency Support
Cybersecurity..................................................230, 231
Deputy Administrator Garvey Speech...............................   238
Directors Discretionary Funding..................................   296
Education
    Budget.....................................................259, 356
    Middle School Education Efforts..............................   254
    Retaining Contractor Expertise...............................   241
    Science, Technology, Engineering & Mathematics (STEM)........   297
    Space Grant................................................305, 311
    Summer of Innovation.........................................   297
Exploration
    Animal Experimentation.......................................   266
    Ares I................................................215, 245, 371
    Ares V...........................................243, 245, 251, 371
    Augustine Commission Cost Estimates........................247, 377
    Commercial Cargo & Crew Capabilities.......................261, 382
    Commercial Oriented Approach.................................   216
    Constellation Closeout Cost..................................   257
    Constellation Program.................................231, 275, 276
    Constellation Program Contracts.......................220, 251, 366
    Constellation Program Cancellation Costs..............242, 275, 278
    Constellation Program Termination................191, 213, 236, 353
    Exploration Technology................................252, 362, 374
    Heavy-Lift Capability......................................228, 369
    Heavy-Lift Contract..........................................   255
    Heavy-Lift Launch and Human Capsule Vehicle..................   235
    Heavy-Lift Technology......................................242, 243
    Heavy-Lift Launch Vehicle........................232, 276, 285, 340
    Heavy-Lift Propulsion Research & Development Program.......203, 229
    Human Exploration and Robotics...............................   233
    Human Launch Capability Timing...............................   218
    Industrial Base in Solid Rocketry............................   279
    Leasing......................................................   362
    Lost Constellation Program Benefits..........................   214
    Mars.........................................................   372
    Moon.......................................................275, 372
    Orbital Science Corporation................................380, 381
    President's Proposal for Space Exploration...................   222
    Robotic Space Exploration..................................233, 282
    Space Exploration............................................   342
    Space X...............................................373, 380, 381
    Use of Current Year Exploration Funds........................   346
    Variable Specific Impulse Magnetoplasma Rocket (VASIMR)......   375
Full Time Equivalent.............................................   329
Launch Capability................................................   228
Letters Expressing Concern over the Human Spaceflight Program....   385
Opening Remarks
    Administrator Bolden.........................................   190
    Chairman Mollohan............................................   189
NASA Facilities..................................................   286
    Enhanced Use Leasing (EUL)...................................   290
Prepared Statements
    NASA Administrator Charles F. Bolden, Jr.....................   194
Primacy in Spoke.................................................   256
Questions for the Record
    Aderholt (Representative)....................................   366
    Culberson (Representative)...................................   362
    Mollohan (Chairman)..........................................   257
    Schiff (Representative)......................................   340
    Wolf (Ranking Member)........................................   342
Science
    Astrophysics.................................................   253
    Europa Mission........................................235, 244, 245
    GLObal Backscatter Experiment (GLOBE)........................   308
    Hubble Repair................................................   234
    Mars Science Laboratory (MSL)................................   246
    Missions.....................................................   240
    Orbiting Carbon Observatory (OCO)............................   246
    Planetary Science............................................   234
    Plutonium-238 Production...................................257, 354
Space Operations
    Alpha Magnetic Spectrometer (AMS)............................   283
    Astronaut Transport to Low Earth Orbit (LEO).................   268
    Buying Russian Launch Services...............................   260
    Center Job Losses............................................   224
    Human-Rate Launch Vehicle....................................   273
    Human Space Flight...........................................   278
    International Space Station......................283, 317, 359, 379
    Launch Services..............................................   284
    Space Shuttle..............................................283, 358
    Shuttle Workforce Transition Strategy Report.................   255
    Workforce....................................................   223
Space Summit.....................................................   254
Space Technology.................................................   322
Super Computing..................................................   295
U.S. Leadership in Space.......................................219, 325
    China and the Moon.........................................225, 256
    High Ground (The)............................................   235
    Leadership in Human Spaceflight..............................   224
    NASA's Role/Mission........................................234, 264
    President's Proposal for Space Exploration.................222, 225
    Review of the New Proposal...................................   226
    Space Program................................................   227

                      NATIONAL SCIENCE FOUNDATION

American Recovery and Reinvestment Act...........................   468
Appreciation of Dr. Bement.....................................423, 426
Broad Support of Research........................................   424
Budget
    Authorizations and Obligations...............................   504
    Doubling the NSF Budget......................................   423
    President's FY 2011 Request..................................   426
    Science Board Support for the 2011 NSF Request...............   442
China
    Position in the World........................................   445
    Maintaining U.S. Global Competitiveness......................   526
Climate Research.................................................   424
Collaboration
    Department of Education......................................   441
    International................................................   444
Community Colleges...............................................   479
Cooperative Relationship Between NSF and School Districts........   459
Doubling Path....................................................   519
Education
    Education and Human Account Funding Request..................   438
    Implementing Creativity and Innovation.......................   462
    Leveraging Education Funding Across NSF......................   438
    NSF Roles in Improving Science Education.....................   460
    State of K to 12 Science Education in the NSF................   461
EPSCOR...........................................................   485
Funding
    Ice Breakers.................................................   465
GLObal Backscatter Experiment (GLOBE)............................   510
Industry Based Education
    Examples of K through 12 Settings............................   455
Inquiry Based Education..........................................   452
    Collaboration with Department of Education...................   458
    Full-Scaled Implementation K to 12...........................   456
    Funding for Initiatives......................................   459
    K through 12 Classrooms......................................   454
Major Research Equipment and Facilities Construction.............   519
Minority Servicing Institutions..................................   481
National Astronomy and Ionosphere Center (ARECIBO)...............   450
    Long-Term Funding............................................   451
NEON Project.....................................................   523
Prepared Statements
    Bement, Dr. Arden L, Jr......................................   428
Questions for the Record
    Aderholt, Representative Robert B............................   525
    Mollohan, Chairman Alan......................................   468
    Wolf, Ranking Member Frank R.................................   514
Research and Development
    Current Perspective..........................................   489
    Future Perspective...........................................   501
    State of U.S. Investment in Science and Engineering..........   442
Research Vessels.................................................   483
Science, Technology, Engineering and Math (STEM)
    Education Reform.................................424, 469, 514, 525
    Examples of Effective STEM Education.........................   446
    Firm Directive for Integrating STEM Education Across Society.   448
    Integrating STEM Research and Education Across Government....   447
    Role of NSF..................................................   439
State of Schools.................................................   466
Stimulus Programs................................................   517

                                  <all>

</pre></body></html>
